<html>
<title> - BORDER SECURITY_2015 (VOLUME  2 OF 2)</title>
<body><pre>[Senate Hearing 114-516]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 114-516

                          BORDER SECURITY_2015

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               ----------                              

   SECURING THE BORDER: UNDERSTANDING THREATS AND STRATEGIES FOR THE 
                    NORTHERN BORDER, APRIL 22, 2015

  SECURING THE BORDER: FENCING, INFRASTRUCTURE, AND TECHNOLOGY FORCE 
                       MULTIPLIERS, MAY 13, 2015

        THE 2014 HUMANITARIAN CRISIS AT OUR BORDER: A REVIEW OF
THE GOVERNMENT'S RESPONSE TO UNACCOMPANIED MINORS ONE YEAR LATER, JULY 
                                7, 2015

   SECURING THE BORDER: UNDERSTANDING THREATS AND STRATEGIES FOR THE 
                     MARITIME BORDER, JULY 15, 2015

             ALL HANDS ON DECK: WORKING TOGETHER TO END THE
 TRAFFICKING AND ABUSE OF PRESCRIPTION OPIOIDS, HEROIN, AND FENTANYL, 
                           SEPTEMBER 14, 2015

   ONGOING MIGRATION FROM CENTRAL AMERICA: AN EXAMINATION OF FY 2015 
                    APPREHENSIONS, OCTOBER 21, 2015

       AMERICA'S HEROIN EPIDEMIC AT THE BORDER: LOCAL, STATE AND
FEDERAL LAW ENFORCEMENT EFFORTS TO COMBAT ILLICIT NARCOTIC TRAFFICKING, 
                           NOVEMBER 23, 2015

                               ----------                              

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
















                                                        S. Hrg. 114-516
 
                          BORDER SECURITY_2015

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

   SECURING THE BORDER: UNDERSTANDING THREATS AND STRATEGIES FOR THE 
                    NORTHERN BORDER, APRIL 22, 2015

  SECURING THE BORDER: FENCING, INFRASTRUCTURE, AND TECHNOLOGY FORCE 
                       MULTIPLIERS, MAY 13, 2015

        THE 2014 HUMANITARIAN CRISIS AT OUR BORDER: A REVIEW OF
THE GOVERNMENT'S RESPONSE TO UNACCOMPANIED MIN0RS ONE YEAR LATER, JULY 
                                7, 2015

   SECURING THE BORDER: UNDERSTANDINF THREATS AND STRATEGIES FOR THE 
                     MARITIME BORDER, JULY 15, 2015

             ALL HANDS ON DECK: WORKING TOGETHER TO END THE
 TRAFFICKING AND ABUSE OF PRESCRIPTION OPIOIDS, HEROIN, AND FENTANYL, 
                           SEPTEMBER 14, 2015

   ONGOING MIGRATION FROM CENTRAL AMERICA: AN EXAMINATION OF FY 2015 
                    APPREHENSIONS, OCTOBER 21, 2015

       AMERICA'S HEROIN EPIDEMIC AT THE BORDER: LOCAL, STATE AND
FEDERAL LAW ENFORCEMENT EFFORTS TO COMBAT ILLICIT NARCOTIC TRAFFICKING, 
                           NOVEMBER 23, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
  
  
  
        
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
        
        

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-901 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001        
        
        
        
        
        
 
 
 
 
 
 
 
 
 
 
 
 
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
                  Christopher R. Hixon, Chief Counsel
     Brooke N. Ericson, Deputy Chief Counsel for Homeland Security
          Jena N. McNeil, Deputy Director of Homeland Security
              Jose J. Bautista, Professional Staff Member
              Gabrielle A. Batkin. Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
               Mary Beth Schultz, Minority Chief Counsel
     Stephen R. Vina, Minority Chief Counsel for Homeland Security
               Holly A. Idelson, Minority Senior Counsel
       Harlan C. Geer, Minority Senior Professional Staff Member
 Jill B. Mueller, Minority U.S. Customs and Border Protection Detailee
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator1, 165 303, 425, 599, 771, 933, 1087, 1207, 1409, 1585, 1919
    Senator Carp3, 166, 305, 427, 600, 771, 934, 1098, 1208, 1410, 1587
    Senator Baldwin............................................22, 1227
    Senator Heitkamp.......................................24, 331, 963
    Senator Lankford.....................27, 204, 797, 1113, 1431, 1612
    Senator Booker..............................31, 182, 453, 950, 1097
    Senator Ayotte..................33, 179, 325, 977, 1229, 1420, 1481
    Senator Ernst.........................184, 171, 335, 795, 961, 1426
    Senator Peters.................202, 449, 789, 956, 1224, 1428, 1609
    Senator McCain.................................320, 958, 1422, 1920
    Senator Tester............................................446, 1104
    Senator Sasse................................................   953
    Senator McCaskill............................................  1605
    Senator Shaheen..............................................  1485
    Senator Flake................................................  1922
Prepared statements:
   43, 209, 351, 465, 645, 813, 981, 1129, 1241, 1443, 1515, 1625, 1961
    Senat45, 210, 353, 467, 646, 814, 982, 1130, 1243, 1444, 1517, 1626
    Senator Ayotte...........................................1519, 1964
    Senator Shaheen..............................................  1523
    Senator McCain...............................................  1963

                      Wednesday, February 4, 2015
                               WITNESSES

Stephen C. Goss, Chief Actuary, U.S. Social Security 
  Administration.................................................     6
Hon. Eileen J. O'Connor, Partner, Pillsbury Winthrop Shaw Pittman 
  LLP............................................................     8
Luke Peter Bellocchi, Of Counsel, Wasserman, Mancini and Chang, 
  and Former Deputy Ombudsman for U.S. Citizenship and 
  Immigration Services ath the U.S. Department of Homeland 
  Security.......................................................    10
Shawn Moran, Vice President, National Border Patrol Council......    12
Bo Cooper, Partner, Fragomen, Del Rey, Bernsen and Loewy LLP, and 
  Former General Counsel at the Immigration and Naturalization 
  Service........................................................    14

                     Alphabetical List of Witnesses

Bellocchi, Luke Peter:
    Testimony....................................................    10
    Prepared statement...........................................    68
Cooper, Bo:
    Testimony....................................................    14
    Prepared statement...........................................    91
Goss, Stephen C.:
    Testimony....................................................     6
    Prepared statement with attachment...........................    47
Moran, Shawn:
    Testimony....................................................    12
    Prepared statement with attachment...........................    80
O'Connor, Hon. Eileen J.:
    Testimony....................................................     8
    Prepared statement...........................................    61

                                APPENDIX

Chart submitted by Senator Johnson...............................   104
Goss Actuarial Note submitted by Senator Johnson.................   105
Statement submitted for the Record from American Immigration 
  Council........................................................   110
Responses to post-hearing questions for the Record:
    Mr. Goss.....................................................   141
    Ms. O'Connor.................................................   143
    Mr. Bellocchi................................................   147
    Mr. Moran....................................................   161

                        Thursday, March 12, 2015
                               WITNESSES

Hon. Michael Chertoff, Co-Founder and Executive Chairman, The 
  Chertoff Group.................................................   168
Marc E. Frey, Ph.D., Senior Director, Steptoe and Johnson, LLP...   170
Brian Michael Jenkins, Senior Adviser to the President, The RAND 
  Corporation....................................................   172
Mark Koumans, Deputy Assistant Secretary for International 
  Affairs, Office of Policy, U.S. Department of Homeland Security   189
Maureen Dugan, Deputy Executive Director, National Targeting 
  Center, U.S. Customs and Border Protection, U.S. Department of 
  Homeland Security..............................................   191
Edward J. Ramotowski, Deputy Assistant Secretary for Visa 
  Services, U.S. Department of State.............................   193

                     Alphabetical List of Witnesses

Chertoff, Hon. Michael:
    Testimony....................................................   168
    Prepared statement...........................................   212
Dugan, Maureen:
    Testimony....................................................   191
    Joint prepared statement.....................................   239
Frey, Marc E., Ph.D.:
    Testimony....................................................   170
    Prepared statement...........................................   219
Jenkins, Brian Michael:
    Testimony....................................................   172
    Prepared statement...........................................   228
Koumans, Mark:
    Testimony....................................................   189
    Joint prepared statement.....................................   239
Ramotowski, Edward J.:
    Testimony....................................................   193
    Prepared statement...........................................   246

                                APPENDIX

Responses to post-hearing questions for the Record:
    Dr. Frey.....................................................   251
    Mr. Jenkins..................................................   254
    Mr. Koumans and Ms. Dugan....................................   266
    Mr. Ramotowski...............................................   295

                        Tuesday, March 17, 2015
                               WITNESSES

Chris Cabrera, Border Patrol Agent, Rio Grande Valley Sector, 
  U.S. Customs and Border Protection, on behalf of the National 
  Border Patrol Council..........................................   308
Mark J. Dannels, Sheriff, Cochise County, Arizona................   310
Howard G. Buffett, Chairman and Chief Executive Officer, Howard 
  G. Buffett Foundation, and Arizona Landowner...................   313
Othal E. Brand, Jr., Farmer, McAllen, Texas......................   315
Monica Weisberg-Stewart, Chairwoman, Committee on Border Security 
  and Immigration, Texas Border Coalition........................   318

                     Alphabetical List of Witnesses

Brand, Othal E., Jr.:
    Testimony....................................................   315
    Prepared statement with attachment...........................   394
Buffett, Howard G.:
    Testimony....................................................   313
    Prepared statement...........................................   364
Cabrera, Chris:
    Testimony....................................................   308
    Prepared statement...........................................   355
Dannels, Mark J.:
    Testimony....................................................   310
    Prepared statement...........................................   358
Weisberg-Stewart, Monica:
    Testimony....................................................   318
    Prepared statement...........................................   400

                                APPENDIX

Statement for the Record:
    American Civil Liberties Union...............................   406
    National Immigration Forum...................................   414
Responses to questions for the Record:
    Ms. Weisberg-Stewart.........................................   422

                        Tuesday, March 24, 2015
                               WITNESSES

General Barry R. McCaffrey, USA (Ret.), Former Director (1996-
  2001) of the Office of National Drug Control Policy............   430
John P. Torres, Former Acting Director and Former Deputy 
  Assistant Director for Smuggling and Public Safety at U.S. 
  Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security..............................................   433
Elizabeth Kempshall, Executive Director, Arizona High Intensity 
  Drug Trafficking Area, Office of National Drug Control Policy..   435
Benny Martinez, Chief Deputy Sheriff, Brooks County, Texas.......   437
Bryan E. Costigan, Director, Montana All-Threat Intelligence 
  Center, Division on Criminal Investigation, Montana Department 
  of Justice.....................................................   439

                     Alphabetical List of Witnesses

Costigan, Bryan E.:
    Testimony....................................................   439
    Prepared statement...........................................   539
Kempshall, Elizabeth:
    Testimony....................................................   435
    Prepared statement...........................................   487
Martinez, Benny:
    Testimony....................................................   437
    Prepared statement with attachment...........................   494
McCaffrey, General Barry R.:
    Testimony....................................................   430
    Prepared statement...........................................   469
Torres, John P.:
    Testimony....................................................   433
    Prepared statement...........................................   477

                                APPENDIX

Picture submitted by Senator Johnson.............................   552
Statement submitted for the Record from AIC......................   553

                       Wednesday, March 25, 2015
                               WITNESSES

William A. Kandel, Analyst in Immigration Policy, Congressional 
  Research Service, U.S. Library of Congress.....................   603
Hon. Roger F. Noriega, Visiting Fellow, American Enterprise 
  Institute, and Former Assistant Secretary for Western 
  Hemisphere Affairs at the U.S. Department of State.............   605
Hon. Adolfo A. Franco, Former Assistant Administrator for Latin 
  America and the Caribbean at the U.S. Agency for International 
  Development....................................................   607
Eric L. Olson, Associate Director, Latin American Program, 
  Woodrow Wilson International Center for Scholars...............   610
Hon. Alan D. Bersin, Acting Assistant Secretary and Chief 
  Diplomatic Officer, Office of Policy, U.S. Department of 
  Homeland Security..............................................   627
Francisco Palmieri, Deputy Assistant Secretary for Central 
  America and the Carribean, Bureau of Western Hemisphere 
  Affairs, U.S. Deparment of State...............................   629
Lieutenant General Kenneth E. Tovo, USA, Military Deputy 
  Commander, U.S. Southern Command, U.S. Department of Defense...   631

                     Alphabetical List of Witnesses

Bersin, Hon. Alan D.:
    Testimony....................................................   627
    Prepared statement...........................................   683
Franco, Hon. Adolfo A.:
    Testimony....................................................   607
    Prepared statement...........................................   673
Kandel, William A.:
    Testimony....................................................   603
    Prepared statement...........................................   648
Noriega, Hon. Roger F.:
    Testimony....................................................   605
    Prepared statement...........................................   659
Olson, Eric L.:
    Testimony....................................................   610
    Prepared statement...........................................   677
Palmieri, Francisco:
    Testimony....................................................   629
    Prepared statement...........................................   689
Tovo, Lt. Gen. Kenneth E.:
    Testimony....................................................   631
    Prepared statement with attachment...........................   694

                                APPENDIX

Chart submitted by Senator Johnson...............................   734
Statement submitted for the Record from Church World Service.....   735
Statement submitted for the Record from United Nations High 
  Commissioner for Refugees......................................   736
Responses to post-hearing questions for the Record:
    Mr. Bersin...................................................   741
    Mr. Palmieri.................................................   749

                        Thursday, March 26, 2015
                               WITNESSES

Jeffrey S. Passel, Ph.D., Senior Demographer, Hispanic Trends 
  Project, Pew Research Center...................................   774
Daniel Garza, Executive Director, The LIBRE Initiative...........   776
Madeline Zavodny, Ph.D., Professor of Economics, Agnes Scott 
  College, and Adjunct Scholar, American Enterprise Institute....   779
Randel K. Johnson, Senior Vice President, Labor, Immigration, and 
  Employee Benefits, U.S. Chamber of Commerce....................   781
Marc R. Rosenblum, Ph.D., Deputy Director, Immigration Policy 
  Program, Migration Policy Insitute.............................   784

                     Alphabetical List of Witnesses

Garza, Daniel:
    Testimony....................................................   776
    Prepared statement...........................................   848
Johnson, Randel K.:
    Testimony....................................................   781
    Prepared statement...........................................   862
Passel, Jeffrey S., Ph.D.:
    Testimony....................................................   774
    Prepared statement with attachment...........................   816
Rosenblum, Marc R., Ph.D.:
    Testimony....................................................   784
    Prepared statement...........................................   881
Zavodny, Madeline, Ph.D.:
    Testimony....................................................   779
    Prepared statement...........................................   853

                                APPENDIX

Charts submitted by Senator Johnson..............................   906
Statements submitted for the Record from:
    AFL-CIO......................................................   909
    Farmworker Justice...........................................   912
    International Brotherhood of Electrical Workers..............   920
    Immigration Myths............................................   921
    Jobs with Justice............................................   927
    National Association of Home Builders........................   929
    National Roofing Contractors Association.....................   931

                       Wednesday, April 22, 2015
                               WITNESSES

Michael J. Fisher, Chief, U.S. Border Patrol, U.S. Customs and 
  Border Protection, U.S. Department of Homeland Security........   936
James C. Spero, Special Agent in Charge Buffalo, Homeland 
  Security Investigations, U.S. Immigration and Customs 
  Enforcement, U.S. Department of Homeland Security..............   938
John Wagner, Deputy Assistant Commissioner, Office of Field 
  Operations, U.S. Customs and Border Protection, U.S. Department 
  of Homeland Security...........................................   939
David Rodriguez, Director, Northwest High Intensity Drug 
  Trafficking Area, Office of National Drug Control Policy.......   942
Hon. Richard S. Hartunian, United States Attorney, Northern 
  District of New York, U.S. Department of Justice...............   944

                     Alphabetical List of Witnesses

Fisher, Michael J.:
    Testimony....................................................   936
    Prepared statement...........................................   984
Hartunian, Hon. Richard S.:
    Testimony....................................................   944
    Prepared statement...........................................  1019
Rodriguez, David:
    Testimony....................................................   942
    Prepared statement with attachment...........................  1002
Spero, James C.:
    Testimony....................................................   938
    Prepared statement...........................................   992
Wagner, John:
    Testimony....................................................   939
    Prepared statement...........................................   984

                                APPENDIX

Charts submitted by Senator Johnson..............................  1027
Chart submitted by CBP to Senator McCain.........................  1029
Prepared statements submitted for the Record by:
    John Ghertner, Director, Greater Rochester Coalition for 
      Immigration Justice........................................  1030
    Northern Border Coalition....................................  1034
    New York Civil Liberties Union...............................  1038
Responses to post-hearing questions for the Record:
    Mr. Fisher & Mr. Wagner......................................  1046
    Mr. Spero....................................................  1082
    Mr. Rodriguez................................................  1086

                        Wednesday, May 13, 2015
                               WITNESSES

Randolph D. Alles, Assistant Commissioner, Office of Air and 
  Marine, U.S. Customs and Border Protection, U.S. Department of 
  Homeland Security..............................................  1088
Mark Borkowski, Assistant Commissioner, Office of Technology 
  Innovation and Acquisition, U.S. Cusoms and Border Protection, 
  U.S. Department of Homeland Security...........................  1090
Ronald Vitiello, Deputy Chief, Office of Border Patrol, U.S. 
  Customs and Border Protection, U.S. Department of Homeland 
  Security.......................................................  1091
Anh Duong, Director, Borders and Maritime Security Division, 
  Directorate of Science and Technology, U.S. Department of 
  Homeland Security..............................................  1092
Rebecca Gambler, Director, Homeland Security and Justice, U.S. 
  Government Accountability Office...............................  1094
Michael John Garcia, Legislative Attorney, Congressional Research 
  Service, U.S. Library of Congress..............................  1095

                     Alphabetical List of Witnesses

Alles, Randolph D.:
    Testimony....................................................  1088
    Joint Prepared statement.....................................  1131
Borkowski, Mark:
    Testimony....................................................  1090
    Joint Prepared statement.....................................  1131
Duong, Anh:
    Testimony....................................................  1092
    Prepared statement...........................................  1147
Gambler, Rebecca:
    Testimony....................................................  1094
    Prepared statement...........................................  1153
Garcia, Michael John:
    Testimony....................................................  1095
    Prepared statement...........................................  1175
Vitiello, Ronald:
    Testimony....................................................  1091
    Joint Prepared statement.....................................  1131

                                APPENDIX

Chart referenced by Senator Johnson..............................  1190
Prepared statements submitted for the Record by:
    American Civil Liberties Union...............................  1191
    National Immigration Forum...................................  1194
Responses to post-hearing questions for the Record from:
    Mr. Borkowski & Ms. Duong....................................  1200

                         Tuesday, July 7, 2015
                               WITNESSES

Juan P. Osuna, Director, Executive Office for Immigration Review, 
  U.S. Department of Justice.....................................  1212
Mark H. Greenberg, Acting Assistant Secretary, Administration for 
  Children and Families, U.S. Department of Health and Human 
  Services.......................................................  1214
Philip T. Miller, Assistant Director of Field Operations, 
  Enforcement and Removal Operations, U.S. Immigration and 
  Customs Enforcement, U.S. Department of Homeland Security......  1216
Joseph E. Langlois, Associate Director, Refugee, Asylum, and 
  International Operations Directorate, U.S. Citizenship and 
  Immigration Services, U.S. Department of Homeland Security.....  1218

                     Alphabetical List of Witnesses

Greenberg, Mark H.:
    Testimony....................................................  1214
    Prepared statement...........................................  1252
Langlois, Joseph E.:
    Testimony....................................................  1218
    Prepared statement...........................................  1273
Miller, Philip T.:
    Testimony....................................................  1216
    Prepared statement...........................................  1267
Osuna, Juan P.:
    Testimony....................................................  1212
    Prepared statement...........................................  1245

                                APPENDIX

Chart referenced by Senator Johnson..............................  1279
Prepared statements submitted for the Record by:
    American Immigration Council with an attachment..............  1280
    American Immigration Lawyers Association.....................  1307
    Alliance To End Slavery and Trafficking......................  1313
    Center for Gender and Refugee Studies........................  1319
    Church World Service.........................................  1328
    Evangelical Lutheran Church in America.......................  1329
    First Focus Campaign for Children............................  1332
    Freedom Network USA..........................................  1334
    Kids Post....................................................  1339
    Kids in Need of Defense......................................  1343
    Lutheran Immigration and Refugee Service and Women's Refugee 
      Commission.................................................  1347
    National Immigration Forum...................................  1356
    National Immigrant Justice Center............................  1360
    Safe Passage Project.........................................  1366
    United Nations High Commissioner for Refugees................  1369
    U.S. Committee for Refugee and Immigrants....................  1375
    Young Center with an attachment..............................  1377
Responses to post-hearing questions for the Record
    Mr. Osuna....................................................  1393
    Mr. Greenberg................................................  1396
    Mr. Miller and Mr. Langlois..................................  1400

                        Wednesday, July 15, 2015
                               WITNESSES

Rear Admiral Peter J. Brown, Assistant Commandant for Response 
  Policy, U.S. Coast Guard.......................................  1412
Randolph D. Alles, Assistant Commissioner, Office of Air and 
  Marine, U.S. Customs and Border Protection, U.S. Department of 
  Homeland Security..............................................  1414
Peter T. Edge, Executive Associate Director, Homeland Security 
  Investigations, U.S. Immigration and Customs Enforcement, U.S. 
  Department of Homeland Security................................  1416

                     Alphabetical List of Witnesses

Alles, Randolph D.:
    Testimony....................................................  1414
    Prepared statement...........................................  1452
Brown, Rear Admiral Peter J.:
    Testimony....................................................  1412
    Prepared statement...........................................  1446
Edge, Peter T.:
    Testimony....................................................  1416
    Prepared statement...........................................  1462

                                APPENDIX

Response to post-hearing questions for the Record from Mr. Alles.  1475

                       Monday, September 14, 2015
                               WITNESSES

Enoch ``Nick'' Willard, Chief, Manchester Police Department, 
  Manchester, New Hampshire......................................  1486
Doug Griffin, Father of Courtney Griffin, Newton, New Hampshire..  1488
Heidi Moran, Clinical Administrator, Southeastern New Hamsphire 
  Services, Dover, New Hampshire.................................  1491
Hon. Michael P. Botticelli, Director, Office of National Drug 
  Control Policy.................................................  1499
Hon. R. Gil Kerlikowske, Commissioner, U.S. Customs and Border 
  Protection, U.S. Department of Homeland Security...............  1501
John ``Jack'' Riley, Acting Deputy Administrator, Drug 
  Enforcement Administration, U.S. Department of Justice.........  1503

                     Alphabetical List of Witnesses

Botticelli, Hon. Michael P.:
    Testimony....................................................  1499
    Prepared statement...........................................  1544
Griffin, Doug:
    Testimony....................................................  1488
    Prepared statement...........................................  1531
Kerlikowske, Hon. R. Gil:
    Testimony....................................................  1501
    Prepared statement...........................................  1568
Moran, Heidi:
    Testimony....................................................  1491
    Prepared statement...........................................  1536
Riley, John ``Jack'':
    Testimony....................................................  1503
    Prepared statement...........................................  1576
Willard, Enoch ``Nick'':
    Testimony....................................................  1486
    Prepared statement...........................................  1525

                                APPENDIX

Photos submitted by Chief Willard................................  1529

                      Wednesday, October 21, 2015
                               WITNESSES

Kimberly M. Gianopoulos, Director, International Affairs and 
  Trade, U.S. Government Accountability Office...................  1590
Chris Cabrera, Border Patrol Agent, Rio Grande Valley Sector, 
  U.S. Customs and Border Protection, on behalf of the National 
  Border Patrol Council..........................................  1591
Kevin Casas-Zamora, D.Phil., Senior Fellow and Program Director, 
  Peter D. Bell Rule of Law Program, Inter-American Dialogue.....  1593
Duncan Wood, Ph.D., Director, Mexico Institute, Woodrow Wilson 
  International Center for Scholars..............................  1595
The Most Reverend Mark J. Seitz, Bishop, Diocese of El Paso, 
  Texas, on behalf of the U.S. Conference of Catholic Bishops....  1597

                     Alphabetical List of Witnesses

Cabrera, Chris:
    Testimony....................................................  1591
    Prepared statement...........................................  1641
Casas-Zamora, Kevin, D.Phil.:
    Testimony....................................................  1593
    Prepared statement...........................................  1643
Gianopoulos, Kimberly M.:
    Testimony....................................................  1590
    Prepared statement...........................................  1628
Seitz, Bishop Mark J.:
    Testimony....................................................  1597
    Prepared statement...........................................  1666
Wood, Duncan, Ph.D.:
    Testimony....................................................  1595
    Prepared statement with attachment...........................  1656

                                APPENDIX

Documents submitted by Senator McCaskill.........................  1681
Charts submitted by Senator Johnson..............................  1831
Document submitted by Bishop Seitz...............................  1833
Statement submitted for the Record from:
American Immigration Council with an attachment..................  1834
Interfaith Immigration Coalition.................................  1895
Women's Refugee Commission, Lutheran Immigration and Refugee 
  Service (LIRS) and Kids in Need of Defense (KIND)..............  1907
Responses to post-hearing questions for the Record
    Ms. Gianopoulos..............................................  1913
    Mr. Casas-Zamora.............................................  1917

                       Monday, November 23, 2015
                               WITNESSES

Hon. Douglas A. Ducey, Governor, State of Arizona; accompanied by 
  Colonel Frank Milstead, Director, Arizona Department of Public 
  Safety.........................................................  1922
Hon. R. Gil Kerlikowske, Commissioner, U.S. Customs and Border 
  Protection, U.S. Department of Homeland Security...............  1926
Hon. Bill Montgomery, County Attorney, Maricopa County...........  1930
Hon. Mark J. Dannels, Sheriff, Cochise County....................  1940
Dawn Mertz, Executive Director, Arizona HIDTA, Office of National 
  Drug Control Policy............................................  1944
Brandon Judd, President, National Border Control Council.........  1945
Jeff Taylor, Member, Public Advisory Board/Public Policy, The 
  Salvation Army.................................................  1948

                     Alphabetical List of Witnesses

Dannels, Hon. Mark J.:
    Testimony....................................................  1940
    Prepared statement with attachments..........................  1987
Ducey, Hon. Douglas A.:
    Testimony....................................................  1922
    Prepared statement...........................................  1966
Judd, Brandon:
    Testimony....................................................  1945
    Prepared statement...........................................  2026
Kerlikowske, Hon. R. Gil:
    Testimony....................................................  1926
    Prepared statement...........................................  1971
Mertz, Dawn:
    Testimony....................................................  1944
    Prepared statement...........................................  2017
Montgomery, Hon. Bill:
    Testimony....................................................  1930
    Prepared statement with attachment...........................  1981
Taylor, Jeff:
    Testimony....................................................  1948
    Prepared statement...........................................  2029

                                APPENDIX

Wilmot statement for the Record..................................  2033
Chart submitted by Senator Johnson...............................  2053


                   SECURING THE BORDER: UNDERSTANDING
             THREATS AND STRATEGIES FOR THE NORTHERN BORDER

                              ----------                              


                       WEDNESDAY, APRIL 22, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:33 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, McCain, Portman, Lankford, 
Ayotte, Ernst, Sasse, Carper, Heitkamp, Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order. Senator Carper is on his way, and his staff informed me 
that we could get underway here.
    I would like to, without objection, enter my opening 
comments into the record.\1\ Hearing no objection, so ordered.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 981.
---------------------------------------------------------------------------
    As I was talking to the witnesses before the hearing here, 
this is our fifth in a series of four hearings on border 
security, and what we are trying to do is we are trying to lay 
out the reality. And I think Senator Booker would agree with me 
it is not a pleasant reality. It is an enormously difficult 
problem. And, of course, in terms of illegal immigration, in 
terms of drug trafficking, the biggest problem is, no doubt 
about it, on the Southern Border.
    As my Ranking Member says repeatedly--and I completely 
agree with this, coming from a manufacturing background--we 
really need to analyze the root cause of the problem.
    We had an extremely good meeting with General Kelly, head 
of Southern Command, yesterday just discussing the problems in 
Central America and the problems with border security and the 
drug trafficking. And looking for that root cause we were 
discussing that it is really America's demand for drugs, how 
that demand has created these drug cartels that really has 
corroded and been so harmful to the societies in Central 
America. We bear some responsibility for that.
    So these are not going to be easy problems to solve, but we 
have to make incremental improvements. I come from a 
manufacturing background. Nothing is ever perfect. You always 
have to continuously improve.
    So, again, the purpose of this hearing and every hearing is 
to get the people watching, the people on the dais here, 
admitting we have the problem by trying to lay out that reality 
properly.
    I see that my Ranking Member, our Ranking Member has joined 
us here, so I would like to turn it over to you if you have 
some opening comments.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. I would love to. Not too long.
    Good morning. Thank you, Mr. Chairman. Thanks for pulling 
this together. It is an important hearing, and we appreciate 
those Members, including the Senator from New Jersey, who has 
been very strong and encouraging to have this kind of hearing. 
So thank you, Cory.
    Over the past couple months, we have spent a fair amount of 
time on this Committee, as some of you know because you have 
been here, focusing on trying to better understand the security 
challenges that we face along our Southern Border with Mexico.
    But as large and challenging as our Southern Border is, our 
shared border with Canada is even larger and comes with its own 
unique opportunities and risks. Our shared border with Canada 
is--listen to this--the largest in the world. It spans some 
4,000 miles. And when you add in Alaska, Alaska's borders with 
Canada, that goes up to about 5,500 miles. It is huge.
    It is also an economic powerhouse for both of our 
countries. According to at least one estimate, some 300,000 
people and $1.5 billion in trade cross the U.S.-Canada border 
every day. That is something to celebrate, even as we pay close 
attention to addressing potential border threats.
    Last Congress, I had the pleasure of visiting Michigan with 
Senator Levin and North Dakota with Senator Heitkamp, and a 
memorable visit with Carl Levin. A memorable visit. Carl and I 
went to this Mexican restaurant. We sat in the parking lot and 
listened to the opening game in Minnesota. The Tigers beat the 
Twins. I will not forget that. A great day.
    The risks along our Northern Border include both northbound 
and southbound flows of drugs, other transnational criminal 
activity, and potential exploitation by terrorists.
    Since 9/11, we have increased our border staffing and 
technology footprint along the Northern Border. For instance, I 
think there are about 2,000 Border Patrol agents stationed on 
the Northern Border today, and that is compared to, I think, 
340 in 2001. That is almost a sevenfold increase. And there are 
about 3,700 Customs and Border Protection (CBP) officers at the 
northern ports of entry (POE); that is an increase of about a 
third over the last 10 years. We now have several CBP drones 
patrolling high above our Northern Border as well.
    Is there more that we can do to better secure our Northern 
Border? Sure there is; however, we can no more seal this border 
than we can totally close our Southern Border with Mexico. 
Having said that, we need to better understand the risks 
associated with it. Then we need to implement the most cost-
effective strategies to buy down those risks. And we need to do 
this while sustaining the robust trade and travel relationships 
that benefit us and our neighbors so greatly.
    Not unlike our Southern Border, force-multiplying 
technology such as aerial surveillance, underground sensors, 
and cameras on mobile towers can greatly increase our ability 
to detect and respond to threats along this vast Northern 
Border.
    Good intelligence and strong information-sharing networks 
can also help make the best use of limited staffing and 
resources. Fortunately, our relationship with Canada is perhaps 
the best ``force multiplier'' we could wish for. Canadian and 
U.S. agents are working closer and closer together in a number 
of areas to enhance our shared security and ensure our shared 
prosperity.
    We look forward to hearing more about how this relationship 
is working under the 2011 ``Beyond the Border (BTB)'' framework 
and any other areas where progress is still needed. I also hope 
the witnesses will address whether there are successful 
practices at the Northern Border--either for increasing 
security or expediting trade or both--that we could replicate 
and use on our Southern Border with Mexico.
    Finally, I continue to hope that our focus on border 
security will become part of a larger conversation on how to 
fix our broken immigration system and pass comprehensive 
immigration reform.
    With that, we look forward to your testimony. Thank you all 
for coming and for your service.
    Chairman Johnson. Thank you, Senator Carper.
    This Committee really is pretty well populated with 
Senators from those Northern Border States. We have got Senator 
Peters from Michigan. I am from Wisconsin. We have Senator 
Tester from Montana, Senator Heitkamp from North Dakota, 
Senator Ayotte from New Hampshire. So this really is a pretty 
relevant hearing, and----
    Senator McCain. Should I leave?
    Chairman Johnson. No. You are welcome as well. It is all 
part and parcel of the same problem. [Laughter.]
    We are actually glad to see you, Mr. Chairman.
    But, again, I do want to welcome the witnesses. Thank you 
for your very thoughtful testimony, and we are really looking 
forward to your testimony.
    It is the tradition of this Committee to swear in 
witnesses, so if you would all rise and raise your right hand. 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Fisher. I do.
    Mr. Wagner. I do.
    Mr. Spero. I do.
    Mr. Rodriguez. I do.
    Mr. Hartunian. I do.
    Chairman Johnson. Thank you.
    By the way, we do have votes starting at 10:45, so I would 
ask the witnesses to keep your opening statements to the 6-
minute timeframe so we have time for questions, because we have 
got good attendance here by our Committee.
    Our first witness is Michael J. Fisher. He is the Chief of 
the U.S. Border Patrol. Chief Fisher joined the U.S. Border 
Patrol in June 1987 and has served in numerous sectors and 
positions since then, including Field Operations Supervisor in 
El Paso, Deputy Chief Patrol Agent of the Detroit Sector, 
Assistant Chief Patrol Agent in the Tucson Sector, and Chief 
Patrol Agent of the San Diego Sector. Mr. Fisher.

TESTIMONY OF MICHAEL FISHER,\1\ CHIEF, U.S. BORDER PATROL, U.S. 
  CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Fisher. Thank you, Mr. Chairman, Ranking Member Carper, 
and Members of the Committee. It is indeed a privilege to 
appear today on behalf of the United States Border Patrol to 
discuss our strategy to secure the Northern Border between the 
ports of entry.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Fisher and Mr. Wagner 
appears in the Appendix on page 984.
---------------------------------------------------------------------------
    Our approach along the Northern Border supports U.S. 
Customs and Border Protection's overarching strategic themes of 
collaboration, integration, and innovation. Collaboration at 
all levels, including information sharing and operational 
coordination, among U.S. and Canadian law enforcement is 
critical to the shared security of the border.
    Advanced information and intelligence is and will always be 
the key to minimizing risk along our borders. For instance, the 
Operational Integration Center (OIC), located at Selfridge Air 
National Guard Base in Michigan, is a information-sharing 
demonstration project to enhance the situational awareness of 
CBP and our mission partners, including U.S. Coast Guard 
(USCG), Immigration and Customs Enforcement (ICE), State and 
local law enforcement, as well as the Royal Canadian Mounted 
Police (RCMP) and the Canadian Border Services Agency.
    The OIC consolidates a wide range of information, including 
radar and camera feeds, blue force tracking, database queries 
from databases not previously available to CBP, remote sensor 
inputs, remote video surveillance and mobile surveillance 
system (MSS) feeds, and video from various ports of entry. 
Additional information feeds such as local traffic cameras will 
be added in the near future.
    In terms of innovation, our joint efforts to improve 
existing surveillance technologies that can overcome Northern 
Border terrain and environmental challenges, the Department of 
Homeland Security (DHS) Science and Technology Directorate is 
collaborating with Canada along with us in a Sensor Sharing 
Pilot to demonstrate the capability and operational utility of 
a common surveillance picture between CBP and the RCMP, using a 
combination of U.S. and Canadian sensor information. Our 
situational awareness on the Northern Border is enhanced by 
technological capabilities, including thermal camera systems, 
mobile surveillance systems, and remote video surveillance 
systems.
    CBP's Office of Air and Marine (OAM) has 41 fixed-wing and 
rotary aircraft equipped with sensors stationed along the 
Northern Border, including two unmanned aerial systems (UASs), 
and they operate out of the Grand Forks Air Force Base in North 
Dakota. UAS flights improve our situational awareness and 
border security in areas that are difficult to reach.
    In addition, we are expanding the coherent change detection 
technology along the Northern Border this year. As this 
Committee is aware, this is the same methodology that allows us 
to cover approximately 900 miles along the Southwest Border 
without having to deploy technology or Border Patrol agents.
    Finally, our integration efforts continue as well. For 
instance, each month CBP produces the State of the Northern 
Border Briefing, which provides a cross-component, multi-agency 
intelligence report for identifying, monitoring, and addressing 
emerging trends and threats along the Northern Border. The 
report is produced in direct collaboration with our Canadian 
partners as well as other Federal, State, and local partners. 
The State of the Northern Border has provided a broader avenue 
for information sharing and great intelligence insight to 
activity with a nexus along our Northern Border.
    The Border Patrol is also an active participant in several 
targeted joint operations which are called the ``Integrated 
Border Enforcement Teams,'' (IBET). They are comprised of U.S. 
and Canadian law enforcement personnel, encompassing 15 regions 
along the Northern Border. IBETs operate as intelligence-driven 
information teams designed to increase information-and 
intelligence-sharing capabilities among the appropriate U.S. 
and Canadian authorities. By incorporating integrated mobile 
response capabilities in the air, land, and the marine 
environments, the IBETs provide participating law enforcement 
agencies with a force multiplier that maximizes border 
enforcement efforts.
    Chairman Johnson, Ranking Member Carper, again, thank you 
for the opportunity to appear today, and I look forward to your 
questions.
    Chairman Johnson. Thank you, Chief Fisher.
    I do want to note that the Deputy Assistant Commissioner of 
the Office of Field Operations (OFO), John Wagner, that was 
also your written statement, but let me just introduce you as 
well. You have been assigned to the CBP headquarters since 
1999. Mr. Wagner began his Federal law enforcement career in 
1991 when he joined U.S. Customs Service as a Customs 
Inspector. Mr. Wagner also has worked at the New York-New 
Jersey Seaport and the Port of Laredo, Texas. So, again, we 
appreciate you joining us here and look forward to your answers 
to questions.
    Our next witness will be James Spero. He is a Special Agent 
in Charge for the Buffalo, New York, area. Mr. Spero also 
served as the Deputy Assistant Director of the ICE 
Transnational Crime and Public Safety Division, Unit Chief for 
the Identify and Benefit Fraud Unit at ICE headquarters, and 
Acting Assistant Special Agent in Charge for Homeland Security 
Investigations (HSI) Washington field office. Mr. Spero.

   TESTIMONY OF JAMES C. SPERO,\1\ SPECIAL AGENT IN CHARGE, 
HOMELAND SECURITY INVESTIGATIONS BUFFALO, U.S. IMMIGRATION AND 
   CUSTOMS ENFORCEMENT, U.S., DEPARTMENT OF HOMELAND SECURITY

    Mr. Spero. Chairman Johnson, Ranking Member Carper, and 
distinguished Members, thank you for the opportunity to appear 
before you to discuss ICE's efforts to improve security along 
the Northern Border.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Spero appears in the Appendix on 
page 992.
---------------------------------------------------------------------------
    As DHS' principal investigative agency, Homeland Security 
Investigations is positioned to leverage its broad statutory 
authority to support border enforcement. HSI works in close 
coordination with DHS components and U.S. interagency partners, 
as well as our counterparts in Canadian law enforcement, to 
target transnational criminal organizations (TCOs) involved in 
illicit travel, trade, and finance. HSI applies a full range of 
innovative investigative and enforcement techniques, including 
leading and participating in joint U.S.-Canadian task forces, 
undercover operations, controlled deliveries, asset 
identification and removal, confidential informants, and Title 
III electronic intercepts to identify and disrupt criminal 
operations. We have nearly 1,300 special agents and 100 
intelligence research specialists operating along the Northern 
Border.
    In fiscal year (FY) 2014, HSI's seven Special Agent in 
Charge offices covering the Northern Border, often in joint or 
cooperative investigations with Federal, State, local, tribal, 
and Canadian law enforcement, seized more than $237 million in 
cash and monetary instruments, nearly 26,000 pounds of 
marijuana, 2,000 pounds of cocaine, 146 pounds of ecstasy, 719 
pounds of heroin, 949 pounds of methamphetamine, nearly 1,400 
weapons and firearms, over 55,000 rounds of ammunition, and 
about 8,400 weapon components. HSI Special Agents made over 
5,700 criminal arrests resulting in nearly 3,800 indictments 
and approximately 3,500 convictions. These statistics reflect 
the impact of our coordinated law enforcement investments and 
investigations along the Northern Border.
    Additionally, HSI maintains the largest investigative 
footprint of any U.S. law enforcement agency in Canada. HSI's 
four attache offices, located in Ottawa, Vancouver, Toronto, 
and Montreal, further enhance national security by serving as 
ICE's liaison to our interagency partners and our counterparts 
in local government and law enforcement.
    Our partnerships are essential to joint operations and 
information sharing along the Northern Border and beyond. One 
example is how HSI participates in the Federal Bureau of 
Investigations (FBI)-led Joint Terrorism Task Force. HSI brings 
its unique authorities and experience to the task force to help 
protect the homeland from threats to national security.
    HSI's flagship task force program, the Border Enforcement 
Security Task Force (BEST), was created in 2005 as a mechanism 
to address the threat of cross-border crime. In 2007, ICE began 
to deploy BEST units along the Northern Border. BEST provides a 
proven and flexible platform from which DHS investigates and 
targets transnational criminal organizations that attempt to 
exploit perceived vulnerabilities at our Nation's borders.
    BEST units differ from other task forces due to their 
proximity to the border and the program's focus on cross-border 
criminal activity. Currently, there are four BEST units 
operating along the Northern Border. One significant advantage 
of the BEST task force model is the participation and 
integration of foreign law enforcement personnel who have the 
ability to conduct cross-border investigations with HSI and our 
Federal, State, local, and tribal partners to address criminal 
activity on both sides of the border.
    One successful collaboration with our international law 
enforcement partners is Operation Primed, which is an HSI 
Buffalo investigation that targeted a cocaine-smuggling 
organization involved in the illicit movement of cocaine and 
bulk cash within Canada, the United States, and Mexico. 
Investigators estimated that this organization was responsible 
for the smuggling of approximately 1,600 kilograms of cocaine 
into Canada with a street value of over $60 million. Through 
successful collaboration with Canadian law enforcement, a high-
level target was sentenced in May 2014 to 84 months of 
incarceration. This individual was arrested in September 2010 
when attempting to export 97 kilograms of cocaine across the 
Lewiston Bridge Port of Entry from New York into Canada. The 97 
kilograms of cocaine seizure is to this day the largest seizure 
in the history of the Port of Buffalo.
    In conclusion, ICE remains dedicated and committed to this 
mission, and we look forward to continuing to work with this 
Committee on these efforts.
    Thank you again for the opportunity to testify today, and I 
would be pleased to answer any questions.
    Chairman Johnson. Thank you, Mr. Spero.
    I have been informed that Mr. Wagner does have an opening 
statement. Would you like to give that now, or would you like 
to wait until the very end?
    Mr. Wagner. I thought I was off the hook.
    Chairman Johnson. Oh, no. Would you like to give it now or 
would you like to----
    Mr. Wagner. I will give it now if that is OK.
    Chairman Johnson. OK, sure. Mr. Wagner.

  TESTIMONY OF JOHN WAGNER,\1\ DEPUTY ASSISTANT COMMISSIONER, 
OFFICE OF FIELD OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Wagner. Thank you. Chairman Johnson, Ranking Member 
Carper, and Members of the Committee, thank you for the 
opportunity to appear today on behalf of CBP's Office of Field 
Operations to discuss our security and facilitation efforts at 
ports of entry along our Northern Border.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Fisher and Mr. Wagner 
appears in the Appendix on page 984.
---------------------------------------------------------------------------
    The U.S. international boundary with Canada delineates two 
friendly nations with a long history of social, cultural, and 
economic ties that have contributed to a high volume of cross-
border trade and travel, amounting to $2 billion a day. CBP 
ensures that our Northern Border operations protect and secure 
the vital flow of commerce through trade and travel between our 
two countries.
    The United States and Canada are connected by more than 120 
land ports of entry, 750 daily flights by commercial aircraft, 
and numerous commercial and recreational vessels that cross the 
maritime border, ensuring the security and efficient flow of 
cross-border activity. CBP has more than 3,600 CBP officers and 
190 agriculture specialists stationed on the border, ensuring 
dangerous goods, contraband, and individuals are intercepted 
and legitimate travelers and cargo are expedited.
    At many Northern Border ports of entry, we continue to 
invest in and deploy radio frequency identification technology. 
This technology, along with the 2009 implementation of the 
Western Hemisphere Travel Initiative (WHTI), which requires a 
passport or other secure document to enter the United States, 
allows CBP to query nearly 100 percent of travelers against law 
enforcement and terrorist screening databases. We also continue 
to deploy next-generation license plate readers, large-scale 
and small-scale imaging technology, as well as a variety of 
portable and handheld technology, including radiation portal 
monitors.
    Additionally, DHS and Canadian agencies are collaborating 
to develop, advance, operationally test, and use technologies 
to enhance cross-border operations. As part of this effort, we 
have also made significant investments in infrastructure. Since 
February 2009, the U.S. Government has invested over $400 
million to rebuild and improve more than 30 ports of entry 
along the Northern Border.
    Our northern ports of entry experience a very high volume 
of international trade and travel. Each year, approximately 72 
million travelers enter the United States through the border 
with Canada for business, tourism, school, and to visit family 
and friends. Many of our initiatives to facilitate lawful 
international travel at the Northern Border simultaneously 
increase security. Likewise, CBP develops effective and 
efficient security operations designed to be contributors to 
travel facilitation, not barriers.
    Security measures vitally protect travel and tourism from 
the damaging effects of terrorists and other security 
incidents. Identifying and separating low-risk travelers from 
those who may require additional scrutiny is a key element in 
our efforts to facilitate and secure international travel.
    The volume of trade crossing the Northern Border is equally 
significant. In 2014, the combined two-way trade and investment 
between the United States and Canada totaled $759 billion. The 
United States and Canada are each other's largest export 
market, with roughly 16 percent of all U.S. exports destined to 
Canada.
    CBP is committed to a coordinated approach working with our 
Federal, private sector, and Canadian partners to facilitate 
the secure flow of trade and travel, reduce transaction costs, 
and promote economic growth along the Northern Border.
    In 2011, the United States and Canada signed the Beyond the 
Border Initiative. CBP is the primary lead on 15 of the Beyond 
the Border Initiatives and has significant interest and 
participates in seven others. I would like to highlight just a 
few of our accomplishments to date.
    We have completed the first two phases of the entry-exit 
pilot, which involves an exchange of entry records of travelers 
at ports of entry along the U.S.-Canadian border in such a 
manner that land entries into one country will serve as the 
exit record from another.
    We have launched a cargo pre-inspection pilot to test the 
feasibility of conducting primary cargo processing in Canada to 
reduce wait times and congestion. Phase I of the pilot was 
completed in Blaine, Washington, and Surrey, British Columbia; 
Phase II at the Peace Bridge between Buffalo and Fort Erie, 
Ontario, also recently concluded.
    On March 16, DHS concluded negotiations of a new 
preclearance agreement for land, rail, marine, and air modes of 
travel. We have also expanded the NEXUS trusted traveler 
program to over 1.1 million travelers, an increase of 
approximately 80 percent since 2011.
    Canada and the United States are striving to provide a 
secure and trusted global supply chain that allows for safe, 
timely, economically prosperous movement of cargo into and 
between the two countries. A key means of achieving this 
objective is through the Integrated Cargo Security Strategy, 
which seeks to address risks at the earliest opportunity. We 
conducted pilots in Prince Rupert and Montreal, testing the 
ability to use advance data and adopt common standards for 
security screening and inspecting inbound marine cargo at the 
first point of arrival in North America.
    Canada and the United States continue to align and 
harmonize their Tier 1 trusted trader programs--in Canada, the 
Partners in Protection (PIP) Program, and in the United States, 
the Customs Trade Partnership Against Terrorism (C-TPAT) 
program. We are expecting to launch a fully automated 
harmonization process allowing a joint application for the 
cross-border highway carriers in the PIP and C-TPAT programs by 
fall of this year, and this will allow companies interested in 
joining both programs to submit a single application and to 
manage only one partnership account instead of two.
    We have also engaged with local entities and authorities to 
increase security through public-private partnerships. For 
example, CBP and the DHS Domestic Nuclear Detection Office have 
partnered with Buffalo and the Fort Erie Public Bridge 
Authority to replace 18 radiation portal monitors at the CBP 
primary inspection lanes in northern New York. This agreement 
was reached in November 2014 and was just recently completed. 
The enhancements will increase security and efficiency by 
supporting new calibration procedures that will reduce 
radiation nuisance alarm rates by over 50 percent.
    Chairman Johnson, Ranking Member Carper, Members of the 
Committee, thank you again for the opportunity to testify 
today, and I am happy to answer any of your questions.
    Chairman Johnson. Thank you, Deputy Commissioner.
    Our next witness is David Rodriguez. Mr. Rodriguez began 
his career with the U.S. Customs Service in 1970. From 1973 to 
1997, Mr. Rodriguez worked at the Drug Enforcement 
Administration (DEA). In 1997, he was selected as the Director 
for the Northwest High Intensity Drug Trafficking Area (NW 
HIDTA) program in Seattle, Washington. In 2010, the NW HIDTA--
you get used to acronyms in this business--received national 
awards for its interdiction program on the U.S.-Canada border. 
Mr. Rodriguez.

   TESTIMONY OF DAVID RODRIGUEZ,\1\ DIRECTOR, NORTHWEST HIGH 
   INTENSITY DRUG TRAFFICKING AREA, OFFICE OF NATIONAL DRUG 
                         CONTROL POLICY

    Mr. Rodriguez. Chairman Johnson, distinguished Members of 
the Committee, my name is Dave Rodriguez from Seattle, 
Washington. We coordinate and do joint operations with more 
than 115 international, Federal, local, and State agencies 
throughout the Northwest. We help these agencies to identify 
drug threats as well as to implement strategies to address 
them.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rodriguez appears in the Appendix 
on page 1002.
---------------------------------------------------------------------------
    The transnational criminal organizations operating on both 
sides of the U.S.-Canada border continue to move proceeds from 
illegal drugs sold in the United States and Canada, as well as 
drugs, weapons, and bulk cash. These organizations include 
Caucasian groups, ethnic East Indians, Asian Organized Crime 
groups, and members of the Hells Angels Motorcycle Club. Also 
of prominence are the Mexican National drug-trafficking 
organizations, particularly those headed by Consolidated 
Priority Organization Targets, which have gained a strong 
foothold in the Pacific Northwest. These include but are not 
limited to the Sinaloa cartel, the Knights Templar, and the 
Beltran-Leyva organizations.
    Washington's topography and location render it susceptible 
to drug smuggling and production. The Washington section of the 
U.S. border is approximately 430 miles long, with 13 official 
ports of entry. A significant portion of the international 
border is located in secluded, dense forest. Remote expanses of 
public lands are susceptible to many types of drug-related 
criminal activities, and particularly to large-scale cannabis 
cultivation.
    Public lands that are adjacent to the U.S.-Canada border 
also serve as routes for drug and currency smuggling. Most of 
the area on both sides of the U.S.-Canada border is sparsely 
populated and encompassed by densely forested public lands 
where crossing the border can be accomplished without 
detection.
    Other threats to the U.S. Northern Border include illegal 
alien entry, human trafficking, money laundering, firearms 
trafficking, maritime and air smuggling, and threats relating 
to terrorist activities.
    The I-5 corridor is the main transportation route into the 
Pacific Northwest and into British Columbia, Canada. Multi-
agency investigations show that Drug-Trafficking Organization 
(DTOs) continue to exploit remote areas along the Washington 
border, often throwing duffel bags or hockey bags containing 
drugs directly across the border. In some areas, we just have a 
ditch that separates the United States and the Canadian part of 
the territories.
    DTOs and transnational criminal organizations in the 
eastern region of the State take advantage of the remote areas 
of the border, the lack of cross-border detection equipment 
such as radar, and the lack of critical infrastructure cell 
towers to increase the use of these rural routes.
    Narcotics are often concealed in legitimate cargo onboard 
commercial trucks, cars, concealed truck compartments, and 
commercial and private trailers. Helicopters, airplanes, and 
boats are used to smuggle drug loads into and out of Canada. 
While cocaine and marijuana seizures along the Northern Border 
and Idaho declined in 2014 compared to previous years, there 
was a demonstrated increase in the quantity and frequency of 
methamphetamine loads being smuggled into British Columbia.
    MDMA seizures totaled over 48 kilograms in 2014. MDMA, or 
Ecstasy, smuggled from British Columbia to Washington State 
will continue as Canada is a primary source of MDMA in North 
America. The precursors are smuggled from China into Canada 
where it is processed. MDMA in tablet form remains a standard; 
however, recent investigations in the Northwest indicate that 
MDMA is also being smuggled in powdered form.
    Cocaine continues to be smuggled north into Canada, but 
seizures have been on the decline; 101 kilograms were seized on 
the Northern Border in the State of Washington, compared to 
over 800 kilograms that were seized in 2008 and 2009. Shipments 
are also known to be sent directly to Canada from areas outside 
the United States via air and maritime conveyances.
    Bulk cash seizures in 2013 totaled $3.1 million, and the 
year before that it was less than half a million. In 2014 it 
was approximately a million, demonstrating the fluctuation seen 
in bulk cash seizures year to year.
    Our efforts are guided by the 2012 Northern Border 
Counternarcotics Strategy updated in 2014, which articulates 
the U.S. framework for the ongoing effort to reduce the threats 
on both sides of the border. The strategy addresses joint 
efforts in the areas of intelligence collection, information 
sharing, interdiction at and between ports of entry, as well as 
in the air and maritime domains; investigations and 
prosecutions; disrupting and dismantling drug-trafficking 
organizations.
    Northwest HIDTA participates fully in the Northern Border 
programs and will continue to foster cooperation among Federal, 
State, local, tribal, and international law enforcement 
agencies along the Washington-British Columbia border. We also 
believe we share in and participate in an important role in 
intelligence sharing and enforcement initiatives, training, 
interdiction, and analytical support.
    To conclude, I would like to thank you for the opportunity 
to be able to testify here today.
    Chairman Johnson. Thank you, Mr. Rodriguez.
    Our next witness is Richard Hartunian. Mr. Hartunian is the 
U.S. Attorney for the Northern District of New York, which 
covers 300 miles of the U.S.-Canada border. Mr. Hartunian sits 
on the Attorney General's Advisory Committee where he serves as 
the Co-Chair of the Border and Immigration Subcommittee in 
which he leads the Northern Border Working Group. Prior to 
this, he served as the Assistant U.S. Attorney and as the 
Northern District's Narcotics Chief and Organized Crime Drug 
Enforcement Task Force Coordinator. Mr. Hartunian.

  TESTIMONY OF THE HONORABLE RICHARD S. HARTUNIAN,\1\ UNITED 
STATES ATTORNEY, NORTHERN DISTRICT OF NEW YORK, U.S. DEPARTMENT 
                           OF JUSTICE

    Mr. Hartunian. Chairman Johnson, Ranking Member Carper, and 
distinguished Members of the Committee, thank you for the 
opportunity to speak with you today about securing our Northern 
Border.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hartunian appears in the Appendix 
on page 1019.
---------------------------------------------------------------------------
    The U.S. Attorneys for the 16 Federal judicial districts 
along the Northern Border know well that border security is a 
critical component of our national security and work with 
Federal, State, local, and tribal law enforcement agencies and 
our Canadian counterparts to combat the transnational crime 
that threatens it.
    The four districts with the largest volume of border 
crossings and significant border-related criminal activity are 
western Washington, eastern Michigan, western New York, and my 
district. The Northern District of New York shares a 310-mile 
international border with Canada and includes 8 of New York's 
11 ports of entry. A huge volume of people and goods pass 
through the Northern District from the major population centers 
of eastern Canada by road, rail, forest, field, and waterway. 
The territory of the St. Regis Mohawk Tribe, or Akwesasne, 
straddles the border, with portions in New York, Ontario, and 
Quebec. Smugglers exploit the circumstances at Akwesasne, the 
Seaway, and the large rural areas to cross the border 
surreptitiously.
    All along the line, criminal organizations try to take 
advantage of the nature of the border, the volume of traffic, 
the bi-national commitment to accelerate the legitimate flow of 
trade and travel and jurisdictional divisions.
    The prevention of terrorism remains, of course, our No. 1 
priority. My family and I have personally felt the impact of 
terrorism, having lost my 21-year-old sister, Lynne, in the 
skies over Lockerbie in the December 1988 bombing of PanAm 103. 
The terrorist threat is current and real, as dramatically 
illustrated by the Canadian convictions last month of two men 
for conspiracy to murder for the benefit of a terrorist group. 
They plotted to derail a passenger train traveling between New 
York and Toronto, but were thwarted by a joint investigation 
that included undercover work by an FBI agent.
    U.S. Attorneys' Offices work closely with the 12 Joint 
Terrorism Task Forces operating at and beyond the border and 
their Canadian counterparts to spot and stop terrorism, 
understanding that our vigorous enforcement of the Federal 
criminal code--prosecuting human traffickers, child exploiters, 
and those who smuggle drugs, guns, illegal immigrants, and 
cash--reduces the threat of another attack.
    Our national effort to combat transnational crime includes 
initiatives promoting coordination and collaboration, such as 
the Integrated Border Enforcement Teams, the Border Enforcement 
Security Task Forces, and Shiprider, all led by DHS, and DEA-
led drug task forces. Each of the four busiest districts has a 
BEST, and Shiprider is expanding eastward after establishing 
regular operations on the maritime borders in Washington and 
Michigan.
    Drug organizations use boats, helicopters, snowmobiles, and 
vehicle compartments to cross the border without detection of 
their illicit cargo--Ecstasy or high-potency marijuana moving 
south, and cocaine, firearms, and cash moving north. For 
example, in northern New York, we recently dismantled a ring 
that regularly transported hockey bags filled with 100 to 250 
pounds of Canadian marijuana across the Seaway through 
Akwesasne for distribution in the Northeast and seized 16 
handguns headed for Canada.
    Another group we dismantled obtained Ecstasy in Montreal 
and regularly delivered 50,000 pills to wholesalers in New York 
and Boston, returning with cash and several kilos of cocaine.
    In the fight against human trafficking, a joint 
investigation by RCMP and HSI into the smuggling of young 
Romanian women through the United States to Montreal for 
prostitution recently resulted in charges in Canada and the 
United States.
    We cooperate to combat child exploitation, like the case 
where a defendant was charged in Canada when he tried to bring 
in child pornography but did not show up for trial. So we took 
the case, and the defendant was convicted and sentenced to 
imprisonment for 225 months for transporting nearly 4,000 
images and over 100 videos of graphic child pornography.
    As these cases illustrate, the existing enforcement teams 
and task forces have had significant successes, but their 
structure, composition, and mandates have left them short of 
true integration. The Beyond the Border declaration in 2011 
included the commitment ``to build on existing bilateral law 
enforcement programs to develop the next generation of 
integrated cross-border law enforcement operations.'' With our 
Canadian counterparts, we are addressing the issues associated 
with integrated enforcement. Meanwhile, the vital work of 
advancing border security goes on, and now includes the Border 
Operations Leadership Team (BOLT), which brings together 
operational leaders from law enforcement and prosecution 
agencies with border missions for their insights and action on 
measures to enhance our efforts to eradicate cross-border 
crime.
    We are confident that our bilateral commitment to border 
security, our mutual respect for national sovereignty, and our 
shared tradition of protecting both public safety and 
individual rights will strengthen our efforts to achieve more 
integrated cross-border enforcement. We are committed to 
continued vigilance, using the full range of investigative 
tools and laws available to us. With BOLT's operational charge, 
the Northern Border U.S. Attorneys and Federal law enforcement 
agencies are poised to capitalize on the historic opportunity 
to forge bonds with our Canadian counterparts that increase our 
effectiveness.
    Thank you for the opportunity to describe for you the 
challenges we are facing on the Northern Border. I look forward 
to answering your questions. Thank you.
    Chairman Johnson. Thank you, Mr. Hartunian. I thank all the 
witnesses for your testimony.
    Certainly one of the purposes of this hearing is to try and 
give some sense for where our main problems occur. We have 
limited resources, but we have the Southern Border, we have the 
Maritime Borders, we have the Northern Border. So I would like 
to go to you, Chief Fisher, and first just talk about in 
general the basic extent of the problems. The stats I have are 
that on the southwest border we had 480,000 apprehensions of 
people crossing into this country illegally; on the Northern 
Border, a little over 3,000. Obviously even though we have a 
much larger border, the bigger problem in terms of illegal 
immigration is coming through the Southern Border.
    In testimony, we have had contradictory testimony on this. 
That apprehension rate, according to the Customs and Border 
Protection, is about 75 percent, is what we believe we are 
apprehending. We have had some BP agents say it is somewhere 
between 30 and 40. Again, I realize it is very difficult to get 
that number.
    Do we have some sense of what the apprehension rate is on 
the Northern Border?
    Mr. Fisher. Mr. Chairman, the effectiveness rate is 
primarily used on the Southern Border because at that point 
along the Southern Border, years ago we have defined the 
threat, among other things, as flow, flows of people. On the 
Northern Border, that is not necessarily the case. The threat 
is defined in different ways. So using an effectiveness rate 
like we do on the Southern Border to the Northern Border really 
does not make a lot of sense to us.
    What we do do when we take a look at our strategy and 
looking to where should we deploy our finite resources, we 
looked a few years ago, and if you take a look at approximately 
90 percent of the Canadian population lives within 100 air 
miles of the border, and then you take that 4,000 miles and 
look where the density of population areas are where 
transnational criminal organizations and potential people 
seeking entry between the ports of entry need to operate, it is 
very concentrated in some of those areas. Our resourcing 
deployments and redeployments try to match those areas, and it 
is driven primarily by intelligence.
    Chairman Johnson. OK, but, again, is your sense that we 
really do apprehend a higher percentage on the Northern Border 
versus the Southern Border or less? Again, I would ask anybody 
else who would want to chime in on that one.
    Mr. Fisher. We do not measure that in terms of the 
effectiveness rate, sir. My sense would be it is at or higher 
than the Southern Border, primarily because the flow rate is so 
low.
    Chairman Johnson. What about in terms of drug trafficking? 
Do we have any statistics in terms of the total number of tons 
coming from the Southern Border versus the drugs being 
trafficked through the Northern Border? Is it 10 percent? Is it 
5 percent?
    Mr. Fisher. I do not have the percentage off the top of my 
head, Mr. Chairman, but I will tell you it is considerably less 
in terms of the smuggling that occurs between the ports of 
entry on the Northern Border than what we see on the Southern 
Border.
    Chairman Johnson. Again, we have had testimony from General 
McCaffrey, for example, on the Southern Border, estimates 
somewhere between 5 to 10 percent of all drugs are interdicted, 
which means, 90 to 95 percent are getting through. Would we 
have a similar type of interdiction rate on the Northern 
Border? Anybody want to answer that that might have some sense 
of that? Or do we simply not know?
    Mr. Fisher. Mr. Chairman, I am not familiar with the 
General's methodology on that. Generally when we look at 
seizure rates along the Northern Border versus the Southern 
Border, we do not measure that in terms of the comparison to 
differentiate threat.
    Chairman Johnson. In terms of the drugs that are flowing 
through, we have had, again, contradictory testimony on the 
Southern Border. We have had one witness saying that the 
majority of those drugs flow through the actual ports of entry. 
Other witnesses say, no, they go around the ports of entry. Do 
we have any sense on the Northern Border where the primary drug 
trafficking is occurring? Are they smuggled literally through 
the ports of entry with lack of detection? Or are they coming 
through the vast, unmonitored parts of the border? Anybody want 
to answer that one? Mr. Spero.
    Mr. Spero. Yes, Senator. One of the things that I would say 
about the flow of drugs on the Northern Border is it is 
certainly bi-directional. So certain drugs are coming in from 
Canada, certain types of drugs are still coming in from Canada, 
and other drugs are being exported from the United States and 
going from the United States into Canada.
    As far as the difference between whether or not we are 
making investigations at drugs being interdicted either at the 
port of entry or between the ports, we are seeing both, just in 
some cases different drugs.
    The case that I spoke about during my oral statement was a 
case where the tractor-trailer that was being used by the drug-
smuggling organization to get cocaine from the Ontario-
California part--or where the drugs were being stored at the 
warehouse was actually being transported across the United 
States and through the port of Buffalo and was supposed to be 
delivered to Canada. That particular method was in a trap or a 
concealed compartment. It was actually under the floor boards 
of the tractor-trailer. Had that particular delivery been 
successful, that would have been a case of drug smuggling going 
into Canada through the ports of entry.
    But, likewise, we still see smuggling--I believe it was Mr. 
Hartunian and Mr. Rodriguez who were talking about the hockey 
bags coming across in between the ports, whether those are 
hockey bags with marijuana or some other kind of drug. We get 
referrals from both the Border Patrol who make those 
interdictions between the ports as well as we do from the 
Office of Field Operations who are making those interdictions 
at the ports. So we are seeing a mix from Homeland Security 
Investigations, sir.
    Chairman Johnson. One huge difference between the borders, 
south versus north, is the cooperation of the bordering 
country. We obviously have far greater cooperation between the 
United States and Canada than we have with the United States 
and Mexico, which makes our job a whole lot easier. On March 
16, 2015, we entered into or signed an agreement on land, rail, 
marine, and air transport preclearance, which is going to 
require legislation on both sides of the border here. But, 
Chief Fisher, can you just speak to the difference between the 
cooperation we have with the Mexican Government versus the 
cooperation we have with the Canadian Government and what an 
enormous difference that makes?
    Mr. Fisher. Well, information for us is the key to be able 
to reduce any vulnerabilities, regardless of what border we are 
talking about. And in particular with Canada, what we have 
found over the years is the information sharing is really good. 
It gets better. I had the opportunity to have three Border 
Patrol agents that are embedded with the RCMP in Canada, with a 
fourth to come along shortly this year. And having a Border 
Patrol agent in Canada working with the RCMP only bolsters our 
ability to understand the evolving threats and helps us secure 
the border on both sides.
    Chairman Johnson. So that type of model that we have with 
Canada, if we could implement something similar in Mexico, it 
would make a tremendous difference?
    Mr. Fisher. Yes, Mr. Chairman, it would.
    Chairman Johnson. OK. Thank you, Chief Fisher. Senator 
Carper.
    Senator Carper. I think the question the Chairman raised is 
a really important one. A really important one. And to the 
extent that we can grow, strengthen our relationship with 
Mexico, improve our confidence in the information that they can 
provide them and that they can provide us, it will only help. I 
think maybe one of the best force multipliers on the Canadian 
border is our relationship with Canada.
    I want to just dwell on force multipliers for a while. At 
least one of you, maybe a couple of you, in talking about force 
multipliers, mentioned the assets that we are able to deploy 
between the ports of entry. We have drones on the border of 
Mexico; we have drones, a couple at least, up on our border 
with Canada. We have fixed-wing aircraft down along our border 
with Mexico; we have fixed-wing aircraft up along our border 
with Canada.
    We had an Inspector General's report come out a couple of 
months ago, and it raised some real serious questions about the 
efficiency, the effectiveness of the drones that we are using 
on our Southern Border. They already have problems. We know if 
the wind above a certain velocity, they cannot fly, they cannot 
operate. And in certain kinds of weather, they cannot operate. 
They have not always had the Vehicle and Dismount Exploitation 
Radar (VADER) systems on board which make them far more 
effective in terms of a sensory platform.
    We saw some aircraft used along the Mexican border, fixed-
wing aircraft, that we just sent them out with binoculars as 
opposed to having something like a VADER system on board.
    Let us talk just a bit about how effective some of those 
force multipliers are, not so much along the Southern Border, 
but let us talk about how effective they are on the Northern 
Border. And what can we do to make sure that they are even more 
effective? I do not know that we need to add a whole lot of 
people. We have added a lot of people on the Northern Border. 
We certainly added a lot of people on the Southern Border. What 
we need to do is be able to deploy them more effectively.
    Mr. Fisher. Senator, you raise a really interesting point 
and very important point in terms of our strategy along the 
Northern Border. You are right, a lot of times people look at 
the Northern Border deployments with an eye toward the south 
and say, ``How come you are not deploying that way?''
    I will tell you, in terms of technology, whether it is 
handheld sensing equipment, unattended ground sensors, remote 
video surveillance systems, the type of technology that we 
deploy along the Southern Border is the same along the Northern 
Border. Our enforcement posture in response to some of those 
tips and cues may be different; however, our ability to 
increase that situational awareness is the same in terms of our 
strategy of the implementation.
    What is, at least for us, very exciting on the Northern 
Border, because of the vast terrain, because of the remoteness 
of some of these locations and our inability to access the 
immediate border, whether it is because of lack of 
infrastructure or roads, or because of the impediments which 
the terrain provides, we have and will start this year the 
collection effort that we are doing along the Southern Border, 
which, in fact, we started back in March 2013, and utilizing 
the unmanned aerial systems, utilizing additional VADER 
technology and synthetic aperture radar. We have targeted over 
this past year about 80 percent of the Northern Border from the 
field chiefs identifying those very remote locations for us to 
start doing collection against those areas to be able to do a 
before and after picture.
    And so think of it in terms of a 30-mile stretch along the 
Northern Border, and the unmanned aerial system will go out and 
deploy, and it will take a series of videos along those remote 
areas. Twenty-four hours later, that unmanned aerial system, 
along with the same technology, will do the same flight.
    Now, those before and after videos will then be sent into a 
computer at what we call a processing exploitation and 
dissemination cell, and there, very smart and very talented 
analysts will take a look and see if there has been any change, 
incursions, if you will, across that border from the first 
picture to the next picture.
    That gives us a sense on whether or not, one, we have 
incursions; two, whether those areas are emerging threats; or, 
equally important, what we find along the Southern Border, 
areas where there is no activity for a variety of reasons, 
which is equally important, where not to deploy technology and 
Border Patrol agents so that we can focus on those areas that 
we know, based on intelligence, based on experience, where 
those crossings are more likely to occur.
    Senator Carper. OK. I was talking earlier in my opening 
statement, I mentioned that we have a 4,000-mile border with 
Canada, plus another 1,500 miles with Alaska and Canada--5,500 
miles. Any idea how many drones we have up there?
    Mr. Fisher. We currently have approximately nine unmanned 
aerial systems within the CBP inventory. There are currently 
two that are assigned to North Dakota. That does not 
necessarily mean we can only fly to there. We do what is called 
``federated flights,'' so we can move those unmanned aerial 
systems from the Northern Border to the Southern Border based 
on identified threats. And because of the capability to run 
federated queries, we also have through the Federal Aviation 
Administration (FAA) the Certificates of Authorization to be 
able to move across from the Northern to the Southern border 
based on threats.
    Senator Carper. So at any given day we might have two or 
three or four drones along our border with Canada? Does that 
sound about right?
    Mr. Fisher. Primarily it would be two. In the event we 
needed to plus that up for a variety of reasons, we would be 
able to augment that.
    Senator Carper. And how often do we have them up in the 
air?
    Mr. Fisher. That I do not know, sir. Again, as you 
indicated, weather permitting, just like any other manned 
system, whether it is a helicopter or fixed-wing, the weather 
is going to be a limiting factor and the readiness rate on when 
those can fly.
    Senator Carper. OK. I am going to ask you to answer that 
for the record, if you would, please.
    Mr. Fisher. I will do that. Yes, Senator.
    Senator Carper. Let me ask each of you, starting with you, 
Mr. Hartunian, giving us good advice. What should we be doing 
more of in our roles that would be helpful to you in the work 
that you do? And I must say I am very impressed by the work 
that you are all doing. But just give us some--for the 
legislative body here, we are going to be taking up 
appropriations very soon.
    Mr. Hartunian. Yes.
    Senator Carper. Anything that you would especially bring to 
our attention that could be helpful.
    Mr. Hartunian. Well, Senator, thank you for that question, 
which is important. The first thing I think you are doing, 
which is to call attention to the Northern Border, and we are 
grateful for the Committee's attention on this issue. There are 
a lot of challenges we face up there, but as you could tell, I 
think we are doing some good work. We have great geographic 
challenges, a lot of big space. But, as I think about some of 
the things that could be helpful to us in our work with the 
Canadians, we have had great challenges that have come about in 
recent years as a result of the explosion of requests for 
information, formerly the MLAT requests. And we are seeing more 
and more of those. Information in investigations is frequently 
needed from computer systems and e-mails, and while we are 
taking great steps to improve our informal information-sharing 
efforts and protocols, we are still seeing an explosion in MLAT 
requests. And so support for perhaps our Office of 
International Affairs in that effort, Congress working with us.
    Senator Carper. Thank you. My time has expired.
    Let me just ask the other witnesses to respond to the same 
question, if you will, for the record.
    Chairman Johnson. Yes, for the record.
    Senator Carper. For the record, please.
    Chairman Johnson. We have other Senators.
    Senator Carper. And thank you for that response.
    Chairman Johnson. Thanks, Senator Carper. Senator Booker.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. Thank you, Chairman, and I want to thank 
the Chairman and the Ranking Member for working with my team in 
hosting this very important hearing. I am grateful for it.
    I want to thank the panel for your extraordinary service to 
our country. Your dedication and your leadership is essential 
to our safety and security as a Nation.
    It is clear, as was stated already by the Chairman and 
Ranking Member, that the scale differences in the challenges 
and threats between the Northern and Southern Border, it is 
just not the same scale on the Northern Border, and we 
understand that. This Committee has held numerous hearings that 
have tended to focus on the Southern Border, and I am happy 
that we are having one here because there are still, as you all 
have enumerated in your various written testimonies, there is 
still tremendous threats along our Northern Border. And the 
fact that it is so porous--and I asked for that picture to be 
put up there, this vast, over-5,000-mile border, with 
incredibly diverse terrain, has areas that are tremendously 
porous, as this picture right here demonstrates how easy it is 
to cross undetected, really illustrates the need for--the 
urgency for the threat.
    Now, I for one obviously am not calling for any fence, but 
also what I am really looking for is a proportionate focus on 
our Northern Border threats. And, Mr. Hartunian, you 
illustrated a lot of the terrorist nature of these threats, 
whether it is the recent train incident--we can go back to 
numerous ones, In 1997, Gazi Ibrahim Abu Mezer was convicted of 
conspiring to detonate a bomb in the New York City subway 
station. In 1999, the Millennial Bomber, Ahmed Ressam, was 
stopped at Port Angeles, Washington, with components to be used 
to produce a bomb.
    The list, as you all know as well as I do, of terrorist 
threats and incursions from the Northern Border are real, are 
substantive, and should be taken seriously. And so we have 
tremendous cooperation, and I have been grateful for our 
northern Canadian borders. Our governments really work well 
together. But I am also concerned that that cooperation is not 
going as far as it could be. For example, Canada does not share 
its no-fly list information with us, which to me raises some 
concerns for people that they have put on their no-fly list.
    So I want to maybe ask that question specifically about the 
no-fly list. What efforts are we taking to obtain that 
information from Canada and to ensure the safety and protection 
of Americans from terrorists who may try to enter our country 
across that Northern Border? And that can be answered by 
anyone.
    Mr. Hartunian. Well, Senator, I cannot speak to that issue 
directly, but I can tell you, your point is well taken, and 
that is, public safety and the threat of terrorism, that is our 
No. 1 priority. We ought to be mindful of that. We are very 
concerned about it every day. And to address it, I think we 
have been working closely with the Canadians.
    One of the things that we have been doing is to integrate 
more closely with the Canadian prosecution teams, and we have 
been talking to them more frequently, meeting with them and 
sharing information, not just between the agencies, with the 
agents and with the prosecutors. So it is a very important 
point that you make.
    Senator Booker. But would not that list, just knowing who 
they have put on a list to stop them from flying, it seems like 
something that would be common sense to share with us, the 
people that they might have concerns about.
    Mr. Hartunian. Senator, I am not really familiar with their 
position on that, but I will tell you that in the realm of 
criminal cases and criminal work, we have had good luck with 
interaction and sharing.
    Senator Booker. Mr. Fisher, do you know about that issue, 
about the sharing of that information?
    Mr. Fisher. With respect, Senator, I believe John Wagner is 
prepared to answer that question.
    Senator Booker. Thank you, Mr. Wagner.
    Mr. Wagner. Thank you, Senator. The FBI owns the watchlist 
for the U.S. Government, and as users of that watchlist or any 
other information they could glean from another country, we 
certainly as the operator would welcome that information. We do 
have fairly robust sharing procedures with our counterparts in 
Canada, the Canada Border Services Agency (CBSA). We have 
officers embedded in each of our different targeting centers 
where we go through airline reservation data and airline 
manifests to identify national security threats. And we have 
protocols to exchange information in cases when we see that.
    Now, most of the watchlisted individuals we see traveling 
are through commercial aviation still. The preponderance of 
watchlisted individuals is still coming via commercial 
aviation, and we have seen the incidents over the past number 
of years, focused primarily on commercial aviation, between the 
Underwear Bomber, the Shoe Bomber, et cetera. We do see a 
couple hundred a year, though, cross through the Northern 
Border as well.
    Senator Booker. Are the Canadians forthcoming with their 
watchlist or are we not getting that information? Because, 
again, not only do we have a Northern Border issue--and, again, 
proportionality between the Southern Border--but 40 percent of 
our so-called undocumented immigrants are coming from 
airplanes, airports, overstays on visas in general. So I would 
think that that would be important information to share.
    Mr. Wagner. Yes, so we set protocols to exchange when each 
of us identify a threat through our commercial aviation 
targeting. We have the protocols established to exchange that 
information and request additional information from each other 
to do that, and that is where we have our liaisons situated and 
physically present at each of our different targeting centers 
to be able to facilitate that exchange of that information.
    We also do a lot of what we call rules sharing or joint 
rule creation where, as we sift through the reservation data in 
the airline information, we create rules on what we are looking 
for, what we would consider to be activity we would want to 
look closer at, and we sit down with the Canadian Government 
and actually come up with joint rules between the two of us so 
we can really go through a North American approach on how we do 
that.
    Senator Booker. Great. Just because I have limited time, I 
am going to submit questions I have for the CBP regarding 
racial profiling specifically, excessive force issues, which 
looks like I will not have time to ask here, but I would like 
to submit them and get those responses.
    But the last question I really want to ask is just again 
the resources we are applying to the challenges, and you all, 
again, are exhibiting extraordinary leadership and commitment 
and our Canadian partners, extraordinary partnership, the 
Canadians should be praised. But I just really am concerned 
about the personnel challenges, including only 2,093 border 
agents stationed on the Northern Border compared to the 18,000, 
again, understandably, on the southwest border with the size of 
that challenge. But that really means that only about 2,000 
border agents are responsible for roughly 300,000 people that 
cross the U.S.-Canadian border each day.
    Do you all share my concern that we need more resources 
targeting the security of the Northern Border given the 
vastness of the terrain and the large amounts of people that 
are coming through? Just in general, are we resource-short on 
our Northern Border?
    Mr. Wagner. Yes, and we have articulated those needs in the 
administration's 2015 and 2016 budget requests through a 
workload staffing model that measures the activity, at least at 
the ports of entry, and the workload and the volume and 
attributes a staffing number to be able to accomplish that. So 
we are happy to follow up afterwards on how that methodology 
works and what those numbers are.
    Senator Booker. Thank you.
    Mr. Spero. And if I may, Senator, one of the things that 
Homeland Security Investigations is looking at is that when 
there are plus-ups along either the Southwest Border or the 
Northern Border from either our sister agencies and our 
counterparts in Office of Field Operations at the port or 
between the ports under Chief Fisher, a plus-up in CBP, Border 
Patrol, or inspectors is logically going to result in more 
interdictions, which could also result in more referrals for 
the need for investigators and more investigative work. So we 
would ask that the Committee--and it would not just affect us 
because as we undertake more, invest in border-related or 
transnational criminal organization-related investigations, 
then that would affect Mr. Hartunian and the Department of 
Justice (DOJ) prosecutorial resources as well.
    So we would ask the Committee to look at it as integrated 
agencies, how each one affects the other.
    Chairman Johnson. Thank you, Senator Booker. Senator Sasse.

               OPENING STATEMENT OF SENATOR SASSE

    Senator Sasse. Thank you, Chairman Johnson and Senator 
Carper, for hosting this hearing. Thank you to all of you for 
making time for us.
    Chief Fisher, I would like to talk about the term 
``operational control.'' In 2011, the Government Accountability 
Office (GAO) found that CBP had operational control of 32 miles 
of the Canadian border. We have since abandoned that 
definition. I wonder if you can explain what ``operational 
control'' meant then, why we abandoned it, and if we had the 
same metric today, would we be at 32 miles or would we be in a 
lot healthier place?
    Mr. Fisher. Thank you, Senator. That is an excellent 
question.
    First of all, ``operational control'' was defined back in 
2004 in our previous strategy as the extent to which we were 
able to identify, develop, track, and bring to a law 
enforcement resolution all entries along the border. The 
fundamental premise within the 2004 strategy was predicated on 
deterrence. So you wanted to prevent the entry in the first 
instance all across the board.
    And so we started getting additional technology like border 
mile fence, which, by the way, we measured in a linear fashion, 
and we started deploying Border Patrol agents in the same 
manner and technology in the same manner.
    Operational control as a default equaled the amount of 
technology deployments that we were doing. In other words, if 
you had 5 more miles of fence and cameras, it was acceptable 
based on our internal definitions of the levels of control to 
be able to count that as operational control. The difficulty 
came in two different areas. First and foremost is we were 
actually measuring the inputs. We were not necessarily 
measuring the outcomes as a result of those deployments. And, 
second, at some point in time, which it did, those resourcing 
capabilities ran out, and so we could not as an organization 
then come back to this Committee or others and say, ``Well, we 
cannot gain any more operational control based on our 
definitions unless you give us more stuff.''
    And so we abandoned it because it did not measure what we 
needed it to measure, and we switched to a risk-based approach 
to then take a look at measuring the probability of individuals 
coming across the border versus just the mere possibility, 
which the previous strategy was predicated to be able to secure 
the border in that fashion.
    Senator Sasse. If we had a lot more than 6 minutes, I would 
want to unpack whether or not the last point you made, which I 
completely concur with, that we want a risk-based approach, 
whether or not that is really reconcilable with it sounds like 
you are saying we have a kind of baseline budgeting approach 
around here--many of us are new, and so Gary Peters can ask 
``new guy'' questions--whether or not really you think that the 
threats are driving your budget requests or whether or not year 
over year what would the Congress tolerate is what drives the 
request. And I think that Senator Booker asked a lot of great 
questions about the relative threats between Northern and 
Southern Border, and I wonder if that is a place to pivot to 
the radiological concerns.
    In 2009, Secretary Napolitano testified that DHS had 
deployed radiation detection equipment across all northern 
ports of entry. Yet 2 years later, in 2011, the same GAO report 
found that it would not be difficult at all to get nuclear 
material across the northern ports. I wonder if DHS is still 
using the same equipment. I wonder if that technology should be 
called a failure from that point because of the experience of 
2009 to 2011, and if better technology exists today, is that 
something you are requesting of us?
    Mr. Fisher. Senator, again, I would defer the answer to 
that question to John Wagner, who is responsible for the port 
of entry operations.
    Mr. Wagner. Thank you. Yes, that equipment is still in 
place, and we are working with the Domestic Nuclear Detection 
Office as part of DHS to look at the recapitalization of that 
and what is the right equipment to purchase and design and 
build and deploy to be able to do that. We are looking at the 
calibration settings of the equipment, reducing what we call 
the ``nuisance alarms,'' to really better focus on what the 
threats are and what our operational protocols in response to 
them are.
    Senator Sasse. And so what would you say to the GAO 2011 
report that it would be easy--or ``not difficult'' I think was 
their term, to get nuclear material across the Northern Border? 
And is that the case today as well?
    Mr. Wagner. I do not necessarily agree with that.
    Senator Sasse. What would give you comfort----
    Mr. Wagner. The equipment functions as it was designed to 
do. It looks at detecting what it was designed to do. I am not 
familiar offhand with the report or how they drew that 
conclusion; to say it would be easy to do, whether it would be 
open or concealed or how it would be detected, I would really 
have to go back and look at that.
    Senator Sasse. OK. I think we will follow up with a formal 
question on that as well.
    When you think about the sources of Canadian threat, one 
way to think about the problem is what can we deter at the 
border. Another is: Is the nature of potential terrorist 
threats originating in Canada changing? So you could have 
illegal immigration into Canada, you could have legal 
immigration into Canada, and you could have homegrown terrorist 
threats inside Canada. After the Ottawa attacks, the Canadian 
Government said that they thought homegrown terrorism in Canada 
was a real and potentially prevalent problem.
    How do we respond strategically after the Ottawa threats 
and potential threats in the future if there were another 
instance of domestic terrorism inside Canada? Strategically 
inside DHS, where would that threat be assessed and how would 
it change our behavior?
    Mr. Fisher. Well, Senator, in my experience as the 
Department has matured since 2003, what we have heard so far 
this morning in terms of integrated planning and execution, 
sharing of intelligence and information, the more as time goes 
on, the more dependent all of us are fighting the same fight on 
each other to be able to do this. No component within the 
Department of Homeland Security owns the corner market on 
protecting America. We are so dependent, and each and every day 
it becomes clear when John and I sit up and we get our 
intelligence briefing every morning about the evolving threat. 
And that is a really key thing as a takeaway.
    This threat changes all the time, and we have to be able to 
be as responsive and perhaps more predictive as we start seeing 
those changes, which is the reason why a couple of years ago 
CBP transitioned into integrated counternetwork operations as a 
strategic philosophy, which basically means we are not just 
going to put Border Patrol agents every 25 meters and fence in 
front of them and then cameras behind them and, again, try to 
deter somebody from coming across. Pragmatically, again, in my 
28 years' experience, that does not work for a couple of 
reasons.
    One, as a strategic objective, if you have deterrence as a 
goal, one, you are always going to fail because somebody will 
always come through. And, No. 2, it is very difficult to 
measure. So if you are trying to figure out if you are 
deterring more people this year than last year, it gets very 
difficult to really understand. At least I get mired up in all 
the statistics to try to understand whether, in fact, we are 
winning.
    And so when we look at the intent and capability which 
defines the threat of those adversaries, be they transnational 
criminal organizations or terrorism or, as the 2011 strategy to 
combat transnational organized crime introduced, the 
convergence of TCOs and terrorism, those are the things that 
our organization within the Department of Homeland Security are 
trying to get better each and every day.
    Senator Sasse. Thank you. We are at my time, but I will 
follow up with some more strategic questions by letter. Thanks.
    Chairman Johnson. Thank you, Senator Sasse. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and thank you for 
hosting this hearing, which is so important for the Northern 
Border, along with Ranking Member Carper. I think from Michigan 
we are at the center of an awful lot of trade between Canada 
and transactions across our borders. In fact, if you look at 
the volume of trade that goes across ports of entry, of the top 
five in the country, Detroit is No. 2, and Port Huron is No. 4. 
So we are definitely the tip of the spear, so to speak, when it 
comes to border control. So it is a very important issue for my 
State as well as for the economy, and that is why I certainly 
want to thank Senator Johnson for his cosponsorship of the 
amendment that I put forward in the recent budget bill to make 
sure that we are fully funding our ports of entry to make sure 
that they have the security that they need and the ability to 
process trade and travel efficiently. And that is why I am 
going to make a brief pitch to make sure that we continue to 
get funding for the international border crossing, particularly 
with our new bridge that we are constructing between Detroit 
and Windsor, and Port Huron. Port Huron does a great deal of 
traffic. They have been promised improvements in that Customs 
Plaza which have not occurred, and we need to have those. And 
it is vitally important to our economy.
    And I want to thank all of the panelists here. This is an 
interesting hearing, and you have an extremely difficult job in 
the fact that you really have dual purposes, particularly when 
I look at my border crossings in Michigan. We are asking you to 
keep us safe, and we are also asking you not to delay us while 
we cross the border so that we can move trucks for just-in-time 
delivery for our manufacturing facilities which rely on that. 
We have substantial agricultural interests, crops on those 
trucks that cannot rot. They have to go across very 
expeditiously in order to get to the markets. And so that is a 
conflicting role, one that you do well, but we are asking you 
to do even more when it comes to moving traffic more 
efficiently.
    So I want to ask Mr. Fisher and Mr. Wagner, you have 
mentioned in your testimony a number of things that are 
happening to expedite some of the movement of goods in trade. 
What is working and what is it that you need for you to do your 
job of protecting us while also making sure we can make sure 
trade is moving efficiently?
    Mr. Wagner. Thank you, and it is a couple of programs that 
we have that we really need to push and further get 
participation in. In the trade environment, it is our trusted 
trader programs; it is linking it to the Canadian programs; it 
is getting more companies and more businesses and more trucking 
companies enrolled in them. But it is also building the 
infrastructure then to support the crossings and allowing us to 
deliver on the promise that we can expedite those low risks or 
secure supply chains, and it just cannot be over, say, the 
bridge structure or through the border crossing. You have to 
have the resulting highways to feed into that, to support that. 
And it is, getting a higher percentage of transactions into 
those programs.
    On the traveler environment, it is the NEXUS program. It is 
getting more travelers into those NEXUS lanes, getting 
preapproved so you can go back and forth much easier. It is 
less time we spend on these ``enrolled populations,'' as we 
call them. It allows us to better focus on everyone else. So 
getting those percentages up, but also having the 
infrastructure to support, and allowing us to then deliver on 
the promise that we make them of this facilitated or expedite 
crossing to do that.
    And then it is working closely with the Canadian 
Government, looking at ways to increase the use of facilitative 
technology, most notably like the Radio-Frequency 
Identification (RFID)-enabled traveler documents, looking at 
can we get a higher saturation of those types of documents, 
because those save us time at the border. They save us 
resources because we do not have to physically handle the card 
and read it through the reader. It reads automatically. We have 
seen great strides on the U.S.-Mexico border by getting a 
higher saturation of RFID-enabled lanes. It allows us to then 
do the watchlist queries automatically as the car pulls up. And 
then building the infrastructure and segregating the traffic 
according to risk and/or facilitative technology, you know, 
just like the toll booths do with E-ZPass, Exact Change, and 
everyone else. NEXUS is the E-ZPass lane or the SENTRI is the 
E-ZPass lane. The Exact Change is something we call the ``Ready 
Lane,'' and that is somebody with an RFID document, but not 
necessarily vetted and preapproved like the trusted traveler 
program of NEXUS or SENTRI.
    And then everybody else goes over to the side, and there 
might be a longer wait there because, we know less about them 
or they have--a travel document does not allow us to facilitate 
their crossing. So it is really just pushing that and getting 
more people enrolled, and then the infrastructure to support 
it.
    Senator Peters. Well, we continue to have delays both in 
Port Huron and Detroit, and I know you are making great strides 
to expedite that. And it costs money. It costs a lot of money 
with the delays based on how the system works now.
    Are there additional resources that you need, or is it just 
a matter of time to implement these systems?
    Mr. Wagner. No, it is additional resources also. Like I 
mentioned earlier, we have a workload staffing model that takes 
all of the activity an officer does at a port of entry, takes 
the average time it takes to do it, takes how many times a day 
it is typically done, and comes up with the amount of hours to 
run a port of entry, and divide that by the available work 
hours of an officer, and we come up with the staffing number of 
what we need to run based on the workload for that port of 
entry.
    Now, we can mitigate that need for new staff by some of our 
business transformation improvements that we make. One of our 
current efforts is the trucks pull up and are still paying 
cash, a couple of dollars in change, to pay the user fees to 
cross the border rather than buying the decal. So we are 
looking at ways could they pay that in advance online so we are 
not collecting cash in that primary booth and making change to 
deliver back to them, and the resulting savings and the 
workload savings and the time saving, that translates in to 
staff at some point.
    Then the facilities piece, we recognize the facilities are 
extremely expensive just between the facility itself, the 
staffing and the equipment needed, and then the highways to 
connect it. So a lot of coordination needed, we would like to 
see a lot of regional planning to look at crossings as a system 
of crossings rather than individual bridges or tunnels or 
crossings that sometimes compete with each other for traffic 
and for toll revenue. We would really like to see regional 
planning efforts that take them as a system of crossings, 
working with our Canadian counterparts to move that traffic 
north and south on both borders.
    Senator Peters. Great. I am running out of time, Mr. 
Chairman, but I do have questions also related to racial 
profiling and the Justice Department's exemptions of the CBP 
for racial profiling and with some of the Border Patrol's 
activities in Michigan as well that a number of my constituents 
have raised. I will do that in writing, and I look forward to 
your response to some very serious concerns that have been 
raised to me, and I would like to hear your response.
    Thank you.
    Chairman Johnson. Thank you, Senator Peters. Senator 
McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. I thank the witnesses for being here.
    Chief Fisher, last month, Congressman Salmon and I 
introduced legislation that would provide Border Patrol with 
access to Federal lands to conduct routine patrols and install 
needed surveillance equipment to detect illegal entries across 
the border. GAO testified that Border Patrol's access to some 
Federal lands has been limited because of certain land 
management laws. For example, the Organ Pipe National Monument, 
they did not approve--the land manager did not approve of the 
Border Patrol's request or plan to install detection equipment, 
in this case a tower. But we see this time after time where the 
land manager is making the final decision on the installation 
of this equipment as opposed to the Border Patrol.
    Can you explain to me why that should be--one, if it is 
true and, two, why that should be?
    Mr. Fisher. Well, Senator, I do not know for a fact that is 
true. I am not going to dispute your report and what GAO may 
have found. I can imagine in some locations along all of public 
land there are decisions that are made within the Department of 
the Interior, Fish and Wildlife, that perhaps are antithetical 
to the policies and/or the approach that we would take in terms 
of the border.
    Senator McCain. Well, then it seems to me there should be a 
clear definition of who the final decisionmaker would be, which 
it seems to me should be your organization, not the land 
manager.
    During a hearing, Chief Fisher, a month ago, General Kelly, 
who is the Commander of the U.S. Southern Command, issued a 
warning about the threat that budget sequestration poses to 
security along our Southern Border. General Kelly warned that 
the potential threat of terrorists crossing our Southern Border 
``is extremely serious'' and called the budget cuts under 
sequestration ``a catastrophe which could effectively put me 
out of business.''
    Mr. Wagner and Chief Fisher, do you agree with General 
Kelly's assessment of the effect of sequestration on your 
ability to control our borders?
    Mr. Fisher. Senator, I would agree with the general's 
assessment in terms of how the assessed threat is really 
serious in terms of identifying risk along our border. I think 
that is accurate.
    Senator McCain. How about being able to carry out your 
duties?
    Mr. Fisher. There are challenges----
    Senator McCain. Under sequestration.
    Mr. Fisher. Yes, sir. There are challenges each and every 
budget cycle with or without sequestration. We have finite 
resources----
    Senator McCain. So it does not matter to you?
    Mr. Fisher. No, sir. It does matter to me.
    Senator McCain. Then tell me, for the record tell us 
whether it matters or not.
    Mr. Fisher. Senator, it does matter, yes. Thank you.
    Senator McCain. And how serious is the impact?
    Mr. Fisher. At times it can be very serious.
    Senator McCain. Thank you. Mr. Wagner.
    Mr. Wagner. I concur with the Chief. It is something we 
manage through. It is an additional challenge that can be 
distracting from the mission. It can have detrimental----
    Senator McCain. Or you can just manage through it, right?
    Mr. Wagner. We manage through--well, we have to. We have no 
other choice.
    Senator McCain. Well, again, am I not making myself clear? 
I want to know the effect of sequestration on your ability to 
do your job.
    Mr. Wagner. It makes it more difficult.
    Senator McCain. How much more difficult?
    Mr. Wagner. The entire process, getting a budget 6 months 
into a fiscal year, makes it more difficult; looking at cuts 
arbitrarily across the board makes it more difficult.
    Senator McCain. How about your ability to secure our 
borders?
    Mr. Wagner. We do the best we have with the process that we 
go through.
    Senator McCain. I am asking how it affects your ability to 
enforce our borders. What is the matter with you today? This is 
a pretty straightforward question. I want to know what 
sequestration--how it affects your ability to enforce our 
borders.
    Mr. Wagner. I said it makes it more difficult and more 
challenging. I do not have a number that I can put up.
    Senator McCain. OK. Chief Fisher, General Kelly also said, 
and I quote, ``Terrorist organizations could seek to leverage 
those same smuggling routes to move operatives with intent to 
cause grave harm to our citizens or even bring weapons of mass 
destruction into the United States.'' That is General Kelly, 
the Commander of Southern Command's testimony last month before 
the Armed Services Committee. Do you share that view?
    Mr. Fisher. Yes, Senator, I do.
    Senator McCain. Would you elaborate?
    Mr. Fisher. Yes, Senator. I had mentioned earlier in terms 
of the 2011 strategy to combat transnational criminal 
organizations, and in particular the convergence, wherein that 
strategy looked at the possibility of organized crime and 
terrorism basically coming together to be able to exploit 
vulnerabilities along our border, and other areas as well. And 
we see that as an emerging threat. Our shift to taking a look 
at risk and risk mitigation as opposed to just putting Border 
Patrol agents and fence everywhere, was the reason for that as 
well.
    Senator McCain. Are you seeing apprehending people coming 
across particularly our Southern Border but also our Northern 
Border that are not from the traditional countries that we 
usually see immigrants? I am talking about Mexico, Central 
America. Are you seeing people coming from many other parts of 
the world that you are apprehending?
    Mr. Fisher. Yes, Senator. On average, over the past 3 years 
along the Southern Border in particular, just because of the 
volume, we see individuals that are represented from over 140 
different countries.
    Senator McCain. 140 different countries?
    Mr. Fisher. Yes, Senator.
    Senator McCain. And could you give us some examples the 
kind that would surprise the average citizen?
    Mr. Fisher. Although the vast majority is still with the 
contiguous countries of Mexico, obviously on the Southern 
Border, Central and South America, I think we saw some of that 
increased activity predominantly from countries like Guatemala, 
El Salvador, and Honduras in particular.
    Senator McCain. Chinese?
    Mr. Fisher. I beg your pardon?
    Senator McCain. Have you seen Chinese come across the 
border?
    Mr. Fisher. Yes, sir.
    Senator McCain. Africa, Sub-Saharan Africa?
    Mr. Fisher. Yes, sir. North Africa. Like I said, I have the 
list of 144. I do not have them with me right now, sir.
    Senator McCain. Would you please submit that to the record 
and the numbers of those from these--part of this obviously is 
international human-smuggling operations, but also it could be 
disturbing to all of us to see how far away many of these 
illegal immigrants are coming across the border, obviously. 
Does that concern you as well?
    Mr. Fisher. It does, Senator. I would be happy to provide 
that list to you.
    Senator McCain. Thank you.
    Finally, Mr. Chairman, are you expecting another large 
number of children showing up on our border, on our Southern 
Border, in the next couple of months?
    Mr. Fisher. Senator, I am confident at this point that, 
based on where we are, halfway through this year, that we will 
not see the level of unaccompanied children and levels of 
family units that we saw last year.
    Senator McCain. But you will see a significant number?
    Mr. Fisher. Again, if you are defining ``significant'' as--
if you compare that to 2010 and 2011, it will be up above those 
levels. But it is going to be down over the preceding 2 years.
    Senator McCain. I thank the witnesses.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator McCain. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman. Gentlemen, I 
appreciate you being here today, and thanks for your service in 
protecting our great country.
    Today we have heard a lot of testimony about shared efforts 
between Canada and the United States, and I do believe that 
they are a strong partner for us. I know Senator Booker had 
mentioned sharing the no-fly list information. That would be 
very important. But are there any other specific initiatives 
that we need to look at as far as joint activities with Canada, 
anything that in your mind--and maybe, Chief Fisher, if you 
could address this, or Mr. Wagner, but specific initiatives 
that we really do need to take a hard look at and implement?
    Mr. Fisher. Yes, Senator. I would say I briefly mentioned 
the IBET teams where we are working very closely, embedded in 
many cases physically in space where we can share information, 
and, equally important, not just the sharing of the 
information, is then being able to figure out what we 
collectively are going to do about that information on a 
particular threat. And if you take a look at the two countries 
and the different jurisdictional authorities and associated 
authorities that go with that, we are a lot stronger in doing 
that. And to the extent that we can expand not just the concept 
but those teams in some of these regional concepts, I think we 
will be better for doing just that.
    Mr. Wagner. Yes, continuing to work with CBSA and other 
colleagues in Canada as they develop additional targeting and 
information-sharing systems. They are working on a system much 
like our ESTA system for visa waiver travelers, their 
preapproval of that, and working with Canada to build a similar 
system really so we have a North American approach and 
consistent targeting and identification of national security 
factors; and then sharing and exchanging the ways and the 
protocols on how we can address those at the earliest possible 
opportunity.
    Senator Ernst. OK. Yes, go ahead, Mr. Spero.
    Mr. Spero. Thank you, Senator. Just to expand on Chief 
Fisher and Commissioner Wagner's answer, one of the things that 
I would like to call attention to is, we had talked about--and 
I believe it was Mr. Hartunian who talked about a lot of the 
leadership committees and collaboration that is going on, 
whether it is the Beyond the Border executive group or the 
Cross Border Crime Forum (CBCF) or BOLT. Those are, as I said 
before, are great ways for us to strategize, identify the 
threats, both interacting with our Canadian partners.
    But one of the things I want to expand on what Chief Fisher 
said was, in addition to the IBETs, our HSI Border Enforcement 
Security Task Forces are doing--they are making a big 
difference. They are the operators on the ground who are 
actually out doing the--conducting the investigations, making 
the search warrants on both sides of the border, and making the 
arrests and identifying and disrupting and dismantling the 
transnational criminal organizations.
    It is a great model. It is a model where we are allowed 
to--or we give our Title 19 cross-designation or essentially 
deputize Canadian law enforcement, local Canadian law 
enforcement as customs officers, and that way they can come 
into the United States and actually conduct a side-by-side with 
us, joint investigations under our close supervision, but to 
have that connectivity investigator to investigator, agent to 
agent, coordination, collaboration, and just working the cases 
together has proven to be a very successful model.
    Senator Ernst. OK. And these are all initiatives that 
Canada is open to, and they are working well with the United 
States. Is that a correct assessment?
    Mr. Spero. Yes, Senator, they are.
    Senator Ernst. OK. Are there--yes, sir, go ahead, please.
    Mr. Rodriguez. I would just like to highlight some of the 
other work that is going on in the Pacific Northwest, 
specifically Operation Shiprider. Basically it is an RCMP-U.S. 
Coast Guard initiative in which different officers are cross-
designated to operate in each other's waters.
    I also wanted to highlight the fact that the State of 
Washington and the Province of BC do a yearly meeting with 
their law enforcement and trade representatives to share 
issues, problems, and resolutions on our cross-border 
trafficking. And so I think those are unique to how we operate.
    We also engage in mutual discussions with them on a 
quarterly basis in our joint management team, which has the 
oversight of the BEST and the IBET programs. And we have a 
yearly meeting coming up--it is called ``Project North Star''-
--in Spokane, in which we will, again, sit down with our 
Canadian colleagues as well as our State and local officials 
and Federal agencies, again, to strategize and to implement 
those strategies in the near future.
    Senator Ernst. That is great. I appreciate the 
collaboration that we have with our neighbors to the north. 
Through this process, have you seen any joint initiatives where 
the Canadians have actually pushed back or they do not wish to 
collaborate with U.S. authorities? Are there any of those 
instances out there? Anybody? None that you have experienced?
    Mr. Rodriguez. No. I would say the only reticence sometimes 
is in the sharing of targeted information. They have certain 
privacy rules which they have to abide by, and so sometimes 
that can be a little bit difficult. I think we talked about the 
MLATs and the information that is provided via that type of 
format. But I think those are overcome in the field with 
operational matters and between the different agencies.
    Senator Ernst. OK.
    Mr. Hartunian. Senator, from a prosecutor's perspective, we 
have made great efforts and I think great strides to bring our 
prosecution teams together to address some of the challenges 
that we face when we do cross-border operations and 
investigations. Sometimes there can be challenges sharing 
information. We have to make sure we are in compliance with the 
rules of each country. Sometimes we have to make charging 
decisions. Who are we going to charge and in what jurisdiction 
are we going to charge them? And there are different 
considerations that come into play based upon the law of Canada 
or the law of the United States.
    So I think we have come a long way in bringing our 
prosecution teams together, bringing the Canadian provincial 
prosecutors and Federal crown prosecutors together with our 
U.S. Attorneys to work some of those differences out.
    Senator Ernst. That is very good. I appreciate it. It is 
good to know what works and then if there are challenges out 
there as well. Thank you, gentlemen. My time has expired.
    Senator McCain [presiding]. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Chairman Johnson for the 
introduction and for the opportunity to talk about a border 
that we do not talk a lot about in this Committee, which is the 
Northern Border. And it is interesting Senator McCain is still 
here because I think one of the challenges we have both on the 
north and on the south border is, as we have put and deployed 
more resources at the points of entry, we have opened up rural 
America, whether it is on the Northern Border or the Southern 
Border, to mischief. Things that used to happen through the 
port of entry now could--in fact, are happening on the Southern 
Border in very remote locations, which creates huge disruption 
to local communities, to rural America.
    I recently hosted Ali Mayorkas, the Deputy Secretary, in 
North Dakota, and I want to applaud blue and green. We gave 
them a great look at how cooperation works in North Dakota. And 
your folks have been just absolutely fabulous on the Northern 
Border in cooperating with local law enforcement, cooperating 
with Canadian officials, cooperating with local chiefs and 
sheriffs. It is seamless. And the applause is all around, but 
there are challenges.
    In Minnesota, the challenges are wooded. In North Dakota it 
is open prairie, miles and miles. If I took you up there, 
farmers are farming around the boundary posts. So this is not 
what you see typically on the Southern Border.
    One of the big challenges we have is getting staff in 
remote locations, and I think you both can say the challenge--I 
think we are down a number of Customs and Border Protection 
officers in Pembina, and we continue to struggle to get Border 
Patrol to stay on the Northern Border.
    And so my question to you is: What are you doing within the 
Department of Homeland Security to secure additional incentives 
for workforce to stay on the Northern Border?
    Mr. Wagner. Thank you. So we recently commissioned an 
internal work group to look at exactly that. We have a lot of 
places that are hard to fill and hard to retain staff at. So we 
are looking at what are the options at our disposal now as far 
as relocation incentives, retention bonuses, paid moves, 
promises of, limited assignments there of a couple of years, 
and then looking at what is the right options to offer at the 
different ports of entry.
    Senator Heitkamp. Are you meeting with any resistance 
internally in making pay adjustments or incentive adjustments 
to secure staff on the Northern Border?
    Mr. Wagner. No, we have not. It is just a matter of finding 
the budget funds to do it and figuring out what is the right 
approach at each one of the locations.
    Senator Heitkamp. So once again we are back to budget 
constraints giving us a less secure border, I think is the 
point Senator McCain was trying to get at.
    Mr. Wagner. Well, we have----
    Senator Heitkamp. I know you do not want to say that, but--
--
    Mr. Wagner. No. I am happy to say that, because, I mean----
    Senator Heitkamp. OK. We would like it if you would say 
that.
    Mr. Wagner. We have submitted the staffing needs as part of 
the annual budget for the last couple years. We did receive 
2,000 more CBP officers 2 years ago, and we are in the process 
of hiring them, but the need still remains for 2,624 more, and 
it is just finding ways to pay for that, and these would be 
distributed among with the workload staffing model to do that.
    Senator Heitkamp. I think we would be foolish to say that 
lack of--or that we can manage the borders, either the Northern 
Borders or the coastal borders, which we have not yet talked 
about, or the southern land border without additional 
resources, be it additional aircraft that can monitor the 
border, basically transport folks--in North Dakota we do not 
have any capacity for detention, and we have a huge number of 
what I would tell you are undocumented workers who are working 
in construction in North Dakota, who are pulled off roofs and 
pulled off construction projects, only to be on those 
construction projects the next day.
    And so I understand the lack of capacity, but I also think 
that we have to be realistic about the squeeze that we are 
putting on rural borders. We are trying to take care of it, 
whether it is San Diego, McAllen, or El Paso. We see the 
problems there, and we ignore Cochise County and Pembina and to 
the west.
    And so you guys have to help us work through this because, 
as we push the envelope and put more and more restraints on 
those border crossings, we are going to move the bad guys to 
rural America, whether it is on the Southern Border or the 
Northern Border.
    The other question that I just want to broach quickly, 
because I think the focus here is all people coming to this 
country, but we have a fair number of people who are crossing 
into Canada from this country, and that causes concern for 
Canadian officials.
    Mr. Wagner, I was interested in your exchange with Senator 
Booker because it seemed like we were maybe two ships passing 
in the night. Do the Canadian officials not share their 
watchlist with us?
    Mr. Wagner. I do not believe we get their actual watchlist.
    Senator Heitkamp. Why is that?
    Mr. Wagner. I do not know.
    Senator Heitkamp. OK. Is that because we will not give them 
ours? Or is it because they have privacy regulations that we 
cannot work through?
    Mr. Wagner. The FBI manages it for us, and we are users and 
consumers of it, and we contribute to it. But we are not the 
owners of that----
    Senator Heitkamp. But what I heard all of you talking about 
is this extraordinary cooperation you get from the Canadian 
officials. Sometimes laws do not allow it to be seamless, but I 
can tell you, as a former Attorney General from my State, when 
we used to do intel briefings on the Northern Border with local 
law enforcement, whether it is break-ins, burglaries, drugs, 
the Royal Canadian Mounted Police were always at those events. 
And so I can tell you locally it works very well, and it sounds 
like you believe that it works pretty well kind of country to 
country.
    If you were going to make any changes in that relationship, 
what would you recommend? Any of you.
    Mr. Wagner. It is really strengthening the information 
exchange and the access to the information that you have 
internally within, your organization or your country. We 
exchange a lot of information with the Canadian Government. At 
the land border our entry records are serving as their exit 
records and vice versa, so we can start the exchange and the 
identification of who is overstaying, and we can also see then 
who left the country.
    In the commercial aviation environment, we are doing joint 
rules creation and joint targeting efforts to look at threats 
to North America, not just necessarily the United States or 
Canada in between. But it is what access do they have to be 
able to then share with us, which brings up the watchlist.
    Senator Heitkamp. Are we sharing lists of folks who are on 
the list for deportation with the Canadian officials?
    Mr. Wagner. I am not aware of--I do not know.
    Senator Heitkamp. Mr. Chairman, I will submit some 
additional questions. But I do want to once again give you a 
high five for all the great work that is done in North Dakota 
with constraints on resources and for the extraordinary cross-
border cooperation and local government cooperation. You guys 
are doing a great job up there. Your folks should make you 
proud.
    Chairman Johnson [presiding]. Well, thanks, Senator 
Heitkamp. I wish I would have been here for your questioning, 
because I know this obviously affects your State quite a bit, 
what is happening on the border.
    Chief Fisher, I do want to go back a little bit to the 
question from Senator McCain in terms of what is going to 
happen this year with the unaccompanied children. We should not 
be minimizing this. Yes, it is down from last year, but last 
year was a humanitarian crisis. I do not know what you call a 
60-percent level or where are we at in terms of the total 
number that are coming as compared to last year? We are 
somewhere around 60, 70 percent of last year's problem, 
correct?
    Mr. Fisher. Well, Senator, just so I am clear, it was not 
my intent to minimize that flow, what happened last year, by 
any stretch. And just looking at it--because it is more of a 
statistical anomaly last year. For us, it is people coming 
across the border for a variety of reasons. When we see what 
happened, for instance, last year in South Texas, what the 
Department of Homeland Security did this year--and, by the way, 
I should also mention each and every year over the last 3 years 
we have seen increases from individuals from Central America 
coming between the ports of entry.
    What changed last year was not necessarily the seasonal 
trends. That continued almost exactly the way it has been over 
the years. What did change was the volume, and what we tried to 
do and what we did do with the Secretary's leadership is start 
looking at after July when the numbers started going down, as 
really looking back and say, one, how can we be better prepared 
not just to react to it, but really to better predict it?
    At least it was interesting for me to see and how the 
Secretary approached this is the Department of Homeland 
Security was one of three departments that had equities and 
jurisdictional authority to respond to this. When you take a 
look at Health and Human Services (HHS), that is a very big 
piece when it comes to unaccompanied children. If you look at 
the Department of Justice in terms of not just the prosecution 
but what do we do across the board between the three different 
departments, that I think was the first time in my experience 
we started seeing peaks of volumes along the border----
    Chairman Johnson. I just have to stop you. You used the 
words that was a ``statistical anomaly.'' No, it was far more 
than a statistical anomaly. It was a humanitarian crisis----
    Mr. Fisher. I do not disagree with that.
    Chairman Johnson [continuing]. And it was one that was 
fueled by the actions of this government, this administration. 
I do not have the chart here. We have used it in other 
hearings. But we have a chart that shows really the number of 
unaccompanied children coming from Central America declining 
at, I guess call it, a manageable level, I think under 10,000. 
I do not know the exact numbers. I do not have the chart. You 
had Deferred Action on Childhood Arrivals and that just shot 
up. It was cause and effect; it was very clear.
    And, by the way, in our trip down to McAllen, Texas, I want 
to commend the Customs and Border Protection and the really 
tremendous effort that they put forward to address that 
humanitarian crisis. But it continues at--what?--a 60-or 70-
percent level. It is still a problem.
    Just having met with General Kelly--and I do not want to 
put words into his mouth, but I think he is certainly 
confirming what is my sense, that no matter what Deferred 
Action for Childhood Arrivals says, no matter what the Deferred 
Action on Parents, no matter what those memoranda, those 
Executive Actions say, it is what is the reality. And the 
reality is if you are a parent or a child in Central America 
and you send your child or you come up and you get into 
America, the bottom line is you are staying. That is what the 
coyotes are telling them; even though we have a counter-
communications strategy to say, no, this does not apply to you, 
the reality is it does apply.
    I have to admit, as I have delved into this problem--and I 
know you are Custom and Border Protection--the conclusion I am 
really coming to is you could almost be renamed ``Custom and 
Border Processing,'' because that is certainly what I saw in 
McAllen, Texas. And as long as we continue to apprehend these 
individuals, as long as we have these incentives for people to 
come into this country--because they realize if they get here, 
they are going to be able to stay. As long as we detect them, 
apprehend them, and then process them with a notice to appear, 
and then disperse from around America into the shadows, we are 
going to continue to have that problem.
    So we need to recognize that reality, and we need to start 
addressing it. I guess this is pretty good staff work here. 
They have given me my chart, which pretty well shows the 
reality of the situation. So this is far more than a 
statistical anomaly. This is something that our immigration 
laws, Executive actions, actually caused. And until we are 
actually willing to admit that reality, we are not going to 
stop it. We are going to continue to have this human crisis 
occurring--maybe it is only 60-or 70-percent level, but it is 
still a humanitarian crisis from my standpoint.
    Do you want to respond to that at all? Tell me if I am 
wrong.
    Mr. Fisher. Well, Senator, I do want to thank you for 
complimenting the men and women in Rio Grande Valley and 
Greater South Texas. I, too, have been down there and am very 
proud of the work that they do each and every day to protect 
this country. Thank you, sir.
    Chairman Johnson. OK. I do want to really get back to the 
Northern Border and the drug trafficking there because, again, 
if you really take a look at the root cause of so much of our 
border insecurity, it is the insatiable demand for drugs in 
this country and what that has spawned over the last 50, 60 
years. Really, our demand has caused so much of this problem, 
so much of this crisis.
    So I want to get some kind of sense of what is happening on 
the Northern Border, where it is flowing. Listen, I go every 
year up fishing to Canada. I have gone through those ports of 
entry. Pretty calm, a bunch of folks with fishing boats. But I 
also understand how porous that border is as well; just hop in 
a canoe and all of a sudden you are a camper, and who knows 
what you are transporting.
    So understanding we do not have the statistics--which is 
part of the problem, by the way, in evaluating how to provide 
greater security of the border. We do not have the information, 
and there is a real disparity in information, whether Customs 
and Border Protection is talking about a 70-, 75-percent 
apprehension rate versus agents on the ground saying it is only 
30 or 40 percent.
    I want to get, again, some sense of what is happening on 
the Northern Border specifically, as best as people can tell. 
And I realize you do not have exact information, but is the 
drug smuggling, is the human trafficking--would the potential 
terrorists that we are concerned about, are they going to come 
through the ports of entry? Or are they going to be coming 
through the areas in between the ports of entry? Can anybody 
address that basic question? Mr. Spero.
    Mr. Spero. Yes, Senator, thank you. From our 
investigations--and, again, we get a lot of referrals. A lot of 
our casework does come from referrals from either the ports of 
entry, the OFO, or between the ports from the Border Patrol. 
But not all of our investigations are referrals. Some of them 
are from our own confidential informants or from other Federal, 
State, and local partners.
    We understand that one day the vulnerability could be at 
the port. One of the ways that we look at national security is 
that it is our job to make sure that we are investigating 
criminal fraud cases when it comes to people either pretending 
or appearing, making themselves appear that they are eligible 
for an entry visa to come into the country, whether that is a 
student who is coming in under a different name or does not 
intend to go to school; or whether it is a worker who claims 
that they are going to be working at a particular job in a 
particular industry and purchased that visa; or whether it is 
in the interior where the fraudsters are trying to go to one of 
our other sister agencies, Citizenship and Immigration 
Services, to obtain a permanent residence or maybe even 
eventual U.S. citizenship by any kind of fraud.
    So through our Document and Benefit Fraud Task Forces, 
through our participation on the Joint Terrorism Task Forces, 
HSI can bring our Title 8 civil immigration authority, our 
abilities to investigate fraud, or our Title 19 customs fraud. 
We are looking at all types of vulnerabilities. We are not just 
focusing on one. So whether that is people who are flying 
directly into the country, right into the interior, but maybe 
on a fraudulent visa, or applied for asylum with some sort of 
fraudulent application, that is a big vulnerability, and that 
is something that we take seriously.
    But also some of our other national security strategies are 
to make sure that sensitive technologies are not--we use our 
export enforcement and our counterproliferation program to make 
sure the sensitive technologies are not getting outside of the 
country.
    Chairman Johnson. OK. Again, I think what I am not getting, 
what I am not hearing is some sense for how much of the 
problems are coming through our ports of entry and, whether we 
have to beef up personnel or improve--fund them in a deficit-
neutral fashion, or whether they are coming in between the 
ports of entry. And how do we ever get that information? I 
realize it is not the volume, so we are not, I guess, 
calculating percent apprehensions or anything else.
    Chief Fisher, would it make sense to utilize what drone 
flights we have, would it make sense to have what detection 
capabilities we do have, would it make sense based on the 
anecdotal arrest and apprehension rate to do some level of 
statistical sampling, some kind of measurement to get some kind 
of information so that policymakers, who are going to be tasked 
with allocating those scarce resources, have some sense of 
where the problem does lie on the Northern Border? Do you 
understand the issue, the information I am looking for here in 
terms of where the problem lies and what we need to do to 
really assess the extent of it and direct proper solutions?
    Mr. Fisher. I believe I do, Senator, and one of the things 
that--and certainly for the sake of time, I would offer up a 
briefing to you or your staff. As was mentioned earlier, it is 
not as simplistic just to say, well, it is just happening at 
the ports, or it is just happening at--the metrics that we use 
in terms of between the ports of entry, there are 12, and we 
take a look at trends, not just on the Southern Border; we take 
a look on the Northern Border, and we get, for instance, with 
John's folks and try to figure out--say, for instance, in a 
place like Swanton, what is the dynamic there in Swanton? What 
is the business model of the illicit networks that operate in 
Canada that are exploited on the U.S. border?
    That scenario in terms of that threat is likely to be 
different than Blaine, Washington, or in Detroit. And so for us 
to just--at least for me, to simplistically say, well, it is 
just at the ports of entry or between the ports of entry, it 
really depends on the area of the border, and we do have 
methods to be able to inform our judgments on where those 
redeployments should go. And we would be happy to sit down and 
explain----
    Chairman Johnson. First of all, I am not asking for 
simplicity here, because I realize it does not exist.
    Mr. Fisher. Yes, sir.
    Chairman Johnson. This is incredibly complex, and it is 
sector by sector, and it is area by area and State by State, 
and even beyond that. Again, I realize the Montana border is 
completely different than the boundary water canoe area up in 
Minnesota and Lake Superior and Detroit. I mean, this is a vast 
border and all kinds of differences.
    So I guess what I will ask you, yes, let us do a briefing. 
I want to understand the complexity. I want to understand 
exactly what you do know about anecdotally where have we--I 
mean, have people loaded up canoes? Are they flying in in small 
planes? Are they catapulting drugs across the border like they 
do on the Southern Border, with cannon, I mean, it is just 
unbelievable, as I have delved into this situation, the number 
of methods, the ability to avoid detection, the use of the drug 
cartels, blocking off the bridges to these kids so that they 
can funnel them and put pressure, overload the system over here 
so they can divert Customs and Border Patrol so they can 
smuggle the drugs over someplace else. Trust me, I understand 
the enormous complexity of the situation. But I do not have the 
information. OK? I know it is complex, but I really do not know 
how complex. I am not sure anybody does. But if we are going to 
start crafting solutions to provide better border security, we 
need to better understand the complexity of it.
    So, again, I would look forward to a briefing.
    Mr. Fisher. I agree. Thank you.
    Chairman Johnson. I was kind of hoping--Senator Ayotte 
wanted to come here and ask some questions. If she does not get 
here in time, let me first offer all of you the opportunity to 
make a final point. This is something Senator Carper has done. 
I learned from it. Certainly if I was a witness, I would be 
sitting here going, ``I want to make this point.'' So here is 
your opportunity to make that final point. If Senator Ayotte 
gets here, we will let her question. Otherwise, we will close 
the hearing.
    Chief Fisher, we will start with you.
    Mr. Fisher. Senator, thank you for the consideration and 
obviously the opportunity to be here today. It was brought up a 
couple of times this morning alluding to some of the 
effectiveness of reporting in terms of what my office reports 
versus what may have been in the recent past articulated 
specifically by Mr. Cabrera. I know there have been a lot of 
questions, and for the sake of brevity, let me just say this:
    One, I have seen what Mr. Cabrera mentioned in terms of a 
host of things: the effectiveness rate, what he is hearing, 
what the policy is based on presumably what I have directed to 
the workforce in the field, among other things. Let me state 
for the record that none of that is based on truth. It is true, 
however, that Mr. Cabrera is entitled to his opinion. He is 
not, however, entitled to his own set of facts. And I would--
not now, but with your staff--be able to clear that and tell 
you, in fact, what the policy is by my handwriting, what the 
transition has been over the last couple of years, and what I 
expect from each and every Border Patrol agent in uniform as it 
relates to data integrity and reporting, if, in fact, there are 
any allegations of misconduct. But thank you again for the 
opportunity, Senator.
    Chairman Johnson. I appreciate that. Again, I have a keen 
understanding of how difficult it is to get this information. 
This is not like a manufacturing setting where you can study 
it, and it is all right there. This is enormously difficult and 
enormously complex. So we are just trying to wade through that 
and trying as best as possible to describe the reality and 
trying to ascertain the truth here, knowing that you are never 
going to get the full reality or the full truth.
    So, again, we certainly do appreciate your service to the 
Nation and doing what you can to grapple with a very difficult 
situation. Deputy Commissioner Wagner.
    Mr. Wagner. Thank you. It is really just a recognition of 
some of the economic activity that crosses that Northern 
Border, what it means to the economy of the United States and 
to Canada, looking at--within the Office of Field Operations, 
we have a huge workload of not necessarily just enforcement 
work. There is the regulatory functions. There is the 
processing, like you mentioned, of the commercial vehicles that 
cross the border, welcome our citizens home, welcoming 
visitors, tourists, business travelers into the United States, 
ensuring their compliance with all the laws and regulations.
    But, the majority of the transactions we do conduct, 
remember, every truck, every piece of cargo, every person, 
every train, every boat, everything has to be seen by a CBP 
officer and admitted and released by a CBP officer. The great 
majority of those transactions are good, law-abiding companies 
and good, law-abiding citizens and visitors. And it is layering 
our enforcement processes on top of that without stopping or 
hindering that movement back and forth and really ferreting out 
those bad actors and bad things from coming in. And that is 
where we try to apply a really dedicated and targeted effort 
based on intelligence, based on our analysis, based on our 
cooperation with our foreign partners and our partners within 
the governments at the Federal, State, and local levels to be 
able to best do that so we do not stop that commerce, because 
that will be just as devastating as an attack.
    Chairman Johnson. I agree. Thank you, and thank you for 
your service. Special Agent Spero.
    Mr. Spero. Thank you, Senator. I guess for my final point I 
would just like to add that I understand your frustration with 
our ability to necessarily pin down exactly or identify exactly 
where the threats are, because from an Immigration and Customs 
Enforcement or a Homeland Security Investigations point of 
view, we are aware our focus is to attack transnational 
criminal organizations, no matter what they are doing, because 
what we are finding at HSI is these organizations are smuggling 
guns, drugs, people, weapons. It is the roots that we are 
trying to identify and attack, and the organizations. That is 
why we feel like our illicit path attack strategy puts us on 
the right path.
    We are not focusing on the individual committing the crime. 
When we stop that seize, we make that big seizure, or we get a 
referral, that is the beginning of the investigation for us. 
That is not the end. It does not stop there. And what our 
strategy is is to attempt to identify the whole scope of these 
global organizations, whether it is terrorist organizations or 
other criminal organizations. So that is, reaching back and 
using our international footprint to identify the bad actors or 
members of the organization in the source countries, in those 
transit countries, here in the United States if the United 
States is the ultimate destination country, but also working 
with our Canadian partners.
    So, we are kind of changing the way that we measure 
success. I understand that the old methods of straight 
indictments, convictions, and arrests and seizures and 
comparing them to the previous years or matching up with what 
the resources are is not necessarily the best way to determine 
success. So we are moving toward a model, we have implemented a 
model where we are looking at, what are the cases that we are 
doing that are having the biggest impact on border security, 
public safety, and national security.
    So I absolutely want to thank you for holding this hearing 
and bringing attention to the Northern Border and certainly for 
giving me the opportunity to represent the men and women of 
Immigration and Customs Enforcement and Homeland Security 
Investigations. I know that they are out there every day trying 
to do the best they can to enforce the immigration and customs 
laws of the United States.
    Chairman Johnson. We thank them, and we thank you for your 
service. Mr. Rodriguez.
    Mr. Rodriguez. Thank you, Senator. I just wanted to make a 
couple of notes from an operational perspective. Again, when we 
talked about additional resources for the Northern Border, I 
want to make sure we do not overlook our intelligence 
capabilities and the challenges that we face. And to that 
aspect, I think our most critical support that we provide our 
partners is with intel analyst support. And so I know we talked 
about agents, investigators, but I do not want to leave that 
component out as far as the need for intelligence analysts. 
They play a critical role in our investigations.
    Second, I just want to point out a few gaps that my 
partners wanted to make sure I mentioned, and that was radio 
interoperability along the border. It still continues to be a 
problem, especially in those remote areas that you are familiar 
with, as well as our radar coverage, especially over the 
Cascades where we have these deep canyons and we cannot get 
radar to look down in there. And so that also is one of the 
gaps we still need to address.
    And, finally, as far as looking at specifically drug-
trafficking organizations, we measure our success with the 
numbers that we dismantle and disrupt, and, again, a third of 
our numbers are multinational polydrug organizations that are 
impacting not only our Southern Border but also the Northern 
Border, because we are seeing more and more of our Southern 
Border DTOs coming up and, again, as I mentioned, trafficking 
more meth and cocaine through the United States into Canada.
    Chairman Johnson. They are businesses, and they are looking 
for additional product lines, and they are looking for 
additional markets, and they are finding them, and they are 
growing them, and they are metastasizing. It is an enormous 
problem.
    I also want to comment on the radio interoperability, what 
we hope is complete interoperability. It is consistently 
mentioned to us as a problem. It is probably not the sexiest 
technology here, but it is an incredibly important one. So we 
have definitely heard that message as well. Mr. Hartunian.
    Mr. Hartunian. Thank you, Mr. Chairman. I would agree we 
face all the threats that you have described, and it can be 
frustrating--threats from potential terrorists, drug smugglers, 
alien smugglers, human traffickers, you name it, and those are 
the threats that we face. I think we should think about it in 
terms of how we address those threats, and we do it in a couple 
of ways.
    First, we have to have really robust prosecution regimes, 
and I think our U.S. Attorney's Offices along the Northern 
Border, I know them all, I know their offices. They work hard. 
They bring good cases. And now that we are staffing back up 
after some of the lean budget years that we experienced, I 
think that things are looking up and the future is bright for 
us. Robust enforcement is certainly very important.
    The second thing that we need is close collaboration 
between our law enforcement agencies and with our Canadian 
counterparts. And we could use some assistance perhaps with 
some of our DOJ law enforcement agencies having resources to 
work within some of these task force formats, ATF and DEA in 
particular. But we have to work toward integration, I think, 
with our Canadian counterparts, and we are taking steps to get 
there.
    And then, finally, as you described--and this was a very 
important point--we have to address some root causes, and I 
think we have to take a comprehensive approach to the drug 
problem that we have and to the crime problem that we have. And 
that means to do other things other than just prosecute and 
incarcerate people. We cannot just do that. We have to take a 
more well-rounded approach. We have to spend effort on reentry 
and on prevention. And I think the Attorney General's Smart on 
Crime Program is well designed to take a comprehensive approach 
toward our crime problem.
    So thank you for the opportunity to be here today. I 
appreciate it.
    Chairman Johnson. Well, thank you. We are actually working 
on right now a field hearing on high levels of incarceration 
rates--we will probably do that in Milwaukee--somewhat talking 
about the issue you raised there.
    I did want to ask you a question because coming as a 
district attorney in the Northern Border sector, when we were 
down in McAllen, we just did a Sunday drive, just driving 
around with people during off-hours, and local law enforcement 
was telling me that the fight over prosecutorial jurisdiction 
is not the fight that I would have expected. Normally I am 
hearing people, they want the collar; they want to be able to 
prosecute that criminal. That is not the case on the Southern 
Border because it is so expensive to prosecute and people's 
budgets are strained. Basically they are fighting over not 
having to prosecute individuals, and as a result, anecdotally 
we were told that unless, for example, there is at least 500 
pounds of marijuana, they just do not even bother with 
prosecution. Now, that is on the Southern Border. As long as 
you are district attorney on the Northern Border, what are the 
jurisdictional battles? What are the types of prosecution 
thresholds, the discretion that you use?
    Mr. Hartunian. We do have thresholds, and, typically the 
larger drug quantities are prosecuted in Federal court 
primarily. We work very closely with our local district 
attorneys, particularly along the Northern Border, the four-
county border area in the Northern District of New York. And 
when we have a case that perhaps does not rise to the level of 
a Federal prosecution, we will consult with our State 
counterparts, and the case may end up being prosecuted in State 
court.
    I think we work collaboratively with them. I would not say 
that there is a competition or a desire to hand cases off. My 
experience is that we work very well, that we have particular 
interests and needs and priorities, and I think we can meld 
those together quite well.
    Chairman Johnson. I have got 4 minutes left to vote. You 
have already voted, so will you close out the hearing? Is that 
okey-dokey? I am kind of a rookie here. OK.
    Let me just say again thank you all for the time you took. 
I read the testimony. It is all very thoughtful. I know there 
is a lot of work and detail that goes into it, so thank you for 
taking that time and taking your time here to come and testify, 
your very thoughtful answers to our questions, and I want to 
thank all my colleagues. This was a very well attended hearing 
which I think indicates really how importantly we view this 
problem. But it also speaks to the complexity. There is an 
awful lot of questions that need at least some answers, and I 
know those answers are very difficult to get to.
    So, again, I want to thank you, and I will turn it over to 
our Ranking Member, Senator Carper. Thank you.
    Senator Carper [presiding]. Thank you. Thank you all for 
hanging in here with us. At this point in time, the Finance 
Committee has been in a markup--we call it a ``business 
meeting''--on the trade legislation, Trans-Pacific Partnership, 
Trade Promotion Authority, so I am trying to be in two places 
at once and not doing it too well. And we are voting, so it is 
a full morning.
    I want to ask a question that goes back to something that--
I do not know, Chief, if you said it or Mr. Wagner said it, but 
somebody said it, and you mentioned--maybe, Mr. Hartunian, it 
was you. But the matter of Native American lands was mentioned 
that is actually on the border between our country and Canada. 
And we have a similar situation along the border with Mexico. 
And at times I have heard from the Mexican border that 
sometimes drug smugglers, human traffickers--use that land as a 
conduit to get through and try to get the cooperation of the 
folks who own that and live on that land.
    Whoever raised this, would you and others just chime in 
about how this is of interest to us on the northern as well as 
on the Southern Border? Mr. Spero.
    Mr. Spero. Yes, Senator, thank you. That is true; there 
certainly are some complexities when conducting investigations 
of crime on the Native American reservations. One of the 
complexities certainly on the Northern Border in the area of 
the Akwesasne Mohawk Indian Reservation that Mr. Hartunian and 
I share jurisdiction with is just plain the geography, sir. It 
is tough terrain up there, and it is ripe for smugglers to 
exploit in all seasons. And then certainly you have that 
added--the winter months----
    Senator Carper. I am sure you said this. Which country is 
it in?
    Mr. Spero. The Akwesasne Indian Reservation actually has 
territory both on the Canadian side and on the United States 
side, and the geography itself poses a lot of challenges toward 
law enforcement.
    On top of the geography, in addition to the geography, 
there is some political sensitivities with the Native 
population wanting to maintain as much sovereignty as they can, 
so sometimes it is difficult for us to conduct--we have to 
overcome that challenge of gaining their trust. In some cases, 
it is a very close knit, small population, and that again poses 
some issues or challenges for us that are somewhat unique.
    But, on the other hand, one of the things that is getting 
better from our standpoint and we are making a lot more 
progress is our Massena BEST up there.
    Senator Carper. I am sorry?
    Mr. Spero. Our Massena Border Enforcement Security Task 
Force. We actually have the Akwesasne Mohawk Police Service 
representatives on that--participate on the task force, as well 
as the St. Regis police officers on our task force. There are 
members that have been cross-designated with Title 19 
authority, so essentially they are deputized customs agents, 
and they are working those cases with us to help reduce those 
vulnerabilities.
    In reality, we know all of the challenges I met. The 
smuggling organizations know what they are, too, and they try 
and do their best to exploit everything. So we are trying to do 
a better job with our outreach on the Indian reservation, our 
close coordination and collaboration with the Native American 
police force on that reservation, and working together to do 
everything we can to mitigate that threat, sir.
    Senator Carper. All right. Others on this point, please. 
Anybody?
    [No response.]
    Chief, Mr. Wagner, let us go down to the Southern Border 
with Mexico. Do we have a similar situation in some areas along 
the Southern Border? And how do we figure out how to work with 
the Native Americans to be able to secure that portion of the 
border?
    Mr. Fisher. Yes, Senator. As described in the Akwesasne, on 
the Tohono O'odham Reservation on the southwest border, which 
the geography takes on the western portion in Arizona, both in 
Tucson and what we call the ``West Desert,'' that tribe does 
extend in the United States and into Mexico, and so part of 
their--when we look at the border in terms of trying to 
identify likely routes of entry, over the years as we have 
built both primary pedestrian fence and vehicle barricades, it 
is always challenging to try to work with the tribe, work with 
the leadership in the tribe, and letting them know, if they 
will allow us to put some impediments along the border, or 
bring infrastructure or technology to help increase our 
situational awareness, early in those discussions years ago it 
was very difficult to make the case, until the infrastructure 
and technology started to manifest around the reservation, 
which obviously the path of least resistance came through the 
Tohono O'odham Nation.
    As a matter of fact, up until the middle of 2013, the vast 
majority of trafficking across the Southern Border came through 
Arizona, and the vast majority of that traffic came through the 
West Desert through the Nation. They realize the vulnerability, 
and we are working a lot better with them.
    As a matter of fact, we are currently in the process of 
developing integrated fixed towers. The first phase of that, as 
you well know, was in Nogales. In late summer, we are in the 
process going to transition into Phase 2, and we currently have 
authorization from the tribe to be able to move into deployment 
of integrated fixed towers to cover a vast region of that 
reservation. So that will be for us something that has been a 
long time in coming, sir.
    Senator Carper. All right. Thanks. Thanks very much.
    The last question I will present to all of you here today 
goes back to something I oftentimes say. I like to say: ``Find 
out what works, do more of that. Find out what does not work, 
and do less of that.'' And the advice was actually presented to 
the Finance Committee a couple years ago when I was serving on 
it at a hearing by Alan Blinder. Alan Blinder, when he was 
asked what should we do on deficit reduction, what should we do 
on deficit reduction with respect to health care, reining in 
health care costs, he said, ``I am not an expert on this stuff. 
I am not a health economist. But here is what I would do: Find 
out what works, do more of that.'' And I said, ``Do you mean 
find out what does not work and do less of that?'' He said, 
``Yep.''
    So with that spirit and with that thought in mind, could 
you all just take maybe a minute or so apiece and just talk to 
us again about what is working on the Northern Border, that 
appears to be working, that is replicable particularly along 
our Southern Border? Maybe you could each just pick one point, 
something that is working along the Northern Border that is 
worth replicating and can be exported to the Southern Border, 
and maybe some of the best practices from your experience, your 
observations on the Northern Border that we would be smart to 
try on the Southern Border.
    Mr. Hartunian, do you want to go first?
    Mr. Hartunian. Yes, thank you, Senator. Great question. 
What is working? Robust enforcement. And that is not to say 
that is not happening on the Southern Border. I think our U.S. 
Attorney's Offices all along the border are working very hard. 
Their people, their AUSAs, are really working hard to get the 
job done. But it is certainly a critical component.
    I think what works on the Northern Border is close 
collaboration with the Canadians, and while that might be a bit 
more challenging in Mexico, I think it can be done, and close 
collaboration between the prosecutors of both nations, and that 
is something that we are seeing happen more and more. We are 
working to improve that, make that happen more frequently, and 
I think that that is certainly an important approach that we 
can take. So I would highlight those two things.
    Senator Carper. Good. Thank you. Is one of the reasons why 
maybe we work better with the Canadians in terms of sharing 
information is we have less concerns about that information 
finding itself in the wrong hands in Canada?
    Mr. Hartunian. Well, I think that there is cooperation with 
the Mexican authorities. I think in all cases we have to be 
careful how we share law enforcement information. That is 
certainly not a barrier that cannot be overcome.
    Senator Carper. OK. Good. Thank you.
    Mr. Rodriguez, please.
    Mr. Rodriguez. All right. From my----
    Senator Carper. You were in DEA for a while, weren't you, 
for a number of years?
    Mr. Rodriguez. For 27 years, Senator.
    Senator Carper. That is great. Thank you for that as well.
    Mr. Rodriguez. From my perspective, it is just not the one 
meeting, the one event, the one policy discussion. We have a 
number of conversations both with our Federal partners on the 
border as well as with Canadians year-round. It could be case 
specific. It could be program specific. And if we have to, we 
then follow up on these discussions where we will put a working 
group together to work on maybe some Shiprider issues or some 
intel issues that we need to look at specifically MDMA, or 
Ecstasy.
    And so I think those are the best practices that work well 
for us on the Northern Border and that makes us unique, and 
that we need to keep going and hopefully we can eventually have 
those types of processes in place on the Southern Border to 
help there.
    Senator Carper. All right. Thanks.
    Mr. Spero, same question, please.
    Mr. Spero. Senator Carper, I appreciate the question. I 
actually had a little bit of extra time to formulate my answer, 
and I guess the best way for me to describe it or the way I 
look at it is that it is not necessarily how do we take what is 
working on the Northern Border and bring it down to the 
Southern Border. But it is an exchange of best practices across 
both borders as well as the interior of the United States. And 
I use the Border Enforcement Security Task Forces, as an 
example. The BEST was originally created in Laredo in 2005 to 
combat the violence associated with the transnational criminal 
organizations that were affecting specifically the Southern 
Border.
    That model, the success of that model, with the 
collaboration and cooperation and working together on the cases 
was then brought up to the Northern Border, and now we have 
four Northern Border BEST task forces. I happen to oversee two 
in my AOR of Buffalo, the Port of Buffalo BEST as well as the 
Massena BEST.
    But at the same time, it does not just stop there. We do 
not bring what we have learned from the southwest border and 
bring it up to the Northern Border. We had a framework, a great 
framework to start with, but then we take that to the next 
level, so our abilities to expand those BESTs, we actually have 
over 40--just about 43 members now of our BEST team in Massena. 
So our abilities to incorporate our Canadian law enforcement 
counterparts at all levels, whether it is the RCMP or the CBSA, 
but the Surete du Quebec or the regional police offices, and 
having as much--not just information sharing, because, of 
course, information sharing is extremely important, but we are 
able to actually take the information in those collaboration 
sessions and put them to use in our investigations. And that is 
how we complete that last piece of identifying, disrupting, and 
dismantling the transnational criminal organizations that are 
the biggest threats to the homeland.
    Senator Carper. Good. Thank you. Mr. Wagner.
    Mr. Wagner. Senator, at the ports of entry, really we focus 
on the risk segmentation of the workload and looking at ways to 
better utilize the physical infrastructure that is there and 
getting the most efficiencies we can out of it.
    Now, how we define something as lower risk or higher risk 
is all dependent on what access to what systems we have, the 
analysis and the targeting capabilities. That is also enhanced 
by what our foreign partners are sharing with us. We have very 
good data exchange, information exchange with the Canadian 
Government and the Mexican Government. They have different 
capacities as to what access they can get, what information 
they collect, and then within their own privacy constraints 
what they can share with us. But it is a little different 
within both countries, but we do a very robust information 
exchange with the Mexican Government as well as the Canadian 
Government that helps us make that risk segmentation 
determination.
    Senator Carper. Good. Chief, my time has expired, and my 
colleagues are back. Would you answer that question for me for 
the record, please?
    Mr. Fisher. Yes, Senator. You mentioned it briefly. I think 
it is the institutionalization of what we see on the Northern 
Border in terms of shared information, integrated percentage 
and execution, which then you have a degree of sustainability 
in that effort. We can do a lot better on the Southern Border 
in that regard.
    Thank you, Senator.
    Senator Carper. Thank you very much. Thank you all. Great 
job.
    Chairman Johnson [presiding]. Thanks for holding down the 
fort. I found somebody on the Senate floor there. Senator 
Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. He just runs around the Senate floor 
picking up Senators.
    Thank you all for being here. I appreciate it. And, 
representing New Hampshire, the Northern Border is pretty 
important to us. And I am not sure if you have been asked this 
question yet, the Director of National Intelligence (DNI), 
James Clapper, has identified drug trafficking obviously as a 
major transnational threat. In my State we are seeing a heroin 
epidemic, and I know a lot of that is coming over the Southern 
Border.
    So what are the biggest issues that we are facing on the 
Northern Border? And can you help me understand how is the 
information sharing with Canadian authorities? Because that is 
where my local law enforcement and my State police and even the 
Federal officials that work in New Hampshire would be working 
with on the Canadian side. Whoever is best to take that 
question.
    Mr. Spero. Thank you, Senator. Well, with specifics to 
heroin, you are right, we are seeing heroin that is coming up 
through Mexico, and the intelligence that we are developing 
from our ongoing criminal investigations and our closed 
investigations is that, we are seeing either precursor 
chemicals or heroin coming from China. It is being imported 
into Mexico under the control of the cartels. The cartels are 
using the existing smuggling networks to get them into the 
United States through the southwest border, and whether the 
smuggling networks are used to smuggle anything, so whether it 
is people or whether it is drugs, the cartels have control of 
the networks and the pathways, and they are using that to get 
heroin into the country for either ultimate consumption here in 
the United States or in some cases on into Canada as well.
    One of the things that we were talking about was our 
ability and our need to make sure that we do everything that we 
can across all levels of law enforcement, whether it is 
Federal, State, or local law enforcement, or in my particular 
neck of the wood, even travel law enforcement, and 
international law enforcement as well, particularly with our 
Canadian counterparts on the Canadian side of the border.
    Where we have the biggest issues in my particular AOR, the 
Massena or Rouses Point area, we use our Border Enforcement 
Security Task Forces as a mechanism to share information back 
and forth with our Canadian counterparts.
    So we actually have cross-designated--we have given 
essentially Title 19 or customs authority basically making 
State and local law enforcement designated customs officials, 
but also we are able to do that with Canadian local law 
enforcement officials as well. And then they can come and work 
the networks on this side of the border.
    So the idea here is to open up information sharing, work 
the cases together, instead of--not only trying to remove the 
U.S.-Canadian border as a potential barrier to law enforcement, 
or in some cases we are even actually able to use it to our 
advantage. So we understand that it is a problem. Heroin seems 
to be on the rise. But one of the things that we think is the 
best way to identify, disrupt, or dismantle these transnational 
criminal organizations, no matter what commodity they smuggle, 
whether it is heroin, whether it is cocaine, or whether it is 
marijuana--or firearms, for that matter--is to identify the 
scope of the organization in the source countries, the transit 
countries, the destinations countries, and work together with 
law enforcement at all levels to share the information and work 
the cases.
    Senator Ayotte. So I get all that, just thinking about how 
do we drive up the price of heroin? Because one of the problems 
we have right now with heroin is it is so cheap. Obviously, the 
more we can make it tougher for them to transport this stuff 
over--it is so cheap that some people are addicted to 
prescription drugs. They go over to heroin, and it is really 
fueling this huge public health epidemic, not just in New 
Hampshire. It is across this country. Do we need to give you 
bigger tools? What do we need to give you to help you to drive 
up the price to really come down on the people transporting 
heroin?
    Mr. Spero. One of the things that we look at in any of the 
drug trade, whether it is heroin, and I should have also 
mentioned before that, the newer trends that we are seeing with 
respect to heroin is the heroin laced with fentanyl, which is 
really the deadliest----
    Senator Ayotte. Yes, and it is like heroin on steroids, 
basically.
    Mr. Spero. Absolutely, ma'am. As with any business model, I 
think that, if we can be more effective at reducing the supply, 
then that would be one way to drive up the price.
    Another thing that we are trying to do is with almost every 
enforcement program that we have at Homeland Security 
Investigations, there is also a public outreach or a public 
service announcement message that goes along with it. So if we 
do have a particularly big search warrant, where there is a big 
seizure or a big arrest or a big sentence, we try and get out 
to the public that, hey, if it is the kids that are using the 
heroin laced with fentanyl, to get out there and say, look, 
there are some--you do not know what you are using or what the 
impacts are on you. So not only did we just conduct this 
investigation and make this arrest, but, parents, kids, this is 
why it is important that you do not use it because you do not--
--
    Senator Ayotte. Yes, we have to do a better job overall 
with that.
    I have a question about in terms of Canada, as I understand 
it right now--and I am not sure, whoever the best person to 
answer the question, I will just field it. Right now, as I 
understand it, Canada does not have a system in place to screen 
inbound airplane passengers against the terrorist watchlist, 
and so they are moving toward the capability. Is this true? And 
if so, those on the terrorist watchlist can presumably enter 
Canada on an airplane? Is that true? Who knows about that, and 
can you help me understand that? Because I am really worried 
about, we have these foreign fighters that have gone to 
obviously Syria, Iraq, Yemen. Some of them are Canadians. We 
have had some Americans, too. But, Canada is fairly--we have a 
great relationship with Canada, and so if you can get to 
Canada, it is really not that hard to get to the United States 
of America. So what are your thoughts on this problem?
    Mr. Wagner. I do not know if they have direct access to the 
U.S. Government watchlist and that they screen against that 
directly. But they have a similar system that we do of 
screening airline passengers against the airline reservation 
systems and the airline manifests before that person comes into 
that country. We work very closely with them, and we identify 
similar approaches to how we screen that. We call them 
``rules,'' and we set rules against how we scrub that data and 
how we identify national security or any other types of 
concerns. We do joint rule creation. We do rules exchanges, and 
we have certain protocols in place that when certain rules 
fire, we will exchange information and ask each other country 
about additional information.
    Senator Ayotte. Do you know if they have the equivalent of 
our terrorist watchlist? What are they checking their passenger 
list against? Do you know the answer to that?
    Mr. Wagner. It is against their own systems and their own 
list, so they do, I believe, have a national security list. 
They have customs records. They have immigration lookouts. They 
have access to the Interpol lost and stolen database.
    Senator Ayotte. So can I ask you a question? Just when you 
are thinking about a friendly neighbor like Canada, why 
couldn't we join forces on some of that in terms of terrorist 
watchlist information? I know we do information sharing, but it 
seems to me that if we cannot trust the Canadians, we are in 
trouble. Any thoughts on that?
    Mr. Wagner. We do not own that information, so it really 
would not be ours to exchange with them. But as consumers and 
users of it, we would certainly welcome access to any 
additional sources of information.
    Senator Ayotte. Maybe I am asking that of the wrong person, 
but I am the Chair of the Aviation Committee, and I think this 
is perhaps a question I should direct to TSA.
    Mr. Wagner. Just one final point. If somebody does fly into 
Canada and drive across the border, we run the same database 
checks and the same watchlist checks at the land border as we 
do in commercial aviation. They are the same systems and the 
same databases we are checking.
    Senator Ayotte. Good. So you would catch it there.
    Mr. Wagner. Correct.
    Senator Ayotte. Catch an individual there if they 
presumably were on our list, even if Canada did not catch it.
    Mr. Wagner. Correct.
    Senator Ayotte. OK. Great. Thanks.
    Chairman Johnson. Thank you, Senator Ayotte. That is a 
really good point. My understanding is the same as yours, that 
they are not using our watchlist, and that is something I think 
we need to press to see what we can do to cooperate between two 
governments.
    Senator Ayotte. Especially since it is between two 
governments that have a friendly relationship.
    Chairman Johnson. Correct. So, again, thank you for coming. 
Again, thank you all for your time, your efforts, and your 
testimony.
    This hearing record will remain open for 15 days until May 
7 at 5 p.m. for the submission of statements and questions for 
the record.
    This hearing is adjourned.
    [Whereupon, at 12:01 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                      SECURING THE BORDER: FENCING
            INFRASTRUCTURE, AND TECHNOLOGY FORCE MULTIPLIERS

                              ----------                              


                        WEDNESDAY, MAY 13, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:22 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Sasse, Carper, Tester, 
Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order. Our 
Ranking Member is still a few minutes out, so we will get 
underway here. When he gets here, I will express again the fact 
that we are very glad that Senator Carper's stop was in 
Wilmington. He was actually on the train that derailed, and, of 
course, our thoughts and prayers are with the families and 
victims of that tragedy. And our thoughts and prayers are also 
with all of our law enforcement officials that step out on 
their doorstep every day and risk their lives for our public 
safety. And rather than me say it, I cannot say it better than 
what Secretary Jeh Johnson said in a letter, and I would just 
like to read this.
    ``Dear Colleagues: This is National Police Week. This week, 
we honor the sacrifice and commitment of men and women in our 
law enforcement. We pay special tribute to those in law 
enforcement who have given their lives in the line of duty, and 
we offer our support to their families.''
    ``Last year, our Department lost two Border Patrol agents 
in the line of duty: Alexander Giannini and Tyler Robledo. This 
week, Agents Giannini and Robledo's names will be added to the 
National Law Enforcement Officers (NLEO) Memorial in 
Washington, DC.''
    ``I am also mindful of Border Patrol Agent Javier Vega, 
Jr., who last August was killed during a robbery while fishing 
with his family in Texas.''
    ``Wherever you are this week, I encourage you to honor 
those who have chosen the law enforcement profession.''
    I guess I would just ask everybody here in the hearing 
room, in light of and in honor of those individuals that 
Secretary Johnson was commending, as well as all of our law 
enforcement officials that have given their last full measure, 
just if we recognize a moment of silence.
    [Moment of silence.]
    Thank you. I can actually ask consent to have my opening 
statement read into the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Chairman Johnson appears in the 
Appendix on page 1129.
---------------------------------------------------------------------------
    I guess what I would like to do is get right down to 
testimony. It is the tradition of this Committee that we swear 
in witnesses, so if everybody would rise and raise your right 
hand. Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Alles. I do.
    Mr. Borkowski. I do.
    Mr. Vitiello. I do.
    Ms. Duong. I do.
    Ms. Gambler. I do.
    Mr. Garcia. I do.
    Chairman Johnson. Thank you. Please be seated.
    Our first witness is Assistant Commissioner Randolph Alles. 
Randolph Alles is the Assistant Commissioner for the Office of 
Air and Marine (OAM) with the U.S. Customs and Border 
Protection (CBP) of the Department of Homeland Security (DHS). 
OAM is the world's largest aviation and maritime law 
enforcement organization. Before joining OAM, Mr. Alles served 
in the U.S. Marine Corps for 35 years, retiring in 2011 as a 
Major General. Assistant Commissioner Alles.

  TESTIMONY OF RANDOLPH D. ALLES,\2\ ASSISTANT COMMISSIONER, 
 OFFICE OF AIR AND MARINE, U.S. CUSTOMS AND BORDER PROTECTION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Alles. Thank you, sir, and good afternoon. It is good 
to see you again. You may recall we last visited our P-3 and 
the unmanned aircraft systems (UAS) site in Corpus Christi in 
January, so thank you for coming down to see that. And I would 
always just encourage any Members of the Committee to come 
visit our sites. I think that is very beneficial in 
understanding what we do better.
---------------------------------------------------------------------------
    \2\ The joint prepared statement of Mr. Alles appears in the 
Appendix on page 1131.
---------------------------------------------------------------------------
    As you noted, CBP's Office of Air and Marine is a critical 
component of our layered border strategy. OAM's 1,272 law 
enforcement personnel operate 257 aircraft, 283 vessels, and a 
sophisticated domain awareness network across the United 
States, Puerto Rico, and the Virgin Islands. OAM's critical 
aerial and maritime missions fall into four core competencies: 
domain awareness, investigation, interdiction, and contingency 
operations/national taskings.
    We not only contribute to the security of our land border 
but facilitate efforts, along with the U.S. Coast Guard (USCG), 
to secure the Nation's 95,000 miles of coastal shoreline 
through the coordinated use of integrated air and marine 
forces.
    Since the consolidation of air and marine assets within OAM 
11 years ago, we have transformed a border air wing composed 
primarily of light observation aircraft into a modern air and 
maritime fleet with sophisticated surveillance sensors and 
communications systems.
    We are working to increase the connectivity and networking 
among all our air and marine assets. We are also continuing the 
effort to reduce the number of our aircraft types and position 
our assets for highest utilization, which will increase both 
the efficiency and effectiveness of our operations.
    I would like to take this opportunity to highlight a few of 
our key assets and describe how technology is a viable force 
multiplier that furthers CBP's efforts to identify, monitor, 
and appropriately respond to threats to our Nation's borders.
    First is our MQ9 Predator UAS. It continues to play a 
critical role in advancing CBP's comprehensive border strategy 
and management by increasing situational awareness of the air, 
land, and maritime environments. It just returned from a 
deployment in El Salvador where it contributed to seizures of 
$362 million of contraband, so a very effective deployment 
force.
    Second is our Multi-Role Enforcement Aircraft, which is a 
highly capable aircraft with sophisticated technology systems 
that enable it to be effective over both land and water. These 
are replacing several of our older aircraft, single-mission 
aircraft inside CBP, so it will be a very beneficial force.
    Beyond that, we use our CBP--beyond our borders, we use our 
P-3 Long-Range Tracking and Airborne Early Warning Aircraft, 
which have been central in countering narcotic operations in 
the transit zone and also against transnational criminal 
organizations that are moving drugs out of the source zone 
through the transit zone and in toward the United States.
    We work in conjunction with aviation assets, interceptor 
vessels to operate in coastal waters to combat smuggling, and 
protect U.S. ports from acts of terrorism. And then, finally, 
we have our Air and Marine Operations Center (AMOC), which is a 
national task force that focuses on criminal use of non-
commercial air and maritime conveyances approaching, crossing, 
or operating inside the borders of the United States and Puerto 
Rico.
    So, Chairman Johnson and the Ranking Member when he comes 
and distinguished Members of the Committee, thank you for the 
opportunity to discuss OAM's capabilities and our efforts in 
securing our borders. I look forward to taking your questions 
and, of course, look forward if you can come out to our sites. 
Thank you.
    Chairman Johnson. Thank you.
    Our next witness is Assistant Commissioner Mark Borkowski. 
He is the Assistant Commissioner for the Office of Technology 
Innovation and Acquisition (OTIA) with the U.S. Customs and 
Border Protection of the Department of Homeland Security. He is 
responsible for ensuring technology efforts are properly 
focused on mission and well integrated across CBP. Mr. 
Borkowski also serves as CBP's Component Acquisition Executive. 
Prior to his appointment, Mr. Borkowski served as Executive 
Director of the Secure Border Initiative Program Executive 
Office. Mr. Borkowski.

TESTIMONY OF MARK BORKOWSKI,\1\ ASSISTANT COMMISSIONER, OFFICE 
  OF TECHNOLOGY INNOVATION AND ACQUISITION, U.S. CUSTOMS AND 
    BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Borkowski. Thank you, Chairman Johnson and Senator 
Booker. I very much appreciate the opportunity to be here 
today.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Borkowski appears in the 
Appendix on page 1131.
---------------------------------------------------------------------------
    I represent the acquisition community, and our 
responsibility is to deliver the stuff that the operators need. 
We buy it. I know there is some question about the distinction 
between us and, for example, DHS Science and Technology (S&T), 
so let me highlight that a little bit to start.
    DHS S&T makes sure there is stuff there, because it is not 
always ready. We do not always have systems, technologies, 
software that we need. So it first has to be there. Once it is 
there, we have to figure out how best to get it, and that means 
we have to know what the options are. We have to do the 
business case analysis. We have to figure out how many to buy. 
And we have to understand why we are buying it. And for that, 
of course, we ask the people in uniform, the green, or the tan, 
or the blue uniforms, the folks sitting to either side. They 
are the ones who describe what we need. It is our job then in 
Acquisition to somehow put that in practice and actually 
deliver capability that those operators can use to produce 
mission outcomes.
    Our focus, the thing we have gotten the most attention on 
recently, has been the technology for surveillance between the 
ports of entry. As you know, there is a past program called the 
Secure Border Initiative-network (SBInet), which was a very 
challenging program, and although it eventually delivered very 
effective capability, we concluded it was not the right system 
to go across the entire border, and it was much too expensive.
    So we scaled down our ambitions somewhat and selected a 
much more modest portfolio of systems that the Border Patrol 
selected and tailored to each area of the border. We focused 
that on Arizona because that is where the action was at the 
time. We are in the throes of completing that plan, which we 
call the ``Arizona Technology Plan,'' and it consists of 
everything from small--you can imagine handheld, long-range, 
binocular-like sensors, to more complex systems on high towers 
with radars and cameras that are connected in a command and 
control center. And the purpose of those systems is to give the 
Border Patrol better information about what is on the ground, 
what the threat of that activity is, whether it is a migrant or 
it is somebody carrying a weapon, and more options for how to 
respond.
    Outside of Arizona, obviously, the Border Patrol has 
indicated to us that there is activity, that there is 
migration. As we have done things in Arizona, traffic has 
migrated or for a variety of other reasons. South Texas, as you 
know, is an area.
    What we have done is because we were successful in the 
Arizona Technology Plan, at least in saving money, we have been 
able to divert resources to South Texas, and largely that has 
been based on the Department of Defense (DOD) reuse. Congress 
has been a strong advocate of us partnering with the Department 
of Defense to use what was already taxpayer investments, to 
leverage those for our capacity, and we have been very 
successful with that in South Texas. For example, we are flying 
aerostats now, and we now have surveillance that we probably 
would not have had until 2018 or 2019 with budget realities.
    So that is a quick summary of our progress and what 
Acquisition does, and I very much look forward to answering 
your questions as we go forward.
    Chairman Johnson. Thank you.
    Our next witness is Deputy Chief Ronald Vitiello. He is the 
Deputy Chief of the Border Patrol. Deputy Vitiello has served 
as an agent and in supervisory roles at the Laredo Sector, 
Tucson Sector, and as Chief Patrol Agent of the Rio Grande 
Valley Sector. Deputy Chief Vitiello.

TESTIMONY OF RONALD VITIELLO,\1\ DEPUTY CHIEF, OFFICE OF BORDER 
PATROL, U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Vitiello. Thank you, Chairman Johnson, Senator Booker. 
It is a pleasure for me to be here to appear before you to 
discuss how technology and tactical infrastructure act as force 
multipliers toward the U.S. Border Patrol's border security 
enforcement efforts between the ports of entry (POE). I am 
pleased to represent for Border Patrol agents the crucial 
contribution they make to CBP and the Homeland Security 
Enterprise (HSE) in DHS.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Vitiello appears in the 
Appendix on page 1131.
---------------------------------------------------------------------------
    This is a special week in Washington, culminating in the 
National Police Officers Memorial on Friday on the South 
Capitol Lawn.
    Earlier today, we observed Chief Fisher, the Commissioner, 
the Deputy Commissioner, the Deputy Secretary, and the 
Secretary commemorate the valor of CBP's fallen, specifically 
in the unveiling of two new names on the CBP Valor Memorial, 
Border Patrol Agents Giannini and Robledo. We honor them and 
the 115 other guardians of the Nation's lost in 2014.
    While the basic Border Patrol mission to secure the 
Nation's borders from illegal entry of persons and goods has 
not changed in the past 90 years, the operational environment 
in which we work and the threats we face have changed 
dramatically.
    Today our mission includes deterring acts of terrorism, 
detecting and intercepting human and drug and weapons smuggling 
and trafficking, and preventing and responding to other 
criminal activity. The effective deployment of fixed and mobile 
technology and tactical infrastructure is critical to Border 
Patrol operations. With these resources, our front line is more 
informed, more effective, and safer.
    The Border Patrol works closely with our operational 
intelligence, technology development, and acquisitions 
colleagues within CBP and DHS to develop requirements to test, 
evaluate, and ultimately deploy technology and infrastructure.
    The deployment of tactical infrastructure, including 
fencing, roads, and lighting, is a critical component of our 
security efforts. It denies, deters, and slows down illegal 
entrants, providing more time for agents to respond. Detection 
technology supplements physical barriers by extending the 
visual range and awareness of agents. Ground sensors alert 
agents to movements and activity while mounted cameras and 
sensors on aircraft, fixed towers, and on Border Patrol 
vehicles can be controlled remotely to verify targets.
    All of this technology and infrastructure works together 
and ultimately enables the Border Patrol to gain situational 
awareness, direct a response team to the interdiction location, 
and forewarn of any danger otherwise unknown along the way.
    The Border Patrol continually evaluates our situational 
awareness posture and adjusts our capabilities to secure our 
borders. We work closely with OTIA and CBP and DHS' Science and 
Technology Directorate to identify and develop technology such 
as tunnel detection and monitoring technologies, small unmanned 
aircraft systems, tactical communication upgrades, and border 
surveillance tools tailored for the southwest and northern 
borders.
    There is no doubt that technology is a critical factor in 
the Border Patrol's Strategic Plan, which implements a security 
approach based on risk. The strategy going forward will 
emphasize joint planning and execution, advancing 
counternetwork approach, and a DHS-wide unity of effort.
    Thanks again for the opportunity to testify how technology 
and tactical infrastructure help us secure the border.
    Chairman Johnson. Thank you.
    Our next witness is Director Anh Duong. Director Duong is 
the Director of Borders and Maritime Security Division in the 
Science and Technology Directorate of the Department of 
Homeland Security, where she focuses on developing technologies 
to put into operational use along our sea, land, and air 
borders and ports of entry. Ms. Duong came to the United States 
as a refugee of war from Vietnam and spent 25 years working in 
Naval Science and Technology, directing all of U.S. Navy 
explosives research and development. Ms. Duong.

   TESTIMONY OF ANH DUONG,\1\ DIRECTOR, BORDERS AND MARITIME 
SECURITY DIVISION, DIRECTORATE OF SCIENCE AND TECHNOLOGY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Duong. Good afternoon, Chairman Johnson and Senator 
Booker. Thank you for this opportunity to testify along with my 
colleagues from Customs and Border Protection with whom we work 
closely.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Duong appears in the Appendix on 
page 1147.
---------------------------------------------------------------------------
    The Science & Technology Directorate's, mission is to 
deliver effective and innovative insight, methods, and 
solutions for the critical needs of the Homeland Security 
Enterprise.
    Under the leadership of Under Secretary Brothers, S&T has 
refined our strategic direction and defined our visionary goals 
which are driven by the 2014 Quadrennial Homeland Security 
Review (QHSR), White House policy, congressional guidance, and 
Secretary Johnson's Unity of Effort Initiative. These goals 
are:
    Screening at Speed: Security that Matches the Pace of Life;
    A Trusted Cyber Future: Protecting Privacy, Commerce, and 
Community;
    Enable the Decision Maker: Actionable Information at the 
Speed of Thought;
    Responder of the Future: Protected, Connected, and Fully 
Aware;
    And Resilient Communities: Disaster-Proofing Society.
    Three of these goals are directly relevant to border 
security: Screening at Speed, Enable the Decision Maker, and 
Responder of the Future. All three require a common enabler--
namely, situational awareness--in order to screen people and 
goods with minimum disruption to the pace of life, enable 
decisionmakers at various levels, and arm responders with 
information to keep them safe and fully aware.
    From an operational standpoint, given our broad border 
against a multitude of ever changing threats, the need for 
total situational awareness is paramount. S&T employs 
technology as a powerful force multiplier to improve 
situational awareness, which in turn enables risk-based 
security, a key DHS strategy.
    Considering both S&T visionary goals and today's 
operational needs, we are pursuing an enterprise capability to 
provide improved situational awareness across the Homeland 
Security Enterprise called the ``Border and Coastal Information 
System,'' (BACIS). This work includes integrating and 
federating existing stand-alone data sources, developing new 
sensor systems to create new data, developing and integrating 
decision support tools and analytics to translate data into 
actionable information, and sharing information with partners.
    Development for the BACIS is ongoing for the maritime 
environment. Work for our land borders started in fiscal year 
(FY) 2015, and work for our ports of entry is planned for 
fiscal year 2017. Toward blocking gaps in border situational 
awareness and providing new data sources, numerous S&T-
developed systems are undergoing operational assessment while 
providing interim capability. Examples include a buried 
tripwire system in Arizona to detect illegal border crossers, a 
tunnel activity monitoring system in Texas, a Canada-U.S. 
sensor sharing pilot, and a prototype system for detecting and 
tracking small dark aircraft in Washington. In operational use 
in Texas is a scanner that scans small aircraft for contraband.
    Technology is an essential ingredient of effective border 
security. S&T will continue to collaborate with our components 
and partners to bring technology to operational use and help 
enhance border security.
    I thank the Committee for giving me the opportunity to 
testify on this very important subject.
    Chairman Johnson. Thank you.
    Our next witness is Rebecca Gambler. Ms. Gambler is the 
Director of the U.S. Government Accountability Office's (GAO) 
Homeland Security and Justice Team where she leads GAO's work 
on border security, immigration, and DHS management. Prior to 
joining GAO, Ms. Gambler worked at the National Endowment for 
Democracy's International Forum for Democratic Studies. 
Director Gambler.

 TESTIMONY OF REBECCA GAMBLER,\1\ DIRECTOR, HOMELAND SECURITY 
       AND JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Gambler. Good afternoon, Chairman Johnson and Members 
of the Committee I appreciate the opportunity to testify at 
today's hearing to discuss GAO's work reviewing DHS efforts to 
acquire and deploy various technologies and other assets along 
U.S. borders.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Gambler appears in the Appendix 
on page 1153.
---------------------------------------------------------------------------
    DHS has employed a variety of assets in its efforts to 
secure the southwest border, including various land-based 
surveillance technologies, tactical infrastructure, which 
includes fencing, roads, and lighting, and air and marine 
craft. GAO has reported on DHS' management and oversight of 
these assets and programs, including numerous reports on 
surveillance technologies under the former Secure Border 
Initiative and the current Arizona Border Surveillance 
Technology Plan. GAO has also reported on fencing and other 
tactical infrastructure with about 652 miles of pedestrian 
vehicle fencing currently in place along the southwest border.
    My remarks today will reflect our findings in three areas 
related to DHS' efforts to secure the border: one, DHS' efforts 
to implement the Arizona Border Surveillance Technology Plan; 
two, CBP and the U.S. Immigration and Customs Enforcement (ICE) 
efforts to modernize radio systems; and, three, CBP Office of 
Air and Marine's mix and placement of assets.
    First, CBP has made progress toward deploying programs 
under the Arizona Border Surveillance Technology Plan, 
including fixed and mobile surveillance systems, agent portable 
devices, and ground sensors, and these technologies have aided 
CBP's border security efforts. However, we have also reported 
that CBP could do more to strengthen its management of the plan 
and technology programs and better assess the contributions of 
surveillance technologies to apprehensions and seizures along 
the southwest border.
    For example, CBP has experienced delays in some of its 
surveillance technology programs, and CBP's planned dates for 
initial and full operational capabilities for the integrated 
fixed towers, for instance, have slipped by several years.
    We have also previously reviewed CBP's schedules and life-
cycle cost estimates for its highest-cost programs under the 
plan and compared them against best practices. Overall, the 
schedules and estimates for the plan's programs reflected some 
but not all best practices, and we found that CBP could take 
further action to better ensure the reliability of its 
schedules and cost estimates by more fully applying best 
practices.
    Further, CBP has identified the mission benefits of its 
surveillance technologies such as improved situational 
awareness and agent safety. CBP has also begun requiring Border 
Patrol to record data within its database on whether or not an 
asset such as a camera assisted in an apprehension or seizure. 
These are positive steps; however, CBP needs to develop and 
implement performance measures and analyze data it is now 
collecting to be able to fully assess the contributions of its 
technologies to border security.
    Second, with regard to radio systems, earlier this year we 
reported that CBP and ICE had taken action to upgrade their 
tactical communications infrastructure. For example, CBP and 
ICE completed various modernization programs for their tactical 
communications such as upgrading outdated equipment and 
expanding coverage in some areas. However, agents and officers 
who use the radio systems reported experiencing challenges such 
as coverage gaps and interoperability issues which affected 
their operations. We also found that CBP and ICE could take 
further steps to strengthen and record training on upgraded 
radio systems provided to officers and agents.
    Third, with regard to air and marine assets, in 2012 we 
reported that the Office of Air and Marine could better ensure 
that its mix and placement of assets were effective and 
efficient by, for example, more clearly linking deployment 
decisions to mission needs and threats, documenting analyses 
used to support decisions on the mix and placement of assets, 
and considering how deployments of border technology affect 
requirements for air and marine assets. We found that these 
steps were needed to help CBP better determine the extent to 
which its allocation decisions were effective in addressing 
customer needs and threats.
    In closing, we have made recommendations to DHS in all of 
these areas and others to help the Department in its efforts to 
manage and implement technologies, infrastructure, and other 
assets to secure the border. DHS has agreed with some of these 
recommendations and has actions planned or underway to address 
some of them. We will continue to monitor DHS' efforts in 
response to our recommendations.
    Thank you again for inviting me to testify, and I would be 
pleased to answer any questions at the appropriate time.
    Chairman Johnson. Thank you.
    Our next witness is Michael Garcia. He is a Legislative 
Attorney for the Congressional Research Service (CRS) where he 
has worked since 2003. In this capacity, Mr. Garcia has focused 
on issues related to immigration, border security, 
international law, and national security. Mr. Garcia.

  TESTIMONY OF MICHAEL JOHN GARCIA,\1\ LEGISLATIVE ATTORNEY, 
    CONGRESSIONAL RESEARCH SERVICE, U.S. LIBRARY OF CONGRESS

    Mr. Garcia. Thank you, Chairman Johnson, Ranking Member 
Carper, and Members of the Committee. I am honored to be 
testifying before you today regarding the legal authorities and 
requirements related to the deployment of fencing and other 
barriers along the U.S. borders.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Garcia appears in the Appendix on 
page 1175.
---------------------------------------------------------------------------
    The primary statute governing barrier deployment is Section 
102 of the Illegal Immigration Reform and Immigrant 
Responsibility Act (IIRIRA) of 1996, which I will refer to as 
``the 1996 act.'' Section 102 was amended in 2005, 2006, and 
2007. These revisions, coupled with increasing funding for 
border projects, resulted in hundreds of miles of fencing being 
deployed along the southwest border. However, it appears 
additional fence deployment largely halted after 2011.
    Section 102 has three key features: Section 102(a) 
expressly authorizes DHS to deploy barriers and roads along the 
borders to deter illegal crossings. Section 102(b) provides 
that fencing shall be installed along not less than 700 miles 
of the southwest border, but fencing is not required at any 
particular location when DHS determines that other means are 
better suited to obtain control. And Section 102(c) allows the 
DHS Secretary to waive any legal requirement that impedes the 
expeditious construction of border barriers and roads.
    In recent years, attention has primarily focused on Section 
102(b) and 102(c), so I will focus my comments on those 
provisions.
    Prior to the most recent amendments to the 1996 act, 
Section 102(b) required DHS to construct double-layered fencing 
along five specific stretches of the southwest border. The 
current version of Section 102(b) no longer requires fencing to 
be double-layered and provides DHS with discretion regarding 
where fencing should be installed.
    Although Section 102(b) is sometimes characterized as 
requiring 700 miles of fencing, the provision actually states 
that fencing shall be deployed ``along not less than 700 miles 
of the southwest border.'' In other words, the requirement 
prioritizes the amount of the border covered by fencing as 
opposed to the amount of fencing used by DHS. Last year, DHS 
stated that fencing had been deployed along roughly 652 miles 
of the southwest border.
    There may be questions regarding the firmness of the 700-
mile language. Section 102(b) states that, notwithstanding its 
requirements, DHS is not required to construct fencing at any 
particular location where it deems fencing inappropriate. This 
clause could be interpreted to mean that while DHS must deploy 
fencing along 700 miles of the border, it is not required to 
deploy fencing at any discrete point.
    A broader reading of this clause might permit DHS to 
construct fencing along less than 700 miles of the southwest 
border if the agency believes fencing is only appropriate along 
a lesser mileage. However, there are a number of challenges to 
such a reading. As an initial matter, the notwithstanding 
clause does not say that DHS may construct fencing along a 
lesser mileage of the border. It says that fencing is not 
required at any particular location. If DHS may construct only 
the amount of fencing it deems appropriate, it is unclear why 
Section 102(b) would state that fencing shall be deployed along 
not less than 700 miles of the southwest border.
    The legislative history of Section 102(b) along with 
several courts' description of the provision also seem to give 
greater support for understanding the 700-mile requirement as a 
firm one. DHS officials have seemingly taken differing 
interpretations of Section 102(b) over the years. A court's 
consideration of this issue may depend upon whether the meaning 
of Section 102(b) is seen as ambiguous and DHS' construction is 
deemed reasonable.
    In any event, there is no statutory deadline for when the 
required fencing must be completed, and it is also unclear who 
would have standing to bring a legal challenge against DHS' 
fencing strategy.
    Turning to Section 102(c), this provision grants the DHS 
Secretary the power to waive legal requirements that may impede 
the construction of border roads and barriers. Waiver authority 
has been used to facilitate both the construction and the 
upkeep of border projects. But this authority could not be used 
to waive constitutional requirements. Thus, for example, just 
compensation needs to be given to private property owners whose 
land is condemned for purposes of barrier installation.
    This concludes my prepared statement. I will be happy to 
answer any questions you have.
    Chairman Johnson. Thank you, Mr. Garcia.
    I am kind of interpreting your testimony that Congress 
might have passed a law that was not crystal clear? I guess I 
would be shocked.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker, I guess you are going to have to leave 
here, so I am happy to turn it over to you for the time being.
    Senator Booker. Thank you very much, Mr. Chairman, for 
giving me this opportunity. I really just want to direct one 
question. I just want to say I will be leaving here and then 
preparing some remarks for the floor in regards to the train 
accident we had. I know Senator Carper was on that train and 
got off early, and I am very happy to see that he is here and 
well, and I just want to express my sympathies for the loss of 
life and the more than 100 people who are in the hospital right 
now recovering from their injuries.
    I just want to ask just one question before I have to run. 
Ms. Gambler, from the notes that I have, Customs and Border 
Protection spent about $2.4 billion to complete roughly 670 
miles of border fence. The vast majority of it was a single 
layer of fence, one line of fence designed to keep pedestrians, 
vehicles, and such from crossing.
    If Congress were to implement the double layer of fence, 
that would require more land acquisition, more supplies, more 
labor to build, and manned by Border Patrol. I am trying to 
understand the payoff and the cost-benefit analysis in your 
estimation.
    According to the GAO, undocumented entries into the United 
States during this time of erecting this fence actually fell 69 
percent between 2006 and 2011, which is pretty impressive. But 
the drug and contraband seizures nearly doubled.
    So you are an expert looking at costs and benefits and 
challenges associated with border fencing and technology. If 
Congress eventually approves another 700 miles of double-
layered barrier fence as a part of the border bill, do you 
share my concern in sort of understanding the cost-benefit 
analysis and what, in your opinion, would it be as that 700 
miles is put into place?
    Ms. Gambler. So I think that is a very important question, 
Senator, and it goes to something that GAO has reported on both 
as it relates to fencing but also as it relates to other assets 
as well to include technology, which you mentioned, which is 
really being able to assess what we are getting out of 
different investments that we are putting in place along the 
border, whether it is fencing or technology. And what we have 
found and reported on is that DHS could do a better job of 
collecting data and developing measures and metrics to assess 
what contributions they are getting out of different 
investments, whether that is fencing or whether that is 
technology or other assets.
    And so what we have recommended is that DHS take steps to 
better collect the data, and better develop performance 
measures and metrics, so that we can be able to answer the 
question you just asked, which is: What are the contributions 
that we are getting out of the different infrastructure and 
technologies that we are putting in place?
    Senator Booker. So it is a radical proposition. In other 
words, before we throw a whole bunch of money at the problem, 
try to figure out what is going to get us the best results for 
the money that we spend, given the ultimate array of decisions 
we have between assets like technology, drones, or fencing.
    Ms. Gambler. And DHS certainly has some data now that would 
allow them to assess, particularly on the technologies front, 
what contributions they are getting out of the technologies 
they have deployed to seizures and apprehensions, for example, 
for the towers that have already been deployed, they are 
starting to collect that data now, and what they need to do is 
start using that to actually analyze and assess the performance 
and progress they are making.
    Senator Booker. And so before politicians make decisions, 
you really think that this should be a data-driven decision 
through thorough analysis. Is that what you are saying?
    Ms. Gambler. We certainly think it is important for them to 
assess the performance of the systems and how that is 
contributing to their efforts to secure the border, both as it 
relates to fencing technology and other assets they might put 
in place.
    Senator Booker. Ms. Gambler, thank you very much.
    Mr. Chairman, thank you for your time.
    Chairman Johnson. Thank you, Senator Booker.
    We would like to turn it over to our Ranking Member. Again, 
we are all very pleased on the Committee that you got off in 
time. So if you would like to say a few words and give us your 
opening statement?

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, and I want to thank the folks on 
our Committee and, frankly, a lot of my colleagues and people 
around the country who have expressed just personal feelings 
about what those of us who were riding that train last night 
from Washington up to New York are feeling and thinking. I ride 
the train a lot, and I get to know the people, like the crew on 
the trains, and, frankly, I ride with a lot of the same people 
and never imagined when I got off the train last night that six 
people from that train would be dead this morning. We pray for 
all of them, and particularly for the--and also just a real 
prayer of thanksgiving for the first responders who turned out 
late at night in difficult circumstances. A lot of folks were 
heroes and heroines last night. They were not just the first 
responders or just the crew or just the Amtrak employees, but a 
lot of passengers who just did extraordinarily heroic things 
with their lives. So let us keep them in our thoughts and in 
our prayers.
    I used to be an Amtrak board member. When I was Governor of 
Delaware, I was an Amtrak board member, so I have been involved 
in train accidents as a board member, and sometimes with loss 
of life and sometimes just a lot of damage. And it is never 
easy, and this one is especially hard, as you know, but I 
appreciate all the feelings that people have expressed very 
much.
    I want to also express to all of you our heartfelt thanks 
to you for being here and for what you do with your lives and 
trying to make our lives in many instances a lot safer and a 
better quality of life. So we are grateful for that.
    I want to express my thanks to the Chairman for holding 
this hearing and letting us participate in its preparation and 
putting together, I think, just a really good panel of 
witnesses.
    The Chairman and I and Senator Ben Sasse went down to the 
border not too many months ago, Chris will recall, and we had 
the opportunity to meet with people from all walks of life in 
South Texas. And one of the questions we asked them is: What do 
we need to do more of or less off in order to better secure our 
borders? And we heard a lot of things, but one of the phrases 
we heard over and over again is, ``Technology is the key to 
securing the border.'' We heard that a lot. ``Technology is the 
key to securing the border.''
    I could not agree more. And I look forward to hearing more 
from our panel today about the technologies and other tools 
that can serve as what I call ``force multipliers'' for our 
agents on the ground. I am sure my colleagues and our witnesses 
would agree that we need smart, targeted border security 
investments, and to me, this means placing a priority on 
acquiring advanced cameras, sensors, and radars so our agents 
have real-time situational awareness along our borders. For 
example, I have been very impressed with the Vehicle and 
Dismount Exploitation Radar (VADER) technology on our drones 
and the mobile surveillance towers that I have seen along our 
borders.
    It also means working with the Department of Defense to 
reuse equipment that is no longer needed in theater in places 
like Afghanistan, such as the aerostats, tethered aerostats, 
that now we use along the Rio Grande Valley. Finally, it means 
making sure the assets we do have are being used effectively. 
If we have an airplane, a helicopter, or a drone in the sky, we 
need to equip those assets with the right kinds of cameras and 
surveillance equipment to ensure that we are not just flying 
blind. I am an old P-3 guy, old Navy guy for many years, a 
retired Navy captain, and I remember many a day we used to 
chase Soviet nuclear submarines when we were not in Southeast 
Asia all over the world. And the idea of fighting nuclear 
submarines using binoculars, not so effective. Frankly, the 
idea of looking for people in a search-and-rescue mission using 
binoculars from a P-3 aircraft, not so effective. And when we 
send aircraft along the borders without the right kind of 
surveillance technology, we are wasting a lot of fuel and, 
frankly, I think the time of a lot of people if we are not 
careful.
    One of the things I would like to really hear from our 
panel today is about what technology is working along the 
border, what is working, so we can deploy more of that. Find 
out what works, do more of that; find out what does not work 
and do less of that. I would also welcome hearing from each of 
you today what is not working so that we can reduce our 
expenditure on those activities. I know DHS has struggled in 
the past with some technology deployments, so we hope to talk 
about some of those lessons learned.
    From what I understand, DHS--with the help from our friends 
at GAO--has already made many improvements to its acquisition 
policies, and we look forward to hearing more about that today 
as well. We applaud that. One lesson that I have learned over 
the years is that you cannot manage what you cannot measure. We 
talked a little bit about this here a minute ago. That is why 
it is vital that DHS continues to develop better metrics to 
measure its progress in securing our borders.
    Another lesson from the trips I have taken to the Mexican 
border is that things do change. Things do change, and we have 
seen that as they move away from California, away to some 
extent from Arizona, all the way down to the South Texas area 
over the last couple of years, and this last 2 years with a 
whole lot more young people coming up looking for a place to 
just find refuge.
    That may explain why, I think, our agencies have to be 
nimble. I am not a real big one for us being prescriptive, and 
I do not know that we have all the answers up here, but maybe 
together, working together, we can figure that out and be good 
listeners.
    We also need to listen to the many experts who have told us 
that border security cannot be won only at the border, and I do 
not think it can be won only at the border. We have to take 
some other steps to address some of the factors that bring so 
many people to our borders. To me, that means passing 
comprehensive immigration reform. It also means trying to make 
sure that we identify what are the factors that are causing 
tens of thousands of people every year to try to get out of 
Honduras, Guatemala, and El Salvador. What are they fleeing? I 
have said many times we are contributing to their misery by our 
addiction to methamphetamine and heroin and crack cocaine and 
so forth. So we have an obligation to help address their lack 
of hope, lack of economic opportunity. The President has 
proposed, I think, a good plan there, and the Vice President is 
sort of honchoing that, and it deserves our support.
    The other thing is I think we need comprehensive 
immigration reform. We made a good stab at that a couple of 
years ago. I hope we will come back and finish the job before 
long.
    So that would pretty much sum up what I want to say, Mr. 
Chairman. I will close with this: I think almost everybody on 
this Committee would probably be described as a fiscal 
conservative. And if you look at the size of our budget 
deficit, go back about 6 years, the budget deficit peaked out 
at $1.4 trillion, and it has been coming down, and it is down 
by about two-thirds. But we still have a big deficit by 
historical standards, and we need to continue to work on that.
    There are three things I think we need to do:
    We need tax reform that lowers the rates, broadens the 
base, and helps raise a little bit of money for deficit 
reduction.
    We need entitlement reform that serves old people, poor 
people, does not savage old people or poor people, but, 
frankly, saves these programs for our kids, find ways to save 
money in those entitlement programs so they will be around for 
our children and our grandchildren.
    The last thing we need to do is look at everything we do, 
and just ask this question: How do we get a better result for 
less money? Everything we do, including how do we secure our 
border in a cost-effective way.
    So this is going to be a good hearing. I am delighted that 
you are here. Thanks very much.
    Chairman Johnson. Thank you, Senator Carper. You will enjoy 
our hearing next week talking about the 30-year deficit and 
those projections, and we will certainly address those issues 
you were just raising.
    As I was speaking to the witnesses--and, again, thank you 
for coming here, and I appreciate your thoughtful testimony and 
all the time you have put into it. If you are going to solve 
any problem, you really do need the information. That is really 
the basis of all these hearings, is to just lay out that 
record, lay out the reality. A number of times in testimony we 
have already talked about having the data. We have had a number 
of Office of Inspector General (OIG) reports. We had one on 
OAM, and we will get into that a little bit later. We just had 
one issued today on the lack of data driving decisions based on 
prosecutorial discretion and Deferred Action on Childhood 
Arrivals (DACA).
    Those are serious issues in terms of not having the 
information. I would say one of the things that is frustrating 
to me as this Committee has really delved into the whole issue 
of immigration reform and border security is just, especially 
as an accountant, as a guy from a manufacturing background, 
just not having good, solid information and data--recognizing, 
though, it is pretty difficult to obtain that. But we try and 
do it through testimony, from getting good opinions.
    Chief Vitiello, I do have to start out with a little 
housekeeping because we were made aware I think earlier today 
that one of our witnesses, Border Agent Chris Cabrera, received 
a notice to appear before CBP Internal Affairs for this 
Thursday. They want to talk to him about his congressional 
testimony. Now, my Lutheran catechism tells me to put the best 
construction on it, so I am hoping the reason Internal Affairs 
wants to talk to Agent Cabrera is that they are a little 
concerned about some of his testimony that might vary with some 
of the information we get from DHS in general, potentially 
talking about the fact that, he testified to us on the 
``gotaways,'' that there is a certain level of, I guess, 
informal, potential intimidation if they report more than 20 
people coming through and they only apprehend 10 and all of a 
sudden a supervisor is there and providing a lot of scrutiny.
    So, again, I am highly concerned about that. We bring 
people before this Committee. We swear them in. We swear them 
in to tell the truth, and I do hope that this is an effort to 
understand what his testimony was and try and determine whether 
there are some real distortions in terms of the information and 
the data that we are going to need to solve this problem. So I 
hope I have your commitment and the commitment of Customs and 
Border Protection's management that this is not any kind of 
intimidation or retribution.
    Mr. Vitiello. Thank you, Mr. Chairman, for that 
observation. The question, it is, in fact--your impression is 
correct. We were very concerned about Chris' testimony. We are 
very concerned about the numbers. We want you, we need 
ourselves to have the data to be as accurate as possible. And 
Chris, we work with him very well. We work with the National 
Border Patrol Council to the extent that we need to and have 
to. They are good partners. They have been for us, and we want 
their testimony to reflect accurately what happens in the 
field. And he left the suggestion and impression that there was 
intimidation or misconduct going on in regards to how the data 
is collected. That is not my impression. I am quite sure that 
the agents and their supervisors and the management of the area 
where Chris was discussing in McAllen are focused on doing the 
right thing for the right reasons. And so we did, in fact, 
refer the remarks to the Office of Internal Affairs for getting 
to the bottom of whether or not there was misconduct in that 
area.
    Again, it is my impression that that is not what our 
leadership and our managers do down there, but it helps for us 
to verify.
    Chairman Johnson. Good. That is very good news, and we will 
be watching that.
    We were talking about all the technologies as a force 
multiplier. When we were down on the border in McAllen, 
certainly we heard the stats of Aerostats. They are only up 60 
percent of the time, which means they are down 40 percent of 
the time. The same with the UAS. I will certainly give you a 
chance to respond to the Office of Inspector General report, 
but do we have any information in terms of what percent of 
individuals we are actually detecting? Or let me state it 
another way: What percent situational awareness do we have? We 
had Secretary Johnson here, I think it was 2 weeks ago, and he 
just made the blanket statement--and I appreciated the 
honesty--that, by the end of this administration we will not 
have achieved 100 percent situational awareness. I understand 
that. What percent are we at right now? Is there any estimate 
of that? Can anybody speak to that?
    Mr. Vitiello. I cannot be precise as it relates to the 
situational awareness across the 2,000 miles of the southwest 
border. It is very well understood what activity levels are, 
where the hot spots for activities are, and how our deployments 
support that. And so, as appropriate for this hearing, the 
technology is very important. The data that we collect as it 
relates to that activity and our observations and the recording 
of the outcomes of those individual interdictions feeds 
information where the assets and the agents give us that real-
time information. So in a place like downtown McAllen, where 
you visited, in downtown Brownsville, where we do have 
surveillance technology, a very robust deployment of agents in 
the downtown environment. So in real time, you can collect 
information about activity and the results of the activity, the 
results of our interdictions, which includes the people who 
were arrested, the people who ran back, and what we call 
``gotaways.''
    In other locations, we use other methods to try and do 
that. There is lots of space along that 2,000 miles where we do 
not have that kind of deployment, so we use things like change 
detection technology to help inform overall.
    There is also a piece of situational awareness that is 
having to understand what the capabilities of the criminal 
network are, how we interact with our fellow law enforcement 
agencies, our international partners, to understand what is 
happening on the other side of the border, and putting those 
pieces together along with the observations of people who live 
along the border that tell us this is out of the ordinary, this 
is not.
    If you start to put all of those things together, it gives 
you an idea of what is happening across the entire border.
    Chairman Johnson. OK. But, again, we are always looking for 
some kind of metric, and, certainly laws that we have passed 
call for a metric, call for a goal of 100 percent ``situational 
awareness,'' or ``operational control.'' So the question I 
have, since is certainly the idea behind some of these laws to 
specify that, are we not calculating that, are we not trying to 
track that metric now in anticipation of having potentially to 
comply with the requirement for 100 percent situational 
awareness?
    Mr. Vitiello. So we look at a suite of data that says 
``these are the arrests'', we look at things like recidivism, 
there are other elements that we are trying to bring in the 
Secretary is focused on in the Southern Border and the 
Approaches Campaign, in the Unity of Effort, to tying the data 
together and giving us all a metric. We have struggled with the 
idea of defining situational awareness. I mean, I think it is 
one of those phrases or title that we seem to all understand, 
but when you get right down to it, how do you measure something 
that has a different connotation for different environments?
    Chairman Johnson. So would the position of the Department 
of Homeland Security be they would just really reject or 
certainly resist having a piece of legislation where you have 
got that metric, 100 percent situational awareness?
    Mr. Vitiello. I think we would all enjoy having a defined 
set of circumstances that says if you have these four criteria 
met, then you do have situational awareness. We think it is 
broader. Obviously, if you have technology, a piece of 
machinery that surveils the border in real time, 24/7, that is 
an element of situational awareness. There are other pieces to 
that. It becomes difficult to decide exactly where you are at 
and what the actual definition is.
    Chairman Johnson. While we are on this topic, before I turn 
it over to the Ranking Member, does anybody else want to 
comment on this? Ms. Gambler.
    Ms. Gambler. We have, as I mentioned, reported on the need 
for CBP to put in place measures to assess progress made in 
securing the border. You were asking questions about sort of 
estimating flow and things like that. Our understanding--and 
certainly Deputy Chief Vitiello can speak to this perhaps 
better than I can, but those are estimates when you are talking 
about things--like the Border Patrol does record apprehensions, 
but the other data points that go into estimating flow, 
turnbacks, and gotaways, as we discussed are estimated by the 
Border Patrol.
    Chairman Johnson. Thank you. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman. Senator Tester is on 
a little tighter timeline than I am. I have all the time in the 
world, so I am just going to yield my time to him for a while, 
and maybe I could pick up in a little bit. Thanks.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Senator Carper.
    Following up on the Chairman's questions, do any of you 
have a concise definition for ``situational awareness''?
    [No response.]
    OK. That is good enough. I would just say I think before we 
can even talk about situational awareness and how important 
situational awareness is, we ought to know what the hell we are 
talking about.
    So the next question is: Is situational awareness a 
prerequisite to having a secure border? Chief.
    Mr. Vitiello. I believe if we can come to terms on the 
definition for ``situational awareness,'' then you can 
constructively then go from there, recognizing what the data 
is, and say whether you have situational awareness or not, and 
then based on the activity levels, the capability that CBP and 
others bring to the border security environment, then you can 
leap from there or jump from there or work out from there to a 
secure border definition.
    Senator Tester. All right. So moving forward here, I think 
we all want to have a secure border, but, look, if we want to 
get hung up on terminology, we can get hung up on terminology. 
Basically what we want to know is how many people are getting 
through and how many people are being apprehended and how 
secure is it, how safe is it. And are we spending the money in 
ways that make sense, whether it is on drones or radar or 
ground sensors of fences?
    And so the next question I have--and most of these are 
going to be to you, Chief, but, Mr. Borkowski, feel free to 
jump in if you feel a necessity to. Can you tell me, are drones 
used on the Northern Border?
    Mr. Alles. I will answer that. Yes, sir, they are used on 
the Northern Border.
    Senator Tester. Are they used in concert with the 
Canadians?
    Mr. Alles. No. They are used in conjunction with the Border 
Patrol, sir.
    Senator Tester. And so it is not a joint effort. It is you 
guys----
    Mr. Alles. No, sir, it is not on the Northern Border.
    Senator Tester. How about radar on the Northern Border?
    Mr. Alles. We do pull in all FAA radar feeds, DOD feeds.
    Senator Tester. How about radar under 5,000 feet on the 
Northern Border?
    Mr. Alles. The coverage is limited.
    Senator Tester. OK. What about ground sensors?
    Mr. Vitiello. Yes, on the Northern Border, and those feeds 
are directly shared across the international boundary.
    Senator Tester. OK, that is good. How many miles would you 
say on the Northern Border ground sensors are utilized?
    Mr. Vitiello. I could be precise to the record with some 
data to each of the sectors along the Northern Border.
    Senator Tester. That would be fine.
    So when we are talking about technology, like drones and 
ground sensors in particular--less on radar, but on ground 
sensors and drones in particular--is there some reduction in 
manpower when they are utilized? Or is that not the case?
    Mr. Vitiello. In making us more efficient? Is that how you 
mean?
    Senator Tester. Yes. What I am saying is if you are using 
drones, do you need as many people on the ground? Or can you 
get by with less people on the ground and still have a safe 
border?
    Mr. Vitiello. Correct. Both the sensors and the aircraft 
allow for us to do more with fewer people.
    Senator Tester. With fewer people, OK. That is good to 
know.
    Can you tell me, other than sharing the ground sensor 
information--Canada is a pretty good ally of ours. Is there 
anything else you guys do, besides border crossings, in a joint 
way?
    Mr. Vitiello. Yes. Under several frameworks signed by both 
leadership in the Department and at higher levels, we work with 
Canada in almost every area as it relates to border security, 
homeland security, and defense.
    Senator Tester. OK.
    Mr. Vitiello. There are a lot of programs, a lot of 
interaction day to day. We have people assigned in Canada that 
work out of my office.
    Senator Tester. OK. There is private land, there is public 
land, north and south, private land, public land, there are 
national parks, there are Indian reservations. Do your people 
go across private land without permission?
    Mr. Vitiello. Typically we are on the border everywhere, 
both private and public land.
    Senator Tester. Right.
    Mr. Vitiello. In places where we know that land is private, 
there is a recognition from the landowner and that within 25 
miles, as the job demands, we enter private land.
    Senator Tester. Thank you for that. I mean, that is better 
than what I think I got for information last week, so I 
appreciate that.
    I want to talk about partnerships for a second. When I 
first got in this job, I think the Border Patrol did a pretty 
poor job as far as building partnerships with--and this has 
been 8, 9 years ago, so you have improved--with Highway Patrol, 
with local police folks, with ranchers, with farmers, hopefully 
with other agencies, too. I am talking about Federal agencies. 
How do you feel those partnerships are working? And is there 
anything we can do to make those partnerships work better?
    Mr. Vitiello. I believe that we have recognized that that 
is part of how we are going to be successful in the 
environments that we work, having partnerships, leveraging each 
other's authority, exchanging information so that people are 
recognizing where threats are. That is always going to be part 
of the future. We have adopted that as a way forward.
    We interact quite a bit with leadership in law enforcement, 
and the Stonegarden program that Congress gave us several years 
back after the Department was created is a very useful tool for 
us, and is very well thought of by State and local.
    Senator Tester. Could you give me your assessment--you went 
where I was going. Can you give me your assessment of border 
security in the Blackfeet Indian Reservation, for example--I do 
not want to single those out, but if I said a reservation that 
bordered the Canadian border in Montana, that would be the 
one--compared to other areas on the northern border? Would you 
say it is equivalent, better, worse?
    Mr. Vitiello. I am not aware of any deficiencies that we 
have specifically with Blackfeet.
    Senator Tester. How about with the park, Glacier National 
Park?
    Mr. Vitiello. Same. We have an ongoing working relationship 
to be present and understand their concerns as well as being 
present on the border and patrolling.
    Senator Tester. So the need for additional tools--and I do 
not want to put words in your mouth. The need for additional 
tools when it comes to those lands--I mean, you have got it 
with Operation Stonegarden. You have it with your Park Service 
relationships, memorandums of understanding (MOU), whatever you 
might have.
    Mr. Vitiello. Correct, we do.
    Senator Tester. OK. That is good.
    Well, I just want to say thank you for your work, all of 
you. Most of the questions were to Ron because I like him.
    Mr. Vitiello. Thanks. [Laughter.]
    Senator Tester. But the truth is I appreciate all your 
work, and you have got some people behind you that also work 
very hard, and I appreciate them, too.
    I think the key is that, we have limited money here; at 
least I think that is across the board, but I am not sure it is 
across the board. So we have to make sure it is spent correctly 
and appropriately. And I know we might want a knee-jerk 
reaction to things when they happen, but the truth is that if 
we listen to you folks, I think we make better decisions. Thank 
you for your service.
    Chairman Johnson. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Let me just ask: How many of you have testified on this 
subject before, before either a House or Senate Committee or 
Subcommittee? Just raise your hand. OK. Mr. Garcia, where have 
you been during your day job?
    Mr. Garcia. Testifying on other things.
    Senator Carper. OK. Good enough.
    If you have been before this Committee, one of us has 
probably asked you to help us figure out what works so we can 
do more of that. What I am going to do is flip that question 
and ask each of you to give us an idea or two about some things 
that do not work and that we really should not do. What are 
some things you think that do not work? What are some things 
that we just ought not to do, you do not think they work, they 
are not worth the money? Mr. Alles.
    Mr. Alles. Good question, sir.
    Senator Carper. I am full of them.
    Mr. Alles. What is that, sir?
    Senator Carper. That is my best one today.
    Mr. Alles. I am struggling with that one. Because most of 
the stuff, as I think through it, that does not work is stuff 
that we actually stopped doing. One of the things we went 
through in our own office was to analyze across all our offices 
which ones were most effective, most efficient, and then 
reorganize our structure based on that. So we actually look at 
that pretty regularly, year over year, to see what is not 
working and then try to adjust our organization and our assets 
to rid ourselves of those things. So we are in the process of 
downsizing aircraft. We are getting rid of about 40 or 50 
aircraft. They are older aircraft, not good utility. We are 
organizing our offices along the north and the south so that we 
have our agents in the right places and getting----
    Senator Carper. I am going to have to--just hold it right 
there. I want you to take a couple minutes and think about that 
question. Think about some things that do not work that we 
should not be doing.
    Go ahead, Mr. Borkowski.
    Mr. Borkowski. Yes, sir, thank you for that question. There 
are, I think, a lot of lessons that we have learned about 
things we should not do. For example, we should not treat 
technology or any other capital asset as an end. It is a means 
to an end, and we often get attracted by the bright shiny 
thing, and we do not think about why or how it will help us do 
our jobs.
    Sometimes that is difficult because we do not always have 
metrics. That is because we do not have history. We are doing 
things that are new to us, and we have to understand that as 
well. We have to learn how to do things that are new to us and 
collect data and iterate on that. So that is one thing. 
Technology is a means to an end; it is not an end unto itself.
    We cannot impose technologies on people who use it. We have 
to involve them, and they have to invite us to bring 
technologies. That is a classic mistake.
    We cannot aspire to immature technologies before they are 
ready for us really to start to use them, and we do that very 
often.
    So those are all sort of acquisition lessons learned that I 
would say that we have done in the past that we need to 
remember not to do in the future.
    Senator Carper. Those are good ones.
    Mr. Vitiello. Thank you.
    Senator Carper. Hold on just one sec.
    My phone just went off, and it says ``Rahm Emanuel,'' who 
used to be the President's Chief of Staff. But he is now the 
mayor of Chicago. I do not think it is him calling. But whoever 
has his old job over there is probably calling, so we will 
figure out who that is.
    Mr. Vitiello. I agree with my colleagues Assistant 
Commissioners Borkowski and Alles that this is a challenging 
question, and then I think we have learned----
    Senator Carper. Excuse me. I have got a phone call from the 
Chief of Staff boss, so I am going to ask you to excuse me just 
for a second. I will come back and try to reclaim my time.
    Chairman Johnson. I will take over.
    Senator Carper. OK. Thanks. I apologize. I am still going 
to ask that question. Excuse me.
    Chairman Johnson. Let us talk about fencing. When we were 
preparing for this meeting, we got a chart\1\ up here showing 
the different types of fencing. But one of the charts I wanted 
to produce was I wanted to lay out the border, and I wanted to 
specify here are the different types of fencing along the 
lines, and I found out, well, I cannot show that because it is 
law enforcement sensitive. So I will first ask you, Chief 
Vitiello, why would the fencing and the quality of the fence 
and the type of fencing along the border be law enforcement 
sensitive? I mean, that is a secret that is not exactly a 
secret.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 1190.
---------------------------------------------------------------------------
    Mr. Vitiello. I really do not understand that as well. I 
think that the documents that we sent over, that we were 
trading back and forth, that we were trying to approve late in 
preparing for today's testimony were marked. I am not sure of 
the origination of those markings.
    I agree with you. If you live in a community that has the 
benefit of fencing as----
    Chairman Johnson. You kind of know where it is.
    Mr. Vitiello. That people know where it is.
    Chairman Johnson. Plus if you are a drug smuggler, you 
definitely know where it is. You have got that all mapped out.
    Mr. Vitiello. As you start to aggregate data like that or 
images like that, you start to show a picture across the 
southwest border, and it is easier to pick out some of the 
vulnerabilities. So that may be the origination of the 
markings. But we will certainly provide what we can.
    Chairman Johnson. Which is, of course, what I wanted, 
because I want to see where we have our strengths and where we 
have our weaknesses.
    Talk to me--and maybe--I am trying to think who would be 
best here. How effective can fencing be? And what has been the 
real problem in constructing it? We have environmental laws. We 
have eminent domain issues. We have lawsuits. We have passed 
laws that exempt ourselves from those. But what has been the 
real reality? Because, we have built close to 700 miles of 
fencing, but you can tell by the different types of fencing, 
there is some that works pretty good and some that, obviously 
might stop a truck, but certainly is not going to stop a human 
being. So just who is the best to just kind of walk about the 
history of, the multiple laws we have passed to build fencing, 
and then we relax them, set them up for discretion, they are 
not crystal clear, there is no time horizon on it. What has 
happened? We will start with Mr. Garcia, and then----
    Mr. Garcia. Mr. Chairman, if I understand, the first 
question you had was about possible impediments, legal 
impediments to fence construction.
    Chairman Johnson. Correct.
    Mr. Garcia. When Congress first expressly authorized 
barrier deployment in 1996, although there was barrier 
deployment before that, it provided a waiver--DHS or I guess at 
that time the Immigration and Naturalization Service could 
waive two laws: NEPA, which concerns doing an environmental 
assessment, and the Endangered Species Act. Those two waivers--
that waiver authority in many observers' minds was 
insufficient. The INS was required to deploy--essentially 
complete a triple-layered fencing project in San Diego, and 
over the course of 9 years, that project was not completed 
because of impediments caused by other environmental laws.
    Congress responded to that pursuant to the REAL ID Act by 
providing DHS with very broad waiver authority to waive all 
legal requirements that may impede the expeditious construction 
of barriers and roads along the border, not simply in a 
specified place like San Diego, but anywhere along the U.S. 
border.
    Chairman Johnson. Did it work?
    Mr. Garcia. That waiver authority was exercised in five 
instances, I believe between 2005 and 2008, and that certainly 
assisted Border Patrol in expeditiously constructing hundreds 
of miles of fence along the southwest border. There were legal 
challenges brought to halt certain border projects, but when 
DHS exercised waiver authority, courts would dismiss those 
challenges.
    In terms of that waiver authority, I will note that it is 
not absolute. Besides the constitutional limitations--you 
cannot waive the Constitution. Another thing is that it refers 
specifically to the construction of barriers and roads. There 
is certainly some question as to whether it would apply to 
tactical infrastructure that is not a barrier or a road, like 
sensors or cameras.
    DHS, when it has exercised waiver authority to border 
projects, it has often mentioned things like radio towers and 
cameras in addition to the fence. But whether waiver authority 
could be used exclusively for, say, a project to install towers 
or sensors along a particular stretch of the border, DHS has 
never done that, and that would raise a question: Is that a 
barrier?
    Chairman Johnson. OK. Chief Vitiello, why don't you finish 
out? Then I will turn it back over to the Ranking Member.
    Mr. Vitiello. So I think we have used fencing and it has 
been part of border deployments for my entire career, and the 
images that you are showing here in the top left, the landing 
mat, that was designed, procured, and developed mostly by 
Border Patrol agents, a lot of the National Guard deployments 
were used over the years along the southwest border to build 
that fencing. Effective for short-term, surge operations when 
you are adding other things, technology, et cetera, it did us 
very well.
    The fencing that was brought to us by the changes in the 
act and the mandate to do 700 miles are more the other images 
that you show there.
    And then the vehicle barrier, as also represented there, is 
strategically placed in locations where it is very difficult to 
get to the border afoot, and so it is not necessary to have a 
pedestrian fence in places where the infrastructure does not 
support people walking toward the border.
    And so all of them have contributed to higher levels of 
security. I think on the other side of the equation, it is a 
lot more expensive than we expected when we started, and it was 
much more difficult. I was in Texas as the Chief of the Rio 
Grande Valley in 2007 through 2010, and so when I arrived on 
duty there in 2007, we helped validate and set a requirement 
for fencing--as I recall, about 75 miles. Most of that fencing 
was built, and it has made a difference. But it was not without 
lots of--excuse me? Most of it is in place, yes. It absolutely 
has made a difference. Yes, it has. But it was not without lots 
of challenges, difficulty with hydrology and flood control, et 
cetera, in South Texas, and lots of concerns about people who 
own that land, and we are still in cases in court about takings 
and condemnation, et cetera. That is part of the history. That 
is part of the lessons learned as we went through that whole 
project.
    Chairman Johnson. Thank you. Senator Carper.
    Senator Carper. Thanks very much.
    Senator Lankford, I had to leave the room for a moment 
right in the middle of asking a question. I was asking a really 
good question, and I asked them, rather than talk about what is 
working so we could do more of that, I asked them to tell us 
what is not working so that we can do less of that. And Mr. 
Alles is still thinking about it. He is coming up with some 
ideas, and Mr. Borkowski gave us, I thought, some great 
insights. And Ron here was, I think, about to get into it, and 
I had to slip out of the room. So do you want to pick up where 
we left off?
    Mr. Vitiello. So as I was saying, I was agreeing with both 
my colleagues. I think some of the lessons that we have learned 
with trying to fit technology in without the proper kind of 
awareness of all of its capabilities or lack of capabilities, I 
think one of the lessons we have learned is that as we move 
into this new version of the technology laydown, we have and 
are using field input for all of the installations.
    Senator Carper. Give us some examples of that.
    Mr. Vitiello. So we have this process, it is called 
``capability gap analysis,'' and those in business are familiar 
with gap analysis. As a Border Patrol agent, it is something 
that is well known in this environment. It allows us to go to 
the field and do surveys and walk the ground and understand 
what threats are faced at a station level, so the agents on the 
ground who are challenged day to day and patrolling the border, 
where are their biggest problems? And what kinds of 
technologies that they either have or think that are available 
will help them solve those problems? And so we do that, a 
station-by-station look, that is rolled up into a sector 
picture, and then that is rolled up into the headquarters.
    We are in the process now of baselining the data. We have 
got about three-fourths of the workforce in the station-level 
data coming to us, and we will use that to help inform the 
plans that we have already made with OTIA, and then for unmet 
needs that we know are in the inventory, the things that work 
now that are being installed in places like Arizona will give 
us a hint of where to go next, what might be coming available 
that we can help do research on the DHS side.
    Senator Carper. Ms. Duong, what country was your family 
from?
    Ms. Duong. Vietnam, sir.
    Senator Carper. I knew it. North or South? Whereabouts?
    Ms. Duong. South.
    Senator Carper. Good. Great to see you.
    Ms. Duong. Thank you.
    Senator Carper. I served a little time over there.
    Ms. Duong. Thank you for serving.
    Senator Carper. Loved doing it. It was an honor.
    Ms. Duong. Thank you for keeping me safe and free all those 
years.
    Senator Carper. Thank you. You are welcome.
    Same question: Give us an example or two of just what does 
not make sense and what we ought to be doing less of.
    Ms. Duong. Yes, sir. From an S&T standpoint, I would say 
that the biggest challenge always has been how do we transition 
from a research and development (R&D) effort into acquisition. 
And it is a challenge that is not unique to just DHS. DOD has 
the same challenge, and it has been in existence a lot longer 
than DHS as well.
    Senator Carper. Have you seen some instances where folks 
have overcome that challenge? Is there anything we can learn 
from that?
    Ms. Duong. Yes, sir. When I say it is a challenge, it does 
not mean that nothing transitions. Of course, we have 
transition in a lot of things in DHS as well as elsewhere. What 
I am trying to say is it is a challenge in the sense that the 
way the budget is structured--for example, I will give you a 
very specific example. Mr. Mark Borkowski and my Division have 
been working very closely hand in hand, and we even co-fund a 
lot of technologies that I have just talked about in my opening 
remarks. These are undergoing operational assessment right now.
    So for the resource allocation plan cycle, which is for 
fiscal year 2017 to 2021, our two organizations sat down and 
tried to put in the budget on my side the technology cost to 
complete the development of technologies that we think would be 
ready for acquisition within that timeframe and delivered that 
in time. And OTIA's cost is the acquisition and maintenance of 
that. But we both do it because we know that it is the right 
thing to do, but I frankly doubt that the budget request that 
Mr. Borkowski put in will get approved just because of the way 
the budget is structured.
    Being an operational department, CBP has many urgent needs, 
and if OTIA comes up and asks for a budget for a possible 
technology that might or might not be successful 3 years from 
now, it does not come as a very strong argument against other 
very urgent needs.
    So the problem of what we call ``wedging the budget,'' if 
we do not do that, then, of course, there is no smooth 
transition. Even if I am successful, let us say, to deliver 
technology in fiscal year 2018, by that time, when we get to 
that point and we pass all the operational assessment, and let 
us say OBP asks Mark, yes, we want the technology, we want the 
technology, and if Mark does not have it in his plan, at that 
time then he would have to scrounge for money because we cannot 
wedge the budget. So that is the problem that does impact most 
of us who are trying to bring very innovative technology into 
acquisition.
    Senator Carper. All right. Thank you.
    Ms. Gambler, where do you work? You do not work at GAO, do 
you?
    Ms. Gambler. I am.
    Senator Carper. You probably never thought about the idea 
of what does not work, have you?
    Ms. Gambler. So I think two points, Senator, coming from 
GAO's work on border security and acquisitions more broadly.
    One is determining what the user needs are up front before 
moving forward with deploying technology, and it is important--
and we have reported on this as it relates to the surveillance 
technologies in Arizona--for CBP to better document the 
underlying analysis and justification for what it is deploying, 
where it is deploying it, and in what quantities. So we think 
that is important.
    And then the second piece of that is to conduct robust 
testing of what is being deployed to ensure that you are 
identifying any risks as early on in the process as possible so 
that CBP is best positioned to be able to address those risks 
before moving toward full procurement and full deployment.
    So I think those are two key themes emerging from our work.
    Senator Carper. OK, good. Thanks.
    Mr. Garcia, do you have any ideas? I bet you do.
    Mr. Garcia. Well, I should begin by saying that I am an 
attorney, not a policy analyst, so I would certainly defer to 
my co-panelists on that issue. And I would also be happy to put 
you in touch, if necessary, with any of the CRS border security 
experts.
    I could make an observation, though, and this is more in 
terms of the legislative role, and that is simply that a 
central issue for Congress has always been what is the 
appropriate level of discretion and what is the appropriate 
level of guidance that should be proffered to DHS through 
legislation. On issues of border security, sometimes Congress 
has been very specific; sometimes it has been very general. 
Sometimes it has re-evaluated things over times where it has 
provided a general authority and it later imposed a specific 
requirement; or other times it has had specific requirements 
that it has later deemed to be too onerous and provided a more 
general framework for DHS to operate with.
    So the two observations would be, No. 1, the appropriate 
level of discretion and guidance may be different in Congress' 
view depending on the particular issue related to border 
security. And, No. 2, it is not necessarily guaranteed that 
just because Congress believes at a particular moment a certain 
level of discretion should be given or a specific amount of 
guidance should be given that they cannot change it at a later 
date.
    Senator Carper. OK. That was good. That was very helpful. I 
will just close with this thought: I usually get a better 
result in the end if I am trying to figure out how to do 
something by asking a lot of other people, ``Well, what do you 
think?'' And at the end of the day, we usually come up with a 
better idea, and we also, even if we do not use their idea, I 
think people just feel good about having been asked.
    Mr. Alles, did I ever give you a chance to briefly comment? 
I know you tried to at the beginning, and you swung and missed.
    Mr. Alles. Second chance, sir.
    Senator Carper. Just real briefly, please.
    Mr. Alles. One thing I think that we have struggled with in 
the past is when we procure new assets, it is making sure they 
are provisioned properly. So that has been an issue for us in 
the past, and it is one thing we do not want to continue in the 
future. So we want to make sure--that affects our readiness so 
that is key.
    Senator Carper. Good. That makes a lot of sense. Thank you.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Let me ask a couple general questions. 
Then I am going to drive down into some specifics as well. Mr. 
Vitiello, let me ask you, do you need more people or do you 
need more technology? And I understand it is a little bit of 
both, but if you are going to weigh up between the two, what 
are you needing more than others?
    Mr. Vitiello. So you absolutely have to have the right mix, 
depending on the terrain, depending on the activity, the 
threats, et cetera. Right now I think our challenge is 
finishing what we started on the technology piece. I think that 
would do more for us. If you are just looking at the border 
environment, at the immediate border, the technology would be 
my priority, would be our priority for the agency.
    Senator Lankford. OK. So let me ask this: The type of 
technology, as is most of our agencies--we met with an agency 
yesterday, and they have 207 different computer systems within 
their agency, and they do not all talk to each other. It has 
just kind of grown up organically over the years. At some point 
you realize it costs more to maintain all these different 
systems than it is to be able to just centralize to one system 
that we know that works.
    How many different systems do you have? And I want to give 
you a for instance. Helicopters, how many different types of 
helicopters are we using?
    Mr. Alles. So that would be my area, sir. Goodness, I have 
to count the numbers: Hueys, A-Stars, Black Hawks, AC-120's. 
About five.
    Senator Lankford. OK. Would it help us, are there one or 
two of those platforms that are more effective than others, 
that as we determine efficiency, effectiveness for what we are 
trying to accomplish with it? Maintaining the parts, 
maintaining the maintenance of five different types of aircraft 
on that has its own unique dynamic and cost on it.
    Mr. Alles. So the direction would be to go to two aircraft, 
a light enforcement helicopter, and a medium-lift helicopter.
    Senator Lankford. OK. What would it take to get there?
    Mr. Alles. Basically procurements of new helicopters to 
replace the ones that are the odd types.
    Senator Lankford. OK. Is that something that we need to 
help with? Or is that something you all are in process with 
right now?
    Mr. Alles. Part of it we are in process. With some of them 
we cannot entirely do with the budgets we have.
    Senator Lankford. OK. You mean you cannot retire the old 
ones or you cannot replace those that need to be replaced 
with----
    Mr. Alles. I cannot replace all the ones that need 
replacing on current budgets. Some of it we can, some of it we 
cannot.
    Senator Lankford. OK. So other technologies that are out 
there that we have multiple platforms of. Is there a need to be 
able to shrink down to one or two types that are more 
effective, that have been tried and tested? We have had five 
different types that are tried and tested. Now we need to zero 
in to a couple. Are there any efficiencies of scale that we can 
gather from that?
    Mr. Borkowski. Yes, actually we sort of went the other way 
with the ground-based technology, because what we had was this 
very large, very expensive system, which was overkill for a lot 
of areas. So it made sense to us to have a multiple number of 
these technologies from small to large.
    The way that we are handling that is we are designing a 
strategy where we can centralize our workforce that does 
maintenance on those so that we can take advantage of the 
economy of scale of the workforce. That is a work in progress.
    It does continue, though, to be a concern. If we have 
multiple kinds of radars, multiple kinds of cameras, downstream 
we may want to make the cameras the same on different systems. 
But that will be a plan going forward.
    Senator Lankford. OK. So tell me a time period on that. We 
have tried to make those decisions because--again, I am in the 
same spot. The more people that we have on maintenance, the 
fewer people that we actually have on patrol, lack of a better 
term.
    Mr. Borkowski. Well, we do not use Border Patrol agents to 
do the maintenance, first of all.
    Senator Lankford. Well, dollars.
    Mr. Borkowski. Dollars, that is correct. And, by the way, I 
know this is counterintuitive, but the actual cost of 
sustaining the systems the way we are doing now has actually 
gone down because we are sustaining lower-cost systems. That 
does not mean we cannot drive efficiencies as we go forward and 
drive those costs even further down. But so far this has 
actually been a good trend.
    I think the way we would deal with more combination is in 
what we call ``technology refresh.'' As systems age in 3, 5, 7 
years, what you replace those with, you would look for 
commonality. So that would be the timeline we would be talking 
about.
    Senator Lankford. OK. Currently, what are we detecting that 
we cannot address, that our technology, whether it be infrared, 
ground systems, aerial systems, that we are detecting what 
percentage that we cannot address then, actually get someone to 
them in a manner to actually interdict?
    Mr. Vitiello. So the fixed and mobile technology does 
really well on ground targets, people crossing the border afoot 
or vehicles. Assets brought by VADER on the UAS has been very 
good at that. I think our biggest challenge collectively with 
Air and Marine and Mark's shop trying to procure is this slow 
radar detection for small--what they call ``ultra-light 
aircraft.'' That has been a challenge for us. We have tried a 
couple of different systems, had some success, but not as far 
along as we would like to be.
    The other big challenge based on terrain and kind of 
conditions is tunnel detection.
    Senator Lankford. That is actually heading into my next 
question. So where are we technology-wise being able to pick 
that up?
    Mr. Vitiello. So we have a system that we have borrowed 
from DOD, and we have done some testing with and had some 
success with. But the terrain varies so much along the 
southwest border that it has been very difficult to find a box 
or a machine, if you will, that will give us the kind of 
fidelity that you would like to see, the kinds of things we get 
with aircraft or fixed towers, mobile scopes, et cetera.
    Senator Lankford. OK. What kind of interchange with ideas 
do we have with DOD and other folks to be able to swap what we 
have learned, what we have gained? How is that working? Are 
there impediments to that that we can help correct as far as 
communication? Are you finding any walls of separation?
    Mr. Borkowski. I think we have a great and very extensive 
and actually increasing relationship with DOD at all levels, 
from the Secretary level down to the colonel and lieutenant 
colonel running the program. I have an office that does that, 
Chief Vitiello has an office that does, and Ms. Duong has an 
office that does that. So we are very much plugged in with the 
technology they do. We have all kinds of programs to bring that 
into our environment and check it out and test it, and in some 
cases actually use it to support operations. Very extensive.
    Senator Lankford. OK.
    Mr. Alles. One thing I would comment on, though, is we do 
have extensive collaboration. DOD has taken lately to wanting 
us to buy the systems from them, so before, excess military 
systems were passed over to us for use in homeland security. 
Now we are having to purchase those.
    Senator Lankford. OK. Are you getting Walmart prices or are 
you getting Saks Fifth Avenue prices from them?
    Mr. Alles. It is not Saks Fifth Avenue. They do what they 
can, but there has been a big press to charge us for everything 
on the DOD side.
    Senator Lankford. OK. Let me ask you one more thing on 
aircraft, the aerostat and how that is working, our blimp. Am I 
using the right term on that?
    Mr. Alles. So first I have to specify there are two 
aerostat systems. The system I work with is the Tethered 
Aerostat Radar System (TARS), high altitude 15,000 feet 
aircraft that works very well. It needs to be recapitalized. It 
is an older system. And then there is also--I will let Mark 
talk about the lower-altitude systems.
    Mr. Borkowski. Right, so the lower-altitude systems, the 
ones that we borrowed from DOD that they have used in Iraq and 
Afghanistan, those we call ``tactical aerostats'' that 
distinguish from TARS. We have five of them flying in Texas. 
They are relatively expensive. We are leasing them from DOD. 
But they have been extraordinarily effective there. So now we 
are in the process of deciding at that cost how often should we 
use them. That is where that is----
    Senator Lankford. Is the cost actually the item itself or 
sustaining it?
    Mr. Borkowski. It is the operations and maintenance and 
sustainment of it. So we are basically leasing the DOD crews 
that operate those. We have been able to get DOD to transfer us 
four of the small ones as well as some towers. So we have 
gotten transfers of them. But right now we are leasing systems, 
and we are paying for the operations and support.
    Senator Lankford. OK. And then one more thing just to wrap 
up, if I may, just this. I want to come back to a percentage 
that I talked about before, percentage of people--and just a 
guess--that we can detect but we are not actually interdicting.
    Mr. Vitiello. So one of the suite of measures that we 
collect is called ``effectiveness,'' and effectiveness is 
designed to get at how many people crossed the border last 
night and how many of them were apprehended. And so the data 
that we collect, again, as Anh talked about--this is an 
estimate, but the data for last year shows that we are in the 
75-to 78-percent range on effectiveness across the southwest 
border.
    Senator Lankford. Those are individuals that we saw, that 
we were able to actually pick up?
    Mr. Vitiello. Individuals and indications of people who 
crossed, either through a camera observation, an aircraft, an 
individual agent, or what we call ``sign,'' footprints in the 
desert, if you will.
    Senator Lankford. All right.
    Mr. Vitiello. You wrap those all up, and we try to do a 24-
by-7 estimate of that activity across the southwest border. And 
then also that effectiveness ratio counts for the people who 
came in, the people who were apprehended, as well as the ones 
that ran back, what we call ``turnbacks.''
    Senator Lankford. OK. Thank you.
    Chairman Johnson. Thank you, Senator Lankford.
    Let me pick it up there, because that is, in terms of 
testimony before the Committee, there is a discrepancy there. 
Maybe that is the discrepancy. If you are looking at detections 
and measuring versus--how many people you detected versus how 
many you apprehended, it is 75 percent. But you are not 
detecting everybody, which is one of the reasons I asked the 
question about some level of understanding of what situational 
awareness is. So is there any sense of what percent you are not 
detecting?
    Mr. Vitiello. At the departmental level, they are also 
attempting to look at the probability of apprehension, which 
would start to estimate the actual flow that will give you a 
scientific estimate, but still an estimate about the number of 
people who are crossing. When the technology and the deployment 
supports real-time information, you can be very confident in 
specific zones where there is enough agents and there is enough 
technology to show you what is happening in real time and 
record the responses in real time and the effect. So the 
effectiveness in those locations is very well documented. 
Again, not scientific because sometimes you do not see the 
people cross in real time. But you can use that camera data, 
you can use the agent data, and you can wrap those shift by 
shift, day by day, and you can start to look at trends across.
    In the places where we do not have that kind of deployment, 
we are using this change detection technology, for instance, 
something that hangs off of the UAS that can fly the border, 
take a digital snapshot, if you will, and then an interval 
later, maybe an hour, maybe a shift, maybe a day, and look at 
that land again, and you can start to recognize change based on 
the way the pixels look in the picture. And that can tell you 
and verify when you do not have threat or when you do not have 
crossings, and then it will give you a lead to find out if 
there is change in those specific areas to go and investigate 
what it is.
    So that has been very useful for us in these locations 
where we believe, based on the people who live there or based 
on our own activity levels, that there is not a lot of traffic, 
and we have been able to validate that, in fact, some of those 
locations do not see cross-border illicit traffic.
    Chairman Johnson. And, again, I will definitely acknowledge 
this is very difficult to wrap your arms around in terms of 
what the data is, what the information is, what the truth is. 
But, we started this series of hearings on border security, and 
certainly DHS is pointing to the number of apprehensions being 
down, which is, a quasi-metric for how effective we are 
securing our border. At the same time, we started our first 
panel, people on the border themselves, and to a person, they 
were very emphatic making the point that the border is not 
secure. And another pretty interesting metric, I think 
depressing metric, when we had General McCaffrey here, in his 
testimony before us, he said they were only interdicting 5 to 
10 percent of illegal drugs. So, I mean, there is a pretty big 
discrepancy, 75-percent apprehension rate of people coming into 
this country illegally, only 5 to 10 percent interdiction rate 
of drugs. As I grapple with that--plus Border Patrol agents 
talking somewhere between, people on the ground, say we have a 
30 to 40 percent apprehension rate.
    So, again, I realize this is very difficult to grapple 
with, but I really take a look at that interdiction rate of 
drugs as pretty indicative of how really not secure our border 
is. Can you just comment on that in terms of how that all 
relates?
    Mr. Vitiello. I think as we get better with these 
deployments, as we start to fill out the Arizona Technology 
Plan, as we start to move into the other locations--the next 
for us is South Texas--we will get better in all categories. We 
will get more effective at the immediate encounters on the 
border, and we will get more effective at the drug 
interdictions.
    Looking at the worldwide estimate of production, which is 
an estimate, and looking at our seizure data, yes, there is a 
wide discrepancy. But if it is out there and our agents get 
wind of it, if they can follow it and track it down and make an 
interdiction, they are going to do that. Same for Air and 
Marine, same for the State and locals. There is a lot of help 
out there.
    Chairman Johnson. But do you dispute that estimate in the 
5-to 10-percent range? Do you think it is higher?
    Mr. Vitiello. I cannot dispute it. I am not familiar with 
how they do worldwide production, the aggregate of all the 
drugs that are produced. I assume we are in a small percentage 
of interdictions that are actually made.
    Chairman Johnson. The reason I really point that out is, 
again, as we really explore this problem--I am from a 
manufacturing background, and our Ranking Member always talks 
about root cause as well. If I were really to put a finger on 
the root cause of our insecure border, it is really our 
insatiable appetite for drugs, and the drug cartels that have 
spawned, the destruction of public institutions in Central 
America that that has been created, this is a huge problem. And 
the drug cartels aligning themselves with international 
criminal organizations, potentially aligning themselves with 
terrorists, this is an enormous problem, which is why we are 
spending so much time on it.
    Commissioner Alles, I really do owe you the ability to just 
respond to the Office of Inspector General's report on the 
drone program. I know when we were down there in McAllen, I 
think you were pretty emphatic that you did not agree with 
that. So I just want to give you the opportunity to give us 
your perspective on that Inspector General report.
    Mr. Alles. So part of what our discussion has been this 
afternoon has been on the whole issue of situational awareness 
or what we will call ``domain awareness.'' And I think that was 
one of the key things missing from the Inspector General's 
report. The Predator UAS system that helps with domain 
awareness, it has sensors on it I never had before, we have 
never had in CBP before, that work over land and over water to 
detect movements of craft and also personnel, and they seem to 
have missed that for some reason. We had 18,000 VADER 
detections in the Tucson Sector alone in the year they did that 
report, 2013. So that is a pretty substantial detection rate 
for the technology.
    I think the other part of it is they did not consider the 
actual value of the system in terms of seizing contraband. I 
would just mention we just finished a deployment in El Salvador 
that netted us $370 million in contraband. I mean, that is 
pretty impressive considering for this half of a year that we 
have just completed with the system, it has got $370 million of 
seizures. For the year they did the report, we had a 444-
percent return on investment versus their flight hour 
calculation, the cost per hour, versus what we returned in 
contraband. So I think it has been a very successful system for 
us overall, and I look forward to better performance out of it 
in the future.
    Chairman Johnson. I think one of the biggest problems cited 
in the Inspector General's report really was just hours of 
operation and just the inability to get it up as often as 
possible to drive that cost per operational hour down. Can you 
speak to that at all?
    Mr. Alles. So I do think this is an area we need to still 
work in. It is not achieving the number of hours I want it to 
achieve per year. Part of that had to do with the weather. But 
that is not all of it. There are other factors in there, too. 
We need to build that in the system in terms of personnel, 
maintenance, satellites, those kinds of things that we are 
working on. So we want to hit 6,000 hours every year. I would 
like to get it up more toward 9,000. I am not looking for the 
numbers they put out, 23,000 hours. Frankly, as I had mentioned 
to you guys down at Corpus, the systems would wear out in a few 
years flying at those kinds of rates and not be available.
    Chairman Johnson. So, Chief Vitiello, very quickly, 
because, again, this is detection, and then you are in charge 
of apprehension, so you speak a little bit to the UAS program 
and how useful that is going to be and what are the drawbacks, 
what are the advantages.
    Mr. Vitiello. So I take the general description about 
VADER. This is something that we had never tried before, and 
there were people projecting on to it something that we were 
not even sure it was capable of doing. It turned out to be a 
very useful system, and we now are on our way to procure more 
of them. And so we think it is going to be part of the future. 
It is obviously something that makes the UAS much more capable, 
already a robust system with the Executive Office for 
Immigration Review (EOIR), et cetera. But having the VADER and 
being able to see moving targets in real time is going to help 
us, and has. We have learned a lot with it in Tucson. We are 
starting to experiment, if you will, and use operational tests 
in South Texas, and we look forward to its success there as 
well.
    Chairman Johnson. OK. Thank you. And, again, we saw a 
pretty amazing demonstration of that, too, when we were down 
there. Senator Carper.
    Senator Carper. That was good to hear. Very encouraging.
    Maybe we could talk a little bit about effective budget 
cuts, and, Ron, if you and Mr. Alles and Mr. Borkowski would 
respond to this. It is my understanding that the House 
appropriators set discretionary spending levels for the 
Department of Homeland Security somewhere around $39 billion, 
maybe a shade over that. This amount is, I think, $350 million 
below this year's appropriation, almost $2 billion below what 
the President requested for 2016.
    Let me just ask each of you if you can take a moment and 
talk to us about how these potential budget cuts will impact 
your work and the folks that you work with to secure our 
borders. Mr. Alles, do you want to go first?
    Mr. Alles. Yes, sir. I think that is going to--it is 
obviously potential. I do not know exactly where they will fall 
out, but the first area that would be of concern is in the 
flight hours area. We would like to maintain ourselves flying 
the 95,000 to 100,000 hour area, which is what we are 
projecting here in the coming years. If we are cut back, 
obviously then that is going to suboptimize our force. We are 
really situated aircraft and people-wise to operate at those 
levels. If we do not, we are not really being as efficient or 
effective as we can be.
    A second part is I have very limited procurements. The only 
current procurement we are buying is a multi-role enforcement 
aircraft at two per year. If that actually----
    Senator Carper. I am sorry. What kind of aircraft?
    Mr. Alles. Multi-role enforcement aircraft. It is built up 
here at Gaithersburg--I am sorry, not in Gaithersburg. In 
Hagerstown.
    Senator Carper. You are talking King Air?
    Mr. Alles. It is a King Air. It is a Beech King Air. That 
is our only procurement. If that would for some reason stop 
because of money, then more than likely that line would close.
    Senator Carper. OK. Mr. Borkowski.
    Mr. Borkowski. Obviously--and I will leave it to the Chief 
and General Alles to talk about the operational impact, but in 
the acquisition system there is also a huge impact. First of 
all, obviously we cannot buy as much. Oftentimes that means we 
cut back on contracts. For example, what that can mean is I 
have an arrangement with industry. The arrangement is an up to 
but not necessarily all the way up to, and you can imagine what 
industry does. They project based on that, and they take some 
chances on the early part of it. Well, if I then cut some of 
that downstream effort out, they do not get the return on 
investment. Now I have got a tough relationship with them.
    The other thing that happens is all the competitions become 
winner takes all. They get very down and dirty and nasty. They 
increase protests. It delays the process. That also has a huge 
effect. It also affects their ability and their interest in 
investing in what they call ``independent research and 
development,'' which is investment that we all need to provide 
for the future.
    And then going to Ms. Duong's point, it makes it all that 
much more difficult to do this long-term kind of wedge planning 
for the next system that allows us to have a smooth transition, 
including with industry, from the S&T arena into the 
acquisition arena.
    Senator Carper. OK. Chief?
    Mr. Vitiello. Senator, it remains to be seen where those 
cuts are. We are obviously very concerned. This gives us a 
chance--gives me a chance, anyway, to amend my answer about 
what not to do. One of the challenges we have in----
    Senator Carper. We do not get a lot of second chances in 
life, do we?
    Mr. Vitiello. I appreciate that.
    Senator Carper. It is good to get one.
    Mr. Vitiello. So one of the challenges we have in CBP is 
that, corporately, CBP as a component, we have over 70 percent 
of the budget is applied to salaries. That is people. That is 
people in the field, almost everybody that is employed in CBP, 
the 65,000-plus, they are front-line people, a big mission 
support group here and smaller numbers in each of the field 
locations. But within the Border Patrol specifically, an 
enormous amount of money provided by you all and the taxpayer, 
but 93 percent of it goes to salary. So it becomes very 
difficult to decide what things you need to make that workforce 
capable that you cannot do with specific levels of cuts. That 
is our challenge, 93 percent labor, 7 percent that do 
everything else we have to do, all the cars and all the radios 
and all the phones and all the equipment that agents need to be 
capable, and that becomes a very difficult challenge for us.
    Senator Carper. OK. Thanks.
    A different subject, life-cycle costs, and this would be 
for you, Ms. Gambler, Ms. Duong, and if we have time, for some 
of these guys as well. But I think Congress--well, not just 
Congress but others as well, but we are often better about 
buying new technologies than we are at paying to get the full 
value of those investments. It does not make a lot of sense--
for example, we talked a little bit about this already--to buy 
advanced surveillance technologies if we are not prepared to 
pay for their ongoing operation and the maintenance and 
replacement costs to keep those assets running well and at full 
capacity, make sure we have the right people trained to do that 
stuff.
    Could each of you comment, starting with you, Ms. Gambler, 
on whether this is a challenge for the Department in terms of 
border security investments? And what advice do you have for 
us, for Congress, on how to improve matters?
    Ms. Gambler. With regard to the Arizona Technology Plan, 
when we did our report last year on that plan, we did assess 
the cost estimates that CBP had in place for the plan and some 
of the highest-cost programs under the plan and found that CBP 
could take some additional actions to ensure that those life-
cycle cost estimates better meet best practices. A key area 
that we reported on what the need for CBP to verify and 
validate its cost estimates against independent estimates to 
make sure that those estimates would be fully reliable and 
credible, and we made recommendations to CBP in that area to 
ensure that their life-cycle cost estimates more fully meet 
best practices. And we understand that--and Mr. Borkowski may 
be able to speak to this more--they are in the process of 
updating the life-cycle cost estimates for some of the 
technology programs under the plan going forward.
    Senator Carper. OK. Thank you. Ms. Duong.
    Ms. Duong. From the standpoint of technology that we in S&T 
are developing, we make sure that we do a good job at 
estimating the life-cycle costs before we submit that 
information to Mr. Borkowski, for example, for potential 
acquisition. And it is a process that we keep improving.
    As you know, before we start a project, we already consult 
with our operating component in estimating the return on 
investment, and when I say ``return on investment,'' it is on 
their investment, not my R&D investment. So we estimate that 
let us say if we pursue this particular technology, let us say 
we could find 10 more tunnels per year. Then what does that 
mean in terms--and we estimate throughout that it would cost X 
dollars to buy a new tunnel detection system that we are 
developing, then does that mean it would break even in 2 years, 
5 years, 10 years?
    So first it is just an estimate, and as we move further 
into the development of the solution, then we try to come up 
with a better and better estimate. And in the end, when we get 
to operational assessment, that is when we try to come up with 
a much better return on investment estimate to help CBP make 
the decision. So it is not just about, oh, look what great 
things this capability could do for you, but if you were to buy 
one or three or five systems and we estimate it would help you 
find five or 10 more tunnels, just be conservative, per year, 
then what does that mean in terms of cost saving? So we try to 
do that from an S&T standpoint to help them make the right 
decision.
    The other part is about acquisition programs, and as you 
know, S&T does not--it is not in our responsibility to do 
acquisition. That is OTIA's responsibility. However, the 
Department does employ us as an adviser, and we try to make 
investments to help acquisition programs better understand the 
implication of the maintenance costs, the tail of anything. 
Just like you pointed out, Senator, a lot of times the 
acquisition cost is actually the lowest cost. It is the easiest 
one that everybody looks at.
    So S&T always says that we want to be able to spend 
millions in order to save billions or hundreds of millions. So 
it is always a goal that we strive to achieve, and the 
Department has become more and more--in recognition of our 
role, and I am glad to say that S&T has become a trusted 
adviser for the Department along that line.
    Senator Carper. Good. Well, my time has expired. Mr. 
Chairman, are we going to have one more round so I can let 
these guys answer that question?
    Chairman Johnson. I have got a couple more questions 
myself, also.
    Senator Carper. Great.
    Chairman Johnson. Chief Vitiello, I have got a couple 
questions. I do want to go over this Office of Inspector 
General report that just came out today about the lack of the 
Department collecting data on prosecutorial discretion in 
Deferred Action on Childhood Arrivals. In the report it says 
that as of September 30, 2014, CBP's Office of Border Patrol 
reported it had released 650 DACA-eligible individuals. So you 
are keeping track of that? In what organized fashion are you 
tracking that?
    Mr. Vitiello. So in CBP specifically and the Border Patrol, 
when we process someone who is encountered by an agent and then 
we refer them either to deportation proceedings or in the case 
of unaccompanied children (UAC) to the U.S. Department of 
Health and Human Service (HHS) system, and then all of the 
encounters that we make are documented in a system, the 
enforcement system, so if it is appropriate, fingerprints, 
biographical data, photos, et cetera.
    Chairman Johnson. But if you are apprehending somebody 
illegally crossing the border, how could they qualify under 
DACA?
    Mr. Vitiello. They would not.
    Chairman Johnson. But you released 650 under that.
    Mr. Vitiello. I do not know that that is a CBP number. I 
have not seen the report. We have had very few encounters with 
DACA-eligible individuals in our context.
    Chairman Johnson. Well, yes, I mean, according to this 
report, you have released 650, ICE released about 12,750. So, I 
mean, your percentage obviously is quite low, but I was just 
questioning why--how could anybody qualify under DACA coming 
into this country illegally?
    Mr. Vitiello. So we do have environments that we operate in 
such as checkpoints or people that are at the border that have 
not crossed the border and they are encountered by our agents, 
and they have eligibility under the standard. Not everybody we 
come in contact with obviously has crossed the border.
    Chairman Johnson. I believe the Department has basically 
agreed with the recommendations of the Office of Inspector 
General to collect more data. Have you already been contacted 
in terms of the kind of data they are looking for as it relates 
to prosecutorial discretion?
    Mr. Vitiello. Specifically to that, I have not seen that. 
We are always looking for ways to identify where there are gaps 
in the system, and so the issue with the unaccompanied children 
last year, we struggled mightily with understanding how our 
data connected with the data that ICE keeps as it relates to 
the detention and then further on to removal proceedings within 
the Justice Department. That has been a struggle for us for a 
couple of years.
    Chairman Johnson. So do you deal much with just the 
prioritization of who we are going to try and remove the aliens 
that pose a danger to national security, those that violated 
immigration control, aliens, fugitives, otherwise? I mean, is 
that something you deal with, or are you just basically--you 
apprehend them and somebody else deals with those criteria?
    Mr. Vitiello. So all the agents--there is a training 
regimen for everyone to understand what the priorities are as 
it relates to the memorandum, but obviously most of the work 
that we do--of the over 190,000-some arrests or apprehensions 
that were made so far this year, those are all recent border 
entrants, so they fall well within the priorities for action.
    Chairman Johnson. So those priorities really do not affect 
you as much as they obviously affect ICE or other----
    Mr. Vitiello. Correct.
    Chairman Johnson. The Department of Justice or HHS. OK. You 
did mention Border Patrol agents, the numbers. I just want to 
get your assessment. I know the Texas Department of Public 
Safety engaged in Operation Strong Safety, and they surged a 
lot of manpower to the border. I just want to get your 
evaluation, how effective that was, because we have talked 
about technology, different detection systems, fencing, that 
type of thing. In the end, we need manpower. And so just give 
me your assessment of how Operation Strong Safety worked, and I 
believe it was in McAllen, Texas. Or was that all of the Texas 
border? Or where was that centered?
    Mr. Vitiello. It is mostly South Texas. I have actually 
seen directly the deployments in the Rio Grande Valley. And 
obviously as an operator, I am going to tell you that more 
boots on the ground is always better. Is it the most efficient 
way and those kinds of things? That really would be for the 
State to tell you how effective their deployments have been. 
But I know that we have worked very closely with them, so most 
of our deployments, especially in South Texas, are near the 
river, and having the Department of Public Safety--they have 
some capabilities in rural enforcement and on the river, et 
cetera, but most of that deployment is related to hardtop, on 
the highways, and they have been an asset for us with regard to 
helping chase smugglers, et cetera.
    Chairman Johnson. So Operation Strong Safety, is that 
continuing?
    Mr. Vitiello. As far as I know, it is.
    Chairman Johnson. Again, have you measured at all--I mean, 
do you have kind of a before and after?
    Mr. Vitiello. I can look at all of the data that we have 
developed. I am not sure--obviously, locally we are aware of, 
their contributions directly. But, again, it is a situation 
where there are more boots on the ground, et cetera, in that 
particular location, and in their deployments they help us in 
the areas where we know traffic is going to eventually try to 
make it, if it has made it past us.
    Chairman Johnson. We were down there, particularly the 
Sunday, the extra day I stayed down there. I mean, you see 
their presence. I would never try speeding around the Rio 
Grande Valley.
    I would really be interested in any kind of analysis your 
agency or your Department can do in terms of what was the 
apprehension rate, what was the detection rate prior to the 
Operation Strong Safety, and what is it now, because I think it 
is just a really good test case of additional manpower, and we 
can kind of measure how much we have increased the manpower 
because of that.
    Mr. Vitiello. Yes. So we have seen--obviously, the prior 
testimony that you mentioned, we have seen lower levels of 
activity across the southwest border. That does include where 
Strong Safety is deployed. What is their contribution? What is 
the contribution of the other assets that we have been able to 
procure and send to the agents for their use and that 
capability there? That is the part that we struggle with. That 
is what you hear about data. That is what you want us to do 
better at.
    Chairman Johnson. Yes. So, again, please look at that, 
because we also found out with aerostats, for example, when we 
talked to the people where those things were deployed, it shut 
down illegal crossings, but they just went someplace else. So--
go ahead.
    Mr. Vitiello. That is often the case. I mean, I think what 
I have heard from the agents on the ground that are the benefit 
of that capability, they went from not having, high-altitude 
persistent surveillance, situational awareness, if you will, to 
having, a very capable system. We are advantaged in the sense 
that we do not have to use agents to monitor those sensors and 
run those systems. That is a contract. The other side of that 
coin is it is very expensive to do.
    Chairman Johnson. And the other side, too, is when the wind 
is blowing, they are down, and let us face it, I would cross 
when the wind is blowing.
    Mr. Vitiello. Correct. That is why, we are very in favor of 
the Integrated Fixed Tower (IFT) deployments, the Refresh, and 
the additional Remote Video Surveillance System (RVSS), the 
cameras and sensors on the fixed and the mobile technology. We 
know those capabilities work. We have got a long history with 
some of it. We know that that is part of the future, and you 
will not be subject to the vagaries of the weather.
    Chairman Johnson. OK. Thank you. I was actually trying to 
be shorter, but I have got so many questions. Senator Carper.
    Senator Carper. So many questions, so little time.
    I would like to ask, Chief, if you and Mr. Borkowski and 
Mr. Alles would just go back to my last question about life 
cycle. Just do it in a minute, no more than a minute apiece. 
But could you just comment on whether this is a challenge for 
the Department in terms of border security investments and what 
advice, if any, you have for us on how to improve on this?
    Mr. Vitiello. Yes, I think we have--this is the data 
question. This is refining the assets that are available and 
recognizing the life-cycle costs.
    As an operator, what we try to do is say this is the 
requirement, this is the problem we are trying to solve, and we 
leave it to the acquisition professionals to understand, what 
is out there, how much does it cost. And I think we have gotten 
really good at learning from the acquisition folks how to 
establish requirements and then recognizing that life cycle, 
what we call operations and maintenance (O&M), is crucial for 
us to understand before we make the final decisions on 
deployments.
    Senator Carper. OK. Thanks. Mr. Borkowski.
    Mr. Borkowski. Senator, we have got some pretty good 
processes that have grown in the Department that put some 
discipline to check the affordability, which includes whether 
or not we can pay for O&M. But there is a continuing problem, 
and I will just be frank, that when I challenge people, they 
blame it on Congress. So let me tell you what that is.
    Senator Carper. No.
    Mr. Borkowski. They do. I am not sure that is true, but I 
will tell you what they say. What happens, as we buy more 
technology, you would expect that the operation and maintenance 
costs would go up. So what our budget plan is, let us suppose I 
have $100 and I start with, $80 to buy it and $20 to operate 
it. Over time, as I spend that $80, after I have built all of 
my technology, maybe I am down to zero, and I have moved all of 
that money from buying to operating and maintaining. What 
happens is that the budget people do not look at that as a 
total of $100. They look at it as money to buy and money to 
operate. OK? They see the money to buy going down, and they 
say, ``That is great. We love you. You have saved money.'' That 
is not really true, but that is what they say. ``But we hate 
you for operation and maintenance because that has gone up, and 
you need to make it flat.''
    That is the real problem that we tend to have with 
operation and maintenance, is getting people to understand that 
if you buy more stuff, you need to operate and maintain it. And 
we have to look at the totality of the budget, not the 
individual pieces.
    Senator Carper. OK. Thank you. Mr. Alles.
    Mr. Alles. Sir, Senator Lankford asked kind of a key 
question here about numbers of different types of airplanes. We 
compute life cycles across each year's platforms, but as you 
think about kind of the big picture, five different kinds of 
airplanes, that means five different pilot training programs, 
five different maintenance and supply chains, five different 
maintenance training programs, those kinds of things. So one 
efficiency we need to keep working on on life cycles is these 
numbers of different platforms.
    Senator Carper. Good. Excellent.
    A question, if I could, for Chief Vitiello. It is my 
understanding that CBP is doing an extensive gap analysis for 
border security that involves identifying what else is needed 
to better secure our southwestern border with Mexico. Could you 
just take a minute and give us a preview of what might be in 
that gap analysis? And do you think it might be done? And how 
could it be used?
    Mr. Vitiello. So describing the process, what we have tried 
to do with the capability gap analysis is going to the field, 
ask them what their challenges are, where they have specific 
things that they would like to solve with technology, with 
additional kinds of deployments, or other innovative ways to 
solve problems at the immediate border and, in specific zones, 
specific stations, specific sectors. And so what we have done 
is we have gone to the workforce. I explained to them what the 
process is, then gone out and taken surveys and gotten from the 
agents who walk the ground, who patrol the border, who are 
there, and gotten their ideas about what is required.
    Then what we try to do is we take that data, that 
information at the station level, roll it up to the sector, the 
20 sectors that are out there, then that will be fed up to us 
at the headquarters. Right now we are in a situation where the 
training is out for the bulk of the workforce, like 95, 98 
percent of it. And then we have got about 70 percent of their 
ideas and their innovations about how to go forward with--
specifically on the technology side. We have got about 70 
percent of the data in.
    Once we get all of the data, we will have a baseline. We 
will start to have conversations both with OTIA and S&T to find 
out, is there technology available? Is technology the best 
available resource for solving the problem as stated? And then 
we will be able to iterate that process as we learned about new 
things that are coming onboard, what the future looks like, 
using the success we know we have with other things, and try to 
fit a program together that says, ``this is how many of these 
things that you need,'' and then you could go down specifically 
into the locations and say, for instance, the agents at Carrizo 
Springs need the brush cleared or they need additional RVSS. 
That is the kind of capability we look to have once the C-gap, 
the first iteration is in as we move forward.
    Senator Carper. Thank you for that.
    The last thing I want to just touch on briefly is--and when 
we think of force multipliers, we think of a lot of stuff we 
talked about here today, and it is important. Sometimes I think 
in terms of our being able to better ensure that our borders 
are not so porous is to--I use the ``needle in the haystack'' 
analogy, and say the needles are the folks that are trying to 
get into our country--it could be human traffickers; it could 
be drug traffickers; it could just be people trying to flee a 
hellacious situation at home. But I would say there are a 
couple different ways to better find those needles in a 
haystack, and one of those ways is to make the haystack 
smaller. Another way is to have better equipment to detect the 
needles. And maybe another way would be to make the needle 
bigger.
    I think to some extent, if we do immigration reform, do it 
smart, we can actually make some progress on this front. If we 
do a better job with intelligence--I think one of the reasons 
we do pretty well up on the Northern Border is the great 
relationship we have with the Canadians and a lot of sharing of 
intelligence and really doing a lot of joint operations.
    The other thing I keep coming back to--and the Chairman and 
I have talked about this a fair amount; we have talked with 
General Kelly at SOUTHCOM about it, and that is to figure out 
how to convince a lot of people who live in Honduras, 
Guatemala, and El Salvador that they ought to just live there 
and somehow figure out how we can make them less likely to want 
to flee their country to come up here.
    Do you all have any thoughts on any of this before we 
close? I would welcome that. Mr. Garcia, just very briefly any 
thoughts, please. Just very briefly. You may not have. That is 
fine.
    Mr. Garcia. I do not have any thoughts on that matter.
    Senator Carper. OK. That is OK. Ms. Gambler.
    Ms. Gambler. I would just add on the unaccompanied alien 
children issue, which I think we have touched on a little bit 
today, GAO has a body of work looking at the unaccompanied 
alien children issues and have a couple of reports that will be 
issued this summer, including looking at U.S. programs in 
Central American countries to address some of those issues, as 
well as a report looking at screening, care, and custody for 
the children when they come to the United States.
    Senator Carper. Good.
    Ms. Gambler. And so we will have some work on that this 
summer. That will help inform some of those points.
    Senator Carper. Good. We will welcome that. Thanks. Ms. 
Duong.
    Ms. Duong. Senator, I know the focus of this hearing is not 
about cargo----
    Senator Carper. I am going to ask you to be very brief.
    Ms. Duong [continuing]. Or POE, but I would point out that 
when we talk about needle in the haystack, that problem is 
exacerbated at the ports of entry because we know that trade 
and travel is increasing by 5 percent at least per year. So the 
strategy of reducing the size of the haystack is indeed one of 
the main strategies that S&T is pursuing technology for.
    Senator Carper. Excellent. Thanks.
    Chief, just very briefly.
    Mr. Vitiello. I would just echo your comments as it relates 
to our partners in Canada. I think that relationship is a very 
good one. The local law enforcement and the Federal law 
enforcement as well as our partners in Canada, that makes a big 
difference. We are increasingly having those kinds of 
conversations in Mexico, and as we get smarter about how the 
Unity of Effort and the Joint Task Forces roll out, it will 
give us another opportunity to use the whole of government 
approach at the southwest border; and as our relationship with 
Mexico matures, it will be a benefit to all of us.
    Senator Carper. Thank you.
    Mr. Borkowski, very, brief comments, please, before we 
close.
    Mr. Borkowski. Just I like the needle in the haystack. 
Technology attempts to make the needle glow, and if it deters, 
then it can reduce the haystack, so we agree with you. But we 
also agree with you that technology is not the only or not 
necessarily the best way to get there.
    Senator Carper. Thanks. Mr. Alles.
    Mr. Alles. Briefly, Joint Task Forces help, intelligence, 
investigations, coordination is key, and then I think working 
with Mexico better is going to help us.
    Senator Carper. Great. Thanks so much. Thank you all very 
much. A great panel. I appreciate it.
    Chairman Johnson. Thank you, Senator Carper.
    One of the advantages of me not making long opening 
statements, I will make a closing one, because I have got a 
comment. If you want to reduce the haystack, what you should do 
is try and reduce, maybe even eliminate the incentives for 
illegal immigration. One chart we have been putting up here is 
a history of unaccompanied children coming from Central 
America, and prior to Deferred Action on Childhood Arrivals, we 
were somewhere around 3,000 to 4,000 per year. And then, we 
issued those memoranda in 2012, and that number jumped to 
10,000 the next year 20,000, the following year 51,000. I know 
it has come down a little bit, but it is still way above 
historic levels.
    So I think we have to, again, looking at the reality of the 
situation, what causes these things, and we need to reduce 
those incentives. That is why I have always been very 
supportive of a functioning guest worker program. 8.1 million 
of those individuals here in this country illegally are 
working. It is a rational decision. When you have wages that 
are so much lower in Central America and Mexico than they are 
here in the United States, it is a rational economic choice, 
particularly when the reality of the situation is, regardless 
of what the memorandum says, if you get into America, people 
are staying, particularly if you are a minor.
    So I think we really need to take a look at our policy, and 
I want to solve the problem. I think realistically we are 
probably not going to have comprehensive--we do not really do 
comprehensive very well, so what I have certainly asked the 
Secretary, what I hopefully asked my Ranking Member is work 
with me, let us identify those incentives, let us reduce them, 
and let us start approaching this in a step-by-step basis. I 
come from a manufacturing background. You do not solve problems 
just like that. I am perfectly willing to engage in continuous 
improvement. Let us take the step-by-step incremental 
improvements. Let us identify the things we can do. So if all 
of you would be willing to work with this Committee to identify 
those incentives, identify those steps, maybe a small piece of 
legislation--we reported one out of our Committee last week in 
a business meeting, just allowing CBP on Federal lands in 
Arizona. I would like to do it across the border. Probably some 
resistance there. So how about we just take a look at Arizona 
and see if that would actually work.
    So I really do hope that the Administration, the 
Department, your individual agencies will work with us. Let us 
identify those and, take a step-by-step approach and improve 
border security.
    With that, the hearing record will remain open for 15 
days--I forgot to thank all you folks. Again, thank you very 
much for your thoughtful testimony, for sitting here and 
answering in a very thoughtful manner. We really do appreciate 
it. I know how much time and effort goes into this, so thank 
you very much.
    The hearing record will remain open for 15 days until May 
28 at 5 p.m. for the submission of statements and questions for 
the record.
    This hearing is adjourned.
    [Whereupon, at 4:24 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  THE 2014 HUMANITARIAN CRISIS AT OUR
                  BORDER: A REVIEW OF THE GOVERNMENT'S
            RESPONSE TO UNACCOMPANIED MINORS ONE YEAR LATER

                              ----------                              


                         TUESDAY, JULY 7, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Ayotte, Ernst, Carper, Baldwin, 
and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order.
    I want to first welcome our witnesses. I appreciate your 
testimony, which I have thoroughly read and studied. The 
hearing is really called to take a look at a one-year lookback 
at the humanitarian crisis that we experienced last year as 
unaccompanied children (UAC) streamed across our border in 
record numbers. The flow has been reduced, but I would still 
say it is at almost humanitarian crisis levels, and rather than 
read an opening statement, I will ask for unanimous consent to 
enter my written statement in the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 1241.
---------------------------------------------------------------------------
    I would like to concentrate on a piece of Mr. Greenberg's 
testimony. I want to read a little bit of it, as soon as I find 
it.
    Mr. Greenberg in his written testimony says, ``In recent 
years, the number of unaccompanied children referred to the 
Department of Health and Human Services (HHS') Unaccompanied 
Children Program each year was generally in the range of 6,000 
to 7,000 until fiscal year (FY) 2012. Those numbers increased 
from 2012 through 2014, from 13,625 in fiscal year 2012 to 
24,668 in fiscal year 2013 to 57,496 in fiscal year 2014.''
    He goes on to say, ``As I will discuss later, the number 
has fallen considerably in the last year, though it is still 
high relative to caseloads prior to fiscal year 2012.''
    Now, we have presented this chart\1\ a number of times that 
graphically depicts the dramatic increase in the unaccompanied 
children coming in primarily from Honduras, Guatemala, and El 
Salvador. And I do this from a standpoint of trying to lay out 
pictorially when did it all occur and what happened. And there 
is one dramatic event that occurred in 2012. It is called 
``Deferred Action on Childhood Arrivals (DACA).'' It was 
implemented by this Administration, and I know there is an 
awful lot of state of denial from--saying, ``Oh, that did not 
really cause this; it is a push factor.'' There are multiple 
factors, there is no doubt about it. But I think it is really 
quite clear that that unilateral Executive Action on Deferred 
Action on Childhood Arrivals was the primary cause for this 
surge. And what I want this hearing today to talk about is the 
incentives we create in this country in our laws for people to 
come into this country illegally.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 1279.
---------------------------------------------------------------------------
    We are a nation of immigrants. We need to recognize the 
fact that people that come into this country by and large are 
coming for the exact same reason our ancestors came here: they 
are seeking the opportunity that this country offers people. We 
need to understand that and we need to, to a certain extent, 
respect that if it is done legally. We cannot tolerate an 
uncontrolled border, an unsecured border, and an immigration 
process that is out of control that is all based on illegal 
immigration.
    So we have to really take a look at our laws and take a 
look at those incentives for illegal immigration. Again, I 
would certainly look at Deferred Action on Childhood Arrivals 
as one of those incentives that created this crisis. So that 
is, from my standpoint, what I want to glean from this hearing 
today in the testimony and the questions we will be asking.
    It is a serious issue. People's lives are put at risk 
because of these incentives, and we need to get to the bottom 
of this.
    The other point I want to make is the difficulty in getting 
the information to actually solve this problem. Part of the 
problem there is we have three different departments with five 
different component agencies dealing with this, and these 
children are passed from one department and agency to the 
other, and we do not keep a real flowing record, and each 
agency is charged with a certain responsibility in the process, 
and there is just no overall coordination of everybody's 
effort. And from my standpoint, I do not believe we are really 
truly enforcing the laws the way that they were meant to. And 
as a result, we continue to incentivize this kind of illegal 
immigration. That has got to stop.
    So, with that, I will turn it over to our Ranking Member, 
Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. Welcome to one and 
all. It is good to see you. Thanks for joining us today and for 
your testimony.
    One of the things I think most of us here, whether 
Democrats or Republicans, agree on is that it is important that 
we address not just symptoms of problems, but that we address 
root causes, underlying causes that contribute to those 
problems. As the Chairman has said, there is no one single 
reason why all these people decided to come up to our country 
in droves the last couple of years. But I would suggest that 
one of the reasons why they want to come up here is because for 
a number of years they have lived hellacious lives that we 
contribute directly to.
    We buy a lot of illegal drugs up here. A lot of it comes 
right through Honduras, Guatemala, and El Salvador. We sell 
them guns, and those guns are used to arm their gangs. The 
gangs make money off of the drugs that are sold here. The 
environment for job creation in those three countries is not 
very good because of the lack of rule of law. And when we 
deport people, we do not always deport, as we know, 
unaccompanied minors or maybe families with children, but 
adults, particularly adult males that have a criminal record. 
We send them right back down there. And what do they do? They 
go to work. And the work that they go to work on creates an 
even more dangerous, unappetizing, uneconomic environment. So I 
always keep that in mind. We contribute directly to the very 
difficult lives they have in those countries, and we have some 
obligation to do something about that, and I will talk about 
that in just a moment.
    But as the Chairman says, a year ago we faced a 
humanitarian crisis at our Southern Border. Tens of thousands 
of women and children were turning themselves in to our Border 
Patrol agents and seeking protection after a grueling trip from 
Central America. Our border officers were overwhelmed in many 
instances. So were our shelters to house these children and 
families.
    To address this crisis, our government swung into action on 
multiple fronts. We sought to comply with the 2007 law signed 
by former President George W. Bush dealing with unaccompanied 
minors. We set up emergency shelters. We surged agents and 
immigration judges to border areas. And we worked to find safe 
homes for the children until their cases could be adjudicated.
    We also worked with the Governments of Guatemala, Honduras, 
and El Salvador to launch what I call the ``truth campaigns,'' 
letting the people in those countries know about the dangers of 
the trip to the north, to the United States. And we 
collaborated with the Government of Mexico so that nation might 
better strengthen the integrity of its Southern Border. And it 
has.
    Many others provided support, too, including local 
communities and faith leaders.
    One year later, we no longer have a crisis, at least not of 
the proportion we did a year ago. It is true that many families 
and many children are still fleeing these countries, but those 
numbers are clearly down, I think by a little more than half. 
In fact, while that is an improvement, is that enough 
improvement? No, it is not. But even though the crisis appears 
to be over, we still have humanitarian responsibilities to 
protect the children in our custody, and we have a moral 
obligation to treat them fairly under our laws until we change 
those laws.
    We must do this even as we try to resolve their cases more 
expeditiously and return to their own countries those who do 
not have grounds to remain here. I look forward to hearing from 
our witnesses today about how you work together to effectively 
process and care for so many children.
    While our border and immigration agencies are better 
equipped today than ever to handle another influx of 
immigrants, there is still a lot of progress that needs to be 
made. One area that I would like to focus on today is our 
immigration court system. As we all know, our immigration 
courts were badly understaffed even before last summer's border 
surge. With tens of thousands of new cases, wait times have 
gotten much worse. In fact, some immigrants with pending cases 
were informed they might not get a hearing before November 
2019. Clearly, this is unacceptable.
    That is why I wrote to our colleagues on the Senate 
Appropriations Committee earlier this year urging them to fund 
the President's request for 55 new immigration judge teams. I 
am pleased to say that the request appears to have garnered 
support in both chambers. These new judges will not solve the 
problem entirely, but they sure will be a big help.
    We also know that cases often advance more efficiently when 
unaccompanied minors have a lawyer. Not surprisingly, most of 
these minors cannot afford one. That is why in Delaware, and in 
communities across the country, many lawyers have stepped up to 
the plate to offer pro bono legal services. I could not be 
prouder of the legal community in my own State. But many minors 
all over the country still lack attorneys, so there is work 
clearly to be done.
    Ensuring an efficient and effective border security and 
immigration system is incredibly important. However, I believe 
we must also not lose sight of the reasons why, as I said 
earlier, so many folks feel the need to flee their country.
    If we are to realize the kind of border integrity along our 
border with Mexico, we need to work with these three Central 
American countries--Honduras, Guatemala, and El Salvador--but 
not just them. We need to work with Mexico, we need to work 
with Colombia, with the Inter-American Development Bank, and 
others--the church, nonprofits--to help root out the causes of 
violence and poverty in the Northern Triangle while we do all 
this other stuff that we are trying to do.
    Not that many years ago, we encountered a similar challenge 
in Colombia. We all recall that. And most people would agree 
that our support--along with that of others--helped turn that 
country around through the implementation of Plan Colombia. We 
also know that Mexican immigration has leveled off in large 
part because of the economic advances in that country. 
Meanwhile, Central American migration has spiked because of the 
intense violence and poverty in that region. Young people are 
particularly vulnerable to gang violence.
    The Governments of Guatemala, Honduras, and El Salvador 
must take the lead on this--and they are. These three countries 
have already joined together in an unprecedented regional 
effort called the ``Alliance for Prosperity'' to improve the 
lives of their citizens. I like to say, as in Home Depot they 
advertise, ``You can do it, we can help.'' They can do it, we 
can help, and we have an obligation to do that.
    Later today, Senate appropriators will take up the 
administration's request for a dramatic new infusion of Federal 
aid to Central America. I hope the appropriators will heed the 
President's call for a new focus and investment there. And by 
doing so, we can help sow some new seeds of hope and prosperity 
that can benefit generations of children to come.
    Needles in haystacks. I think about it in terms of needles 
in haystacks. There is a big haystack down on the border. We 
are trying to pick out the needles. And the needles are people, 
families trying to get through, drug runners trying to get 
through, human traffickers trying to get through. And the 
haystack is huge. We need to make the haystack smaller, and one 
of the things we need to do that is to support the 
administration's proposal. It is like a new version of Plan 
Colombia. Plan Colombia worked. I think this one will work as 
well. In the meantime, we have got to do a whole lot of other 
stuff that we will hear about and talk about here today.
    Thank you all.
    Chairman Johnson. Thank you, Senator Carper. As you are 
well aware, I am all into root cause analysis, and I will agree 
with you. If you take a look at what is causing our unsecured 
border, I would say the root cause is our insatiable demand for 
drugs. And in testimony before this Committee by General 
McCaffrey, if you really want a metric that shows you how 
unsecure our border truly is, it is how much of the drugs we 
are actually interdicting. It is about 5 to 10 percent, even 
though we are spending, with all the agencies spending, about 
$25 billion on a war on drugs.
    So, again, I agree with you. That is a root cause. But 
within that overall root cause of the overall problem, there 
are individual situations, and this is, the unaccompanied 
children coming in from Central America. I think there is a 
root cause there, and I think it is called ``Deferred Action on 
Childhood Arrivals.''
    It is the tradition of this Committee to swear in 
witnesses, so if you will all rise and raise your right hand. 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Osuna. I do.
    Mr. Greenberg. I do.
    Mr. Miller. I do.
    Mr. Langlois. I do.
    Chairman Johnson. Thank you. Our first witness will be Juan 
Osuna. Am I pronouncing that correctly?
    Mr. Osuna. That is correct.
    Chairman Johnson. Good. Mr. Osuna is the Director of the 
Executive Office for Immigration Review (EOIR) at the U.S. 
Department of Justice (DOJ). Mr. Osuna served as an Associate 
Deputy Attorney General at the DOJ from June 2010 to December 
2010, where he worked on immigration policy and other issues. 
From May 2009 to June 2010, Mr. Osuna was the Deputy Assistant 
Attorney General in the Civil Division, Office of Immigration 
Litigation. Prior to these positions, he served as Chairman of 
the Board of Immigration Appeals. Mr. Osuna.
    Senator Carper. Mr. Chairman, could I just interrupt for a 
second? If I can just ask a favor. I am not very good at 
acronyms. The Department of Homeland Security (DHS), I have got 
that. U.S. Immigration and Customs Enforcement (ICE), I have 
got that. But in reading your testimony, a couple of you used a 
lot of acronyms, and if you persist in doing that, you are 
going to lose me. So just try to show some temperance there. 
Thank you.

 TESTIMONY OF JUAN P. OSUNA,\1\ DIRECTOR, EXECUTIVE OFFICE FOR 
         IMMIGRATION REVIEW, U.S. DEPARTMENT OF JUSTICE

    Mr. Osuna. Good morning, Mr. Chairman, Senator Carper, and 
Members of the Committee. Thank you for the opportunity to 
speak with you today about the mission of the Department's 
Executive Office for Immigration Review, our role in response 
to last year's border surge, and the work we continue to do 
with our Federal partners on this issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Osuna appears in the Appendix on 
page 1245.
---------------------------------------------------------------------------
    Our role in the removal process is to hear the cases of 
individuals charge with violating our immigration laws and 
deciding which of those individuals should be removed from the 
United States and which are eligible for some relief from 
removal.
    We carry out this mission through our corps of immigration 
judges in 58 immigration courts around the country and our 
appellate tribunal, the Board of Immigration Appeals. All our 
cases start when the Department of Homeland Security files a 
charging document with one of our immigration courts.
    Among the many challenges facing our courts, the largest is 
our growing pending caseload, which you referred to earlier, 
Senator Carper. There are more than 450,000 cases pending in 
immigration courts around the country, by far the most we have 
ever had. This backlog grew during recent budget cuts when the 
agency was unable to hire immigration judges and staff to 
replace those who left. In fact, while our immigration judge 
corps was shrinking, we continued to receive new cases, 
resulting in a continuously rising backlog.
    From last summer's surge alone, the courts received more 
than 80,000 cases between July 14, 2014, and June 30 of this 
year. We are taking steps to increase our capacity to 
adjudicate cases through a vigorous hiring effort, and hiring 
judges is our first priority. Overall, with the 18 immigration 
judges that we added a few weeks ago, there are now 247 
immigration judges around the country, and dozens more are at 
various stages of the hiring process.
    Like our Federal partners, we took steps to respond to last 
year's border surge by adding new priorities to our existing 
priority, for all detained cases. Specifically, we added to our 
priority list unaccompanied children and those who arrived with 
children. We depend on our partners at DHS to identify these 
groups upon the filing of the charging document with the 
immigration court, and we are processing these cases as quickly 
as possible consistent with due process.
    As anticipated, when we identified these new priorities, 
the focus of our limited resources on these priority case 
groups has had a significant impact on the non-detained, non-
priority cases awaiting adjudication. Thousands of these cases 
have to be rescheduled far into the future to make room for the 
higher priority cases. Overall, 45 percent of case completions 
in our immigration courts so far this year have been in 
priority categories, meaning individuals detained by ICE and 
those who crossed the border since last year.
    The numbers provide some insight into the work the 
immigration courts are doing. From July 18, 2014, when we 
started tracking our new priority case groups, to June 30 of 
this year, the immigration courts received approximately 35,000 
cases for respondents DHS identified as unaccompanied children. 
It is important to note that many of these cases involving such 
children may not be currently pending before the court because 
the children are pursuing some sort of relief from removal, 
which requires work by the U.S. Citizenship and Immigration 
Services, which you will hear from a little later, which has 
initial jurisdiction over these cases.
    The pending caseload for unaccompanied children is 
currently approximately 23,000. With a goal of holding an 
initial hearing for unaccompanied children within 21 days after 
receiving the case, I can report that more than 27,000 children 
have had an initial hearing scheduled by an immigration judge 
the date for which has passed, and immigration judges have 
issued more than 6,800 orders of removal.
    Under the law, orders of removal in absentia result from an 
individual's failure to appear for a scheduled and properly 
noticed hearing when ICE has established that the person is 
removable. With regard to unaccompanied child cases, 
immigration judges have issued orders of removal in absentia in 
about 5,900 cases.
    Children who appear in immigration court proceedings 
without an accompanying adult may require special care and 
modifications to normal courtroom procedures. We have in place 
guidance for adjudicating cases where the respondent is an 
unaccompanied child. Further, circumstances in a particular 
immigration court may require specialized dockets for 
children's cases. Following last summer's surge, all 
immigration courts are equipped to handle a juvenile docket, 
and 39 courts have current active juvenile dockets. Immigration 
judges also receive specialized training, most recently in 
April of this year, regarding juvenile cases.
    We recognize that the presence of a representative can 
increase immigration court efficiencies, especially with 
children. We have taken numerous steps to encourage pro bono 
counsel to provide representation, and we ensure that 
unrepresented children are aware of those resources when they 
appear before immigration judges.
    To assist in these endeavors, we operate a legal 
orientation program for child custodians under which custodians 
of unaccompanied children are provided with important 
information on pro bono resources, the immigration court 
process, and their roles and responsibilities. And a few months 
ago, we launched some representation programs that now operate 
in 24 immigration courts to provide direct representation to 
unaccompanied children.
    Last year's border surge posed significant challenges for 
all Federal agencies, including ours. We responded by taking 
steps to work toward hearing these priority cases as quickly as 
due process allows. These steps included making docket 
adjustments, reprioritizing certain cases, and refocusing our 
immigration court resources. We are in continuous and frequent 
contact with our Federal partners at DHS and HHS on how we can 
continue to improve our collective handling of these 
challenging cases.
    Thank you, and I am happy to answer any questions you may 
have.
    Chairman Johnson. Thank you, Mr. Osuna.
    Our next witness is Mr. Mark Greenberg. Mr. Greenberg is 
the Acting Assistant Secretary for the Administration for 
Children and Families at the U.S. Department of Health and 
Human Services. We have got that one, right?
    By the way, I like your acronym, EOIR.
    He also serves as both the Principal Deputy Assistant 
Secretary and the Acting Commissioner for the Administration 
for Children, Youth, and Families. Before joining HHS, Mr. 
Greenberg directed the Georgetown University Center on Poverty, 
Inequality, and Public Policy. Mr. Greenberg.

TESTIMONY OF MARK H. GREENBERG,\1\ ACTING ASSISTANT SECRETARY, 
 ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Mr. Greenberg. Chairman Johnson, Ranking Member Carper, 
Members of the Committee, thank you for inviting me to testify 
today. In my testimony, I will be describing the 
responsibilities of the Department of Health and Human Services 
in relation to unaccompanied children and will then talk about 
a set of key developments relating to those responsibilities 
since the Committee's hearing on this topic last summer.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Greenberg appears in the Appendix 
on page 1252.
---------------------------------------------------------------------------
    When unaccompanied children are referred to us by the 
Department of Homeland Security, we initially place them in one 
of a network of shelters while staff work to determine if they 
have an appropriate sponsor with whom they can live while they 
are awaiting their immigration proceedings.
    When they arrive at a shelter, children are provided with a 
complete medical examination within 48 hours. Trained staff at 
the shelters conduct screenings to determine if the child may 
be a victim of abuse or a crime or human trafficking. Children 
in care receive medical, dental, mental health services, 
education services, recreational opportunities, a legal rights 
presentation, and access to legal services, access to religious 
services, case management, and clinical counseling.
    While the children are in care at the shelters, we have a 
responsibility to place them in the least restrictive setting 
that is in the best interest of the child, taking into 
consideration the risk of harm to themselves or to the 
community or risk of flight.
    Initially, we seek to place children with a parent or a 
close relative or, if that is not possible, a more distant 
relative or a family friend. If we cannot identify an 
appropriate sponsor and the child does not get repatriated or 
attain immigration relief, the child will remain in HHS case 
until he or she turns 18, at which point we will remand the 18-
year-old to the custody of the Department of Homeland Security.
    We seek to ensure that sponsorships are safe and 
appropriate. We require verification of the sponsor's identity 
and relationship to the child. The potential sponsor must 
undergo a background check and complete an assessment that 
identifies risk factors and other serious concerns. In a set of 
cases, caseworkers perform home studies as an additional safety 
measure.
    As part of the placement process, potential sponsors must 
agree that they will ensure that the child appears at court 
proceedings and must agree to inform the Department of Justice 
and Department of Homeland Security of any change of address. 
In addition, when we release the child to the sponsor, we 
provide the address information to the Department of Justice 
and the Department of Homeland Security.
    I now want to highlight some key developments since last 
year's hearings. As you noted, last year it was the highest 
number of children in the history of the Unaccompanied Children 
Program. This year, the numbers are down significantly, though 
still high in historic terms.
    Last year, we received over 57,000 referrals from the 
Department of Homeland Security. In the first 8 months of this 
year, we have received fewer than 18,000.
    Last year, the President directed the Secretary of Homeland 
Security to establish an interagency group, the Unified 
Coordination Group (UCG), to ensure unity of effort across the 
administration. The UCG continues to operate. It has an ongoing 
role to facilitate requests from the Department of Homeland 
Security or HHS, if needed, and this can include requests for 
additional capability, operational coordination, planning 
support, situational assessment, and critical transportation 
capabilities.
    Operating the Unaccompanied Children Program presents 
multiple challenges because of uncertainties about how many 
children will arrive and when. Incorporating lessons from last 
summer, we developed what we refer to as a ``bed capacity 
framework'' to ensure that we have enough year-round standard 
beds with the ability to quickly add temporary beds when there 
are seasonal fluctuations. This is a model that reduces funding 
during periods of low capacity while preserving the ability to 
respond to future increases.
    Since 2011, we have reduced the amount of time children 
stay in shelters from an average 72 days to a little more than 
30 days. We have maintained the average this year at 34 days.
    While we seek to ensure that all releases are safe and 
appropriate, we know that sometimes a child may develop 
concerns about his or her placement, and in April, we expanded 
our help line in order to receive calls from children who are 
in distressed circumstances.
    In addition, starting this month, HHS is beginning to offer 
post-release services to a child and sponsor in the first 6 
months after release if a placement has been disrupted or is at 
risk of disruption.
    In December of last year, we published our interim final 
rule that outlines safeguards that all of our facilities have 
to implement to protect children in custody from sexual abuse.
    Last September, we provided funds to two grantees to expand 
legal representation. On June 15, we issued proposals for 
contractors to further expand the provision of legal services.
    We welcome working with the Committee and Congress in 
efforts to improve the program. Thank you, and I will be happy 
to answer any questions.
    Chairman Johnson. Thank you, Mr. Greenberg.
    Our next witness is Mr. Phil Miller. Mr. Miller is the 
Assistant Director of Field Operations, Enforcement and Removal 
Operations, for the U.S. Immigration and Customs Enforcement at 
U.S. Department of Homeland Security.
    That is ICE, and that is a whole lot easier to say than the 
long title.
    Mr. Miller has served in a variety of positions----
    Senator Carper. ICE is good.
    Chairman Johnson. Well, we know that one.
    Mr. Miller has served in a variety of positions in the 
Department, beginning as an immigration inspector in 1996, and 
becoming a deportation officer in 1998, ICE Special Agent in 
2001, and Field Officer Director of the New Orleans Field 
Office in 2009. Mr. Miller.

 TESTIMONY OF PHILIP T. MILLER,\1\ ASSISTANT DIRECTOR OF FIELD 
     OPERATIONS, ENFORCEMENT AND REMOVAL OPERATIONS, U.S. 
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Miller. Thank you, and good morning. Chairman Johnson, 
Ranking Member Carper, and Members of the Committee, thank you 
for the opportunity to appear before you today to discuss the 
role of ICE in addressing the ongoing challenges surrounding 
unaccompanied children arriving in the United States.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Miller appears in the Appendix on 
page 1267.
---------------------------------------------------------------------------
    I currently serve as the Assistant Director of Field 
Operations, for ICE Enforcement and Removal Operations, where I 
oversee, direct, and coordinate the operational activities 
throughout the Nation's 24 field offices and their sub-offices. 
This includes the transportation and removal of unaccompanied 
children to further agency goals and ensure compliance with 
agency policy.
    As you know, in 2014, there was an unprecedented influx of 
unaccompanied children from Central America to the United 
States. Through the whole of government, we continue to address 
this humanitarian border security issue in a manner that is 
comprehensive, coordinated, and humane.
    As part of the unified effort, ICE is responsible for 
quickly and safely transporting unaccompanied children from the 
custody of U.S. Customs and Border Protection (CBP) to the 
custody of HHS and, if ordered, the removal of these children 
following the conclusion of immigration proceedings. Both of 
these functions are critical links in the overall process.
    While unaccompanied children are not housed in ICE's 
detention facilities, their short-term care and custody 
requires the use of agency resources and the time and attention 
of ICE's officers. During the time that ICE maintains physical 
custody of the unaccompanied children for transportation and 
pending their placement with HHS, such minors are separated 
from adult detainees. Unaccompanied children are provided with 
regular access to snacks, drinks, consular officials, 
telephones, and other resources.
    ICE transports unaccompanied children via ground, 
commercial air, and ICE charter flights. All 24 ICE field 
offices have primary and backup juvenile coordinators each of 
whom receive annual specialized training with respect to the 
unique vulnerabilities of children. These field office juvenile 
coordinators, a duty that I personally performed in 1999, serve 
as a local subject matter expert on proper processing, 
transportation, and placement of unaccompanied children. 
Additionally, they monitor operational practices for compliance 
with regulations, standards, and policy, and they are on call 
24 hours a day, 7 days a week.
    Currently, due to immigration court backlogs, immigration 
processes take months or even years. However, once removal 
proceedings have concluded and a final order of removal is 
issued, ICE takes appropriate enforcement action based on the 
Department's stated priorities.
    Accordingly, HHS can transfer custody of an unaccompanied 
child to Enforcement and Removal Operations (ERO) and then ERO 
will remove the unaccompanied child in cooperation with HHS and 
the receiving government.
    We have taken a number of steps to prevent further surge 
this year.
    First, the President and Secretary have reiterated that 
recent arrivals and those attempting to cross the border are 
priorities for apprehension and removal.
    Second, ICE has implemented procedures for efficiently 
obtaining travel documents and transferring unaccompanied 
children through a streamlined process that allows our ERO 
officers to continue to perform their other responsibilities.
    Third, Secretary Johnson and Director Saldana have 
personally met with high-level officials in El Salvador, 
Mexico, Honduras, and Guatemala to secure their cooperation in 
stemming the flow of their citizens into the United States. 
While the humanitarian influx is a seasonal challenge, early 
indications are that our efforts are paying off.
    While I am confident that we will not see a repeat of last 
year's unprecedented numbers, we are better prepared than ever 
before to deal with the arrival of unaccompanied children along 
the Southern Border. With the Committee's support, we continue 
to work closely with our sister agencies to address the care 
and processing of unaccompanied children arriving in the United 
States in a unified manner.
    Thank you again for the opportunity to appear before you 
today, and I welcome your questions.
    Chairman Johnson. Thank you, Mr. Miller.
    Our final witness is Mr. Joseph Langlois. Mr. Langlois is 
the Associate Director of the Refugee, Asylum, and 
International Operations for U.S. Citizenship and Immigration 
Services (USCIS), at the U.S. Department of Homeland Security. 
Mr. Langlois is a career civil servant at USCIS, serving for 
more than 35 years in various positions from asylum officer to 
the Chief of the Asylum Division. Mr. Langlois.

    TESTIMONY OF JOSEPH E. LANGLOIS,\1\ ASSOCIATE DIRECTOR, 
REFUGEE, ASYLUM, AND INTERNATIONAL OPERATIONS DIRECTORATE, U.S. 
   CITIZENSHIP AND IMMIGRATION SERVICES, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Langlois. Mr. Chairman, Senator Carper, and other 
distinguished Members of the Committee, thank you for the 
opportunity to testify at today's hearing on unaccompanied 
children. My name is Joseph Langlois, and I am the Associate 
Director of the Refugee, Asylum, and International Operations 
Directorate within U.S. Citizenship and Immigration Services, 
at the Department of Homeland Security. I oversee the asylum 
program at USCIS, which plays a critical role in upholding our 
Nation's long tradition of providing protection for those who 
have been persecuted or have a well-founded fear of 
persecution. My testimony today will focus on USCIS' role in 
adjudicating asylum applications filed by unaccompanied 
children.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Langlois appears in the Appendix 
on page 1273.
---------------------------------------------------------------------------
    The Trafficking Victims Protection Reauthorization Act of 
2008 (TVPRA) changed the track for unaccompanied children 
seeking asylum in removal proceedings and introduced a new role 
for USCIS. Prior to the TVPRA, only immigration judges had 
jurisdiction to adjudicate asylum applications filed by 
unaccompanied children in removal proceedings. Under the TVPRA, 
unaccompanied children in removal proceedings now have the 
ability to file their asylum applications with USCIS. This 
arrangement allows unaccompanied children to initially present 
their claims in a non-adversarial interview with a USCIS asylum 
officer rather than in adversarial proceedings before an 
immigration judge. While the forum in which the claim is 
initially heard is changed, the eligibility standard for asylum 
remains the same.
    In addition, if the asylum officer does not grant asylum, 
USCIS coordinates with ICE to transfer the case back to 
immigration court where unaccompanied children may renew their 
asylum claims in adversarial proceedings before an immigration 
judge.
    Since implementation of TVPRA in 2009, approximately 13,000 
unaccompanied children have filed asylum applications after 
having been placed in removal proceedings. Since TVPRA became 
law 6 years ago, USCIS has granted asylum to approximately 
4,000 unaccompanied children. While the number of unaccompanied 
children being granted has been low compared to the number of 
arrivals and the number of applications, USCIS serves a vital 
role in protecting unaccompanied children who have been 
persecuted or have a well-founded fear of persecution by 
providing a non-adversarial forum to elicit their claims.
    The asylum application process generally begins when a 
minor who was determined to be an unaccompanied minor by CBP or 
ICE indicates an intention to apply for asylum while in removal 
proceedings. ICE then instructs the unaccompanied child to file 
the asylum application with USCIS. In the meantime, the 
immigration judge grants a continuance of the removal 
proceedings or administratively closes proceedings in order for 
the unaccompanied child to file the application with USCIS and 
for USCIS to adjudicate the asylum application.
    During the pendency of the asylum case, asylum officers 
communicate with ICE attorneys to provide progress reports on 
the case, verify the status of removal proceedings, confirm 
court hearing dates, and arrange for the transfer of files 
between ICE and USCIS.
    After USCIS receives the case, an asylum officer conducts 
an in-person, in-depth, non-adversarial interview of the 
unaccompanied child to fully explore the asylum claim. In 
addition, the asylum officer researches country conditions, 
completes a wide range of required biometric and biographic 
security checks. The asylum officer then determines whether the 
applicant is eligible for asylum and drafts a decision. Before 
any decision is finalized, a supervisor reviews the case to 
ensure that the decision is supported by the record and 
comports with the law.
    In conclusion, USCIS plays an important role in 
adjudicating asylum applications for the small portion of 
unaccompanied children who choose to apply. USCIS continues to 
monitor trends of new application filings and stands ready to 
meet any future challenges with a firm commitment to quality 
and integrity.
    Thank you for the opportunity to testify. I would be more 
than happy to answer your questions. Thank you.
    Chairman Johnson. Thank you, Mr. Langlois.
    Let me start with the chart.\1\ As I stated earlier, there 
are multiple causes for, obviously, children coming into this 
country, but does anybody want to take a look at that chart and 
basically dispute my overall conclusion of what the primary 
cause of the spike of unaccompanied children coming to this 
country was Deferred Action on Childhood Arrivals, the message 
that we are sending to Central America that if you get to 
America, you are pretty well home free? Does anybody want to 
volunteer a challenge to that conclusion?
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 1279.
---------------------------------------------------------------------------
    [No response.]
    OK. Then I will--Mr. Greenberg? You twitched.
    Mr. Greenberg. First, I want to make clear that HHS is not 
an immigration agency, is not responsible for immigration 
policy, and our responsibilities are principally about 
providing shelter for the children and getting them to 
appropriate sponsors. The work on reasons for why children are 
coming is principally the work that has been done by the State 
Department and the Department of Homeland Security, and I would 
refer to the recent GAO report on this issue.
    The GAO report highlights the importance of crime and 
violence and economic conditions in the home countries.
    Chairman Johnson. Let me just ask, has there been a 
dramatic increase in crime or a dramatic reduction in economic 
conditions in Central America starting in the year 2012 that 
would be kind of a trigger for that, be a catalyst for that 
type of enormous spike? I have the murder rates, homicide rates 
per 100,000, and quite honestly, in most of these countries, 
they have dropped in El Salvador in 2009, 71; 2010, 64; 2011, 
70; 2012, 43; 2013, 40. So, again, I realize Central America is 
not America, and, you have got a huge wage differential. These 
are certainly pull factors. But, again, I am looking at what 
caused that spike.
    I would say that nobody is really disputing that that is 
certainly a real possible cause right there. Let me get into 
some numbers here.
    Since 2009, from El Salvador, Guatemala, and Honduras, 
there have been over 100,000--109,000 unaccompanied children 
coming into this country. Of the children coming in 2009, we 
returned about 30 percent; in 2010, we returned about 22 
percent; in 2011, we returned about 24 percent; in 2012, 12 
percent; 2013, 6.2 percent; 2014, 2.7 percent; and as of 2015, 
about 3.8 percent.
    Now, again, we cannot really relate those returned versus 
when they came in, but that is just the returned versus the 
children coming into this country.
    So, in all, we have returned about 5.7 percent, about 6,248 
unaccompanied children, when we have had 109,000 come to this 
country illegally.
    Now, is that sending a signal to people in Central America 
that as an unaccompanied child, if you come into America, you 
have a 94.3 percent chance of being able to stay? Is that a 
disincentive for making that trip or an incentive for making 
that trip? Anybody want to answer that? I would say it is an 
incentive.
    Mr. Miller, there are currently, I think in your testimony 
you said about 6,800 final orders of removal that have been 
issued. Those are adjudicated cases, people have been ordered 
to be removed; children have been ordered to be removed from 
this country. So far in fiscal year 2015 we have removed 569. 
Why aren't we removing the 6,800?
    Mr. Miller. Well, Senator, first, the data I have shows 
that so far this fiscal year, as of mid-June, we had removed 
about 1,500 unaccompanied children.
    Chairman Johnson. So 1,500 versus 6,800.
    Mr. Miller. Yes, sir. As a police manager, I have to look 
at all of the cases that we have to work, and I can tell you 
that if I am going to task my officers with going out after 
criminals that are at large in our community or going out after 
juveniles who are non-criminals in our community, I think it is 
good policing to go after the criminals. We face a very dynamic 
environment in a number of jurisdictions that are no longer 
honoring ICE detainers, and so rather than my officers being 
able to go and pick up criminals, convicted criminals in a 
jail, we have to go out with teams and find these people in the 
community. That is very resource-intensive, and if we have to 
prioritize those two populations, I think we are making 
appropriate prioritization, giving our policing 
responsibilities.
    Chairman Johnson. Well, as long as we are talking about 
criminals, on Sunday we learned that 32-year-old Kathryn 
Steinle was killed in San Francisco by an illegal immigrant who 
had seven prior felony convictions. According to ICE data 
provided to Senators Grassley and Flake, from fiscal year 2010 
through fiscal year 2014, 121 criminal aliens were released and 
have been subsequently charged with a homicide-related offense. 
What do you have to say about that lack of enforcement?
    Mr. Miller. I do not think that the two are necessarily--
the larger data that we have been talking with your colleagues 
on the House side about, that represented a number of different 
reasons why those persons could no longer be detained. Many of 
those are a function of law. There are both criminal--I am 
sorry, circuit court decisions in the Ninth Circuit; there are 
also binding Supreme Court----
    Chairman Johnson. Tell me specifically what is preventing 
us, when we have people in this country illegally and they have 
had seven prior felony convictions, why aren't we able to 
deport those individuals?
    Mr. Miller. In that particular case, our detainer was not 
honored.
    Chairman Johnson. Who did not honor it?
    Mr. Miller. San Francisco Sheriff's Department did not 
honor our detainer that we lodged.
    Chairman Johnson. So you have no legal authority to detain 
that person yourself or apprehend them and deport them?
    Mr. Miller. In that particular case, that gentleman has an 
outstanding felony narcotics warrant, and we feel strongly that 
the Bureau of Prisons (BOP) made the right decision in trying 
to resolve that criminal warrant before taking--we are allowed 
to take further civil action.
    Chairman Johnson. What is BOP?
    Mr. Miller. Bureau of Prisons----
    Chairman Johnson. Again, that did not make sense to me 
right there. So tell me what happened. You seem to know a fair 
amount about that case. What happened in that case where that 
individual had seven prior felony convictions and he had been 
released, repeatedly obviously, and now a young woman is dead? 
Why did that happen?
    Mr. Miller. In that particular instance, he completed 
serving a Federal sentence for illegal re-entry after 
deportation by an aggravated felon. When he completed that 
sentence----
    Chairman Johnson. Let me start over. Why didn't ICE pick 
him up immediately upon that and deport him? What is preventing 
us from doing just that? We have got him in custody. He serves 
his sentence. Why isn't ICE right there at the prison door 
escorting that person back to his country of origin?
    Mr. Miller. As I said, there was an outstanding narcotics 
warrant, felony narcotics warrant, and Bureau of Prisons, as we 
would have done the same thing, we would seek to resolve all 
criminal warrants before we go forward with removal. That has 
been our past practice for a number of years. We actually 
operate that within the criminal alien program. As a matter of 
agency direction, the officers are to resolve outstanding 
felony criminal warrants before proceeding with removal.
    Chairman Johnson. So there was another criminal warrant, 
but he was released into general society to create a murder--or 
to commit a murder. I mean, does that make any sense to you? 
Because, I tell you, it does not make any sense to the American 
public. And that is the problem. That is what we are trying to 
grapple with here. That is the problem we need to solve. 
Senator Carper.
    Senator Carper. Just go ahead. How do we solve that 
problem? Because there is a disconnect here. We have got a guy, 
he is up, he has been incarcerated repeatedly, a felon, a 
repeat offender. He is in prison where, in jail in San 
Francisco? We have got a drug--what is it? A drug charge 
against him, a Federal drug charge?
    Mr. Miller. There was a State felony warrant for narcotics.
    Senator Carper. OK.
    Mr. Miller. And I think that the Secretary is taking very 
proactive steps through the Priority Enforcement Program to try 
to bring a number of locations that are not honoring 
immigration detainers. We have established requests for 
notification that look to overcome a lot of the concerns that 
our State and local partners had in working through Secure 
Communities, and by establishment and working through the 
Priority Enforcement Program, we hope to have communities like 
San Francisco come back and begin working with us proactively.
    Senator Carper. Is there something we need to do here at 
our end on the legislative side to make sure that something 
like this does not happen again?
    Mr. Miller. I am not an attorney, Senator. I am a law 
enforcement officer, so I cannot really speak to the nuances of 
law or policy. I am told by our attorneys that there is limited 
ability to force communities to accept immigration detainers. 
Also, I think that has not been a historical police practice. 
Usually we work collaboratively to resolve outstanding criminal 
warrants and then to transfer custody when requests are made. I 
think some of the recent court decisions called into question 
ICE's ability to request that communities hold, sheriffs hold 
their inmates for 48 hours beyond the expiration of their 
sentence, and that is one of the reasons why Secretary Johnson 
in going forward with the Priority Enforcement Program has 
created a new paradigm where we will be communicating with 
these jurisdictions before the person is released from custody 
and being able to safely and effectively ensure their transfer 
of custody.
    Senator Carper. Maybe this is one that we could work on 
together to do a better job on. OK. Thank you.
    Mr. Miller. Very good.
    Senator Carper. I asked my staff to look to see if it is 
only the United States to which folks from Honduras, Guatemala, 
and El Salvador are fleeing to ask for asylum. What about these 
other countries? How about Mexico? How about Belize? How about 
Panama? How about Nicaragua? And they just gave me these 
numbers, and I thought it was pretty interesting. They said the 
United States is not the only country that is experiencing 
significant increases in asylum seekers from those three 
Central America countries I alluded to. Together, Mexico, 
Panama, Nicaragua, Costa Rica, and Belize have reported an 
increase of almost 1,200 percent from 2008 to 2014. That is 
like a 12-fold increase. And it is not just the United States. 
I just assumed they just want to come to the United States. 
Well, they just want to get out of Honduras, Guatemala, and El 
Salvador. And the numbers I think speak volumes.
    Having said that, the numbers are down by about half. In 
fact, the numbers are down by a little bit more than half from 
this year to last year. Let me just ask you why the numbers are 
down by so much. Mr. Osuna.
    Mr. Osuna. Senator, I think there are a number of reasons. 
I do think that the administration feels that a lot of the 
measures that we put in place last year, not only here 
domestically but also with our partners in Mexico and Central 
America, have had an effect. Certainly--and I would defer to my 
colleagues at the enforcement agencies here, but the 
administration does feel that that has been part of the reason 
why the numbers are down, is because of many of the----
    Senator Carper. OK. Thanks.
    Others, please? Anyone want to share a thought with us? 
Please, do not be shy.
    Mr. Miller. I would just echo Mr. Osuna in that both 
Secretary Johnson and Director Saldana have met personally with 
a number of Central American officials. Coupled with the 
Department's outreach and coordination with the State 
Department, we are trying to overcome the message, the 
marketing by smuggling organizations last year that there were 
these unreal opportunities that were outside the law. And that 
seems to be taking hold. I think as Mr. Greenberg said, our 
colleagues from the State Department know a little bit more 
about this and the programs that are being operated. But it 
seems all indications are that our message is being well 
received, and our international partners are working in a high 
degree of collaboration to ensure that we do not have the same 
kind of humanitarian crisis that we did last year.
    Senator Carper. OK. Good, thanks.
    Each of you give us one example of something that the 
Congress needs to do that will help continue to drive those 
numbers down. Each of you give us one good idea. Mr. Langlois.
    Mr. Langlois. Well, I think that----
    Senator Carper. And do it briefly.
    Mr. Langlois. Yes.
    Senator Carper. Just one good answer.
    Mr. Langlois. I think that cooperating with the nation 
states that are on the perimeters of these three countries to 
build their asylum adjudication process would assist us in this 
endeavor to have sanctuary provided by countries that are in 
the surrounding area. We have been working with Mexico for 
quite some time on their asylum system, so that would be one 
suggestion.
    Senator Carper. OK. Thanks.
    Mr. Miller, one good example of what we can do.
    Mr. Miller. Support the President's request for contingency 
funding. As we saw last year, there was an opportunity to work 
collaboratively. We are doing that very effectively. Mr. 
Greenberg and I have been traveling together to the Southern 
Border to make sure that our teams are aware of the need to 
work together. But it was very difficult last year. The 
Department had to reprogram hundreds of millions of dollars and 
take away from other functions to accomplish our mission. I 
think with contingency funding in our 2016 budget, we would 
have that flexibility to not only deal with unaccompanied 
children, but any other unforeseen crises on the border.
    Senator Carper. All right. Thanks.
    Mr. Greenberg, one good example.
    Mr. Greenberg. I need to largely defer to my colleagues on 
this one. What I would highlight is that in ensuring the 
efficiency of the legal process for arriving unaccompanied 
children, the continued efforts to expand legal representation 
are essential.
    Senator Carper. All right. Thanks. Mr. Osuna.
    Mr. Osuna. Support the President's request for fiscal year 
2016 for more funding for immigration court resources. That 
enables us to----
    Senator Carper. 55 judge teams?
    Mr. Osuna. 55 judge teams, which I thank you for----
    Senator Carper. I think it is in the--I think the 
appropriators have picked it up.
    Mr. Osuna. It is.
    Senator Carper. We are grateful for that.
    Mr. Osuna. Those resources are going to be critical for us 
to be able to have the capability to move these cases as 
quickly as we can.
    Senator Carper. All right. Good. Thank you all. You did a 
great job on those acronyms, too.
    Chairman Johnson. By the way, let me quickly point out, the 
message we are sending to children in Central America is 2.7 
percent of them are returned from 2014. Even using Mr. Miller's 
updated numbers of 1,500, that is about 10 percent. So, in 
other words, the message we are sending is if you get to 
America, 90 percent or more of you will be able to stay. That 
is the message. From what my understanding is, Mexico is doing 
a far better job of policing its Southern Border, increasing 
their apprehensions by 79 percent. I think that is probably the 
No. 1 reason our numbers are down here, and that is a good 
thing. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and thanks to the 
panelists for being here today and your testimony.
    As I have said on repeated occasions, I believe that 
ultimately we need to pass comprehensive immigration reform to 
deal with these issues in a comprehensive way, which is why we 
need to have comprehensive immigration reform.
    At a hearing earlier this year discussing the Deferred 
Action for Childhood Arrivals and the Deferred Action for 
Parents of Americans, I spoke about two Michigan students as an 
example of the DACA program and what that means in individuals' 
lives. One of these individuals was someone who came here very 
young, who knows no other life other than being an American, 
and came here--not her decision--but came with a parent, did 
very well in school, became valedictorian of her high school, 
is now at the University of Michigan with dreams of becoming a 
physician. Yet without DACA protections, she would be deported, 
which makes no sense whatsoever, and to me, is not good public 
policy for us either.
    I would like to enter, Mr. Chairman, if I may, a report 
from the American Immigration Council, and I think it speaks to 
some of the concerns that you raised as to whether or not this 
DACA program is responsible for some of the surge that was seen 
last year. It is the American Immigration Council's (AIC) 
Special Report of June 2015, if I may enter that.\1\
---------------------------------------------------------------------------
    \1\ The American Immigration Council Report referenced by Senator 
Peters appear in the Appendix on page 1280.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection, so ordered.
    Senator Peters. Thank you, Mr. Chairman.
    Basically, I would just highlight one part of it, where it 
says, ``In its 2012 report, the Office of Refugee Resettlement 
stated that in a 5-month period between March and July 2012, 
the Unaccompanied Minor Program received almost 7,200 
referrals, surpassing fiscal year 2011's referrals, 
showing,''--and this is a quote, ``showing from the report that 
the rise in unaccompanied minors predated the implementation of 
the DACA program. Furthermore, individuals who arrived in the 
country after January 1, 2007, would not even be eligible for 
DACA.''
    Also, although I do not have the report, the Cato Institute 
did a report on July 29, 2014, and the Cato Institute said: 
``First, the surge in UAC began long before the June 15 
announcement of DACA. It is true that DACA had been discussed 
in late May 2012, but the surge was underway by that time. From 
October 2011 through March 2012, there was a 93-percent 
increase in UAC apprehensions over the same period in fiscal 
year 2011. Texas Governor Rick Perry warned President Obama 
about the issues, again, before the DACA announcement.''
    And, second, they also raise in this Cato report that 
children coming now are not legally able to apply for DACA. So 
there are certainly reports from independent groups as wide-
ranging as the American Immigration Council to the Cato 
Institute which dispel that notion.
    And I think it goes back to what I said at the beginning of 
my comments, that ultimately Congress needs to roll up our 
sleeves, and we have to work to pass comprehensive immigration 
reform. If we do that kind of reform, we are going to provide 
clarity and certainty, improve border security, and ensure our 
immigration system is fair for all and makes our country 
stronger.
    I think it is also important to remember that when we are 
talking about the unaccompanied children here today, we are 
referring to kids who came to the United States to seek a 
better life and who are often fleeing violence and 
exploitations. Social service organizations in Michigan have 
cared for some of these children, including teenagers who have 
fled from sexual trafficking and gang violence, which leads 
oftentimes to severe depression and attempts at suicide as 
well.
    The United States has legal obligations to consider these 
children's welfare and to allow their asylum claims to have 
their day in court. So I think that leads my question to Mr. 
Langlois. You talked about your asylum program. If you could 
speak to some specific examples of a child that comes forward 
who would be granted asylum, what are they facing? Talk 
specifically and give us two or three examples.
    Mr. Langlois. In order to be eligible for asylum, an 
individual needs to establish that they have experienced past 
persecution or have a well-founded fear of persecution on one 
of the five protected grounds. We call it race, religion, 
nationality, social group, and political opinion.
    Individual minors are coming forward, the vast majority--it 
is over 90 percent that appear in front of us--are represented 
by counsel. They appear in front of us, and we have small 
numbers. Our approval rate is approximately 40, 42 percent, but 
the majority are fleeing severe violence that is connected to 
at least one of the protected grounds. So that is the overall 
view of what is occurring here.
    Senator Peters. Now, these children that come before you, 
you say they go into a non-adversarial situation, but it looks 
as if the number that actually get into that is a lot smaller 
than the number of unaccompanied minors that are coming across. 
So does a child, say a 10-year-old, have to say, ``I want to 
file an asylum claim, and I would like to''--how do they even 
know that that is the avenue that they need to go?
    Mr. Langlois. Individuals who are deemed to be 
unaccompanied children by CBP or ICE are placed in removal 
proceedings in front of an immigration judge. When they are in 
front of the judge, they must request to apply for asylum when 
they are in front of the immigration judge in the adversarial 
hearing.
    Senator Peters. How is a 10-year-old going to know that?
    Mr. Langlois. The individuals that are in proceedings 
sometimes do have counsel; they sometimes do not. I am not 
familiar with how it occurs in front of an immigration judge.
    Senator Peters. Mr. Osuna.
    Mr. Osuna. Senator, I can take that on. It can be 
challenging for our judges when they have children in front of 
them, as you can imagine, and you pointed out the scenario 
perfectly. A 10-year-old in front of a judge, sometimes it is a 
challenge for the judge to be able to find out exactly what the 
case is all about.
    Our judges take the necessary time to get to know what the 
child is all about, what the child's case is all about. 
Sometimes judges will have children come back a couple of times 
in order to get them comfortable, in order to hear what 
actually happened to them, and whether they wish to apply for 
asylum.
    The point of taking the time, the judge taking the time, is 
not just also to hear what the child's case is all about, but 
also to give the child a chance to find a lawyer. And there are 
a lot of organizations out there that are stepping up and 
providing lawyers for these kids.
    So for the most part, the process in immigration court is 
designed to get the child comfortable, to have the judge hear 
what the case is about, and to give the child a chance to find 
a lawyer or representative that can then assist them with the 
application for asylum, or for some other form of immigration 
relief.
    Senator Peters. If I may just take a brief follow up, the 
image is striking to have a 10-year-old child standing in front 
of a judge, and then next to them would be a government 
attorney, basically, seeking to have them deported. Is there 
any other place in our justice system here in America where we 
just allow a young child to stand before a judge without any 
kind of legal representation and plead their case?
    Mr. Osuna. Not to my knowledge. I think we are--immigration 
court, because there is no right to appointed to counsel in 
immigration court, we have those situations. And when it comes 
to children, it is all the more striking, which is why we are 
trying to do what we can with our Federal partners to increase 
representation programs, to do friend-of-the-court models, 
things like that in a lot of our immigration courts to try to 
provide as much capacity not just for lawyers but also for 
responsible adults to step forward and assist the children that 
are coming before our judges.
    Senator Peters. Because that has got to be a pretty 
frightening experience for a 10-year-old who may be the victim 
of violence from where they came, they are fleeing that, and 
they may be a victim of sexual trafficking, they are trembling, 
they are scared, and we expect them to understand that they 
need to start pleading that they have an asylum claim.
    Mr. Osuna. It absolutely can be very intimidating for 
obvious reasons, which is why we do what we can to try to give 
specialized training to our judges as to how to handle children 
coming before them. They are not like any adult case. They have 
to have specialized training, specialized procedures, 
specialized children's dockets, which I referred to earlier. 
And certainly the surge from last year provided that much of a 
bigger challenge because of the numbers.
    Senator Peters. Thank you. I appreciate it.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman. I want to thank 
you and Ranking Member Carper for holding this hearing and 
thank our witnesses for your insight and time.
    When we held a hearing about a year ago, I was very 
interested in the discussions that the Committee and the 
witness panel had about root causes of the surge that we 
experienced in 2014. And it was clear to me that violence and 
instability in a number of Central American countries were key 
factors that pushed children to make a very perilous journey to 
our border. It is critical that we continue to understand the 
causes so that we can ensure that we do not see another surge 
as we did last year.
    So I wanted to start on that topic, and I recognize we do 
not have a State Department witness on our panel today, but, 
Mr. Miller, at the beginning of your written testimony, you 
talk a little bit about the push and pull factors that led to 
the influx. You also mentioned in your testimony and in 
response to a question that Secretary Johnson and Director 
Saldana have met with officials in Honduras, in Guatemala, and 
El Salvador to request their cooperation in stemming the flow 
of their citizens to our borders. And I am wondering if you can 
outline for us or share with us some of the specific efforts 
that came out of those meetings and consultations.
    Mr. Miller. Thank you, Senator. While I was not present for 
those meetings, we were meeting with those officials to try to 
figure out an effective communications strategy to kind of 
overcome a lot of the marketing that smuggling organizations 
were doing to try to encourage children, thinking that they 
would be receiving some kind of immigration benefit that was 
not actually waiting for them on the other side, and it appears 
that those collaborative efforts are yielding results.
    And I would say that from my understanding of the 
Government Accountability Office (GAO) report--and the State 
Department has a very robust plan to continue that 
communication, and they have pointed to a number of indicators 
of economic difficulties, some of them stemming from 
agricultural problems, some of them tied to the lack of 
opportunities for these children. And I think that as we 
continue to work with our Central American partners and work 
collaboratively with the Department of State, we hopefully will 
be able to continue to address those in a unified U.S. 
Government manner.
    Senator Baldwin. Thank you.
    Right now, as was noted by our Ranking Member, the 
Appropriations Committee in the Senate is looking at the 
President's request for foreign assistance to implement a new 
strategy for engagement in Central America. The President's 
request is at odds with the amount allocated by the House in 
their appropriations process.
    Mr. Miller, in your opinion, what would the impact be on 
these root causes of the migration if Congress did not engage 
in a funding level that met the President's request?
    Mr. Miller. I would have fear that we would begin to 
backslide and lose some of the gains that we have experienced 
in the past year. And, we are trying to the best of our ability 
to mitigate a very dangerous journey for these children, and I 
think the more effective and the more that we can do through 
the State Department to meet their needs in their home country 
and work collaboratively with our foreign partners, we are 
going to mitigate or diminish the humanitarian crisis on our 
border, which, from my perspective as a law enforcement 
officer, is a good government function.
    Senator Baldwin. All right. Mr. Langlois, you did a great 
job of sort of outlining the two tracks of asylum proceedings, 
adversarial and non-adversarial, as a result of Congress' 
passing the TVPRA in 2008. You talked quite a bit about some of 
the training required to conduct child-appropriate interviews 
to make sure that asylum officers get that type of specialized 
knowledge in both asylum cases and dealing with children.
    I wonder if you can talk a little bit more in detail about 
the training. Was that initiated back in 2009, or was that in 
response to last year's surge, or both?
    Mr. Langlois. The training to conduct interviews with 
children has been a longstanding training, I believe, with the 
asylum corps. I believe the first children's guidelines, for 
example, came out in 1995 or 1996. So we have had a history of 
interviewing children for asylum in the United States, and we 
have utilized a lesson plan to teach individuals the 
appropriate techniques. We have had a number of outside 
professors, consultants, and non governmental organizations 
(NGOs) assist us with the lesson plan. So it has been a long 
tradition.
    The numbers started to increase most recently, which 
emphasized, of course, the importance of the training, but we 
have been conducting this training I believe since about 1995, 
if my recollection is correct.
    Senator Baldwin. And in terms of the resources available to 
minors who go through your non-adversarial process, tell me 
about the translation services that are available to minors. 
And, also, it is non-adversarial, but do minors get legal 
assistance in negotiating that process?
    Mr. Langlois. Unaccompanied children, just like all asylum 
applicants, have to provide their own interpretation without 
government expense. We have an interpreter on the telephone 
that listens in to the interpreting to make sure that it is 
correct and fraud is not occurring. But the unaccompanied child 
needs to provide his or her own interpreter at no government 
expense, as well as an attorney at no government expense.
    Now, I did mention that over 90 percent of individual 
unaccompanied children are represented by the time they get to 
us, but that is coming from the courts, is where they start 
before coming to us, and 90 percent is the number that we are 
looking at. But it is no expense to the government, I believe.
    Chairman Johnson. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. I want to thank all of you for being here 
today. One of the things I wanted to follow up on, when 
Secretary Johnson testified in 2014 about the crisis we were 
facing from unaccompanied children from Central America, one of 
the things he recommended at the time--in fact, when he 
testified before the Senate Appropriations Committee--and I 
recall hearing him say this--I think it was before this 
Committee as well. He talked about the differences in the law 
between countries that are contiguous to the United States of 
America and countries that are not contiguous to the United 
States of America. And he said that in terms of changing the 
law, we are asking for the ability to treat unaccompanied kids 
from a Central American country the same way as from contiguous 
countries, and it would help if the Senate amended the law for 
children to treat the children the same from a non-contiguous 
country as a contiguous country.
    So as I understand it, the law is different if it is a 
child from Mexico, for example, that comes to the border in 
terms of what rights and legal explanations can be given that 
they can voluntarily return, and that that cannot happen with a 
Central American country. Is that true? And when you talk about 
steps we could take to help this situation, isn't that one of 
the steps we could take consistent with what Secretary Johnson 
told us at the time of this crisis? Whoever is the best person 
to answer that.
    Mr. Miller. Senator, that is my understanding of the TVPRA 
as well. I know operationally the Border Patrol, when they 
encounter either a Mexican national or a Canadian national, 
they can work collaboratively through their local repatriation 
agreements to assure--for children who wish to withdraw their 
application and return voluntarily, they work collaboratively 
with those respective governments to ensure the safe return of 
those children.
    Now, to the Secretary's point that if we had that 
flexibility with other countries for those children who, at the 
time of encounter by CBP, whether it is Border Patrol or at the 
ports of entry, if they wish to withdraw their application and 
return to their country, we have outstanding repatriation 
agreements with those countries. We have many opportunities to 
effect that repatriation in a safe and humane manner. And given 
the opportunity, we would be able to exercise a broader 
spectrum ability for those children who are not seeking any 
kind of protection.
    Senator Ayotte. And I understand that this law was put in 
place, I believe, when President Bush was in office in which we 
were changing treating the contiguous countries differently 
than the non-contiguous. But it seems to me that it has 
outlived its purpose and that you should be given the same 
tools as the Secretary had previously asked us. So is this a 
tool that you would still like to have, Mr. Miller?
    Mr. Miller. Yes, ma'am. We support the Secretary's effort 
to have broad spectrum ability to do the best thing in the 
interest of the children that we encounter.
    Senator Ayotte. Very good. Thanks.
    I also wanted to point out, when Senator Peters had asked 
all of you about the relationship between, for example, the 
President's Executive Orders and DACA and the influx of 
unaccompanied children, at the time--and I recall this as well 
when we were dealing with the real influx--Secretary Johnson 
made actually a point of being very clear with the Central 
American countries because clearly there was an impression--
regardless of how they got the impression, but there was 
clearly an impression at the time that somehow you could 
receive a permiso or pass if you made it to the United States. 
And I know that he clearly said he wanted them to understand 
that the children would not benefit from the President's DACA 
order.
    So this clearly was some contributing factor in the sense 
that there was an impression or a misimpression in Central 
America or the children were being given a misimpression by 
perhaps the coyotes or other folks that were trying to make 
money off of them and bringing them here. So would you agree 
with me that that was a piece? Because certainly the Secretary 
addressed it at the time and had concerns about it.
    Mr. Miller. Yes, ma'am. Our colleagues from CBP and their 
post-interdiction interviews, we are well aware that that was a 
marketing strategy of the smuggling organizations, and I think 
the Secretary worked extensively both, to educate and to inform 
that that was not the case, that there were not permisos, and 
that persons who were interdicted after January 1, 2014, 
throughout the immigration court proceedings, throughout the 
life cycle, as we call it, of the immigration process, they 
would retain that date of interdiction and, thus, remain a 
priority.
    Senator Ayotte. Do you think that has been clearly 
communicated now so that that is not being conveyed? Or do you 
think that is still a concern that that is being misrepresented 
in those countries?
    Mr. Miller. To the best of my knowledge, from our 
colleagues in the State Department, that message has been 
received, and it seems to have contributed to the reduction in 
the influx this year.
    Senator Ayotte. Thank you all.
    Chairman Johnson. Thank you, Senator Ayotte.
    Mr. Miller, I am a little confused because earlier--you 
just said that according to those memoranda children coming 
here now, they do not have the benefits of Deferred Action on 
Childhood Arrivals. But you said--so they are a priority. But 
in your answer to my questions, you said that the priorities 
are really the criminals. So which is it? Are removals of 
children coming in here now a priority or not?
    Mr. Miller. It is a priority, but most law enforcement 
agencies, they prioritize criminal actions or the apprehension 
and removal of criminals higher than the apprehension----
    Chairman Johnson. So it is not a top priority. Secretary 
Johnson in front of our budget hearing, on April 29, 2015, 
quote, he said, ``You have to show the population of Central 
America that you are sending people back.'' That was the 
Secretary of Homeland Security. OK, we have got to show Central 
America that you are sending people back.
    Mr. Miller, does it send the signal, are we showing people 
we are sending them back when we are sending, somewhere between 
2.7 and maybe as much as 10 percent back? And, again, let us 
really take a look at the number. From 2009, unaccompanied 
children, 109,000 have come into this country, according to 
some of my figures--and we are not exactly sure what the real 
number is, but that is pretty close--we have returned a little 
over 6,000, which is about a 5.7-percent rate. So, I mean, I 
agree with Senator Peters. Deferred Action on Childhood 
Arrivals does not legally apply to these children, but in 
reality, isn't that what really children in Central America are 
relying on, the fact that the reality of the situation is that 
if you get into America, you have got a very low percentage 
chance, very low probability of being returned? I mean, isn't 
that the reality?
    Let me just ask you the question this way: Do you believe 
we are, as Secretary Johnson said, showing the population of 
Central America that we are sending people back in any 
meaningful way?
    Mr. Miller. I think across the broad spectrum of all the 
persons interdicted on the border, yes, we are. We have worked 
very effectively with the adult population. We continue to make 
strides with the family units. And we will work collaboratively 
with our partners here at the table that, simply put, the 
juvenile process takes longer to mature. I do not have the data 
with me that shows the persons that have been removed, when 
they were interdicted, and when they entered into the court 
process. We see across the spectrum that by the time the case 
is mature, many of the people who have gone through this 
process and been adjudicated fully by the immigration court, 
they may have reached the age of majority before their case 
matures. That is not something that any one member is at fault 
for. That is something that is the nature of the process. These 
children, upon interdiction, have due process rights, and we 
have to wait for those rights to mature.
    I can tell you that, going forward, we will continue to 
utilize our efforts appropriately. I mean, I stand by my 
previous statement that it makes good sense as police manager, 
if I have limited resources and I am faced with the task of 
going after criminals or going after non-criminal children, I 
think it is the appropriate choice to go after the criminals 
first.
    Chairman Johnson. Again, from my standpoint, I think we 
need to disincentivize children from making that dangerous 
journey. I think that is compassion.
    Mr. Greenberg, does HHS check the status, the immigration 
status, the legal status of sponsors of unaccompanied children 
that they turn unaccompanied children over to?
    Mr. Greenberg. We do make inquiry of a potential sponsor as 
to their immigration status.
    Chairman Johnson. A hundred percent of the time?
    Mr. Greenberg. We make inquiry in all cases. In addition to 
that, for those cases that are subject to fingerprinting, we 
will get immigration information in the context of the 
fingerprint match.
    Chairman Johnson. So if you find somebody who is in this 
country illegally, do you still turn those unaccompanied 
children over to an illegal immigrant parent?
    Mr. Greenberg. In the process of placing a child with a 
sponsor, we inquire about immigration status.
    Chairman Johnson. It is simply a yes-or-no answer. Do you 
turn unaccompanied children over to illegal immigrant parents?
    Mr. Greenberg. We will place a child with an undocumented 
parent.
    Chairman Johnson. That you know is undocumented?
    Mr. Greenberg. That is correct, yes.
    Chairman Johnson. Do you then notify either ICE or DHS 
about that fact?
    Mr. Greenberg. We will provide the information about the 
location and the address of the sponsor at the time that we 
release the child.
    Chairman Johnson. Do you notify any agency that that 
individual is in this country illegally?
    Mr. Greenberg. We will----
    Chairman Johnson. Again, a very simple question. Do you 
inform DHS or ICE that you have just placed a child with 
somebody in this country illegally?
    Mr. Greenberg. We will respond to any inquiry we receive--
--
    Chairman Johnson. No, really. Just answer the question. Do 
you tell DHS or ICE that you have just placed a child with 
somebody that you know is in this country illegally? Yes or no: 
Do you tell them that?
    Mr. Greenberg. We do not affirmatively do so.
    Chairman Johnson. That is a no, then. Can you say no? That 
is a no, you do not inform ICE or DHS.
    Mr. Greenberg. We will provide the information upon their 
request.
    Chairman Johnson. Do they ever ask you for it?
    Mr. Greenberg. In some circumstances, I understand that 
they do.
    Chairman Johnson. Probably pretty rare.
    One question I have for you--and I am not judging whether 
this is right or wrong, but in your testimony, you do state 
that children have the privilege of representation but at no 
expense to the government. But then you are talking about we 
are doing requests for proposals on legal services. I mean, can 
you square that for me? If current law is that there can be no 
expense to the government and yet we are issuing grants for 
people to provide legal representation, just how does that--I 
mean, how do you get around the law? Which is basically what is 
happening, correct?
    Mr. Greenberg. We are complying with the law, Senator, and 
we have a specific responsibility under the law to help 
children in receiving legal representation.
    Chairman Johnson. So there is a conflict in the law, is 
what you are saying. So, on the one hand, there is a law that 
says there can be no government expense utilized to provide 
legal representation, but there is another part of the law that 
gives you the authority to have legal representation at 
government expense. Is that basically what is happening?
    Mr. Greenberg. The law makes clear that we should be 
maximizing the use of pro bono resources, and we do seek to 
maximize the use of pro bono resources, but we need----
    Chairman Johnson. But you are also----
    Mr. Greenberg [continuing]. To do more of that.
    Chairman Johnson. You are also granting money for legal--or 
certainly asking for requests and paying for legal 
representation, are you not?
    Mr. Greenberg. That is correct, and we do have----
    Chairman Johnson. So, again, it is your testimony that says 
legal representation is supposed to be granted, but at no 
expense to the government, and yet you are paying for it.
    Mr. Greenberg. We are following----
    Chairman Johnson. Again, is that just, again, a conflict in 
the law?
    Mr. Greenberg. We do not believe it is a conflict in the 
law. We are following the requirements of the TVPRA.
    Chairman Johnson. OK. I tell you what. It sounds like a 
real conflict in the law that we ought to address.
    Mr. Greenberg. The law is clear that it says that we should 
be using pro bono to the maximum extent possible. That makes 
clear that if we are doing that, we should be doing additional 
things beyond that.
    Chairman Johnson. Well, it looks like the law is clear in 
two different--in a conflicting manner: on the one hand, at no 
expense to the government, and then it is clear that we should 
be spending money. So, again, I think that is a conflict that 
we need to address.
    Mr. Osuna, real quick, what is the average time to 
adjudicate one of these claims? Do you have that stat at all? 
Are we talking months? Are we talking years?
    Mr. Osuna. You are talking for----
    Chairman Johnson. For unaccompanied children.
    Mr. Osuna. Our commitment, Senator, is to have the initial 
hearing in 21 days, and we are adhering to that timeline.
    Chairman Johnson. OK. That is just the initial hearing. I 
am talking about adjudication to the----
    Mr. Osuna. I do not have that number because these cases, 
as my colleagues have mentioned, do take a long time. Some 
cases have resulted already in removal orders because the child 
probably did not have a claim to----
    Chairman Johnson. But a very low percentage of those.
    Mr. Osuna. 6,800----
    Chairman Johnson. A very low percentage.
    Mr. Osuna. So they can take a significant amount of time. I 
will say that legal representation does help because, for 
obvious reasons, we----
    Chairman Johnson. You have got a lawyer making sure that 
the person shows up.
    Mr. Osuna. Thus, fewer continuances and all that, so that 
does help in speeding up the court hearings, at least at the 
beginning of the process. But, yes, they can take a long time. 
I do not have a number to give you in terms of the latest surge 
of children, but it is certainly a matter of months and not 
weeks.
    Chairman Johnson. Isn't it really more a matter of years?
    Mr. Osuna. Well, it depends. If the child does apply for 
some sort of relief from removal that requires a transfer to 
USCIS, then it can.
    Chairman Johnson. Begging the indulgence of my Ranking 
Member here, Mr. Langlois is talking about a very low 
percentage of these UACs obtaining any kind of asylum, but yet 
we have a very low percentage of people with orders to remove. 
Again, I do not see how we can--this has got to be a very 
lengthy process then. I do not see--when you go back to 2009 
and just see what a very low percentage of those people that 
have been returned and the very low percentage in total of the 
109,000, this has got to be a very lengthy process.
    Mr. Osuna. It can be a lengthy process, and it is not just 
asylum, Mr. Chairman, but kids can also apply for special 
immigrant juvenile status, which is even more complicated 
because it involves the State court systems. I mean, that is 
the law that we have. That is the law that we work through. 
Again, I think that we certainly work through these cases as 
quickly as we can consistent with due process, and I know my 
colleagues do as well.
    Chairman Johnson. I appreciate that. And, again, I 
appreciate you trying to comply with the laws, and I think that 
is what this Committee is trying to lay bare is the conflict 
within the law, the incentives we create for people coming to 
this country illegally. We need to address those conflicts and 
those incentives. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    I want to go back to root causes again with a little 
different focus. Among the things that our Chairman and I agree 
on is the idea that if folks who are citizens of Honduras, 
Guatemala, and El Salvador who want to come to this country to 
work for a limited period of time and be able to go home, maybe 
we ought to change our immigration laws so that that can 
happen. And that is one element of the comprehensive 
immigration reform legislation that passed the Senate several 
years ago.
    Give us some advice. If we were to do piecemeal immigration 
reform or attempt again to do comprehensive immigration reform, 
what advice would each of you have to give us of an element or 
two to include in that legislative effort to help address the 
issues that we are addressing here today? Mr. Osuna.
    Mr. Osuna. Two comments, Senator. First, the administration 
does, as you know, support the comprehensive immigration reform 
bill that the Senate passed a couple years ago. That rough 
framework I think is something that the administration and all 
the agencies here are behind. Specifically for my agency, that 
bill and other proposals have included significant resources 
and other additional tools for the immigration court system, 
and we would, of course, ask that any comprehensive immigration 
reform bill take into consideration the needs of the court 
system and the resource constraints.
    Senator Carper. All right. Thank you.
    Mr. Greenberg, same question.
    Mr. Greenberg. Given our role in the process, I defer to my 
colleague agencies on this question.
    Senator Carper. All right. Fair enough. Mr. Miller.
    Mr. Miller. Senator, I would say that in looking to fix the 
broken immigration system, we would favor things--the 
opportunity to balance the age of the conviction versus the 
statutory requirement that we have today that, regardless of 
the age of the conviction, many times our officers are 
compelled to take action, and as a result, frequently we 
exercise a great deal of resources on the initial encounter 
with the individual, only for that to be mitigated thereafter.
    I think if we put a temporal element to our enforcement 
prioritization in how individuals are charged under the 
Immigration Act, that would allow us to even better and more 
efficiently deploy our resources across the country.
    Senator Carper. Give us a really simple example of what you 
just said.
    Mr. Miller. A very simple example would be a narcotics 
conviction from the 1980s. At times, frequently, when the 
person is seeking, for example, to have their green card 
renewed, it will be a referral to ICE for an enforcement action 
because the person has this narcotics conviction from the 
1980s. And as the statutory framework is today, we are asked to 
take the appropriate enforcement action, which would be to 
arrest and charge the person as an aggravated felon, 
notwithstanding any kind of--what the person has done since 
that initial conviction.
    Senator Carper. OK. I have got it. Thanks. Mr. Langlois.
    Mr. Langlois. As we discussed, individuals who are 
attempting to enter the United States unauthorized come for a 
variety of reasons. One reason, however, is that they are 
fleeing persecution. They have a well-founded fear of 
persecution or they have been persecuted in the past, and their 
claims should be heard. We should design the law to effectively 
and efficiently hear those claims.
    Senator, you had mentioned a needle in a haystack. To a 
great degree, that analogy rings true here where you are trying 
to get to that needle efficiently and effectively in order to 
grant asylum to individuals who deserve protection but 
effectively and efficiently deny those individuals that are not 
eligible and return those individuals.
    So to the extent that the law can grapple with that 
balance, that is what I would encourage, of course.
    Senator Carper. All right. Thanks. Thank you all.
    Someone, I think, in your testimony today I thought 
mentioned that roughly 4,000 unaccompanied minors have been 
granted asylum. Was that correct?
    Mr. Langlois. That is correct, Senator. That was in my 
testimony.
    Senator Carper. And----
    Mr. Langlois. Since 2009.
    Senator Carper. Since 2009. Would you just give us some 
idea, since 2009, roughly how many unaccompanied children have 
sought asylum? Just roughly.
    Mr. Langlois. Yes. Since 2009, I do not have that figure 
exactly in front of me.
    Senator Carper. Just really roughly.
    Mr. Langlois. Actually, I can take it from right here. From 
2009, we are dealing with roughly 13,000 individuals have 
applied for asylum since 2009 via the court. So they were in 
front of an immigration judge; they requested to file for 
asylum. They were given a continuance, and then they have 
filed. So 13,000 as of the end of the second quarter.
    Senator Carper. Is it safe to assume that there are more 
than 13,000 that have not filed or have not been before a 
court?
    Mr. Langlois. As we discussed, the process can take time, 
and there is----
    Senator Carper. I said earlier during your testimony, I 
leaned over and said to our Chairman, I said, ``The process 
seems mind-numbing.'' And when I read your testimony coming 
down on the train today, I thought--and I told Senator Johnson, 
``Maybe I did not have enough coffee.'' You do not drink coffee 
on the train, but he said no, it was not the coffee.
    Chairman Johnson. There was not enough coffee.
    Senator Carper. And I listened to you speak here today. It 
is hard to wrap my head around it. I think I speak for the 
Chairman as well. It is confusing, and a long and tortured 
road. But I do not know if there is something that we can do to 
help make it clear, more straightforward, or not. But I would 
sure be interested in exploring that.
    I do not mean to be critical of your testimony. I thought 
you presented it very well. But, boy, it is really a long and 
tortured road.
    I want to go back to the idea of no attorneys for 
unaccompanied minors at no expense to the government or to the 
extent that we can avoid that. I am just very proud of what we 
have done in our State of Delaware where our Chief Justice of 
the Supreme Court and his staff, his office, have really 
reached out to law firms all over our State and asked them to 
help out. And they have answered the call, and this has enabled 
us to provide a lot of legal counsel for young people and, 
frankly, at not much cost to the government. We need to do more 
of that.
    Why is it in our financial interest to try to ensure that 
these kids have legal counsel? Is there some association with 
whether or not people have legal counsel, these kids are able 
to have legal counsel and they actually show up for hearings? 
Does it expedite their process or does it slow it down? 
Anybody.
    Mr. Osuna. Senator, there is no question, based on long 
experience from our immigration courts with these cases over 
many years, that having counsel at the start of the process, 
especially for a child, makes the process more efficient. 
Immigration judges have to grant fewer continuances. The legal 
issues are clearer. Immigration judges do not have to spend a 
lot of time trying to tease out what the case is all about.
    So in terms of efficiency, there is little doubt that 
counsel at the beginning of the process makes our court process 
much more efficient.
    Senator Carper. OK. Fine.
    Mr. Chairman, if I may have one more quick question, if I 
may?
    Chairman Johnson. Absolutely.
    Senator Carper. Mr. Langlois, I understand that we have 
begun to allow a limited group of children from Guatemala, 
Honduras, and El Salvador to apply in their home countries to 
come to the United States as refugees. I understand this is 
limited to those who have parents in this country who are 
citizens or legal permanent residents who meet certain 
requirements. Could you just describe this new effort and why 
it has begun?
    Mr. Langlois. Certainly, and it even has an acronym. The 
Central American Minors (CAM)----
    Senator Carper. I am sure it does. [Laughter.]
    Mr. Langlois. The Central American Minors Refugee and 
Parole Program, the ``CAM program,'' as we call it--was 
designed to give an alternative to individuals that are in 
these three countries a safe and legal alternative to taking 
the dangerous road to the United States with smugglers. The 
program allows individuals who are lawfully present in the 
United States to file for their children that remain in--
unmarried children that remain in these three countries. They 
file. A deoxyribonucleic acid (DNA) testing is done to make 
sure that the relationship is valid. Then we have the State 
Department, who is the manager of the program, they arrange for 
the child to be preliminarily interviewed in the country. When 
the case is ripe to be presented as a refugee or for parole, a 
USCIS refugee officer will conduct the extensive interview. We 
will do background checks on the interview, fingerprints. We 
also do checks on the individual who is petitioning that is in 
the United States to make sure that they are in the status that 
they claim, also if there is any criminal record of that 
individual, and then we arrange through the refugee program, if 
they are deemed refugee, for them to come to the United States.
    Senator Carper. Good. Thanks for that explanation. It 
actually sounds like common sense, and I think it sounds like a 
pretty good idea.
    Mr. Chairman, thanks. It has been a good hearing, and to 
our witnesses, thank you all for your appearance and for your 
testimony. Thank you.
    Chairman Johnson. Thank you, Senator Carper.
    I am going to use Senator Carper's fine example by allowing 
each of you to have the opportunity to make one final comment. 
But before I do that, I do want to requote Secretary Johnson 
before our budget hearing on April 29, 2015: ``You have to show 
the population of Central America that you are sending people 
back.''
    To quote our Ranking Member, he frequently says, ``You have 
to find out what works and do more of that.'' Well, we have an 
example of what worked. In 2005, we were experiencing a real 
surge with Brazilian immigrants, 3 times higher than the 
previous year, 31,063. And as a result of that, in 2005, DHS 
Secretary Chertoff employed Operation Texas Hold 'Em where they 
prioritized existing space, dedicated bed space, and began 
detaining and removing all of the illegal Brazilians that were 
apprehended using expedited removals. By the following year, 
the number of people coming in illegally from Brazil dropped 
from 31,063 to 1,460.
    So, again, I think, what this hearing--and by the way, 
again, I just want to thank you all for your testimony. This 
has been very enlightening. A very complex problem, multiple 
root causes, I certainly have my opinion in terms of what the 
primary root cause is, but what we have found from your 
testimony and what we have found from your answers to questions 
is so much--and I think somebody here said it, broken 
immigration system. It is. That is a very valid acknowledgment. 
It is a broken system. It is convoluted. It is obviously within 
these three departments and five different agencies trying to 
grapple with this thing, it is not fully coordinated. Often 
there are conflicting laws.
    I am pleased to hear that our Ranking Member used the word 
``piecemeal'' reform. I realize this administration does not 
want to talk about that, but, listen, we do not do 
comprehensive very well, because it is complicated. These 
things are not easy to deal with. So certainly what I asked 
Secretary Jeh Johnson when he was before this Committee was 
work with this Committee, let us identify these problems, these 
conflicts, and let us--because, quite honestly, the reality of 
the situation is we are not going to do comprehensive reform, 
not in the next 18 months. Even by Secretary Johnson's 
admission, we are not even going to have situational awareness 
of the border in the next 18 months.
    So let us take a look at the problems. Let us take a look 
at the conflicts. Let us look at the convoluted process. Let us 
try and fully coordinate this. Let us start making the 
incremental improvements.
    I come from a manufacturing background of continuous 
improvement, root cause analysis. So let us look at the root 
causes of these individual little problems, and working with 
you, with your help, with your expertise--again, I truly 
appreciate your service, and I understand that you are dealing 
with the laws we have got. That is what we have to deal with. 
But I think the only thing that is realistic that we can 
accomplish, at least in the next 18 months, is a--and let us 
not use ``piecemeal'' because that may have the wrong 
connotation. How about a step-by-step continuous improvement 
process? I think we have that attitude. The Ranking Member is 
willing to work with me. Let us prioritize those individual 
problems that we can address and start fixing this on a step-
by-step basis.
    With that, let us start with Mr. Osuna.
    Mr. Osuna. Thank you, Mr. Chairman, Senator Carper. I would 
just say that the border surge from last year was really 
unprecedented. I have been doing this job for a long time, and 
I have never seen the level of interagency coordination and 
discussion that this engendered really from the start, from 
when we first started identifying this issue in late April, 
May.
    I think that it has been a challenge for all the agencies, 
but we have done the best we can. I think it has had an effect, 
and we look forward to continuing our discussion with you and 
with our fellow partners at the other agencies.
    Chairman Johnson. Thank you. And I think I speak for the 
Ranking Member, too. When we went down to Rio Grande Valley and 
we talked to Customs and Border Protection, I think they did an 
extraordinary job grappling with a very difficult problem. And 
I think they kind of circumvented some rules, and God bless 
them for doing it. I mean, this is--again, we are a very 
compassionate society. This was a humanitarian crisis, and the 
people in those agencies I think rose to the challenge. So I 
think we really want to give them kudos for doing that. Mr. 
Greenberg.
    Senator Carper. I am Tom Carper, and I approve that 
message. [Laughter.]
    Chairman Johnson. An act of real bipartisanship here.
    Mr. Greenberg. Thank you, Senators. First, I want to 
underscore Juan's remarks about how closely the agencies are, 
in fact, collaborating and cooperating in these efforts. I 
first met Juan last year when we were both in Texas and 
visiting facilities at the same time. As Phil Miller indicated, 
he, his colleagues, and I went together again to Texas this 
year to look at both HHS and DHS facilities. Our staffs talk 
every day. We appreciate the importance of coordination and we 
are working hard to accomplish that.
    Chairman Johnson, I want to follow up on the issue around 
legal representation. My understanding is that the statutory 
language that you were referring to is language which is 
seeking to make clear that there is not a right to paid counsel 
at the expense of the government. We are clear that this is not 
about a right to paid counsel. I do not believe that there is 
an inconsistency in the language, but we would be happy to 
follow up with you and your staff and look at this more 
closely.
    And then, finally, I just want to indicate that, having 
been before the Committee a year ago, there has been tremendous 
progress over the course of this last year. We look forward to 
continuing to build on it, and we look forward to working with 
you in doing so.
    Chairman Johnson. Thank you, Mr. Greenberg. Mr. Miller.
    Mr. Miller. Thank you, Senator. I echo what my colleagues 
expressed that never before has there been greater 
coordination. While these agencies and different departments 
have different statutory requirements, different fiscal 
constraints placed upon them, we work at an amazing level of 
collaboration and cooperation, making joint decisions, sharing 
information in a way that I think is really without precedent. 
And as a result of that, we continue to work collaboratively, 
not just on issues relating to unaccompanied children, but we 
continue to work collaboratively with immigration judges on how 
to better streamline these processes, to look at what can we do 
more efficiently to reduce the non-detained docket.
    One of our initiatives as part of Secretary Johnson's 
memoranda is to give opportunities to people who did not want 
to continue their non-detained court settings if they do not 
meet one of the Department's current priorities, making 
opportunities available where people can give us constructive 
feedback, and then we can share that information across the one 
government, all of the agencies and departments dealing with 
these issues.
    While there is a lot of work to be done--clearly, I think 
we are all in agreement with that--what we learned last summer 
is that we do not have to just sit there with our own agency 
and grapple with these struggles, grapple with these problems 
that we face every day, that by sharing information and coming 
to joint decisions, we can more effectively and efficiently 
work within the framework that we are given today and hopefully 
work with the Committee for a better framework tomorrow.
    Chairman Johnson. OK. Thank you. Mr. Miller, we want to 
work with you. Mr. Langlois.
    Mr. Langlois. Certainly the border surge last year 
presented a wide range of challenges for the asylum corps in 
its attempt to adjudicate the cases. We experienced an increase 
in our caseloads of credible fear, of reasonable fear, and, of 
course, unaccompanied children's claims in the affirmative 
context.
    Individuals that have suffered persecution deserve a just 
but very efficient adjudication of their claim. They deserve 
protection, and we must effectively give them that and 
efficiently give them that.
    We have cooperate at unprecedented levels with CBP as well 
as ICE, as well as EOIR, to assist us in that endeavor. I think 
that, as usual, all procedures or systems can be improved, and 
we work very hard in order to do that. I think we have got an 
incredibly committed asylum corps that is applying themselves 
diligently to this task and cooperating fully with our partners 
in this task.
    Chairman Johnson. Well, thank you, Mr. Langlois.
    Again, I want to thank all the witnesses for your testimony 
and for your thoughtful answers to our questions. I will have 
more questions for the record. In particular, we have just got 
to get our arms around the information, the data, because you 
have to have that kind of data to really highlight where are 
the problem areas and what do you need to really address. So I 
want to work with all of your agencies to get that information.
    This hearing record will remain open for 15 days until July 
22 at 5 p.m. for the submission of statements and those 
additional questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:49 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                   SECURING THE BORDER: UNDERSTANDING
             THREATS AND STRATEGIES FOR THE MARITIME BORDER

                              ----------                              


                        WEDNESDAY, JULY 15, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, McCain, Lankford, Ayotte, Ernst, 
Sasse, Carper, McCaskill, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order. I guess we will start before Senator Carper arrives. He 
should be arriving shortly.
    I want to welcome the witnesses coming here this morning, 
taking the time, for your thoughtful testimony. I am looking 
forward to hearing it and giving Committee Members an 
opportunity to ask questions.
    This is our eighth hearing on basically the security of our 
border of the United States, a top priority of the Federal 
Government. Following this hearing, and prior to our August 
recess, our Committee is planning on issuing a report, an 
interim report, laying out all the components of our border, 
and the extent that we have it secure and the extent that we 
have not secured it. And I think our first hearing it was 
pretty clear by the testimony we received that our border is 
not secure.
    This hearing is going to be centered on our maritime 
borders, and to just kind of put things into perspective, a lot 
of our hearings have obviously concentrated on what is easily 
and readily acknowledged as our No. 1 problem, the southwest 
border, which is about 2,000 miles long. And in terms of the 
extent of the problem, we have had about 480,000 interdictions 
in fiscal year (FY) 2014. That number is down for various 
reasons, but 480,000 interdictions.
    Our Northern Border is more than twice that length, 5,225 
miles long, and we had a little over 3,000 interdictions. And, 
of course, our maritime border is enormous in comparison, about 
95,000 miles, and we have had about 7,500 interdictions.
    So it is an enormous task. We are concerned, obviously, 
about drug smuggling, potential international terrorists, 
crime, those types of issues that the representatives that are 
testifying here today from the Coast Guard and from the Office 
of Air and Marine (OAM), which are components of the Homeland 
Security Department, as well as another individual from the 
Homeland Security Department will be here to discuss.
    So, again, this is from my standpoint an important hearing, 
kind of wraps up the different components that we wanted to 
explore in our eight-hearing series on the border.
    I do ask unanimous consent that my written statement be 
entered into the record, and Senator Carper is always so kind 
as to grant that or not object. And, without objection, so 
ordered.
    With that, I will turn it over to our Ranking Member, 
Senator Tom Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. To our witnesses, 
good to see you. Some of you have been here not long ago. We 
are going to have to start paying on a per diem basis or 
something if you keep coming back like this. But we are 
grateful to all of you.
    Just in reviewing on the train coming down today, not just 
reading your statements but also just reading your backgrounds, 
we are just so fortunate to have people with your pedigree, 
your record of service. Some of you are pretty smart. They 
schooled you. I am impressed. But thank you for all of that and 
for being here today. Mr. Chairman, thanks for pulling this 
together for this hearing.
    Today we take note of an important but often overlooked 
aspect of our homeland security: our Nation's maritime borders.
    The United States has more than, I think, 95,000 miles of 
shoreline. Most of that is not in Delaware. The oceans, rivers, 
and lakes bordering the United States are both natural barriers 
and super highways. My home State of Delaware has about 350 
miles of shoreline. It is also home to the Port of Wilmington, 
Delaware, which ranks as the Nation's leading gateway for 
imports of fresh fruits, bananas, and juice concentrate. If you 
ate a banana this morning, there is a good chance it came 
through the Port of Wilmington. So maritime activity is serious 
business for us in Delaware, and I know for many others on this 
Committee it is a serious matter for our country.
    But the same waters that facilitate so much legitimate 
travel and trade can also be a pathway, as we know, for many 
illegal activities. For example, we know that drug traffickers, 
human smugglers, and counterfeiters all take advantage of the 
difficulty in securing our maritime borders.
    Maintaining ``situational'' or ``domain'' awareness of our 
country's vast maritime borders is extremely challenging. I do 
not need to tell you that. And trying to actually disrupt or 
intercept threats that approach by water can be even more 
daunting.
    But, thankfully, we have many Federal employees--servants, 
if you will--who dedicate their lives to stopping these threats 
from entering our country by water. Just last week, I had the 
pleasure of meeting several dozen of these fine people at the 
Coast Guard station at Indian River Inlet near Rehoboth Beach 
in Delaware.
    I am so proud of the work there led by Captain Ben Cooper, 
and among the troops that he leads is Petty Officer Greenwell 
whom I talked about on the Senate floor a couple of weeks ago, 
and the rest of men and women at Indian River Inlet are doing 
important work, saving a lot of lives, protecting people and 
property. Day and night, Captain Cooper and his team patrol our 
busy coasts in Delaware and along the Atlantic and are always 
ready to provide assistance should there ever be an emergency. 
So we thank you for all that you do for the people of our State 
and for our country, as well as our guests.
    The Department of Homeland Security (dhs) has a unique and 
a leading role in maritime border security. It is home to the 
U.S. Coast Guard, home of the Office of Air and Marine within 
Customs and Border Protection (CBP), and Immigration and 
Customs Enforcement (ICE), which conducts investigations to 
disrupt trafficking and other threats. These agencies or their 
predecessors have been protecting our shores since the founding 
of our Nation. We are fortunate to have leaders from each of 
these agencies here today to talk with us about the important 
work that they do.
    It is my hope that we can learn more about a few key issues 
here today. First, we need to understand the current state of 
our maritime border security. I would also like for our 
witnesses to talk about what a secure maritime border actually 
looks like to them. Next, we need to develop a better 
understanding of the top threats in the maritime environment 
and how they are evolving.
    As we have tightened up security on our southern land 
border, for example, traffickers and smugglers are seeking out 
other paths in the Caribbean or the Pacific coast. We need to 
be ready to combat this trend as we continue to ``squeeze the 
balloon'' along our Nation's borders. Given the vastness of our 
maritime borders, it is important that there is close 
coordination among agencies, as well as good cooperation with 
our trusted international partners.
    Finally, I hope to hear today from each of our witnesses 
about the equipment and resources available to you and to your 
colleagues to ensure our maritime border security. For 
instance, I know that you often rely on air surveillance--I 
know personally because I was down there flying in one of your 
P-3's not long ago--to direct where vessels should go to 
disrupt criminal activity. Yet too many times, we have assets 
up in the air without the right kind of technology or 
surveillance packages. That is not good. That is not helpful. 
This also hampers our efforts on our land borders while wasting 
a lot of taxpayers' money, and we need to be smarter than that.
    That is enough from me. We are anxious to hear from all of 
you and have a good conversation. Thank you all.
    Chairman Johnson. Thank you, Senator Carper.
    I have been made aware that there will be one vote at 
10:30, so we will keep the hearing going and hopefully 
Committee Members can cooperate with each other in terms of 
sticking around to ask questions to keep the hearing going.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all stand and raise your right hand. 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Admiral Brown. I do.
    Mr. Alles. I do.
    Mr. Edge. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Rear Admiral Peter Brown. Admiral 
Brown is the Assistant Commandant for Response Policy for the 
U.S. Coast Guard. He has served multiple tours of duty at sea. 
He has also served as the Chief of Response for the Seventh 
Coast Guard District and Chief of Staff for Coast Guard 
Atlantic Area. Rear Admiral Brown oversees the development of 
strategic response doctrine and policy guidance for all Coast 
Guard forces. Admiral Brown.

    TESTIMONY OF REAR ADMIRAL PETER J. BROWN,\1\ ASSISTANT 
        COMMANDANT FOR RESPONSE POLICY, U.S. COAST GUARD

    Admiral Brown. Good morning, Chairman Johnson, Ranking 
Member Carper, and other Members of the Committee. I am honored 
to be here today to discuss the Coast Guard's role in securing 
our Nation's borders. I thank you for your strong support of 
the Coast Guard and our men and women in uniform.
---------------------------------------------------------------------------
    \1\ The prepared statement of Rear Admiral Brown appears in the 
Appendix on page 1446.
---------------------------------------------------------------------------
    It is also a pleasure to be here with two of our most 
important partners in maritime border security: Customs and 
Border Protection and U.S. Immigration and Customs Enforcement.
    The Coast Guard's success is due in no part to the 
partnerships that we have with these two organizations, and I 
would personally like to thank both Executive Director Edge and 
Assistant Commissioner Alles for their ongoing support and 
leadership.
    My complete statement has been provided to the Committee, 
and I would ask that it be entered into the record.
    Mr. Chairman, maintaining border security while 
facilitating lawful travel and trade is a fundamental national 
security interest, requiring comprehensive, coordinated efforts 
across many departments and agencies and, in particular, the 
Department of Homeland Security (DHS). As members of the 
Committee are aware, over 90 percent of global trade travels 
through maritime conveyances, making the safety and security of 
our maritime borders both an economic and national security 
imperative.
    The Coast Guard conducts operations every day to protect, 
prevent, and respond to a broad range of maritime border 
security threats, including illicit trafficking of narcotics 
and people by organized criminal networks, undocumented 
migration, the exploitation of our natural resources, potential 
terrorist activities, and the disruption of maritime commerce. 
So our strategy is to secure the borders in a layered defense, 
one that engages with foreign partners and takes action far 
from U.S. shores where threats to security and national 
sovereignty emanate. Our strategy focuses on exerting our 
unique authorities and capabilities in the maritime domain 
before those threats land in our ports, on our beaches, or at 
our borders.
    Overseas, the Coast Guard assesses foreign port security 
and the antiterrorism measures of international trading 
partners through the International Port Security Program. These 
activities aim to ensure that cargo bound for the United States 
meets all United States and international security standards. 
Additionally, in coordination with Customs and Border 
Protection, we receive and screen notices of arrival for both 
cargo and personnel long before commercial vessels arrive in 
the United States. We have liaison and attache officers posted 
at multiple embassies overseas and facilitate action across the 
full spectrum of maritime governance.
    Closer to shore, using our major cutters, maritime patrol 
aircraft, armed helicopters, and law enforcement detachments, 
we deploy assets to intercept those threats where they are most 
vulnerable: at sea. Along with our national security cutters, 
the Coast Guard's essential effort to recapitalize its fleet 
through the Offshore Patrol Cutter Acquisition Project will 
ensure that the Coast Guard is capable of projecting vital law 
enforcement presence on the high seas, in the 200-mile U.S. 
Exclusive Economic Zone, in our customs waters, and in our 
territorial seas for decades to come.
    The Coast Guard is the only U.S. Government component that 
has at all times both defense and law enforcement authority and 
is able to make inquiries, examinations, inspections, searches, 
seizures, and arrests for violation of U.S. laws both on the 
high seas and in U.S. waters. By maintaining that overt 
presence offshore and in the littoral region, the Coast Guard 
has interdicted more than 2,600 undocumented migrants this year 
alone and deterred many more from taking to the sea in 
dangerously overcrowded and unseaworthy vessels.
    Likewise, just this past June, the Coast Guard conducted 22 
maritime interdictions, supported by CBP and others, that 
resulted in the detention of more than 60 suspects and removed 
more than 14 metric tons of pure uncut cocaine. In one case, 
our new national security cutter Stratton, using onboard 
sensors and law enforcement intelligence gained from other 
interdictions, located and seized a semi-submersible vessel 
with 2.8 metric tons of cocaine in the Pacific Ocean. This 
product was ultimately destined for the United States and would 
have left a trail of corruption, instability, and death as it 
moved through Central America and Mexico.
    Through a single month of interdictions, the Coast Guard 
denied criminal networks more than $480 million in wholesale 
drug proceeds and profits. Cases such as these that result in 
the detection and prosecution of traffickers generate 
additional actionable intelligence and fuel our cycle of 
success. Over the last decade, law enforcement intelligence 
gained from Coast Guard interdictions contributed to the arrest 
and extradition of nearly 75 percent of all drug kingpins who 
were extradited to the United States.
    Successfully patrolling and enforcing the maritime border 
requires a strategic outlook, tactical execution, and 
Department of Homeland Security unity of effort. Along the 
Southern Border, the Coast Guard operates within a new DHS 
Southern Border and Approaches Campaign Plan. The three task 
forces set up under the Campaign Plan--Joint Task Forces East, 
West, and Investigations--operate cooperatively to maintain 
effective border security, and Coast Guard Vice Admiral Dean 
Lee is the Director for the Joint Task Force East.
    In addition, the Commandant, Admiral Zukunft, has signed 
the Coast Guard Western Hemisphere Strategy that outlines three 
priorities: combating networks, securing borders, and 
safeguarding commerce.
    Thank you, sir.
    Chairman Johnson. Thank you, Admiral.
    Our next witness is Randolph D. Alles--``Tex,'' I guess you 
call him? I like that name. Mr. Alles is the Assistant 
Commissioner for the Office of Air and Marine with the U.S. 
Customs and Border Protection in the Department of Homeland 
Security. Office of Air and Marine is the world's largest 
aviation maritime law enforcement organization. Before joining 
OAM, Mr. Alles served in the U.S. Marine Corps for 35 years, 
retiring in 2011 as a Major General. Mr. Alles.

  TESTIMONY OF RANDOLPH D. ALLES,\1\ ASSISTANT COMMISSIONER, 
 OFFICE OF AIR AND MARINE, U.S. CUSTOMS AND BORDER PROTECTION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Alles. Thank you very much, sir. Chairman Johnson, 
Ranking Member Carper, and distinguished Members of the 
Committee, it is an honor to appear before you today and also 
with my Homeland Security Investigations (HSI) cohorts and also 
Coast Guard, who we work with extensively daily.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Alles appears in the Appendix on 
page 1452.
---------------------------------------------------------------------------
    The threat in the maritime environment is dynamic. 
Smugglers continually adjust their tactics in order to counter 
our latest efforts to apprehend them. Increasingly, smugglers 
exploit normal traffic patterns to conceal their intent, often 
mimicking a legitimate recreational or commercial voyage. Small 
vessels in particular are ideal conveyances for this tactic 
because they operate in a largely unregulated environment, 
while providing ample opportunity for concealing people or 
cargo.
    OAM thrives by being extremely efficient and adaptive. Our 
unique authorities and specialized capabilities enable us to 
bridge border environments and jurisdictions, providing 
important continuity to investigations. OAM's marine 
interdiction agents have a singular law enforcement mission. 
They are empowered particularly to take necessary action, 
including conducting searches and participating in 
investigations, obtaining and serving warrants, making arrests 
of U.S. citizens, and also seizures of property.
    Our agents undergo intense training in maritime tactics in 
order to swiftly and safely interdict smuggling threats and 
mitigate the dangers of prolonged pursuits. Additionally, they 
are experts in interview technique and are well versed in 
applicable laws.
    OAM agents, sometimes in plain clothes or undercover, 
routinely collaborate with investigative partners on covert 
surveillance and enforcement operations in the maritime domain. 
This capability is essential to combating a threat that thrives 
on concealment in legitimate traffic.
    OAM's specialized fleet of vessels, particularly our next-
generation coastal interceptors, are built from the hull up for 
interdiction. These high-performance vessels enable our targets 
to respond quickly and effectively to incursions and to our 
territorial waters. With a limited number of agents and assets, 
OAM has a substantial impact in efforts to protect our Nation's 
border. OAM efforts have resulted in the seizure of significant 
quantities of contraband and disrupted considerable illicit 
activity before it reaches our shores. In fiscal year 2014, OAM 
efforts resulted in nearly 5,000 arrests of subjects, 80,000 
apprehensions, and the seizures of nearly 800 weapons, $148 
million in currency, and more than 1 million pounds of illegal 
drugs.
    Ultimately, maritime security requires a unity of effort. 
No single entity has the capability or capacity to address all 
aspects of maritime security. Information sharing and strong 
partnerships are critical to understanding and addressing 
maritime threats. We frequently participate in joint operations 
with a variety of Federal partners, including the U.S. Coast 
Guard, and work very closely with multiple investigative 
components, especially U.S. Immigration and Customs 
Enforcement.
    The recently implemented Southern Border and Approaches 
Campaign, mentioned by Admiral Brown, leverages the various 
roles, responsibilities, and capabilities of multiple DHS 
agencies to comprehensively address border and maritime 
threats. OAM has been extensively involved in the planning of 
this effort on the Joint Task Force East, directed by Admiral 
Lee, the Deputy, is an OAM employee, Mr. Merton Cox.
    Moving forward, we will continue to work with our partners 
to enhance our detection, investigation, and interdiction 
capabilities to address emerging threats and adapt to changing 
conditions in the maritime domain. We will fully network our 
fleet and operational centers to share critical information in 
real time.
    OAM is an integral part of the Department's border security 
mission. We blend specialized interdiction capabilities, 
skilled investigations, a modern domain awareness network, and 
seamlessly apply them across multiple environments and 
jurisdictions. In doing so, we add a critical layer of cohesion 
and coordination to maritime border security that no other 
agency provides.
    Chairman Johnson, Ranking Member Carper, distinguished 
Members of the Committee, thank you for this opportunity to 
speak, and I look forward to your questions.
    Chairman Johnson. Thank you, Mr. Alles.
    Our final witness is Mr. Peter Edge. Mr. Edge is the 
Executive Associate Director of Homeland Security 
Investigations (HSI), for the U.S. Immigration and Customs 
Enforcement at the Department of Homeland Security. Prior to 
this position, Mr. Edge served as Deputy Executive Associate 
Director and before that as the Special Agent in Charge in the 
HSI Newark office. He has also served as Director of the Office 
of Congressional Relations at ICE headquarters and as Acting 
Deputy Special Agent in Charge of the New York HSI office. Mr. 
Edge.

 TESTIMONY OF PETER T. EDGE,\1\ EXECUTIVE ASSOCIATE DIRECTOR, 
HOMELAND SECURITY INVESTIGATIONS, U.S. IMMIGRATION AND CUSTOMS 
       ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Edge. Thank you very much, Chairman Johnson and Ranking 
Member Carper and distinguished Members. It is a great 
opportunity to be here today, and I would like to discuss ICE's 
efforts to improve security along the maritime border of the 
United States. As you know, we work closely with CBP and the 
Coast Guard to target Transnational Criminal Organizations 
(TCO). Today, I will highlight our enforcement activities, 
operational challenges, and successes in the maritime 
environment.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Edge appears in the Appendix on 
page 1462.
---------------------------------------------------------------------------
    As interdiction efforts along the U.S.-Mexico land border 
increase, drug and human smuggling organizations have expanded 
their operations to include maritime routes where they attempt 
to evade detection by concealing contraband in sea freight, as 
well as in commercial fishing vessels. As a result of increased 
Coast Guard and CBP patrols, smuggling organizations are 
utilizing wooden fishing panga boats to travel further out to 
sea and up the California coast, to circumvent interdiction 
efforts.
    As a part of our ongoing efforts to identify, disrupt, and 
dismantle transnational criminal organizations, in 2005 we 
created the Border Enforcement Security Task Force (BEST). This 
initiative promotes cooperation and coordination with Federal, 
State, local, tribal, and international law enforcement 
authorities. Currently, we operate 37 BEST units across 16 
States and Puerto Rico, 19 of which maintain maritime units.
    The individual BESTs, located in maritime environments, 
face unique challenges along the shoreline because of the 
surrounding geography. For instance, since its establishment 
this past April, our newest BEST in Houma, Louisiana, has 
afforded us the opportunity to be more robustly engaged in the 
drug-trafficking organizations who are exploiting emerging 
Caribbean ports for maritime smuggling along the Gulf Coast. 
This smuggling is done via containerized cargo, commercial 
vessels, crew members smuggling drugs, and non-commercial 
fishing and sailing vessels.
    A notable success from the Newark BEST involves our 
creation of a carjacking task force in response to the dramatic 
increase in luxury vehicles being violently carjacked in New 
Jersey. These vehicles are then smuggled in containers from the 
Ports of Newark and Elizabeth to West African countries, and 
they are used there to fund illicit transnational criminal 
activity. The BEST investigations resulted in 29 arrests and 
the recovery of approximately 180 stolen vehicles worth more 
than $10 million.
    Along the Gulf Coast, the Houston BEST focuses on maritime 
threats from Central and South America through its Mexico 
Corridor Initiative. This initiative leverages law enforcement 
and the Department of Defense (DOD) resources. The BEST tracked 
a commercial freighter vessel from the Dominican Republic that 
traveled to Puerto Rico via Venezuela. To interdict this 
vessel, the Houston BEST worked with our office in Puerto Rico 
and with CBP's Office of Air and Marine to yield several 
arrests and seize nearly 2,800 kilograms of cocaine. The Coast 
Guard made an additional 11 arrests, and the freighter was 
seized by the U.S. Government.
    In San Diego, the BEST has been successful in combating 
criminal organizations smuggling drugs and people from Mexico 
into the United States along the coastline of Southern 
California. The BEST is part of the Southwest Border High 
Intensity Drug Trafficking Area and leads a complex 
investigation targeting a large-scale maritime smuggling 
organization operating out of Baja California. Since its 
initiation in 2012, the investigation has resulted in 
significant enforcement outcomes across judicial districts. 
During the last fiscal year, the operation yielded over 30 
interdictions and 95 arrests, as well as the seizure of 81,000 
pounds of marijuana and 30 pounds of methamphetamine.
    A high-impact example of our maritime efforts outside of 
the BEST program is the Joint Operation Panama Express. This is 
a U.S. interagency strike force with significant HSI 
participation that identifies and interdicts multi-ton 
quantities of cocaine transported in the international maritime 
environments from South America through Central America and the 
Caribbean on to the United States. We play a critical role in 
Panama Express through our investigative authorities and our 
ability to leverage interagency resources.
    Along with the successes that we are achieving in the 
BESTs, we have also been designated as the executive agent for 
the Joint Task Force for Investigations that you heard about 
from my colleagues, and hopefully, we will be able to discuss 
more of that today.
    These investigative operations in the maritime environments 
are compelling examples of how the agency and the Department 
applies a ``whole of Government'' approach to targeting 
criminal organizations and preventing them from perpetuating 
their adverse impacts on U.S. border security. We remain 
dedicated to this cause and this mission, and we look forward 
to working with the Committee to effect some positive change in 
this area. We appreciate your support and the opportunity to be 
here today.
    Thank you.
    Chairman Johnson. Thank you, Mr. Edge. I will start the 
questioning I think with you. You mentioned transnational 
criminal organizations. I would like to get some sense of the 
percentage of your attention or the percentage of the activity 
devoted to the different types of crimes--in other words, drug 
smuggling, human trafficking, potential terrorist activity, the 
combination of the drug cartels with trans-criminal 
organizations, with potential Islamic terror groups like 
Hezbollah.
    Can you give this Committee some sense of the proportion of 
the threats and the proportion of your time and efforts trying 
to combat those various components?
    Mr. Edge. Certainly, Mr. Chairman. First and foremost, our 
investigative efforts are, again, based on our foundation as a 
border security agency. So we start there, and we enforce a 
multitude of violations that affect our Nation's national 
security. So, for drug smuggling, of course, drugs have, 
traditionally, always come across our Nation's borders, and 
with our coordination with our counterparts at Customs and 
Border Protection and the Coast Guard, this is one of our 
primary missions, to keep that contraband out of this country.
    Chairman Johnson. But, again, is that 50 percent of your 
time and effort, 50 percent of the crimes being committed? Is 
it 90 percent? I realize there is no set percentage, but I just 
want to get some sort of sense of that.
    Mr. Edge. Well, because we do keep copious information on 
our hours spent on our investigative activities, I would 
venture to say that a little under 30 percent of our time is 
spent in the area of narcotics interdiction and drug-smuggling 
investigations. Whether through a task force, we participate in 
a High Intensity Drug Trafficking Area Task Force (HIDTA), or 
through our BEST activity, we are continually working on a lot 
of drug cases.
    Chairman Johnson. OK. So fill in the other 70 percent.
    Mr. Edge. The other 70 percent includes child exploitation, 
or counterproliferation investigations. Our responsibility is 
also to enforce the export control laws of the United States, 
so we find ourselves in a lot of different areas. In addition 
there is our immigration portfolio, which includes document and 
benefit fraud, and identity theft.
    Chairman Johnson. Mr. Alles, can you answer that question 
for your agency?
    Mr. Alles. I cannot give specific percentages. I would have 
to go back and look at my----
    Chairman Johnson. A general sense is kind of what I am 
looking for here.
    Mr. Alles. I would say it is probably in the--I would 
estimate in the 40-percent range, if you talk about drug 
interdictions. On the TCO side, a primary focus in JTF-West is 
on these transnational criminal organizations, so that is a 
major effort in terms of taking down those networks. But I 
cannot give you a percentage of the time on that versus what 
they are just doing on regular border work.
    Chairman Johnson. And, again, so 40 percent drugs. Describe 
the activities of the trans-criminal organizations.
    Mr. Alles. Well, from our standpoint, we are supporting ICE 
in their investigations on TCOs, or we are actually 
interdicting drugs in the transit zone or coming across the 
border. So when I give you that 40 percent, I am looking at the 
hours expended on my aviation side actually that is going 
toward those kinds of efforts.
    Chairman Johnson. What I am trying to get at here is 
certainly when we came down and visited your site and were down 
in the Rio Grande Valley, the more we investigate this through 
our hearings, we are hearing the drug cartels combining with 
trans-criminal organizations, potentially a nexus with Islamic 
terror organizations like Hezbollah. I am trying to get some 
sort of sense specifically what is happening.
    Mr. Edge, maybe you are the best one to answer that 
question. Can you give us some sense of what is happening?
    Mr. Edge. Well, what we find is that in all the areas that 
we are responsible for investigating, there ultimately is one 
motivation, and that is financial. The bad guys around the 
world want to make money to support these illicit activities 
that take place all over the world. We have found that through 
an export control investigation, for example, the investigation 
that I mentioned out of north New Jersey where the vehicles 
were being stolen and exported; that money ultimately can be 
used--we have found in several investigations--for illicit 
activities that fund terrorist activity.
    Chairman Johnson. Is there a money-laundering aspect to the 
vehicle smuggling?
    Mr. Edge. Yes, sir.
    Chairman Johnson. Can you describe that? Because I have had 
it described to me, and it is kind of hard to follow.
    Mr. Edge. Well, as far as the money-laundering aspect of 
this, and with all the violations that we enforce, there is a 
money-laundering aspect. We conduct these long-term financial 
investigations into that aspect by assessing the assets that 
the organization owns and has, and we try to follow the money 
through the various accounts. Depending on the nature of the 
crime, last summer when there was the UAC crisis that was down 
there at the border, we find ourselves in the situation where 
we were combating that by following the money. The funds that 
were being used to support those smuggling efforts, the human 
smuggling efforts on the southwest border, we were able to 
identify those accounts and seize that money, working very 
closely----
    Chairman Johnson. Can you give us some sense of the dollar 
volume of, just the transnational criminal organizations? What 
is the dollar value of the drug trade, of their activities? Can 
you give us some sort of sense there? Are we talking tens of 
billions, hundreds of billions of dollars?
    Mr. Edge. I cannot give you an exact assessment, but it is 
in the billions of dollars. No matter what discipline or 
violation that we are enforcing, whether it is intellectual 
property theft or any of these other violations, such as human 
smuggling, there are funds that are used and received to 
support those activities and to increase the activities into 
other areas.
    Chairman Johnson. General McCaffrey in testimony before 
this Committee estimated--and it has not been disputed yet--
that we were only interdicting on the southwest border 
somewhere between 5 to 10 percent of illegal drugs coming into 
this country. That is through the southwest border. A lot of 
your activities involve interdicting drugs through the maritime 
borders. Is it a similar type percentage? Are we only by your 
estimates interdicting 5 to 10 percent of drugs? Mr. Alles.
    Mr. Alles. I cannot provide an estimate on the percentage 
of interdictions, I mean the stuff that we do not interdict. So 
last year our office interdicted $14 billion in drugs, street 
value on the drugs. By trying to estimate what that is of the 
total of the United States is--again, we do not know what we 
miss.
    Chairman Johnson. Do you have a sense that we are 
interdicting a high percentage or a very low percentage?
    Mr. Alles. I mean, I would sense that, we are not getting 
over 50 percent. I just do not know, to be honest.
    Chairman Johnson. Admiral, do you have any input on that?
    Admiral Brown. Yes, sir. The estimate that we have a 
national target of reducing about 40 percent of the cocaine 
supply approaching the United States. That is the nationally 
set target. It has been a graduated target. It is 36 percent 
this year. It is moving up toward 40 percent.
    Over the past several years, we have averaged between about 
11 and 18 percent in terms of maritime interdictions of the 
known drug flow toward the United States. One of the challenges 
of that, as was mentioned earlier with regard to maritime 
domain awareness, is this is illicit activity that is trying to 
be concealed for detection. So our confidence in what we call 
the denominator of that, the actual flow, is somewhat limited, 
but based on best estimates of the intelligence community (IC) 
and the law enforcement community, in the maritime we interdict 
in the range of 11 to 18 percent. For the Coast Guard it has 
been about 450 metric tons over the past 5 years.
    Chairman Johnson. Again, so that just underscores really 
how unsecure our borders truly are. When we are talking about 5 
to 10 percent drug interdiction on the southwest border, 11 to 
18 percent maritime--again, I am not being critical, but I am 
just laying out that reality. It is a really sad and 
frightening reality. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Chairman.
    I wanted to ask each of you, I know during your testimony 
you talked about seeing cocaine and to some extent marijuana 
being smuggled through our maritime borders. In New Hampshire, 
we have a tremendous heroin epidemic, and previously I have 
heard from officials testifying before this Committee that the 
heroin is coming over on the land border, on the Southern 
Border. And so I was just curious if you are seeing any heroin 
coming over the maritime borders. And if not, why? And could 
you help me understand how these different trafficking routes 
work as we want to increase our ability to interdict a drug 
that, frankly, is killing so many people in this country? In my 
home State of New Hampshire, we have people dying every day on 
this, unfortunately, and it is too cheap. Whoever is best to 
answer that.
    Mr. Alles. I will take a whack at it here. I think, as you 
noted, Senator, the primary flow is across the land borders. So 
CBP has seen an increase in the amount of heroin interdicted 
through our ports of entry (POE), so that is a prime concern as 
the heroin flows coming out of Mexico through our ports of 
entry.
    Just as an example, another problem that we have is we have 
a lot of aircraft each year that fly up to the border, and they 
land and they drop off drugs. This is a typical load of an 
aircraft that was interdicted in Mexico off of CBP information. 
It had 389 kilos of meth, 79 kilos of cocaine, 79 kilos of 
white heroin, 1.5 kilos of black tar heroin. So there is 
definitely a high flow of the heroin, more so than we have seen 
in years past. It is a problem that we are working against.
    Senator Ayotte. I am sorry. Go ahead, Admiral.
    Admiral Brown. Yes, Senator. I would add that in the 
maritime domain, we have seen relatively small quantities of 
heroin, typically mixed in with loads of cocaine. For example, 
just about a month or so ago, we had an interdiction of a bulk 
quantity of cocaine, several hundred kilos, off the coast of 
Central America, and embedded within one of those cocaine 
packages was approximately 10 kilograms of heroin. We have also 
seen that on the Caribbean side, again, in relatively small 
quantities. But as Mr. Alles mentioned, the vast majority of 
heroin that comes into the United States does so across the 
land border, not a maritime border. But our Intelligence 
Community remains alert to instances of heroin trafficking in 
the maritime, and to the extent that we can, we interdict those 
when we know they are coming.
    Mr. Edge. Senator, if I may, I certainly concur with my 
colleagues, but also what we have seen with our investigative 
portfolio, is very similar to what they have seen. Most of the 
heroin is coming across the land border and the southwest 
border. But, of course, there is heroin that does come into the 
interior via commercial aircraft, and then that heroin is then 
transported to other parts in the Northeast and the Midwest.
    It is a growing problem, and it is a problem that we see at 
the Ports of Entry where it is, in fact, commingled with other 
shipments. You might have a shipment of legitimate goods that 
might have heroin inserted inside them through containerized 
cargo, and that is where our BESTs have been very effective.
    Over the past couple of years, we have seen a lot of 
commingled shipments, and the number of commingled shipments at 
our ports of entry are increasing.
    Senator Ayotte. And to address this, I have also spoken 
with General Kelly, the Commander of Southern Command, about 
this issue as well and coordinating with--because he has real 
concerns that this network also can be used for terrorist 
activity, as you have discussed with the Chairman.
    What is it that you need to increase interdiction? Is it 
more planes, more people? What do we need to understand? 
Because we have a terrorism threat, we have the drug threat, 
all of which is bad for our country.
    Mr. Edge. Senator, I think we have done an effective job, 
and we can always do better, of course, but we have coordinated 
our efforts both from the investigative perspective and the 
operational perspective, and also through the sharing of 
intelligence information. At the Department of Homeland 
Security, the National Targeting Center, which is at CBP, is a 
place that all this information is vetted and reviewed, and 
that has been a great source for our investigative efforts as 
well. We have joined CBP in our efforts in assessing that 
information that we get from all around the world, not just 
domestically, so we can use our resources smarter.
    Senator Ayotte. So, Director Edge, I think all of us have 
been really shocked about what happened in San Francisco, and I 
would like to ask from the perspective of ICE, obviously you 
have a big piece of the job in enforcing our Nation's 
immigration laws. And I want to ask you about the existence of 
sanctuary cities and what your view is on that, and whether it 
frustrates the mission of ICE to have these cities who 
obviously we saw in the San Francisco situation where there was 
not cooperation between the city and obviously the Federal 
immigration authorities, and it has been really shocking to all 
of us to see that this beautiful young woman was murdered.
    Mr. Edge. I certainly agree that what happened in San 
Francisco is a terrible tragedy, and at ICE, we are attempting 
to work very closely with our law enforcement partners to 
ensure that circumstances like this will not happen again. And 
from the investigative side of ICE and Homeland Security 
Investigations, what we do very well is we work very closely 
with our State and local counterparts. We try to not only 
conduct our investigative efforts into areas that affect public 
safety, like our community shield gang operation where we are 
arresting and infiltrating gang activity around the country 
looking to arrest those foreign-born gang members who are 
committing violence and truly affecting public safety.
    So one of the things that we will continue to do is work 
closely with our State and local counterparts and encourage 
them to work with us, so hopefully something like this will not 
happen again.
    Senator Ayotte. Well, let me just ask you, if your State 
and local counterparts as a policy matter will not work with 
you, doesn't it make your job more difficult?
    Mr. Edge. It would make our job more difficult, but from an 
investigative perspective, we usually get great cooperation 
from our State and local counterparts.
    Senator Ayotte. Well, it seems to me that if your State and 
local counterparts will not cooperate with Homeland Security 
when it comes to a situation like we saw in San Francisco, 
obviously there is real danger to the public on this. So I hope 
this is something that we take up in this Committee as well 
further, Mr. Chairman.
    Thank you.
    Chairman Johnson. Thank you, Senator Ayotte.
    Before we go to, I guess, Senator Carper, Chairman McCain 
has got some time constraints. We are going to let Senator 
McCain ask a question.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Mr. Edge, you really did not answer the 
question. The fact is that this guy was arrested and deported 
five times, and the sanctuary city--your order to detain was 
not honored by the sheriff of San Francisco. So if you call 
that ``great cooperation,'' fine. The rest of us do not.
    And on the issue, by the way, of the drugs coming into the 
United States, General Kelly said that he watches the drugs 
come in because of sequestration he does not have the 
capability to interdict. And so if you think you are doing a 
great job, General Kelly certainly does not agree with that 
because he does not have the assets to interdict.
    I have one question. What do you know about the published 
reports that Mexico has refused our offer to help in 
apprehending Mr. Guzman.
    Mr. Edge. Senator, certainly I have heard those published 
reports, and we stand ready to----
    Senator McCain. But do you know if it is true or not that 
the Mexican Government has refused our offer to provide 
assistance in tracking down Chapo?
    Mr. Edge. No, I do not.
    Senator McCain. You do not know anything about it?
    Mr. Edge. We have an office in Mexico City, and they are 
working very closely with----
    Senator McCain. Well, I would think that it would come to a 
higher level than our office in Mexico City, Mr. Edge. Thank 
you.
    Mr. Edge. Yes, sir.
    Chairman Johnson. Senator Carper.
    Senator Carper. Gentlemen, again, welcome and thanks for 
your testimony and your responses to our questions.
    I want to just go down the line--Admiral Brown, I will ask 
you first of all--and each of you give us two things that we 
can do to help the folks who with you, for you, be more 
effective in your work. Two things, each of you. And briefly.
    Admiral Brown. I will try to be brief, Senator. The first 
one is support for the recapitalization of our offshore patrol 
fleet, specifically the offshore patrol cutter acquisition. And 
kind of following up on Senator Ayotte's question before, what 
would it take for us to be more effective, our effectiveness in 
our maritime interdiction role is based really on three things:
    Information, actionable intelligence. That is generated 
primarily through General Kelly's command, U.S. Southern 
Command (SOUTHCOM), and their Joint Interagency Task Force 
South (JIATF-S).
    Aviation. We need fixed-wing air support to locate the 
targets that JIATF points us to. That is a combination of CBP 
aircraft, Coast Guard aircraft, and partner nation aircraft.
    And then we need ships on station, and our long-range 
cutters, our high-endurance cutters, medium-endurance cutters, 
and the new national security cutter. And the future OPC 
equipped with a helicopter flight deck, an airborne use-of-
force helicopter, multiple pursuit boats, and a seasoned Coast 
Guard crew and boarding teams are the most effective package in 
interdicting these threats, whether drug-trafficking threats, 
migrant-trafficking threats, or whether those criminal pathways 
are ultimately used for terrorism.
    Senator Carper. OK, good. When you look at the President's 
budget request for 2016 as it pertains to each of these areas, 
and you look at what the Appropriations Committees have 
reported out in terms of funding for those priorities, how do 
they match up?
    Admiral Brown. We are still examining the marks between the 
Senate and the House on the----
    Senator Carper. Just stay with the Senate. Just stay with 
the Senate, if you will. How does the Senate--how have the 
appropriators done with respect to these priorities? And how do 
they match up with the President's request, the 2016 budget?
    Admiral Brown. We believe there is sufficient 
appropriations to continue with our acquisition program of 
record to recapitalize the fleet. Obviously if we had more, we 
could do better, but they are sufficient to recapitalize on our 
program of record which will give us 8 national security 
cutters, 25 offshore patrol cutters, and 58 fast response 
cutters for coastal operations.
    Senator Carper. I read somewhere--and I think it was in 
your testimony--that we have funded one particular class of 
boat, maybe it is the national security cutter, but your real 
need was, I think, maybe the offshore cutters. Is that correct?
    Admiral Brown. That is correct. Our program of record is 
for the eight national security cutters that are already 
budgeted for and the offshore patrol cutter that is currently 
in preliminary design, and that acquisition will stretch out 
over a number of years into the future as our current medium-
endurance cutters approach, some of them have exceeded, and all 
of them will ultimately exceed 50 years in service before they 
are retired as these new cutters replace them.
    Senator Carper. All right. Thank you.
    General Alles.
    Mr. Alles. Thank you, sir. Two items you asked for----
    Senator Carper. Two items, please.
    Mr. Alles. On the procurement side, the multi-role 
enforcement aircraft----
    Senator Carper. I am sorry. Say this again more slowly.
    Mr. Alles. Multi-role enforcement aircraft is a procurement 
we need to continue. That is in the budget both in yours, the 
House's, and the President's request. That is an aircraft that 
does maritime patrol near shore. So it is not going to work 
down the transit zone with the Coast Guard, but does work with 
the Coast Guard and our assets in the customs waters of the 
United States.
    Senator Carper. What kind of surveillance packages do they 
include?
    Mr. Alles. It includes basically a radar package and an EO/
IR eyeball on the aircraft, so it can do maritime surveillance 
and interdiction.
    Senator Carper. How does it compare with, say, what you 
have on your P-3s?
    Mr. Alles. It is shorter range. The radar is shorter 
range----
    Senator Carper. In terms of the surveillance capabilities, 
just compare it for us.
    Mr. Alles. Yes. The surveillance radar is less range.
    Senator Carper. Compare it with the surveillance capability 
of the P-3.
    Mr. Alles. I mean, the P-3, the dome version reaches out 
several hundred miles, and this thing is probably going to go 
30, 40 miles. So it is a much more limited package, but we are 
using it in a different environment, too. So that is one item.
    Senator Carper. OK.
    Mr. Alles. The second item is our coastal interceptor of 
vessel. We just awarded the contract for that. We have a 
program of 50. Currently we can probably buy out about 22 of 
those, so that is going to be a long-term need for us in terms 
of getting that budgeted, into both the President's budget and 
the appropriations budgets, also.
    Senator Carper. OK, good. Thanks. Mr. Edge.
    Mr. Edge. Thank you, Senator Carper. From our perspective, 
our biggest resource is our human resource, and for our Border 
Enforcement Security Task Forces that we have around the 
country, we would like to make sure that they continue to be 
fully funded, and that our State and locals will be collocated 
with us as well as fully trained in the Federal law that they 
are going to assist us in enforcing. That is the first thing.
    The second thing is to have hearings like this and to 
continue the dialogue on these issues is of significant 
importance to us to be able to do our job and enlist your 
support in the work that we are trying to do.
    Senator Carper. All right. In a trip that the Chairman and 
I and some others, I think Ben Sasse, took down to the border 
maybe 6 months ago, one of the things that we heard about was 
looking at South Texas, the Rio Grande Valley, the ability to 
put into the water boats on a fairly regular basis as opposed 
to--what is it?--about 100 miles, they had maybe one place 
where you could put in a boat to do surveillance along the 
border. And the need was for some more shallow-bottom boats. 
And just talk to us about that. You do not think about it in 
terms of securing our borders. You do not think much about how 
often do you have boat ramps. Well, it turns out that was an 
issue. And the other one was in a lot of places, the Rio Grande 
was pretty shallow, and some of the boats we were on could not 
go into those areas.
    Mr. Alles. So, sir, we use a series of different boats to 
work the Rio Grande. One is our SAFE boat, 22-foot SAFE boats. 
Those work in the deeper water of the Rio Grande. We have air 
boats that can work in basically almost no water at all. And 
then we are currently procuring a riverine shallow draft vessel 
which can work in 4 inches of water. That procurement is in 
process, and much like the Coastal Interceptor Vessels (CIV), 
we are going to have some struggles in buying out the objective 
we want. But those would help the Border Patrol in terms of 
those areas, those shallow-water areas.
    Senator Carper. OK. Thanks.
    The other thing I want, let us talk a little bit about 
intelligence. You guys are really intelligent, but talk to us 
about the availability and the quality of intelligence that we 
are getting to enable us to do our interdiction work, please. 
Admiral, do you want to lead us off?
    Admiral Brown. Certainly. As I mentioned earlier, the Joint 
Interagency Task Force South, a DOD command under the 
leadership of General Kelly and his SOUTHCOM command, has the 
lawful responsibility for detecting and monitoring illicit 
traffic coming toward the United States. They do that using 
both national intelligence means and law enforcement 
intelligence from not only other complements of DHS but also 
the Department of Justice (DOJ) and numerous foreign partners. 
We have terrific foreign cooperation down there that alerts 
JIATF South to literally thousands of drug movements toward the 
United States every year.
    However, as we talked about, we are resource constrained in 
terms of aviation and surface ships so that only roughly 35 to 
40 percent of those targets, of those potential targets 
actually become active targets searched for with aircraft.
    So the intelligence systems work very well. They do a great 
job of fusing national level intelligence with law enforcement 
intelligence, and we have multiple partnerships to keep that 
happening.
    Senator Carper. All right. Just very briefly, Mr. Alles.
    Mr. Alles. Sir, one struggle down there in the transit zone 
is the reduction in DOD assets. When we apprehend the people 
ourselves, we get a lot of intelligence out of those people we 
have apprehended. So that has been a downturn for us with less 
presence from the Department of Defense down there. That has 
hurt us. Overall, most of what we do down there is directed 
assets.
    I would just say also two other important parts that we 
work with ICE on really is, on the investigative side, they 
provide us intelligence in investigations so our assets know 
where to go, and then also in the source information they buy 
from criminal sources. Those are all critical elements to us.
    Senator Carper. OK. Mr. Edge.
    Mr. Edge. And for us, certainly working with our 
counterparts in the Department of Homeland Security is a key 
and critical part of our intelligence-gathering process and 
sharing with our counterparts at DOD. So, we find ourselves in 
situations where we are working very closely with all the 
COCOMs around the world, in addition to our law enforcement 
colleagues. And the different centers that we have set up 
within DHS have been successful in hashing out that 
information.
    Senator Carper. All right. Thanks. Thank you all.

               OPENING STATEMENT OF SENATOR ERNST

    Chairman Johnson. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chairman. Thank you, 
gentlemen, for appearing before this Committee today. I 
appreciate the testimony.
    Senator Ayotte talked about the illegal drug trafficking 
across the borders, whether it is maritime or across our land 
borders. And in that discussion, you did mention meth is a 
growing problem, and we have seen that all across the United 
States. It is a big problem in my home State of Iowa.
    Unfortunately, I think it does present a unique challenge 
for you because often the precursors for methamphetamine are 
legal substances that have legitimate uses, so I think that 
would be very difficult to police some of that. But talk about 
some of the challenges that you might see with methamphetamine, 
whether you are seeing the finished product coming over the 
borders, whether it is a challenge with the precursors, and 
maybe how you deal with that issue. And all of you are welcome 
to answer.
    Admiral Brown. I think if I may, Senator, I will tackle the 
precursors issue. We have talked a lot about the Joint 
Interagency Task Force South, which is focused in the Western 
Hemisphere, looking primarily at cocaine production coming from 
South America toward the United States. DOD also has a Joint 
Interagency Task Force West, based in Hawaii and looking 
westward toward Asia, the source of many of these precursor 
chemicals. One of their primary duties is to track those 
precursors as they approach Central America. It used to mostly 
be Mexico, now it is mostly Guatemala. And so they do a 
reasonably effective job of tracking those precursors. Mexico 
has clamped down substantially on precursor chemicals coming 
through that country. Now they are going to Guatemala.
    So as part of the Southern Border and Approaches Campaign 
Plan and part of the wider Central America strategy for the 
entirety of the Federal Government, we are looking to, with 
multiple partners, improve the governance across Guatemala and 
the other countries in Central America so they can improve 
their own port security and do a better job of clamping down 
both on precursor chemicals and on production.
    Senator Ernst. That is good to hear. General Alles.
    Mr. Alles. I think on the precursor side for us at CBP it 
focuses at the National Targeting Center for cargo. So they are 
trying to interdict these precursors before they enter the 
United States. Typically, they are manifested as something else 
on the cargo shipment, so their job is to sort out what is 
actually in the container and what is legal and illegal before 
it comes in.
    Then there is also the cross-border flow, which we have 
seen more meth coming across the border. Again, a lot of this 
is not only dependent on what we do at the ports of entry, but 
how we work with HSI in terms of focusing our enforcement 
efforts.
    Senator Ernst. Very good. Mr. Edge.
    Mr. Edge. Thank you, Senator. One of the things that we 
have seen with the production of precursors, we have 63 foreign 
offices, including Central and South America, where we have 
transnational criminal investigative units that have local law 
enforcement officers that work very closely with our special 
agents who are in-country. They have been a great source of our 
ability to identify the production plants for the precursor 
chemicals. Then we share that information with the intelligence 
community in the States and with our DHS counterparts in an 
attempt to be able to identify those shipments when they are 
coming across the border. So that is one thing that we see.
    Also, during the course of our investigative efforts, 
especially in the Midwest and that part of the country, we have 
had several long-term investigations that have resulted in 
agents coming across the meth production labs. And one of the 
biggest problems that we see is that those chemicals are quite 
deadly. So we have agents who are in these situations 
spontaneously who find themselves--who could be seriously 
injured.
    So we are trying to do our due diligence from the 
perspective of taking care of our agents to make sure that they 
have the equipment, they have the knowledge base, and they know 
how to handle themselves in these various situations. And it is 
an increasingly large problem that we find ourselves in.
    Senator Ernst. Yes, it is. I appreciate that very much.
    Of course, Cuba has been in the news a lot lately with 
normalization of relations there, but I would like to ask about 
the U.S.-Cuba immigration accord. I understand that with this 
policy informally known as the ``wet-foot, dry-foot policy,'' 
it allows any Cubans that actually reach American soil to stay 
in the United States and after one year they can apply for 
legal status and become eligible for an immigrant visa, they 
can apply for permanent residence, and then ultimately U.S. 
citizenship. However, those Cubans that do not reach American 
soil, if they are interdicted at sea, they are interviewed and 
then sent back to Cuba.
    I would like you to just confirm if this is, in fact, the 
current U.S. policy, and then also if you would give your 
opinion of that, if you believe that it does increase the 
activity of Cubans trying to immigrate to the United States 
through this policy.
    Admiral Brown. OK. Thank you for that question, Senator. In 
talking about the Migration Accords, the Migration Accord or 
agreement that we have with Cuba dates back to the mass 
migrations of the mid-1990s. So since the 1994-95 timeframe, we 
have had agreement that allows for the direct repatriation of 
Cuban migrants who are interdicted at sea and are then screened 
to ensure that they are not going to be subject to persecution 
or torture upon potential return to Cuba. We then have a well-
facilitated repatriation mechanism by which Coast Guard cutters 
go into a particular Cuban port, repatriate those migrants to 
the custody of the Ministry of the Interior.
    I had the opportunity from 1998 to 2000 to serve as the 
Coast Guard's essentially liaison officer to the Cuban Border 
Guard. And since 2000, we have had somebody permanently 
stationed at the U.S. Interests Section in Havana to help 
facilitate that part of the relationship, and it is a very 
professional working relationship that we have with the Cuban 
Border Guard. And as relationships change with Cuba, we see 
that potentially being an avenue for continued cooperation in 
other matters of law enforcement and security.
    Senator Ernst. OK. Do you think that that encourages very 
unsafe immigration to the United States? It seems that most of 
those that are trying to come from Cuba are often in vessels 
that would not be worthy of going to sea.
    Admiral Brown. We would say with all forms of illicit 
migration and unsafe migration by sea, they are often driven 
by, if not the policy itself, the perception of the policy, 
which is often exploited by criminal migrant smugglers who 
charge people money on the dream that they will arrive in the 
United States.
    Senator Ernst. OK. Is there any additional input from the 
members of the panel?
    Mr. Alles. I think his statement about the desire to reach 
here and the danger associated with it does not just apply to 
Cubans. It applies to all that try to approach our maritime 
borders in a lot of these vessels that are typically very 
dangerous and not very seaworthy.
    Mr. Edge. And, Senator, from our perspective, with our 
investigative portfolio--and we do run into circumstances where 
there are migration issues and there are large volumes of 
them--we usually call our colleagues at the Coast Guard to 
assist us.
    Senator Ernst. Very good. Thank you, gentlemen, very much.
    Thank you, Chairman Johnson.
    Chairman Johnson. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and thank you to 
our witnesses for your testimony this morning.
    The issue of maritime border security is important to me in 
my State of Michigan. We are blessed with the second longest 
coastline of any State in the Union, second only to Alaska, and 
a significant portion of that is the border with Canada. So 
certainly if we are thinking about maritime security, we need 
to be thinking about the Great Lakes as well.
    I want to take this little different tack and kind of 
discuss some new potential threats coming up and how you are 
going to react to it. There have been a number of reports from 
the White House, and the Department of Defense, the national 
intelligence community, the Department of Homeland Security all 
talking about some of the national security implications of 
climate change. We are actually seeing some changes in the 
Great Lakes that I think warrant some thought, and that is the 
ice cover that we are seeing. National Oceanic and Atmospheric 
Administration (NOAA) has been tracking what has been very 
significant ice cover these last two seasons. In fact, last 
year, 92.5 percent of the lakes were covered by ice, 
particularly Lakes Huron, Erie, and Superior. The NOAA folks, 
although the data is still preliminary, are thinking this might 
be a long-term trend as a result of the melting polar ice cap. 
You will see colder weather coming in the Great Lakes, so we 
may have complete freezing of the Great Lakes for future years 
as well. And that can make it easier for folks to cross the 
border as well.
    In fact, earlier this year the Coast Guard intercepted a 
man who was attempting to walk across Lake St. Clair, which was 
fully frozen, on his way to Canada to cross the border using 
the ice.
    The 2012 Northern Border Counternarcotics Strategy 
acknowledged also the use of all-terrain vehicles and 
snowmobiles to smuggle drugs in the Great Lakes region. So if 
there is a possible way for folks to smuggle, they are going to 
take it, and then criminals will attempt to cross the Great 
Lakes. I do not think there is any--on ice is no different. So 
I am just curious as to what assets the Coast Guard and DHS may 
have to monitor people who are using small vehicles, or even 
walking, attempting to enter the United States now that there 
is in a sense an ice bridge across perhaps a very long border 
with Canada.
    Admiral Brown. Thank you for that question, Senator. I 
think I will tackle the ice-breaking piece of it first and then 
the security aspects.
    With regard to ice breaking, we have seen record winters, 
particularly the winter of 2014, and a cooperative agreement 
between the U.S. Coast Guard and the Canadian Coast Guard 
provided ice breaker coverage to the extent that the United 
States, we are not prepared to provide on our own. We have a 
number of 140-foot ice-breaking tugs as well as our 225-foot 
buoy tenders as well as the Coast Guard cutter Mackinaw, our 
only heavy ice breaker on the Great Lakes.
    Canada has a little bit more capacity and works with us 
very cooperatively on ice breaking to keep the shipping 
channels open as long as possible, and we foresee that 
relationship continuing in the future. We also have an in-
service vessel sustainment program to upgrade the 140-foot ice-
breaking tugs to continue them in service for an extended 
period of time. So we think that from an ice-breaking 
standpoint, we have sufficient capacity on the Great Lakes for 
the foreseeable future for most winters, with help from the 
Canadians in the heaviest periods.
    With regard to the security relationship, we have a great 
working relationship with Canadians both from an intelligence 
and operations perspective. The Coast Guard has a ship rider 
agreement with the Royal Canadian Mounted Police that cross-
deputizes officers of the two services to ride on each other's 
vessels so the border cannot be used as an escape route 
essentially for someone who is conducting some type of 
nefarious activity. We also have an intelligence relationship 
with Canada that allows us to share information both about the 
border itself and about other threats.
    And the last point I want to make about Canada is that they 
also recognize that border threats do not emanate right at 
their border with the United States. Many of them come from 
farther away. So the government of Canada, through the Canadian 
Navy, provides Canadian naval ships that assist us with Coast 
Guard boarding teams on board to interdict drugs as far away as 
the coast of South America. So they have been terrific partners 
in all ways.
    Senator Peters. Does the fact that you have an ice bridge 
now through miles and miles of border--do you need additional 
assets for that? Do you look at that differently? How do you 
react to the situation where people can take a snowmobile 
across many miles of border?
    Admiral Brown. We work that primarily in conjunction with 
Border Patrol, and I would leave that to Mr. Alles.
    Senator Peters. OK.
    Mr. Alles. Yes, so from our standpoint, sir, in the winter 
when it freezes over, we are talking about the utilization of 
more emphasis on the frozen areas of the lake via snowmobiles, 
increased patrols. Our marine interdiction agents who obviously 
cannot use their boats in those conditions are pulled off the 
water and participate in those operations.
    If the flows were considered serious enough, we could look 
at using technology like the Vehicle and Dismount Exploitation 
Radar (VADER) to actually patrol the lake. That is the radar 
technology that detects walkers. It is employed in our UAV 
asset. Right now it is used exclusively on the Southern Border, 
but that is a possibility up there. There is a technology to 
address it.
    But those are the main ways they address those cross-border 
flows in the winter. It is a problem when the lakes freeze 
over.
    Senator Peters. Mr. Edge.
    Mr. Edge. Senator, from the investigative perspective, we 
have one Northern Border BEST in your jurisdiction, in Detroit, 
and three others across the rest of the Northern Border. And 
one of the things that we find is that the partnerships are 
very strong, both with our foreign counterparts as well as our 
domestic counterparts, and we are able to share the 
intelligence information that we get with our counterparts at 
CBP and Coast Guard.
    So hopefully in the future we will be able to see the 
program grow along the Northern Border, because we certainly 
recognize that there is a significant problem with smuggling, 
with the use of snowmobiles and skis and the like. So we look 
forward to communicating with you in the future.
    Senator Peters. Good. Well, I appreciate that.
    Commissioner Alles, you mentioned some of the radar assets 
as well, and according to the Office of Drug Control Policy's 
latest Northern Border Counternarcotics Strategy Report, they 
claim that radar coverage of the Great Lakes region is far from 
complete, which could allow certainly low-flying aircraft to 
move drugs. But then you also talked about walkers and other 
folks along that area. So the report called for action to 
enhance some of our air and maritime efforts, particularly when 
it came to radar assets.
    Where are we on that? How do you view that? Is there 
anything we need to do?
    Mr. Alles. So currently there are no active sites on the 
lake. On Lake Erie, there are three radar sites that are being 
permitted and installed. I do not have the exact locations, but 
I understand they are on the eastern end of the lake.
    Also, as we continue to procure the multi-role enforcement 
aircraft, which is a maritime patrol aircraft, that provides 
you more radar density. We will eventually base those on the 
northern tier--not currently. We do not have enough density to 
do that, but that is the objective of the program eventually.
    Senator Peters. Great. Thank you so much.

             OPENING STATEMENT OF SENATOR LANKFORD

    Chairman Johnson. Senator Lankford.
    Senator Lankford. Gentlemen, thank you for being here. Let 
us talk a little bit about the movement of narcotics through 
the gulf and the Caribbean area and then coming up the budget 
the Pacific side as well, all the way up the coast. We talked a 
little bit about the assets that you have requested, what you 
have, and the process. This number keeps sticking with me, 
Admiral Brown, that you had mentioned before, between 11 and 18 
percent of known narcotics that we are able to actually do 
interdiction on.
    So just to clarify, that is, we have intelligence, we are 
aware that we at least have a high suspicion that this 
particular vessel is carrying some sort of illegal drugs, 
between 11 and 18 percent of those that we know about we are 
actually able to interdict.
    Admiral Brown. OK. It is slightly different than that, 
Senator. The 11 to 18 percent is of the estimated flow, total 
drug flow toward the United States, we interdict--by weight, we 
reduce that supply by about 11 to 18 percent with a national 
target of 36 percent, going up to 40.
    With regard to individual events about which we have known 
intelligence, JIATF South and SOUTHCOM estimate that they can 
only target about 37 percent of those events, but that overall, 
once they locate a vessel or actual--the Coast Guard's kind of 
interdiction performance, once a vessel has been sighted as a 
target, our interdiction performance is between 85 and 90 
percent. So it really is a matter of turning the known 
intelligence into a sighting or a detection that we can then 
target with the vessel, with the ship-helicopter-boarding team 
combination.
    Senator Lankford. OK. So what does it take to get that 
done? Let us talk about the dynamics of this. If we are 
targeting that number, somewhere around 70 percent then of what 
we think is there we are not interdicting, what will it take to 
get that number up?
    Admiral Brown. I would say that as a government, aviation, 
long--persistent surveillance, whether it is in the form of 
fixed-wing aviation, national assets, unmanned systems, 
persistent surveillance that can be targeted until a very 
thinly populated fleet of surface vessels can get there.
    Senator Lankford. So we are talking about we are aware of 
it leaving, but we are not able to track it the whole way, and 
at some point in the vast ocean or the gulf we are losing it.
    Admiral Brown. Correct. And when you mention the vast 
ocean, just in the eastern Pacific alone, the area that we are 
talking about is an area equivalent to the continental United 
States that may be patrolled by three to four ships at a time.
    Senator Lankford. Right.
    Admiral Brown. All of which have to refuel somewhere on the 
east coast, notionally speaking. And I mentioned earlier, in 
addition to the information, much of which we have, the 
aviation, much of which we do not have, and the ships on 
station, right now the Coast Guard is significantly challenged 
by our ability to keep our older ships, our 30-to 50-year-old 
medium-endurance cutters on station. Last week alone, while we 
projected to have seven ships on station in the Caribbean and 
the Florida Straits, we actually only had two because five of 
them had mission-limiting casualties. And so the 
recapitalization of our offshore patrol cutter fleet becomes to 
us the linchpin of success for decades to come.
    Senator Lankford. OK. So when does that get turned around, 
when we go from two ships back to seven?
    Admiral Brown. Well, thanks to some great efforts by our 
logistic system, those ships are back up and operating. But, 
again, we missed almost a week on station for many of them, and 
that time on station cannot be regained.
    Senator Lankford. So the aircraft, what is the most 
efficient delivery system there? What is the best asset for us 
that? Is that an unmanned? Is that manned? I know they have 
different missions and different capabilities. But when you 
look at trying to dramatically increase the number of aircraft 
that are there, actually tracking what we think is moving 
narcotics, what is the most efficient way to get that done?
    Admiral Brown. I think perhaps Mr. Alles could comment on 
that more effectively based on his experience in aviation?
    Mr. Alles. Yes, I think right now the manned aircraft is 
more effective because of the limitations on employing the 
Unmanned Aircraft System (UAS) in the airspace. So we are 
eventually moving down to put a sense-and-avoid system on our 
Predator aircraft UAS system. With that we can fly more 
liberally in international airspace. Right now we have 
restrictions on flying outside of air cover. So actually it is 
your manned aircraft.
    But the other part I think we ought to get to is you are 
kind of asking the question of how do I secure a maritime 
border, and to me that is really five components: It is 
maritime domain awareness that we are talking about. It is law 
enforcement information, because merely having coverage does 
not tell me if a vessel is legitimate or he is doing 
illegitimate activities. So I need information from 
investigations. I have to have response capability, which he 
mentioned about in terms of the cutters. For me it is in terms 
of coastal interceptors. I have to have unity of effort because 
I do not have all the information at CBP. The Coast Guard does 
not have it. Not even ICE has all of it. It has to be a 
combined effort, Federal, State, local. And then, finally the 
small-vessel accountability piece we have not really talked 
about, but we have 12 to 15 million small vessels in the United 
States, and they basically are unregulated in that regard. So 
whether they are doing legitimate or illegitimate activity is 
very hard to know, and so the accountability of those vessels 
for us is a major challenge.
    The fact that we do not have any kind of device on those 
vessels like an AIS system that is your beacon system that goes 
on your larger, 300-ton and up vessels, is a substantial 
challenge for us. But that is a regulatory issue that we cannot 
really address. It would require action by the Congress.
    Senator Lankford. Right. So initially what I am looking for 
were the gaps. When we have intelligence that tells us we have 
some sort of vehicle and it is suspected to be carrying 
narcotics and we are not able to interdict that, that is the 
first warning sign to say of those five you listed, we are 
missing one, at least one, where there is a gap in there. The 
worst-case scenario for us and for you in law enforcement is to 
say I suspect there is illegal activity going on and I can do 
nothing about it.
    So, to me, the first step is let us find out what is 
missing in that gap. Let us try to fill that gap, because we 
have a long-term strategic issue on that.
    When you mentioned the unmanned aerial systems as well, 
your hesitation is that is not a platform we can use because of 
the regulatory status? Because of what?
    Mr. Alles. Because of the regulatory status to operate in 
international airspace without its own ability to sense and 
avoid aircraft. It needs that to comply with International 
Civil Aviation Organization (ICAO) rules. That is the issue for 
the platform.
    Senator Lankford. OK. Are we unifying our other fixed-wing 
aircraft to make sure we are getting efficiency? There is an 
issue that has happened in the past with having multiple 
different types of aircraft, because then you have multiple 
maintenance folks, you have multiple parts, replacement, if one 
goes down, it is harder to be able to fix it.
    Mr. Alles. Well, I think the direction we are going there, 
both for the Department of Homeland Security--we have 
constructed a joint operation requirements document for 
maritime patrol aircraft that addresses the mission system on 
the airplane. So our main issue there is we want to get our 
airplanes linked together so they can pass information between 
themselves and operations center, like our air and marine 
operations center, or Coast Guard sectors, and we are moving in 
that direction with this joint operation requirements document. 
I think that is definitely----
    Senator Lankford. OK. Mr. Chairman, may I have the luxury 
of having one more question? I need to ask about Cuba and 
follow up on what Senator Ernst was talking about as well. What 
are you seeing as far as the rise and the fall of the number of 
individuals coming from Cuba trying to come into the United 
States? I saw some written statements about some numbers there. 
I would like to know where we are currently today or as soon as 
we can.
    Admiral Brown. In the maritime domain, the number of Cuban 
migrants that have attempted to come to the United States has 
upticked over the past 2 years, fiscal years 2014 and 2015, as 
compared with the 5 years prior. But, still, that level remains 
below kind of our 10-year historical average.
    So we perceived a slight uptick shortly after the 
announcement of change in relationships. As I mentioned 
earlier, we think that the perception of U.S. policy or 
potential change in U.S. policy is often a driver of migration 
and often fueled by migrant-smuggling organizations that profit 
from that uncertainty.
    Senator Lankford. So has that number gone back down or has 
it stayed high?
    Admiral Brown. That number has since gone back down on a 
month-to-month basis compared to what we saw in December and 
January. And, again, it is back down to historical norms now.
    Senator Lankford. OK. Thank you.
    Chairman Johnson. Senator Lankford, let me just enter 
something into the record, some facts on that. Between December 
1 and December 16, 2014, the Coast Guard interdicted about 80 
Cubans. On the 17, President Obama announced the new U.S. 
policy toward Cuba. Between December 17 and December 31, 2014, 
the Coast Guard interdicted 419 Cubans, a 423-percent increase.
    To address this, the Coast Guard deployed direct 
repatriation immediately and began sending those interdicted in 
the waterways back to Cuba. As a result, Cuban interdictions 
fell to 254 from January 1, 2015, and, according to this have 
now returned to more normal levels. Is that basically correct?
    Admiral Brown. That is accurate, sir. Normally, in the 
winter months the flow trails off, so those numbers were fairly 
high. The numbers now month to month are about 300, which, for 
the summertime, is about normal and certainly well within the 
normal range. And I would add that this perception of policy 
issue, as Mr. Alles said before, applies not only to Cuban 
migrants but to Haitian migrants as well. A few years ago, we 
saw a significant spike in Haitian migrants trying to go from 
the Dominican Republic toward Puerto Rico. We were then able to 
come up with a policy solution to that of expedited removal of 
Haitians who had landed in Puerto Rico or the islands of the 
pass between Dominican Republic and Puerto Rico, and we were 
able to get a lid on that.
    So it is a combination of policy, operations, but also 
public messaging in addition to the additional operations 
effort that we made.
    Chairman Johnson. So bottom line, U.S. policy creates 
direct incentives and disincentives for illegal immigration.
    Admiral Brown. Correct. And as I mentioned before, 
smuggling organizations absolutely exploit uncertainty or 
perceived changes in policy to profit from people's desire to 
get to the United States.
    Chairman Johnson. OK. Senator Carper.
    Senator Carper. A couple years ago, my family took off 
between Christmas and New Year's Day, and we went on a cruise 
out of Florida into the Caribbean, and the first morning--we 
left at night, and the first morning out, about 8 in the 
morning, I said to my wife, we were in our cabin, and I said, 
``I do not feel like we are moving.'' And she said, ``Go back 
to sleep.''
    Anyway, I went out on this little balcony on our cabin, and 
I went out there, and the Caribbean was just glass, just like 
glass. And I said, ``I do not think we are moving.''
    And then the captain of the ship came on the P.A., and he 
said, ``We are not moving.'' And what we had stumbled across 
out there in the night was a boat with Cubans trying to make it 
to the United States. And it was Christmas morning, and 
literally we stayed with them. We had already been with them 
for 3 or 4 hours. They had been out to sea for a week or two. 
And we stayed with them. A couple of people were in bad shape. 
We brought them in, fed them, gave them water, and attended to 
their medical needs. We stayed with them for another 6 hours, 
and it made us late on our cruise to get to these different 
islands we were supposed to go to. Nobody ever complained. We 
literally stayed there as humanitarians on Christmas morning. I 
thought it was pretty extraordinary.
    And then the Coast Guard arrived, and they took charge, and 
we headed out. And they took those folks back to Cuba. There 
were no kids on the boat. There were no unaccompanied minors. 
And my guess is that most of the folks we find at sea that are 
trying to make the trek by boat from Cuba to the States, my 
guess is there are not a lot of unaccompanied minors.
    What we deal with, as you know, certainly as Mr. Alles 
knows, what we deal with on the Southern Border is a lot of 
unaccompanied minors, a lot of families with kids. We just do 
not see that sort of thing coming in from Cuba. It will be 
interesting to watch what happens in the months ahead as we 
move toward more normalized relations.
    I want to follow up a little bit on James' question, and he 
was talking about drones. In the old days, Mr. Alles, I spent a 
lot of my life on Navy P-3 aircraft, maritime patrol aircraft, 
and we were pretty good at tracking Soviet nuclear submarines 
when we had good intelligence. If we actually knew what part of 
the ocean to go to and search, we were pretty good at finding 
those guys. It helped having sonobuoys that worked and were 
efficient and highly sensitive. It helped to have a crew on 
board who knew how to run the equipment. They have really 
sophisticated surveillance equipment. It helps to have 
maintainers of the aircraft so we could actually fly and not 
have to board our flights.
    But when you think about those different components--good 
intelligence, aircraft that have the kind of surveillance 
equipment needed, folks that are trained to operate that 
equipment, folks that are able to maintain that equipment, and 
to keep the airplanes flying--when you think about those 
components and you think about, for example, drones or these 
other shorter-range maritime patrol aircraft, Mr. Alles, how do 
those factors weigh in with respect to whether it be the drones 
or the--what are they called, the shorter-range aircraft, 
maritime patrol?
    Mr. Alles. The multi-role enforcement aircraft.
    Senator Carper. There you go. Is there a designation, 
something 8? What is it? S-8? I do not know.
    Mr. Alles. No, sir. It is a Twin Beech, is what it is. A 
Beech 350 I think it is.
    Senator Carper. OK.
    Mr. Alles. Is what the aircraft actually is.
    Senator Carper. Talk about those components as they apply 
to these aircraft, the drones and these aircraft.
    Mr. Alles. Well, I think you have highlighted the key 
component of this thing. Each aircraft has its kind of space it 
operates best in. The drone gives me long endurance. It does 
not have quite the radar range that some of my P-3s have. I 
should be specific here because some of the P-3s have the long-
range apps radar on board, and the rest of them, six of them 
have the SeaVue, which is the shorter-range radar, the same as 
the Guardian UAV does. But the critical part really here, as 
has been mentioned by the Admiral and also by Pete over here, 
is really the intelligence. So how do I know where to put the 
aircraft so it can actually find the vessel? So in JIATF South, 
that is the model. The aircraft does not go out there unless we 
have information on what he is looking for.
    Now, without the aircraft, we will never find the vessel. 
He will go to his destination and deliver his drugs. But 
without the information, the aircraft will patrol for hours and 
likely find nothing.
    So I would say that same model applies if you think about 
U.S. coastal lines, too, is we need that kind of information, 
that kind of law enforcement intelligence that allows us to put 
our aircraft in the right places to patrol and actually find 
these vessels as they are coming inbound. So that is a key 
part.
    And then each airplane--the Multi-Role Enforcement Aircraft 
(MEA), our Dash 8 is also a maritime patrol aircraft, longer 
range, and the Guardian UAV, and then also finally the P-3--has 
its particular element it operates in based on the performance 
characteristics of the airplane and the radar it has on board.
    Senator Carper. OK. Thank you.
    Another one for Admiral Brown and probably Mr. Alles as 
well. Let me just go back to the unmanned aerial systems for a 
second. General Alles and Admiral Brown, can you talk a little 
bit with us about your use of drones in the maritime--you 
talked a little bit about it, but, Admiral Brown, how effective 
are they in spotting traffickers, other kinds of illegal 
activities?
    Admiral Brown. Thank you for that question, Senator. We 
have had some successes in partnership with CBP on using 
unmanned aerial systems for interdictions. I recall a very good 
case off of Puerto Rico where a maritime patrol aircraft first 
spotted a suspect vessel, then handed it off to an unmanned 
aerial system that maintained surveillance until a Coast Guard 
cutter was able to get on scene and do the interdiction. So we 
have had successes with that.
    The Coast Guard, in addition to the partnership program 
with CBP on the Guardian, has also two other unmanned aerial 
system programs. One is a shipboard UAS program. We have kind 
of had some fits and starts on that. Some of them, as you have 
mentioned, Senator, are more people-intensive than we first 
would have anticipated. In fact, I think within DOD they have 
actually changed terms from ``unmanned'' to ``remotely 
piloted'' to put emphasis on the fact that there is still a 
pilot, just not on board the asset.
    And then we are also working on small, essentially hand-
launched unmanned aerial systems for closer-range surveillance 
and for a variety of applications. Right now we are testing 
them in the Arctic for ice breaking, to find leads in the ice 
and other environmental concerns. So we have multiple programs, 
all of them in some nascent stage, but we have had some 
successes.
    Senator Carper. Good. Thanks.
    Mr. Alles, let me ask a quick follow up. The Chairman and I 
have been sitting here before with the Inspector General (IG) I 
think from DHS and talking to us about drones and saying they 
are not as effective, we are not getting our money's worth out 
of the drones. We heard about a report maybe 3, 4, 5 months ago 
from the Inspector General, and just give us an update. I know 
there has been work underway to try to address the concerns 
raised by the Inspector General. How are we doing?
    Mr. Alles. Yes, sir. So some of the concerns he addressed 
are underway in terms of addressing those. They address the 
concept of operations (CONOPS) we had that needed to be updated 
and is currently being updated. We talked about the flying 
hours of the program. We have a disagreement on that. We are 
shooting to get into the 6,000-to 9,000-hour range. We are 
going to update the CONOPS so they cannot draw a false 
inference from that CONOPS on how many hours we want to fly 
that. So that should correct that.
    In terms of the actual effectiveness of the drone, I will 
just give you an example. For this year it is now responsible 
for $561 million of contraband seizures, and the year is not 
over yet. So I think in terms of flying hours compared to what 
it costs to operate it, it is giving us a tremendous return on 
investment. So I would disagree with the assessment that the 
drone does not produce for us, as we talked about earlier when 
you all came down to Corpus Christi, I think it was in January. 
But same opinion there. It is still being verified even this 
year with the numbers it has produced so far in fiscal year 
2015.
    Senator Carper. Just keep in mind, as we figure out how to 
fund 2016, if there are things that we need to be doing to 
support whether it is pilots, whether it is maintenance, to 
make--I want to make sure--we spent all this money on drones. 
We want to make sure we are getting our money's worth, and if 
there is some component that is missing, that we need to be 
mindful of, please let us know.
    A last question, if I could. We are interested in root 
causes. The Chairman and I are very much interested in root 
causes. I think the root cause of a lot of what we talked about 
here today is our insatiable appetite for illegal drugs. That 
is really the root cause, and it is a hard one to solve. So 
what we do instead is we address symptoms of those problems.
    The Chairman and I may be heading down to Honduras, 
Guatemala, and El Salvador sometime in a couple of months, I 
hope, and I think with that in mind, Mr. Edge, at some point in 
your testimony you talked about a joint operation that led to 
the convictions and extraditions of, I think, one or two major 
players in the transnational criminal network. I think it was 
in Honduras, and I think you stated that the extraditions had 
an effect on the flow of cocaine in Honduras. Could you expand 
on that just briefly and talk about the impact the extraditions 
have had on our relationship with Honduras, please?
    Mr. Edge. Certainly, Senator. The relationship with 
Honduras has actually been very good lately as a result of the 
extraditions. The extraditions certainly sent a wave of concern 
among those who are involved in the criminal organizations down 
there, and also working very closely with our transnational 
criminal investigative units that are in that region of the 
world. We have several, and I think you have been to Panama and 
have visited there. But that region has been a focus of 
investigative activity that was certainly enhanced last summer 
with the unaccompanied children problem that we witnessed.
    But the relationship is strong, and we certainly anticipate 
that it will get better in the coming months.
    Senator Carper. All right. My time has long since expired. 
I notice we have not started our vote yet, Mr. Chairman. Could 
I just follow up on this root cause thing.
    Chairman Johnson. Sure. I was going to as well.
    Senator Carper. OK. Thank you very much.
    Let me just ask each of you to take one minute, please, to 
talk about how we, the Chairman and myself and our Committee 
especially, can engage more effectively and our country engage 
more effectively in the Northern Triangle region? Please, just 
take a minute on that. Admiral.
    Admiral Brown. Thank you, Senator. As I mentioned earlier, 
there is a Central America strategy now developed out of the 
National Security Council staff, and Vice President Biden is 
the one who----
    Senator Carper. And I am pleased to see that it has been 
funded by the appropriators--not to the full extent, but I 
think generously.
    Admiral Brown. And I think that is terrific, sir. There are 
three key aspects to that strategy. They include security, 
governance, and prosperity. And I think the Coast Guard has a 
role to play, particularly in security and governance, but 
leading to prosperity. We talked a little bit earlier about 
precursor chemicals in Guatemala. So shipping out of Central 
America toward Wilmington, for example, with bananas and juice 
concentrates could be an important part of their economy if 
they had a relief from the pressure of corruption and the 
corrosive effect of cocaine traffic moving through Central 
America. So I think the appropriations for funding that 
strategy are a key component of moving forward there, and from 
a Coast Guard perspective, we want to put more people in the 
embassies in the country teams to improve our performance in 
all three aspects: security, governance, and prosperity.
    Senator Carper. Thanks so much.
    Mr. Alles, please?
    Mr. Alles. I think on the Northern Triangle side, our big 
contribution we can make from my office is continue to fund 
detachments down there to help in their law enforcement work. 
So we funded a detachment down to El Salvador this year, which 
also worked in Guatemala, and that was the Predator UAV that 
helped them on some of their law enforcement operations. So I 
think that is helpful in terms of doing the security aspect we 
talked about as the element of this strategy, and then other 
elements of national power need to come into play because, 
clearly, the economy is a big factor on why people migrate out 
of those countries.
    Senator Carper. Thanks, Mr. Alles.
    Mr. Edge. Senator, one of the things that we need to do in 
HSI is make sure we keep allocating the appropriate resources 
to that part of the world. We want to make sure that we fully 
staff our offices in that area of the world, so we can continue 
to collaborate with our foreign counterparts, and that we also 
maintain connectivity to our domestic offices in the States 
through this whole joint task force model because that is very 
important for us to build investigative efforts and also share 
some of the information that we can with our counterparts in 
that Northern Triangle region. It is going to be critical to 
our success to identify the threats before they make it to our 
shores.
    Senator Carper. All right. Thank you all. Thank you very 
much for your testimony today and your good work.
    Chairman Johnson. Thank you, Senator Carper.
    Again, I think in the course of these hearings, I think we 
have both come to the realization and agreement that the root 
cause really is our insatiable demand for drugs, the root cause 
of our unsecure border.
    In evaluating that, though, I think you have to really take 
a look at the history, and you have to kind of piece the puzzle 
together. So I wonder if any of our witnesses are willing to 
really speak to how that all came about. We have an insatiable 
demand for drugs, which obviously helped the growth of these--
the creation and growth of the drug cartels. Drug cartels are 
businesses, so they are smuggling drugs, and most businesses 
look to expand their product lines, and that expands into human 
trafficking, sex trafficking. You are moving humans across the 
border. Well, let us take a look at illegal immigrants. Let us 
use them as a diversion for our drug trafficking.
    Can anybody speak to how those cartels have if not 
completely destroyed, certainly done great harm to the public 
institutions of Central American nations? Can anybody kind of 
speak to the history of that and what the current State is, 
which is, as pretty relevant as well? Director Edge.
    Mr. Edge. Sure thing, Mr. Chairman. One of the things that 
we have seen through our investigative efforts--and, again, the 
foundation here is our investigations--the demand for drugs has 
resulted in an insatiable demand for money. And the financial 
aspect that I mentioned earlier, where we have a financial 
component to all of our investigations that we conduct, no 
matter what discipline they are in, there is a demand to make a 
profit. And that profit certainly is inherent in a need for 
these cartels to survive, to make more money, to commit 
corruption in those countries, and that is a big part of it. 
And that has become part of the culture in those countries.
    So one of the things that we try to do is, I think, the 
best course of action that we have taken, to enhance our 
international footprint, to communicate more effectively with 
our foreign counterparts at the law enforcement level, and that 
has yielded some pretty significant results. We have actually 
gotten an extradition out of a country that we otherwise would 
not have.
    So it is things like that that we have to continue to do to 
really, perhaps, see some progress and, perhaps, see the flow 
stem a little bit in addition to all-of-government effort to 
reduce the demand for the product.
    Chairman Johnson. Commissioner Alles, you look like you 
want to chime in.
    Mr. Alles. I was just going to make a comment, as he did. 
It is the issue of corruption and how that basically erodes 
government institutions, and also the ability to do business. I 
am sure, as you recognize, if you are bidding on a contract and 
you have to bribe them to get the contract, I mean, that is, 
fraught with all kinds of problems and just undermines the 
institution. So I see that as a major problem for, not only in 
Central America but in Mexico, too.
    Chairman Johnson. Can you give me a sense of the 
progression or degradation of those institutions? Are they 
worse than 10 years ago? Are they getting better than 10 years 
ago? Admiral Brown, do you have any information on that?
    Admiral Brown. I would say, sir, that the closest analog 
might be Colombia in the late 1980s and early 1990s, and 
perhaps Central America is in about that condition now, but 
with a combination----
    Chairman Johnson. Which is not good.
    Admiral Brown. Which is not good, but also not hopeless. 
With a combination of significant national effort by the 
Government of Colombia and the people of Colombia, as well as a 
relatively small investment from the United States of people 
and money and time and resources, Colombia has reduced its 
murder rate, substantially increased its Gross Domestic Product 
(GDP), and reestablished the rule of law almost over the 
entirety of the country, with the exception----
    Chairman Johnson. That took extraordinary leadership, 
right?
    Admiral Brown. It absolutely did.
    Chairman Johnson. Unfortunately, leadership--when I say 
``extraordinary,'' I mean it does not exist very often.
    Admiral Brown. Right, sir. And so the goal of the Central 
America strategy is to try to address at the same time the 
security concerns, the governance, the rule of law, and the 
institutions there, as well as improving the prosperity so that 
there is no longer the roots of corruption and also the 
pressure on people to move out of Central America so that they 
can rebuild their own countries and economies.
    Chairman Johnson. OK. I will give each of you an 
opportunity to just make a closing comment, something that, if 
we have not asked a question, you just want to get off your 
chest. But I do want to go back to the incentives and 
disincentives of our own policy, and I want to go back--because 
you spoke earlier about the problem we had in fiscal year 2013 
and 2014 in Haiti. I want to get the numbers on the record. By 
the end of fiscal year 2013, 1,760 Haitian migrants had 
attempted to enter the United States through the Mona Passage, 
as compared to 39 Haitians in fiscal year 2012. So it went from 
39 to 1,760.
    And then basically we decided to enact a policy that 
immediately repatriated those Haitians, correct? Can you 
describe, first of all, exactly what we did?
    Admiral Brown. What had happened, sir, was following the 
earthquake in Haiti in 2010, we had stopped removal of 
Haitians. And I have to different between repatriation--in the 
Coast Guard we use repatriation, maritime repatriation, 
migrants who are interdicted at sea who return to their country 
of origin or departure--from removal, which is the process 
after a migrant has landed in the United States.
    Chairman Johnson. Correct. But, again, repatriation is 
immediate, and it is noticed immediately.
    Admiral Brown. So we never stopped post-Haiti earthquake 
the maritime repatriation process. Thankfully, that continued 
to work, and there was no increase in migration from Haiti in 
2010 subsequent to the earthquake.
    However, the expedited removal of Haitians who were already 
in the United States was stopped at that time and was not 
resumed. And by 2013, migrant-smuggling organizations in the 
Dominican Republic began to take advantage of that by bringing 
Haitians already in the Dominican Republic to uninhabited 
islands that are U.S. territory between Puerto Rico and the 
Dominican Republic.
    Chairman Johnson. So, again, because I really want to get 
this straight. So U.S. policy, we stopped expedited removal or 
repatriation back to Haiti, so the reality of the situation was 
that if you were Haitian and you got in the United States, you 
felt you had a pretty good chance of staying.
    Admiral Brown. Correct.
    Chairman Johnson. And as a result, we saw a pretty good 
spike--nothing like we saw with the unaccompanied children, but 
we saw a pretty good spike of Haitians trying to come to this 
country illegally.
    Admiral Brown. Right, accompanied by a spike in deaths and 
injuries of migrants who were attempting to make that cross.
    Chairman Johnson. A pretty dangerous journey.
    Admiral Brown. Correct.
    Chairman Johnson. Which is not a very humanitarian thing 
for us to incentivized people to take a dangerous journey to 
lose their life.
    Admiral Brown. So we did a couple things. First, working 
with the Government of the Dominican Republic, we asked them to 
increase their shore-side enforcement to try to stop this 
traffic from taking place. And within the U.S. Government, we 
were able to within our Department and with interagency 
partners--State, Justice, and others--we were able to 
reinstitute the policy of expedited removal, and ICE 
enforcement and removal operations began removing migrants who 
had recently arrived in Puerto Rico or those uninhabited 
islands, and very quickly, once that became public knowledge, 
the traffic across that vector essentially dried up.
    Chairman Johnson. My note here says that after the first 
removal, the maritime flow in the Mona Passage decreased by 80 
percent.
    Admiral Brown. Correct.
    Chairman Johnson. OK. I just wanted to get that on the 
record.
    Again, I would like to offer each of you gentlemen an 
opportunity to make a closing comment. We will start with you, 
Admiral Brown.
    Admiral Brown. Thank you, Senator, for the opportunity to 
speak before the Committee today, and I will just reemphasize 
that for us in the Coast Guard, the most important aspect of us 
being able to maintain maritime border security for decades to 
come is going to be the recapitalization of the cutter fleet 
through the Offshore Patrol Cutter Program. So your continued 
support for that will help us out greatly in accomplishing not 
only drug interdiction but all the other missions to which we 
are appointed.
    Chairman Johnson. Thank you, Admiral. Commissioner Alles.
    Mr. Alles. Sir, I think the key point I want to make here 
is the importance of having unity of effort across the 
Department. The JTFs are doing that for us. Each of our 
organizations brings unique capabilities to the problem set 
that we are talking about. They are not redundant capabilities 
per se. So I think it is important that we continue to have a 
high degree of unity of effort, and I think that is a good path 
that we are currently on.
    Chairman Johnson. Thank you. Director Edge.
    Mr. Edge. Thank you very much, Mr. Chairman. Thank you for 
the opportunity to engage in this dialogue today. I certainly 
appreciate you and the Ranking Member, Senator Carper, taking 
the time to have this hearing. And as my colleague Mr. Alles 
just indicated, it is critical that for ICE and the DHS to 
collaborate and to coordinate our efforts in an attempt to 
leverage our resources and have this dialogue with you so that 
we can continue to do that in the future and that we can all 
have visibility into all that is taking place out there in an 
attempt to protect our country--or secure our borders.
    Chairman Johnson. Thank you.
    Mr. Edge. Thank you.
    Chairman Johnson. I am sure Senator Carper would like to 
join me in thanking all of you, all three of you, for your 
service to this Nation, for your testimony, and for taking the 
time to appear here today.
    With that, the hearing record will remain open for 15 days, 
until July 30 at 5 p.m., for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:39 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  ALL HANDS ON DECK: WORKING TOGETHER
                    TO END TRAFFICKING AND ABUSE OF
               PRESCRIPTION OPIOIDS, HEROIN, AND FENTANYL

                              ----------                              


                       MONDAY, SEPTEMBER 14, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                     Manchester, NH
    The Committee met, pursuant to notice, at 1:59 p.m., at the 
New Hampshire Institute of Politics, Manchester, New Hampshire, 
Hon. Kelly Ayotte, presiding.
    Present: Senators Ayotte and Shaheen.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. I would like to welcome everyone here for 
this hearing, which is part of the Senate Committee on Homeland 
Security and Governmental Affairs field hearing.
    First of all, I would like to thank St. Anselm's for 
allowing us, Senator Sheehan and I, to use this facility to 
host this important hearing and thank President Disalvo and all 
who are here from St. A's for making this possible.
    Also, before we begin, I just want to welcome so many of 
you who are here, who I know are very involved with this issue 
today. The topic of our hearing is ``All Hands On Deck: Working 
Together to End Trafficking and Abuse of Prescription Opioids, 
Heroin, and Fentanyl.'' And I know that there are many in this 
audience who have made it their life's work in all aspects of 
this when it comes to certain substance abuse, addiction, and 
law enforcement.
    So I thank all of you, and I am going to identify some of 
the leaders we have in the audience. If I miss you, just please 
know how grateful we are for you to be here.
    I know that Mayor Ted Gatsas from the city of Manchester is 
here. Tim Soucy, the Public Health Director from the city of 
Manchester and Chris Hickey, Manchester Fire Department 
Emergency Medical Service (EMS) Officer.
    We have Jay Fallon, the Executive Director of New England 
Health Intensity Drug Trafficking Area (HIDTA) and Chris 
Stawasz from the American Medical Response (AMR), who is the 
General Manager for New Hampshire and Maine.
    John Delaney, the Drug Enforcement Administration (DEA) 
Assistant Special Agent in Charge (ASAC), Manchester District 
Office. Leo Ducey, DEA Resident Agent, Manchester District 
Office.
    A number of our police chiefs are here. Chief Rob Brown of 
the Goffstown Police Department. We have Chief Rich O'Brien 
from Goffstown Fire Department, so he's the fire chief. He's 
also president of the New Hampshire Fire Chiefs. This is an 
issue that our fire departments are dealing with every day.
    Chief Andy Lavoie from the Nashua Police Department. Jim 
Hardy of the Hillsborough County Sheriff. We also have Chief 
Jamie Burkush, who is the Manchester fire chief. Chief Bob 
Cormier of the Tilton Police Department and also the president 
of the Chiefs Association here in New Hampshire.
    And we have many from our treatment community who are here, 
so thank you all for being here. Among those are Dr. Cheryl 
Wilkie of the Farnum Center.
     I know many of you who are here. I just want to thank 
those from the treatment and prevention community who are here. 
I wasn't able to get everyone's names, but know we are grateful 
for you being here.
    We have the Acting U.S. Attorney, Don Feith, here. We have 
Jack Wozmak, who is the New Hampshire Senior Director for 
Substance Abuse and Behavioral Health. So, all of you, thank 
you for being here today.
    I am grateful to see so many here to be part of this 
hearing. We are here to discuss a public health and safety 
issue that is devastating New Hampshire communities and 
families: prescription opioid and heroin abuse, and the ever-
increasing role of fentanyl in fatal drug overdoses. Solving 
this crisis is going to require all hands on deck and today's 
hearing is representative of that approach.
    I am very grateful to be here with my colleague, Senator 
Shaheen. Senator Shaheen is the Ranking Member of the 
Appropriations Subcommittee on Homeland Security. This is 
certainly an issue that is very important to our State and she 
has done very important on work on it, so I am grateful to have 
you here as well.
    This is going to require an all-hands-on-deck approach. 
That is why that's the name of this hearing. Over the past year 
and a half, both Senator Shaheen and I have hosted a number of 
discussions on this issue throughout the State. At each of 
these roundtables, I have certainly heard from law enforcement, 
first responders, treatment providers, people in recovery, 
public health officials, and other community leaders, and 
certainly all of you here who serve are making the difference.
    Today's discussion is going to be a little bit different 
because this is an official hearing of the Senate Homeland 
Security and Governmental Affairs Committee, and this will be 
the official transcript. So our goal is to bring the testimony 
that we hear today back to Washington so that we can make a 
difference and so that we can spread this testimony around 
other members so they can understand the challenges we are 
facing in New Hampshire. Hopefully we can get some additional 
policy solutions where we work together from the Federal 
perspective and grow support for Federal legislation to help, 
which you are all doing every day.
    I want to thank our witnesses who are here today on the 
first panel. We are going to hear from Manchester Police Chief 
Nick Willard. He is the chief of our largest city, and 
certainly they are seeing this epidemic as such a challenge and 
they are seeing a grave increase in the number of those 
addicted to heroin and the law enforcement challenges that flow 
from that. I had the privilege on Saturday night of doing a 
ride-along with the Manchester Police Department, and within an 
hour and a half I saw officers and also the Manchester Fire 
Department emergency responders go to two heroin overdoses. And 
those two individuals, by the way, would not have lived but for 
the response of our first responders at the scene.
    I am very grateful as well to have Doug Griffin here today 
to share his family's experience with heroin addiction. Doug 
and his wife, Pam, who are here today, and their daughter, 
Shannon, who is also here today. They tragically lost 
Courtney--their daughter--to a heroin overdose last year. And 
since then, they have made it their mission as a family to 
share her story about addiction, to help others who are 
struggling, and to prevent similar tragedies. So thank you for 
being here.
    We will also hear from Heidi Moran, who is a clinical 
administrator for Southeastern New Hampshire Services, who will 
provide her perspectives and insights as a treatment provider 
for New Hampshire residents struggling with addiction. She has 
been working on these issues for several decades. So thank you.
    I am also honored to welcome in our second panel three of 
our Federal witnesses who have traveled here from Washington 
and will testify after the first panel. I am pleased to welcome 
the Honorable Michael Botticelli, Director of the Office of 
National Drug Control Policy (ONDCP), the Honorable R. Gil 
Kerlikowske, Commissioner of U.S. Customs and Border Protection 
(CBP), and John Riley, Acting Deputy Administrator of the Drug 
Enforcement Administration. Each brings a tremendous experience 
and background, decades of experience, certainly each of them. 
And we look forward to hearing from them, and we also look 
forward to their opportunity to hear directly from our New 
Hampshire witnesses, to bring that perspective back to the work 
that they do in Washington.
    Solving this crisis will take a multi-pronged approach with 
local, State, and Federal officials working together to 
identify and pursue effective strategies. There are a number of 
bipartisan legislative efforts that we have been working on in 
Washington to support New Hampshire and communities across the 
country that are facing this public health epidemic. Law 
enforcement is working tirelessly, as we will hear from the 
chief, to take these drugs off our streets and to go after the 
high-level drug dealers. But we can't simply arrest our way out 
of this problem. I have certainly heard from law enforcement in 
New Hampshire that key pieces of policy need to confront not 
only the public safety issue, but we need more prevention 
efforts, more treatment options, and more support for 
individuals who are in recovery.
    If you look at the statistics in our State, it is 
staggering. The number of people who overdosed in New Hampshire 
is alarming. In 2014 there were over 320 fatal drug-related 
overdoses in our State, up from 193 in 2013. I fear from the 
numbers I am hearing from throughout our State we are going to 
see a bigger number this year.
    And those numbers, I think it is important to understand, 
do not reflect the number of lives that have actually been 
saved using lifesaving drugs like Narcan, which our first 
responders are administering almost every single day in this 
State. And if we did not have those lifesaving drugs, I can 
assure you that those numbers would probably, at a minimum, be 
tripled in terms of the number of people who would die from a 
combination of heroin, sometimes a combination of heroin and 
fentanyl, and, of course, the overuse of prescription drugs.
    There is not a corner of our State that is not affected by 
this issue. From our largest city to our smallest town, we are 
all seeing this, and, unfortunately, this is not something we 
can think about as something happening somewhere else or to 
someone else. This is all of our problem, and this is something 
that everyone needs to understand. It will hit you or someone 
you know sooner or later. That is why we need to do something 
about it and work together on it.
    We also know that addiction to prescription pain 
medications can often become a gateway to heroin use. According 
to a study from the Substance Abuse and Mental Health Services 
Administration, approximately four out of five new heroin users 
previously used nonmedical prescription opioids before using 
heroin. So that is one reason that we also need to engage our 
medical community, the pharmaceutical companies, and the Food 
and Drug Administration (FDA) as we look at the challenges we 
face on this.
    I am hoping that the testimony that we hear today will 
allow Senator Shaheen and I to bring this testimony to 
Washington to push for getting legislation passed, legislation 
like the Comprehensive Addiction and Recovery Act (CARA), which 
I am proud to support. CARA focuses on prevention; it focuses 
on support for first responders; it focuses on strengthening 
prescription drug monitoring programs and launching a 
prescription opioid and heroin treatment and intervention 
program.
    There are also many other pieces of bipartisan legislation 
in Washington. What we need to do is get this to the Senate 
floor and get this legislation passed to give support to 
everyone in this room and really start working on the Federal 
level to give you more tools to solve this problem.
    We know that there are so many challenges to tackling this 
epidemic. We know that we do not have enough treatment in this 
State and that there are some challenges that we are seeing 
from Federal regulations that I hope that we can work to 
provide flexibility to our treatment providers so that we can 
have the maximum number of beds to help people who are addicted 
and are seeking treatment.
    Finally, it is clear to me today why we are here. No one 
person and no one agency can solve this problem, and we are 
here to listen and learn about further steps that we can take 
together to fight this public health epidemic on all fronts.
    So I want to thank all of our witnesses for being here 
today. I look forward to hearing your testimony. And I would 
like to turn it over to Senator Sheehan for her opening 
statement and then to our witnesses.

              OPENING STATEMENT OF SENATOR SHAHEEN

    Senator Shaheen. Thank you very much, Senator Ayotte, and 
thank you for convening this field hearing of the Homeland 
Security and Government Affairs Committee. We very much 
appreciate all of the witnesses who are going to be testifying 
today, and for those of you who have come from Washington, we 
hope you will hear information that you can take back, that we 
can work with you to address what we all know is a crisis of 
heroin and opioid addiction.
    Now, as I know everybody in this room understands, this 
crisis is the most urgent public health and law enforcement 
challenge that is facing New Hampshire right now. And as we 
have heard from our law enforcement leaders, the answer is not 
just in putting people in jail. It is in prevention, treatment, 
and recovery. And as Senator Ayotte has said so eloquently, 
it's going to take all of us working together to address this 
crisis. Individuals cannot do it alone. Families cannot do it 
alone. Law enforcement cannot do it alone. Public health cannot 
do it alone. We have to mobilize entire communities and all of 
our resources at the local, State, and Federal level to address 
this crisis, because this is literally a life-and-death issue.
    Addiction is a chronic illness and it has no permanent 
cure. People do not find lasting recovery in a clinic. They 
find lasting recovery in their communities. They need social 
supports and they need to connect with a positive, healthy, 
caring community. This is the only way to sustain sobriety over 
a lifetime.
    Now, as Senator Ayotte said, there is a lot of legislation 
in Washington to address addiction, but the answer is 
education; it is not incarceration. It is prevention; it is not 
punishment. It is treatment, recovery, and rehabilitation; it 
is not just putting addicts in jail. And in addition to the 
legislation that is pending, we also have to make sure that the 
resources are there to address this crisis.
    As you heard, I sit on the Homeland Security Appropriations 
Subcommittee, and I am disappointed to have to come back and 
report that when that subcommittee did its work, when the 
Appropriations Committee did its work, some of the funding that 
is going to be critical to addressing this crisis was cut. So 
that means, in the Senate, we passed a budget that cut Federal 
substance abuse treatment programs. The Senate's Health and 
Human Services Appropriations Subcommittee voted to cut funding 
for substance abuse treatment by nearly $130 million, including 
a $50 million cut to the Substance Abuse Prevention and 
Treatment block grant that is so important to New Hampshire. 
That means we will lose about $200,000 in funding if that goes 
through, as it passed out of committee.
    Now, I think cutting funding is wrong, for two reasons. 
First of all, it is pennywise and pound foolish, because we 
will end up paying far more for incarceration and crime, not to 
mention the countless lives that will be shattered because of 
this crisis. So we have to do a number of things at all levels 
of government. Certainly in Washington, I think we have to not 
only pass the kind of legislation that Senator Ayotte talked 
about, but we also have to make sure that the funding is there 
and the resources are there, to actually make sure those pieces 
of legislation work and that communities like Manchester, 
States like New Hampshire can address this crisis in the way 
that we need to.
    So, again, thank you all very much for being here, and 
thank you to all of our panelists for being willing to tell 
your stories.
    Senator Ayotte. Thank you, Senator Shaheen.
    Now, as part of the protocol and tradition of the Homeland 
Security and Governmental Affairs Committee, all witnesses that 
come before the committee are sworn in.
    So I would ask that both the first panel and the second 
panel, if you would stand and raise your right hand so that I 
can swear you in.
    [All panel witnesses sworn.]
    Senator Ayotte. Thank you. Please be seated. I want to 
thank all of you for being here today. The first witness we 
will hear from is Chief Nick Willard of the Manchester Police 
Department (PD). Chief Willard.

TESTIMONY OF CHIEF ENOCH ``NICK'' WILLARD,\1\ MANCHESTER POLICE 
         DEPARTMENT, CITY OF MANCHESTER, NEW HAMPSHIRE

    Mr. Willard. Thank you, Senators, for having me here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Willard appears in the Appendix 
on page 1525.
---------------------------------------------------------------------------
    I would like to start by thanking people like Doug Griffin 
who have experienced this tragedy and yet they have the courage 
to put a face to the epidemic. So I do appreciate the 
opportunity to sit next to you. It means a lot.
    As you know, I am the police chief in the City of 
Manchester, and I speak for all of law enforcement and probably 
to a degree our fine men and women in the fire department and 
the AMR ambulance who are out there saving countless lives. But 
for their heroic actions day in and day out, saving lives 
through Narcan, this tragedy would be even worse than what it 
is now. Manchester PD has confirmed 52 fatal overdoses. Those 
numbers may be different than what AMR tracks, but those are 
confirmed through the Medical Examiner's Office, with an 
addition of over 400 calls for service. So as officers are 
being needed elsewhere, they are responding to medical 
emergency calls.
    We are now at a point where we are deconflicting through 
the DEA those very things. So the Senator went on a ride-along, 
and went to three heroin overdoses. We took that information, 
gave it to the DEA, and then were able to deconflict some of 
that information to see if there's a nexus between each of 
them. And that is how far this has become.
    To kind of give you an idea of what we are looking at, we 
had a shooting in Manchester. We had officers go into an 
apartment unknown to us previously and we found it to be a drug 
house. And from that, we did an investigation that led to 
Lawrence, Massachusetts, and from Lawrence, Massachusetts, 
directly to Mexico. So now we know that there is a Mexican drug 
cartel, the Sinaloa drug cartel, that is fueling heroin to the 
streets of Manchester, New Hampshire. That is alarming. Just 
last week we shut down three drug houses, all within 100 yards 
of one another. Two of those drug houses were competing drug 
dealers, selling out of the same building on different floors, 
and yet they did so in peace and harmony because there are so 
many drug users and addicts in the city of Manchester and the 
surrounding communities that it is a target-rich environment 
for a drug dealer.
    So we need help. We already have partnerships through the 
DEA, the Federal Bureau of Investigations (FBI), and the Bureau 
of Alcohol, Tobacco, and Firearms (ATF). However, as I was 
reflecting on the name for this, All Hands on Deck, on some 
levels we do that. Chief Burkus from the fire department, Tim 
Soucy from the health department, and myself have come up with 
an action plan for 60 days. My task was the enforcements. I 
have done some high-end prediction enforcement with the New 
Hampshire State Police. I am going to be doing another 
initiative through the State Police and the DEA. But it is not 
enough.
    When you say ``all hands on deck,'' I look at the Chicago 
Strike Force model, the Organized Crime Drug Enforcement Task 
Force (OCDETF). I think that that would give us an opportunity 
to bring together all Federal partners, local partners, and not 
just in Manchester, but statewide. And we talk about those 
small towns and the communities and the county itself. This 
would bring the full weight of the Federal Government to bear. 
It would give us an opportunity to actually have a U.S. 
attorney in the working group with them at all times, so we can 
have more aggressive prosecutions. Currently, more often than 
not, we are actually going to the county level to prosecute our 
drug cases right now because we are just getting better 
results. They are taking our cases quicker and we are turning 
them over quicker.
    However, I would prefer to go the Federal route because we 
get larger sentences. So having somebody from the U.S. 
Attorney's Office embedded with the officers who are out there 
fighting the very issue that we are talking about, let us make 
no bones about it: We are in the throes of human tragedies 
every day. And Mr. Griffin is going to speak to that.
    I believe in the treatment piece. I believe in the 
education prevention piece, the prevention through education 
piece. But I am a law man and I believe in enforcement. So 
every single time a drug addict who would not otherwise commit 
a crime because they were initially addicted through pain 
medication, and then they lose their job, and now they are out 
stealing from vehicles or breaking into houses, every single 
one of those vehicles is a victim in the city of Manchester. So 
the opportunity to give these people deferred sentences is not 
there.
    We do not have a drug corps. We need something similar to 
that in Hillsborough County, because I believe everybody needs 
to be held accountable. Maybe they are given an opportunity 
through alternative sentencing, but at the end of the day, they 
did victimize somebody in order to get themselves in the 
position that they were in.
    So I guess, moving forward, I believe in the partnerships. 
We are doing it now. I think the OCDETF model, modeled after 
the strike force in Chicago, would be a huge help moving 
forward, at least in my view. Because, currently, we are going 
after the more low level drug dealers that are causing quality-
of-life issues within our neighborhoods. So if I have a drug 
dealer selling drugs out of a house, they are bringing in 
unsavory characters, not just from Manchester, but from 
surrounding towns. Prostitution increases. So people who live 
there have to wade through prostitutes, other people that would 
not otherwise be in that neighborhood, and then they steal 
things coming in and out of that neighborhood.
    I have decided we are going to take these drug houses out 
in real-time, but by focusing our efforts on real-time drug 
dealers to protect the quality-of-life in Manchester, we kind 
of missed that kingpin piece that we are talking about. And I 
think that most of that strike force would be a perfect 
opportunity to have that piece, but also get that aggressive 
prosecution that I think we desperately need.
    Senator Ayotte. Thank you. Thank you, Chief Willard.
    I would now like to turn to Doug Griffin, who is the father 
of Courtney Griffin.
    And Mr. Griffin, thank you so much for all of your work, 
and certainly I know that I speak for Senator Shaheen and 
myself that our hearts are with you and your family while you 
are here today, as well.

      TESTIMONY OF DOUG GRIFFIN,\1\ NEWTON, NEW HAMPSHIRE

    Mr. Griffin. Thank you very much. Before I start my 
testimony, I would like to let you know that my testimony is 
based on the person I was before, not now. During all of 
Courtney's problem with addiction, we were parents that hid her 
addiction, so we were in a world that was different than the 
world we are in now.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Griffin appears in the Appendix 
on page 1531.
---------------------------------------------------------------------------
    So, Courtney's story. She was born very early, about 5 
weeks early, and her lungs were not strong enough to breathe.
    I have really got to get through this.
    So she spent the first 11 days in the Neonatal Intensive 
Care Unit (NICU) center, and we were really worried then that 
she would not make it. So, then, when we finally got her home, 
she was strong and she did well, and she started school.
    We lived in Salem, New Hampshire and she went through the 
first two grades in Salem. She was always a quiet kid, never 
talked much. Actually, she talked hardly at all. Then, as she 
entered third grade, we moved to our home in Newton and she 
started school there. She was a little chubby and the new kid, 
so she was sort of shunned, and she did not take well to that. 
So she did not really like school. She was very smart. I could 
tell, talking to her and playing games with her all the time, 
that she was really on top of things. School was not hard for 
her at all, but she just did not want to go, and a lot of 
mornings she would be crying, saying she did not want to go to 
school.
    She got into middle school and she made a couple of 
friends, and then things started to turn around for her because 
she had some friends. Then it was fun to go to school, and the 
friends would come over to the house and things were good. We 
thought things were going to go well.
    When she was 12, we sent her on the People to People 
program, where she went to Europe and did five countries in two 
weeks, and she saw things that most people I know still have 
not seen. When she came back, she was like an adult, and she 
would speak with adults more easily. It was like it changed her 
life. It changed our lives. And she was such a strong person 
that we bought her one of those Verizon prepaid phone cards so 
she could be sure to call home all the time, and she did not 
call home once. And when she got home, all the parents were 
thanking us for her letting their kids use the phone card so 
they could call home, because they missed their parents. Crazy 
kid.
    So when she got to high school, she got her first job, and 
she was working in fast food at Wendy's here in Haverhill. And, 
of course, they take the kid that's got the new job and they 
put them on the crazy hours, so she was working until midnight 
or later on the weekends. And she did not have a car, so my 
wife and I were driving her, dropping her off and picking her 
up. I would sit in the parking lot and wait for her to close 
every night, because I wanted her to have a job. I wanted her 
to learn a work ethic.
    We gave her a car and we were kind of relieved because we 
did not have to go get her after work. But the people that come 
in at that hour of the night at closing time are the people 
that you would never want your kid to associate with. And, of 
course, they did not have cars, so they needed a ride, and 
Courtney ended up giving rides to people that, I would never 
have had her give a ride to.
    Then she started being late coming home, and then her 
schoolwork started to suffer a little bit, and pills started 
missing from our house. Not on a big scale. Some things were 
missing. Money would go missing. But we were not sure whether 
we misplaced things or--you do not think someone is going to 
steal from you in your house at first.
    So the older she got, she got a little bit more into perk 
30s. She was talking--she knew the word. She was talking about 
perk 30s and using drug words around the house that did not 
belong in our house. We never had them in our house before, and 
we were afraid.
    When she was getting ready to graduate from high school, 
she was accepted at the University of Hawaii. Because if you 
asked Courtney what she wanted to be when she grew up, she 
always had the same answer. She said ``Hawaiian. ''
    And so I would not let her go, because I was afraid to cut 
her a check and put her on an airplane for fear that she would 
just further get into the drug thing. We were afraid at that 
point. I said, ``You are going to have to come work for me for 
a while, and maybe take some night classes and prove to us that 
you are ready to go.''
    And she said, ``OK, Dad.''
    And she came to work for me. And I have a million parts in 
my inventory and she came in, she sat down, and she was easily 
able to handle inventory control. She controlled our inventory 
without an issue. She did our shipping; she did our receiving. 
That kid was brilliant. We listened to the radio every day, and 
outside of one door of my office was my daughter running the 
computer company and outside the other door was my daughter, 
Shannon, who is here, running the flower shop. So I had 
everything.
    After about six months, she had saved up enough money--
thousands from working--because she did not have any bills and 
did not have anywhere to spend her money and was working all 
the time. So she went out and got a new car. And on the way 
home from the gas station, she ran into the boy who led her to 
heroin. And from that point on, our lives went straight 
downhill. And at one point in our house, we found one of these. 
And as you can imagine, nothing could be worse.
    So we started to try to get her treatment. She ended up in 
Hampstead Hospital where she was for nine days. When she came 
home, all she came home with was a list of where every drug in 
the world came from. Then she started disappearing for longer 
periods of time, and it started to snowball, and a $7,000 
necklace went missing and then checks were written out of my 
company.
    And she was still our child, so I did not want to hurt her 
credit or get her arrested, so we did not tell anybody. We just 
started to look for help. So we Googled help, and the people 
that make the most money come up on top, and we just could not 
get her help. Our insurance company would not cover anything. 
My wife and I spent 100 hours in emergency rooms, waiting to 
try to get her admitted. They would keep her for an hour or so. 
They would release her. Even when the local authorities took 
her to the hospital, to admit her, they were out three hours 
later. Would not hold her.
    Sorry.
    It got to the point where we were frantic because we knew 
that we were going to get the call. We knew that she was using 
drugs heavily. I called the Farnum Center in Manchester and 
spent an hour and a half there going through an interview 
process where we were told that she would not be allowed to go. 
And our insurance company let us know that it was not a matter 
of life or death, so they would not cover the problem.
    So we got involved with local authorities who said the only 
thing you can do is kick her out of your house and cancel her 
insurance, because if she is homeless, she can get help in 
Massachusetts. So we kicked her out of the house and canceled 
her insurance and she moved in with her boyfriend's 
grandparents. Shortly after that, her boyfriend was arrested 
and put in jail for a parole violation and she was all alone. 
Then she totaled her car, and she was further alone. She was 
just alone in a strange house with strange people.
    We know who sold her the heroin. He delivered it to the 
house that night. And she used it and she died of fentanyl. And 
the State medical examiner told me that it was a strength of 
about 80 times stronger than she thought it would be and that 
she did not feel anything. She would have just drifted away. 
So, in one day, we lost this.
    And just in closing, this weekend, her boyfriend died--in 
the same house, in the same room, the same bed--and was buried 
this week.
    That's all I have. Thank you .
    Senator Ayotte. Thank you, Mr. Griffin. Unfortunately we 
hear too many stories of this happening, and just know that all 
of our prayers are with you and your family.
    I would now like to introduce Heidi Moran, who has a very 
important position providing treatment. I want to thank her for 
being here today, as she is the clinical administrator for the 
Southeastern New Hampshire Services in Dover, New Hampshire.

     TESTIMONY OF HEIDI MORAN,\1\ CLINICAL ADMINISTRATOR, 
   SOUTHEASTERN NEW HAMPSHIRE SERVICES, DOVER, NEW HAMPSHIRE

    Ms. Moran. Thank you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Moran appears in the Appendix on 
page 1536.
---------------------------------------------------------------------------
    Senator Ayotte, Senator Shaheen, and distinguished Members 
of the committee, it is my privilege and honor to address you 
today on behalf of my agency and all those New Hampshire 
residents who are struggling with the disease of addiction and 
would like to access treatment.
    Southeastern New Hampshire Services is a private, nonprofit 
agency dedicated to helping people recover from addictive 
disorders since 1979. Many clients come from the street or 
homeless, couch-surfing or living in shelters or tents. We have 
always been known as the house of hope and the place that would 
help anyone regardless of their ability to pay.
    Prior to 2013, Southeastern had not had to worry about 
billing or revenue sources. We were provided with our primary 
budget from the New Hampshire Board of Drug and Alcohol 
Services block grant, some funding from Federal probation and 
parole contracts, private pay resources from various DWI 
programs, and private donations. Our sources for reimbursement 
have changed and must now look to Medicaid and other insurance 
providers for payment. Since 2013, the payment structure with 
the State has changed several times without much notice or 
assistance. We had a deficit of $85,000 last year and are 
working at a deficit of at least $100,000 for our current year.
    Southeastern was never asked to obtain or required to have 
the U.S. Department of Health and Human Services (DHHS) 
licensure or any other accreditation in the past. Since the 
changes in pay structure became a reality in 2013, we became 
aware that licensure is a must in order to be able to bill any 
and all insurance companies for residential services. Some of 
the obstacles to obtaining licensure have been lack of 
qualified staff to bill Medicaid and the need for an outside 
billing agent; lack of information and guidance through the 
process of applications for insurance companies as well as 
licensure; working with multiple agencies from town, county, 
and State, and trying to coordinate meetings and agreements as 
to what we need to accomplish for compliance; major renovations 
that need to be done to the building which include but are not 
limited to installing Americans with Disabilities Act (ADA)-
compliant shower rooms, handicapped ramps, elevators, new 
sprinklers, and more.
    Some people say, ``Why not just buy another building? '' We 
rent. We do not have the funds to buy, and renovations for 
compliance would need to be done in any other structure as 
well. Plus, we are in a location that suits the population we 
serve by being close to the courts, probation, Strafford County 
jail, and on the bus route. It has taken all this time to get 
the necessary agencies together so the architectural plans and 
safety plan can be completed and approved. We are still waiting 
for final approvals, and no hammers have swung as of yet.
    The county is doing all they can to work with us and to 
help us get the work done. However, we are looking at 
approximately $500,000 worth of work that we will be 
responsible for. The county will assume half of all the safety 
requirement costs. We will have to pay for the other half of 
safety costs and for all renovations to bring things up to ADA 
code compliance. If the county were to rent space to anyone 
else and it were not be used as a residential facility, they 
would not have the same requirements and codes to meet because 
the license would not be needed.
    Some obstacles for treatment for clients now and in the 
future include losing beds due to square foot requirements in 
the residential rooms and an inability to pay for treatment. 
Just because people are eligible for insurance does not mean 
that they can access it. I feel unreasonable expectations are 
placed on many clients who are still sick and suffering, who 
are without identification, address, or proof of income to back 
up their application information.
    My agency and others in New Hampshire need help. We have 
not had the guidance, the financial support, or the time to do 
what needs to be done. New Hampshire cannot afford to lose any 
beds. We have been working on shoestring for many years to 
provide quality treatment to the population with the greatest 
need. We are all passionate about our work and are here to 
promote change and increase the possibilitity of a life without 
drugs for those who continue to struggle.
    Berkeley Data Analytics Stack (BDAS) has given us through 
June 30, 2016 to get our license or have all support pulled 
from our residential programs. That would be a disaster. I have 
10 short-term residential and 15 long-term residential beds. 
Can New Hampshire afford to lose 25 beds? How many kids would 
die?
    We need people in our corner who will help us get done what 
is needed in order to stay operating. I have cried with clients 
who have come into treatment scared to death that they won't be 
able to do it. I assure them that they can as long as they are 
willing to follow our suggestions and those that they receive 
from other people in recovery. I have cried with parents who 
want to fix their children and cannot let go. I have cried at 
the funerals of those who could not stop. My tears have flowed 
freely for over 20 years.
    I thank you for the opportunity to appear before the 
committee today and share some of the challenges we are facing 
in trying to help treat those who are suffering from addiction.
    Thank you.
    Senator Ayotte. Thank you, Ms. Moran.
    I am now going to ask questions of the witnesses and then 
Senator Shaheen will have an opportunity to do that.
    Chief Willard, I wanted to ask you about the proposal that 
you had mentioned, the OCDETF strike force that comes from the 
model in Chicago.
    How would that work in New Hampshire? Would it be a working 
group that would get together regularly and would bring 
Federal, State, and local authorities together with the U.S. 
Attorney's Office? And where would you see that centered?
    Mr. Willard. The way I understand it, given the research 
that I have done, is the Organized Crime Drug Enforcement Task 
Force is a single entity made up of Federal, State, and local 
partners, and that would include a U.S. attorney full-time on 
staff. I would envision that they probably have room at the 
facility in Bedford, and that they would work together all the 
time.
    So it would be other agencies, local agencies committing 
personnel to it, being funded by the Federal Government. So you 
would have somebody from Nashua Police Department, Manchester 
Police Department, Merrimack, and New Hampshire State Police. 
Essentially, the more bodies, the better, so any agency that 
can contribute to them. And then you would have a funded 
position from the U.S. Attorney's Office who would actually be 
embedded with law enforcement as they are working through these 
cases.
    Senator Ayotte. So they would be specially designated to 
this group?
    Mr. Willard. Correct.
    Senator Ayotte. Terrific.
    When you look at the challenges we face, how is the 
cooperation with Federal agencies?
    Mr. Willard. It is fantastic. The reason we are staying 
above completely sinking into the abyss is because of those 
partnerships.
    Now, that case that I talked about, where we took 27 kilos 
of heroin off the streets through that shooting investigation, 
was simply because of the partnerships that we had with the 
DEA, the State Police, Massachusetts State Police, and that 
type of cross-border cooperation.
    Senator Ayotte. So this would be a more effective way to 
get everyone together, all working together, with the 
prosecution embedded?
    Mr. Willard. Exactly. And all at the same time, everybody 
sharing the same information, but also everybody bringing in 
additional resources.
    When you have a Task Force Officer (TFO) from the city of 
Manchester, and you are a Federal agency, we pretty much have 
all that intel at their feet when it comes to dealing with 
Manchester. So imagine expanding that to the North Country, 
from the farthest reaches north to the farthest south.
    One thing we do know is that we have a pretty good grasp of 
where the heroin is coming from. The majority of it is coming 
from the Mexican cartels. That, in and of itself, should 
necessitate Federal action to go after the people that are 
laundering the money, go after the people that are transporting 
the drugs, and go after the kingpins that are funneling the 
drugs.
    When I met with Mr. Riley this morning and I am looking at 
a map that I am sure you will see later--when you see what the 
Mexican drug cartels control of the American landscape, and 
they are selling their drugs almost with impunity--we are 
fighting it as best we can, but when you see that map, you 
realize just how severe of a problem that we have.
    On the street level, battling this with the fire department 
and the ambulances, and my officers going from call to call to 
call, we can only sustain that so long. We need to take these 
people off of the street and we need to get the head of the 
snake. And the only way to do that is through some sort of 
strike force. And that is why I thought it was an important 
thing to bring up today.
    Senator Ayotte. Thank you.
    Mr. Griffin, you talked about what your insurance company 
said to you, and I know that Congress, before I got elected to 
the Senate, passed the Mental Health Parity and Addiction 
Equity Act to ensure that insurance companies were really 
making sure that they were treating substance abuse on a level 
playing field. But it sounded like your insurance company--and, 
unfortunately, this is the first time I have heard this--
decided this was not a matter of life or death. Well, we all 
know this is a matter of life or death.
    So how did you feel when you tried to reach out and you got 
the runaround and what do you want to make sure that we know in 
order to help other families who are in the same situation?
    Mr. Griffin. It was terrible for us because even if 
insurance had covered it, there were no beds, anyway.
    Ms. Ayotte. Right.
    Mr. Griffin. I mean, everywhere we went, there were either 
no beds or no insurance.
    We did not actually find out how bad it was until the end. 
I mean, we worked and worked and worked and worked, and then 
she died. And I deal with--now, I get two or three calls at my 
house every day, from families all around the country wanting 
help, and all I can do is steer them to the best possible 
person I know in the area. That is all I can do. Because as far 
as I know, if it is someone in New Hampshire--I will talk about 
New Hampshire, especially--if they have a problem, there are 
very few opportunities for them to enter recovery.
    Senator Ayotte. Thank you.
    Ms. Moran, you talked about some of the challenges in 
wanting to keep bed space while following some of the 
regulations. What would you like us to know when it comes to 
how we could better help make sure that we are supporting more 
opportunities for treatment and also giving you the flexibility 
that you need to make sure that we are maximizing, obviously, 
the resource we do have to create as many beds and support and 
opportunities for treatment as possible?
    Ms. Moran. Well, as I said, we have lost beds as a result 
of the compliance requirements. It is a fire and safety issue, 
which I totally understand, and in no way do we want our 
residents to be in an unsafe environment.
    However, I believe that when some of the compliance codes 
were written, they were written with nursing homes or other 
types of facilities in mind. For example, the majority of my 
rooms are 122 square feet, and by code, it is required that 
every room is 160 square feet in order to have two beds in a 
room. And that does not include space that gets taken away by 
closets and furniture and things like that. I have lost four 
beds in each of my programs and had to double up offices in 
order to not lose more, which, puts other stresses on our 
program.
    So, when you look at a grandparent, for example, that is in 
a nursing home, and Grandma lives in her room, and she has her 
TV and her recliner and all of her things in her room.
    In our facility, people sleep in their room, they get 
changed in their room, and that is it. They are not allowed to 
hang out in their rooms. It is very unhealthy for people in 
early recovery to be isolated and be by themselves, as well as 
to be housed in a room by themselves. That is dangerous.
    We had a situation last winter where somebody overdosed and 
they were in a room by themselves. Fortunately somebody going 
down the hallway heard the gurgling and was able to get staff 
and they were revived by cardiopulmonary resuscitation (CPR). 
But if that had not been the case, that person probably would 
not have made it.
    So, it is dangerous to not have two people in a room as 
well as this code issue.
    Senator Ayotte. Thank you.
    I would like to turn it over to Senator Shaheen for her 
questions.
    Senator Shaheen. Thank you, Senator Ayotte.
    Chief Willard, Senator Ayotte and I got to go with you and 
members of the department this morning to see the neighborhood 
where some of the recent drug busts have happened and you 
talked about the challenges facing the police on the street. 
And one of the things you showed us were some pretty dramatic 
photos of the people who you brought out of those apartments 
during those drug busts.
    And I wonder, can you talk a little bit about what kind of 
training there is for officers to handle drug addicts in those 
situations? Because one of the things that struck me, that you 
and other members of the force talked about, was that you had 
not seen a bust where addicts were in as awful a condition as 
the people who you worked with that night.
    So can you talk about the training that officers get and 
whether it is adequate, whether it needs to be improved upon, 
and what more we can do to help in that situation?
    Mr. Willard. I think our training is adequate. We do a lot 
of training through the DEA on these types of issues. We also 
do Crisis Intervention Team (CIT) training, and the Manchester 
Police Department is actually sending two sergeants out to be 
instructors for CIT. So I think our training is pretty robust.
    I think what you saw in those photographs, which I have 
here if you wanted to put them in the record, is that it was a 
drug house where the drug dealer would not let you leave. You 
had to shoot your drugs up while you were there. So we hit it 
just at the right time and we had 21 people in this two floor 
apartment.
    Again, these are competing drug dealers that are not 
fighting with each other. And what it tells you is that the 
addiction pool is large. The reason a lot of people are coming 
to Manchester to sell drugs is because in New Hampshire, they 
can get two to three times the profit compared to Lawrence or 
even New York City, depending on where they are coming from. So 
it is a target-rich environment is what some of the dealers 
will tell us during our debriefs, because there is a lot of 
heroin addicts here, because they can make a lot of money. 
Those 21 people are a perfect example of that phenomenon.
    Now, law enforcement can do what we can to disrupt the 
supply, which we have. I think we are well over 30 kilos of 
heroin coming into Manchester that we have taken off of the 
street. Officers in the Manchester Police Department routinely 
are making car stops and finding heroin--62 grams, 33 grams, 40 
grams. It is astounding to see the numbers. It is so plentiful. 
It is everywhere. So even though we are conducting major 
disruptions in the flow, unless that pool of heroin addicts or 
fentanyl addicts or now we are seeing crack cocaine is shrunk, 
we are going to be swimming against the tide. So I am a big 
advocate for treatment.
    Now, how you get funding for treatment and what that looks 
like--I know that there were changes in the insurance company 
years ago. And once the insurance company said, ``We are no 
longer going to pay out on detox'' or ``Now we are not going to 
treat for addiction,'' you saw beds in New Hampshire shrink 
down from well over 600 to nearly nothing today.
    So that discussion needs to be with the insurance 
companies. Can you change the way you do business? Can you now 
consider or classify detox as something that you can insure? 
And if you do that, then the beds will increase, because the 
treatment facility currently cannot put more beds in a facility 
if the money is not there. I mean, they still have to make 
money. Even though in their hearts they want to end rediction 
through recovery--addiction--there is no doubt in my mind. But 
if there is no money in it, they still have to pay their bills. 
So there needs to be a way to find, insurance companies or to 
work with the insurance companies to expand the coverage.
    I think, most importantly, when I am talking about 
shrinking that pool of heroin addicts, we really have to focus 
on these doctors that are giving out dirty scripts and are 
putting more and more addicts on our streets. And the worst 
thing you can probably think of is a doctor who, by the very 
nature of what he does, is willing to put an unbelievable 
amount of scripts illicitly on our streets that would actually 
create more drug addicts. Because as soon as those pills dry 
up, they are going to go to heroin.
    So that is a whole other piece that we need to look at. We 
need to look at the medical community and what they are going 
to do to change their pain management protocol, as well as look 
at the checks and balances to monitor that.
    Unfortunately, the State of New Hampshire is well behind 
the times when it comes to what other States are doing, and we 
need to make our prescription monitoring program more robust. 
We have seen some advances, but on a State level, we need a 
little bit more.
    Senator Shaheen. Thank you very much.
    I certainly agree. We have heard testimony on the 
importance of how doctors prescribe medication and guidelines. 
I had a chance to question the Centers for Disease Control 
(CDC) Director, Tom Frieden, about this issue and he 
acknowledged that this is one of the real challenges that we 
face.
    And also, we have to make sure that insurance companies 
appreciate the changes that we have seen in addiction over the 
years, and that, as Mr. Griffin said so eloquently, that it 
really is life-threatening.
    Mr. Griffin, first of all, I want to thank you and your 
family for sharing Courtney's story with us. I know that it is 
not easy and it is really important for people to speak up, so 
I am so glad that you did.
    Mr. Griffin. Trying to get better at it.
    Senator Shaheen. You were great.
    As you said, you have people calling you--I have heard, and 
I am sure Senator Ayotte has heard, from families who are 
desperate to know how to respond to family members and to 
children who are addicted.
    Do you have advice that you can give to families who may be 
in this situation? What would you urge them to do?
    Mr. Griffin. Yes. I am about a year into this now and there 
is a tremendous support community out there that does not have 
licenses. They are not clinicians; they are people. Our church 
is amazing. We have a service once a month for addicts and 
their families, and they come in and they change. I do not know 
if you have ever seen it happen, but they come in and they are 
afraid. And parents that have lost kids come in, and they are 
like me. They are a mess. And, we sit with them, and they come 
every month. The camaraderie of other people sharing the same 
experiences, they are helping each other.
    There is a lot of little Ma-and-Pa things starting up all 
over the State to help people out. As a matter of fact, we have 
started one ourselves. And I refer someone to the person I know 
who is best at it who is closest to them. And I will take 
anybody's call any hour of the day.
    Senator Shaheen. Well, thank you. That is very good advice, 
the importance of support for families.
    Mr. Griffin. Get them into the church. I had not been to 
church in 40 years. And since my daughter died, I am a huge 
proponent of the support you can get by going to church.
    Senator Shaheen. Thank you.
    Ms. Moran, you talked about the challenges of providing 
treatment and facilities for people who need it and how 
regulations need to be reasonable.
    Can you talk about what you are seeing in terms of waiting 
lists for those beds that you have available and how you could 
better provide services? Do you have a long waiting list and is 
it consistent? Does it turn over? What do you see in terms of 
people waiting for treatment?
    Ms. Moran. As of this morning, I believe I had between six 
and eight people on my list. And what we do is that when we 
have somebody call in and do a telephone screen for a bed, once 
they are screened and we figure that we are an appropriate fit 
for them, then there are certain things that may be required. 
We may need them to get a physical. If it is somebody that has 
a lot of legal involvement, we may ask that they provide us 
with their legal history. There may be a few things that we 
need them to do. Or it may be a situation where we say, ``Well, 
we will bring a doctor in-house. If somebody can pay for the 
physical, we will have the doctor meet them here and have the 
physical in-house.'' And, unfortunately, what I found is a lot 
of the people that get on our waiting list are young. With the 
heroin epidemic, we have seen a lot of younger people that are 
abusing heroin to, a great degree, more than ever before. Most 
of these people are under the age of 30. And today I reviewed a 
couple of screens before I came here, and I had three people 
that were 18 and 19 years old. That was not happening a few 
years ago. They were not even thinking about coming in to 
treatment at that age.
    So, I mean, it is good that they are thinking about that, 
but a lot of the problem is motivation is being created either 
because they do not want to go to jail and so they are trying 
to make things look good for the court or Mom and Dad are going 
to throw them out if they do not get into treatment, and then 
getting them to follow through with staying connected to us, 
calling us, coming in and doing what needs to be done next. We 
are having a hard time hanging onto them.
    As far as getting people into treatment, usually it is 
within wo weeks. And, it is not that long of a waiting period 
for somebody who is actually doing the legwork to get into 
treatment. But, so many of the young ones, they say that they 
want it and they might want it as they come out of the hospital 
after having Narcan, but in 10 hours they have forgotten about 
it and they are back out on the street doing the same thing.
    Senator Shaheen. Thank you.
    Senator Ayotte, can I ask that Chief Willard's--that those 
photos\1\ be introduced to the record.
---------------------------------------------------------------------------
    \1\ The photos introduced by Chief Willard appear in the Appendix 
on page 1529.
---------------------------------------------------------------------------
    Senator Ayotte. Absolutely. I think that will be important.
    Thank you, Chief.
    Senator Shaheen. Thank you.
    Well, I want to thank all of you for being here today to 
present your testimony. And, in fact, we really appreciate your 
being here and your courage for being here. We consider this an 
ongoing dialogue here in New Hampshire. And we will have our 
Federal witnesses come here. I am glad they have had an 
opportunity to hear from all of you from New Hampshire today.
    So thank you for being here and we will call up our second 
panel.
    Thank you.
    Panel Members. Thank you.
    Senator Ayotte. I want to thank our second panel of 
witnesses for being here and for having the opportunity to hear 
directly from our first panel on the challenges that we are 
facing in New Hampshire. This is certainly a public health 
epidemic.
    Our first witness is Michael Botticelli, who is the 
Director of the Office of National Drug Control Policy. 
Director Botticelli has more than two decades of experience 
supporting Americans affected by substance abuse disorders.
    So Director Botticelli, we appreciate you being here.

TESTIMONY OF THE HONORABLE MICHAEL P. BOTTICELLI,\1\ DIRECTOR, 
             OFFICE OF NATIONAL DRUG CONTROL POLICY

    Mr. Botticelli. Thank you, Senator Ayotte and Senator 
Shaheen for the opportunity to be here today to discuss the 
Administration's response to the epidemic of opioid abuse, 
particularly the rise in heroin and overdose deaths.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Botticelli appears in the 
Appendix on page 1544.
---------------------------------------------------------------------------
    I also want to thank the first panel, and particularly Mr. 
Griffin, who often at great pain have turned tragedy into 
action. I think it is important that we carry Courtney's story 
with us as a reminder of why we do what we do. So thank you 
very much for sharing that.
    During my time as the Director of the Office of National 
Drug Control Policy, we produced the National Drug Strategy, 
the Administration's blueprint for drug policy. Our strategy 
treats our nation's substance use problems as public health 
problems, not just as criminal justice issues.
    And I do have to pause and thank the gentleman to my left, 
Commissioner Kerlikowske, who was my boss at ONDCP, for setting 
this Administration's strategy, and I stand on his shoulders in 
terms of the work that we are doing.
    Having led the Bureau of Substance Abuse Services at the 
Massachusetts Department of Public Health, I am personally 
familiar with substance use issues in New England. The stark 
increase in the number of people using heroin in recent years 
has become a serious public health issue in our country. 
Overdose deaths involving heroin have increased sharply in 
recent years. Of the nearly 44,000 drug overdose deaths in 
2013, heroin was involved in over 8,200 of those, up from 5,900 
in 2012. And in New Hampshire, the rates of opioid analgesic-
involved deaths and drug-poisoning deaths involving heroin are 
above the national average.
    As we have heard, communities and law enforcement are 
struggling with an increased number of overdose deaths, 
increased heroin use, and increased heroin trafficking. It is 
important to note that plentiful access of opioid drugs via 
medical prescribing and easy access to diverted opioids for 
nonmedical use is feeding our opioid drug use and opioid 
epidemic. Approximately 18 billion opioid pills were dispensed 
in 2012, enough to give every American 18 years or older 75 
pills to relieve pain.
    Even though data indicate over 95 percent of prescription 
drug users do not initiate heroin use, four out of five newer 
users to heroin have experience as nonprescription drug users. 
Given this interrelationship, we must develop a response to 
heroin use that is part of a response to nonmedical 
prescription opioid use.
    A further complicating factor in addressing this epidemic 
is law enforcement reporting of heroin that is laced with 
fentanyl, an opioid drug that we have heard to be estimated at 
80 times as potent as morphine and hundreds of times more 
potent than heroin. Fentanyl can serve as a direct substitute 
for heroin in opioid-dependent individuals, but its increased 
potency can result in even more overdoses, particularly in 
those users who are not experienced.
    ONDCP uses its role as a coordinator of Federal control 
agencies to bolster support for substance use disorder 
treatment and overdose prevention. In the Administration 
released a plan to address the sharp increase in prescription 
opioid drug misuse. This plan contains action items over four 
areas: education of prescribers to support safer opioid 
prescribing, increased prescription drug monitoring programs 
through State-based prescription drug monitoring programs, 
proper medication disposal, and law enforcement efforts.
    The Administration has also convened an inter-agency heroin 
task force, cochaired by ONDCP and the Department of Justice 
(DOJ), to more closely examine heroin issues and to determine 
what further actions the Federal Government can take. We look 
forward to their report later this year.
    We have seen overdose from prescription opioids leveling 
off, but, unfortunately, this has been coupled with a dramatic 
39 percent increase in heroin-involved drug abuse deaths from 
2012 to 2013. To address the overdose death issue, we are 
working to increase access to naloxone for first responders and 
individuals close to those with opioid drug use disorders. Hand 
in hand with this effort are efforts to promote Good Samaritan 
laws, so witnesses to an overdose will take steps to help save 
lives. I am pleased that, in New Hampshire, measures to expand 
naloxone access and to provide Good Samaritan protection was 
signed into law this summer.
    Law enforcement nationwide has risen to the challenge of 
these increases in opioid use disorders and death. We are 
working in coordination with members of the public health 
community. As an example, ONDCP announced earlier this month 
that we will be providing funds under our High-Intensity Drug 
Trafficking Area program to develop a heroin response strategy 
based on a proposal submitted by a coalition of five HIDTAs 
across 15 States, including the NewEngland HIDTA. The heroin 
response strategy will foster a collaborative network of public 
health and public safety partnerships sharing best practices, 
innovative pilots, information sharing, and identifying new 
opportunities to leverage resources.
    We are also working with our Embassy in Mexico, the DEA, 
the Department of State, and have engaged with the government 
of Mexico to initiate actions that they can take to reduce the 
supply of heroin. But it is also critically important that the 
medical establishment work with us to meet the challenges of 
overprescribing of prescription drugs and increasing access to 
treatment. Primary care and emergency physicians have the 
opportunity for early intervention and treatment before they 
become chronic, and it is vital that individuals with opioid 
use disorders receive evidence-based treatment. Medication-
assisted treatment with DEA-approved medications, when combined 
with behavioral health therapies and recovery supports, have 
been shown to be the most effective treatment for opioid use 
disorders.
    In July, the United States Department of Health and Human 
Services (HHS) announced an additional $33 million in funding 
to States to expand the use of medication-assisted treatment 
and an additional $100 million in funding to improve and expand 
substance use services at community health centers. The 
Administration's fiscal year budget proposal includes $133 
million in new funding to reduce opioid misuse and overdoses, 
with most of that funding going to efforts at the State level.
    In addition to the connection given between injection of 
opioid drugs and infectious disease transmission, public health 
strategies are necessary to prevent the spread of infectious 
disease. The recent HIV and hepatitis C outbreak in Indiana is 
a stark reminder of how opioid use can spread other diseases, 
how comprehensive public health measures such as syringe 
service programs need to be part of our response, and how rural 
communities with limited treatment capacity may experience 
additional public health crises.
    In conclusion, our administration will continue to work 
with Congress and our Federal, State, and local partners on the 
public health and public safety issues resulting from the 
epidemic of nonmedical prescription opioid use and heroin.
    Thank you, and I look forward to your questions.
    Senator Ayotte. Thank you so much, Director Botticelli.
    We also are very honored to have Commissioner Gil 
Kerlikowske here. He is the Commissioner of the U.S. Customs 
and Border Protection at the U.S. Department of Homeland 
Security (DHS), and we have to also say Commissioner 
Kerlikowske is the former director of the Office of National 
Drug Control Policy.
    So Commissioner Kerlikowske, thank you for being here.

TESTIMONY OF THE HONORABLE R. GIL KERLIKOWSKE,\1\ COMMISSIONER, 
U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Kerlikowske. Senator Ayotte and Senator Shaheen, thank 
you very much.
---------------------------------------------------------------------------
    \1\ The prepared statement of Commissioner Kerlikowske appears in 
the Appendix on page 1568.
---------------------------------------------------------------------------
    I was last in New Hampshire in which role to work with the 
legislature on the prescription drug monitoring program, and I 
am so glad that that is passed and in place. And thank you for 
holding the hearing today on what really is an incredibly 
important, complex, and difficult challenge to the Nation: the 
increasing trafficking and abuse of heroin and other opioids.
    Certainly, as I heard from Mr. Griffin, the abuse of heroin 
in America continues to take too many lives and to tear too 
many families apart. As a police officer and police chief for 
37 years, I understand the strain that this epidemic also 
places on local governments and communities across the Nation. 
I commend you for holding a hearing about working together.
    Customs and Border Protection is the one unified border 
agency. We have a critical role in the effort to keep heroin 
and other dangerous drugs out of our communities, and we 
continue to intercept narcotics at the border, all as a key 
part of addressing this crisis; but interdictions, arrests, and 
convictions alone, as you have both stated, cannot solve the 
heroin epidemic.
    My efforts focused on prevention and treatment in my 
earlier role, and we certainly support that now. In conjunction 
with those things, we have to deter drug trafficking through 
taking down the transnational organized crime routes, cartels, 
and other distribution networks. And to do that effectively, we 
need to better integrate our efforts and share information. Our 
vision and strategy in CDP outlines how we plan to enhance our 
capabilities through more collaboration, more innovation, and 
better integration to meet the challenge.
    Secretary Johnson's Southern Border and Approaches Campaign 
unifies all of the capabilities of the Department of Homeland 
Security components to integrate intelligence, law enforcement 
efforts, and to provide a targeted and effective response to 
these threats, including drug trafficking. I am pleased to 
support ONDCP's heroin response strategy as recently announced 
by Director Botticelli and that fosters a collaborative 
partnership.
    Our seizures of heroin have been increasing over the past 
several years, and so far this year, we are 32 percent ahead of 
last year, and that is on top of continuing increases of 
seizures. Almost all, of course, are along the Southwest 
border. We interdict heroin in all the modes, air, land, and 
sea and in both the travel and cargo environments. 
Interdictions of regulated opioids, such as fentanyl, have also 
increased. The majority of that, by the way, is seized at our 
international mail and express consignment shipments.
    At the nation's ports of entry, CDP officers use 
technology, canines, and advanced techniques to spot vehicles 
modifications and other indicators of smuggling. Between the 
ports of entry, the border patrol maintains checkpoints and 
vigilance along the border. The CDP's Office of Air and Marine 
monitors the complex airway and maritime traffic to identify 
threats and to interdict contraband. They work with our other 
agencies, DEA, FBI, ICE, and others, to provide support to 
them. Because drug traffickers are known to use legitimate 
modes of travel and transportation, forging partnerships with 
the private sector is particularly crucial. It is a program 
that carry your initiative program. We provide training and 
site surveys for commercial transportation carriers with route 
systems that are at high risk for drug smuggling.
    CDP is committed to keeping drugs from crossing the 
borders, but we are also very committed to the safety of the 
public we serve. A million people come into the country through 
our ports of entry every single day. We have implemented 
naloxone or Narcan as it was talked about in seven of our ports 
of entry, given the number of cases in which we have had 
internal carriers. And, of course, we know that naloxone can 
reverse the effects of an overdose.
    Well, Senators, thank you for holding the hearing. I look 
forward to answering any questions.
    Senator Ayotte. Thank you so much Commissioner Kerlikowske.
    We are also honored to have here today the Acting Deputy 
Administrator for the U.S. Drug Enforcement Administration, 
Jack Riley.
    Mr. Riley.

 TESTIMONY OF JOHN RILEY,\1\ ACTING DEPUTY ADMINISTRATOR, DRUG 
     ENFORCEMENT ADMINISTRATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Riley. Senator Ayotte and Senator Shaheen, thank you 
for the opportunity to spend some time to talk about heroin and 
DEA's response.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Riley appears in the Appendix on 
page 1576.
---------------------------------------------------------------------------
    DEA's single mission is enforcing the Controlled Substance 
Act, and heroin has always been a major focus of our efforts. 
Sadly, today, 120 Americans will die as a result of drug 
overdose. Heroin and prescription painkillers cause over half 
of those fatalities. The abuse of these opioids is of epidemic 
proportions and is currently the Nation's number-one drug 
problem. New England's no different. 85 percent of the law 
enforcement agencies here in New England report heroin 
prescription drugs as the number-one drug threat.
    I have been with DEA almost 30 years, and I have to tell 
you, I have never seen it this bad. The vast majority of heroin 
used in the United States is manufactured outside of the 
country and smuggled across our Southwest border. In recent 
years, we have seen an increase in poppy cultivation and heroin 
processing within Mexico. As a result, Mexican heroin is more 
prevalent on our streets, accounting for almost half of the 
domestic supply. The role of Mexican organized crime is 
unprecedented, with Chapo Guzman's brutal Sinaloa cartel 
dominating the New England market.
    Mexican heroin arrives in New England in a number of ways. 
There are violent gang members and heroin traffickers from New 
York and Connecticut that have established heroin distribution 
networks in and around New Hampshire. They operate out of hotel 
rooms, rental apartments, or obtain the assistance of local 
addicts. These out-of-state traffickers line their pockets by 
exploiting the distribution networks to traffic guns and bring 
violence to your cities and towns.
    In addition, home-grown traffickers in New Hampshire are 
obtaining heroin and heroin laced with fentanyl from local 
distributors. The growing relationship between Mexican--based 
drug cartels and domestic street gangs, coupled with what I 
consider an unlimited supply of illegal guns, has really 
created the perfect storm for law enforcement. In my opinion, 
this is the new face of organized crime in America.
    The DEA is evolving with this threat by targeting the 
highest levels of traffickers and the vicious organizations 
they run. I have personally spent the bulk of my career chasing 
the man I consider to be the most dangerous heroin dealer in 
the world, Chapo Guzman. He and his Sinaloa cartel dominate the 
U.S. heroin market and his organization has reached to the 
extent of New Hampshire's urban and rural centers. DEA focuses 
its limited resources on disrupting and dismantling these 
organizations. That means targeting the intersection between 
Mexican organized crime and the violent urban gangs 
distributing the heroin on their behalf. This relationship 
between these two criminal entities is best described as toxic 
and dangerous.
    Heroin can be found now in virtually every part of our 
country. Sadly, its regional presence is growing. In New 
Hampshire, heroin overdoses have more than tripled from 2008 to 
2013. In 2015 alone, there have been at least 176 deaths 
involving opioids and over three-quarters of those involved 
fentanyl.
    Today, heroin is far different than it was just five years 
ago. It is cheaper, higher in purity, and can be smoked or 
snorted, much like powdered cocaine. And there is no typical 
heroin addict. This problem transcends demographic and socio-
economic lines. Knowing this drug is the source of so much 
violence and misery is truly what keeps me up at night. I know 
from experience that the more we do to reduce drug crime, the 
more we will reduce all violent crime.
    While I was a special agent in charge of the Chicago Field 
Division, we developed a model of cooperation and collaboration 
that I truly believe is making a difference there and across 
the country. The Chicago Heroin Strike Force began with the 
shared belief amongst Federal, State, and local law 
enforcement, political leaders, community leaders, and 
prosecutors, that together we could effectively target the 
violent organizations distributing heroin. This new and 
innovative approach allows us to work from the street level to 
prevent violent crime while, at the same time, to pursue the 
investigations at the highest levels of the cartel leadership, 
wherever that takes us. We are actively looking to apply this 
model to DEA divisions across the country.
    Just as we cannot separate violence from drugs, we cannot 
separate controlled prescription drug abuse from heroin. As a 
result, DEA has established highly effective tactical diversion 
squads--some 66 in total--that are committed to targeting the 
critical nexus between diversion, prescription drugs, and 
heroin.
    In addition, we are taking steps to remove unwanted, 
unneeded, and expired prescription drugs from medicine 
cabinets. In fact, on September 26, 2015, DEA will host its 
10th National Takeback Initiative.
    I know, firsthand, these threats are an urgent challenge 
and a danger to our community and the lives of our citizens. 
Law enforcement is not the sole answer. Prevention, treatment, 
education, awareness are critical to our success. Everyone 
plays a role, from parents, community leaders, educators, 
faith-based organizations, cultures and athletics, to the 
medical community.
    This is a marathon, not a sprint, but together we can 
produce the results that you seek and New Englanders demand.
    Thank you.
    Senator Ayotte. Thank you, Administrator Riley.
    I appreciate all of you for being here and I thank you. I 
am very glad to hear that DEA is reinstituting the takeback 
days, and that is a word we all have to get out that we cannot 
leave these medications in our cabinets.
    I wanted to ask all of you to respond. Administrator Riley, 
you talked about the Chicago model, and all of you heard Chief 
Willard talk about potentially bringing this OCDETF model here 
to New Hampshire and then to have the U.S. Attorney and the 
prosecution piece embedded with obviously a task force that 
would have a partnership of State, local, and Federal.
    So I wanted to get your thoughts on that and what we could 
do to move that model forward in places where we are seeing 
this in New Hampshire, so that we could get a better response 
with us all working together and have the prosecution piece 
there as well.
    Mr. Riley. I think it is increasingly important that we 
share information. I will tell you the bad guys really count on 
law enforcement not talking to each other and not connecting 
the dots. This particular approach, the strike force idea, 
really cements relationships across State, Federal, and local 
lines. You heard the chief say--by the way, the citizens of 
Manchester are lucky to have a chief like that. He sees it for 
what it is.
    Senator Ayotte. He is excellent.
    Mr. Riley. He is willing to attack it. He understands the 
role of treatment and prevention. And I do think the strike 
force was successful in Chicago because of that same 
commitment.
    Senator Ayotte. So what would we need to make it happen? 
What are your thoughts, certainly, Director Botticelli, 
Commissioner Kerlikowske?
    Mr. Botticelli. I think it is a really excellent idea. Part 
of the design and delivery of the HIDTA program is precisely 
along those points. So we can follow up with the chief and Jay 
Fallon from our HIDTA program to talk about what are the 
opportunities here to replicate that kind of model, to really 
look at how we go after the criminal organizations, and not the 
people with addiction, I think that is really important to do.
    So the whole intent of actually for our information 
sharing, our HIDTA money was to support this. So we will follow 
up with the chief and with our HIDTA program and with other 
Federal partners to look at what are the opportunities to bring 
that here.
    Mr. Kerlikowske. And should it come to fruition, we would 
be happy to assign personnel to that OCDETF task force to 
provide some assistance.
    Senator Ayotte. Great. Thank you, Commissioner. And HIDTA 
is really important and I appreciate their work here in New 
Hampshire.
    I wanted to ask about the nonmedical use of prescription 
drugs. And so prescription monitoring programs--Commissioner 
Kerlikowske, I know you testified in New Hampshire--how 
important is it that we strengthen those programs? And in 
addition to that, what should we be doing when it comes to 
engaging the pharmaceutical companies on this issue such as the 
physicians and the doctors--the medical community--to try to 
break this cyclical relationship between the overuse of 
prescription drugs for nonmedical purposes and substitute with 
heroin use?
    Mr. Botticelli. When you look at the consequence of opioid 
addiction in the United States, it is a perfect track in terms 
of looking at the increase in prescriptions. And, I love your 
chief. But I would add that, while we need to go after bad 
doctors and over prescribing, this is much more prolific than 
just bad doctors prescribing. Clearly, we want to target our 
law enforcement efforts. But we really have to enhance medical 
education for every prescriber around this issue. States now 
actually mandate some level of continuing medical education. We 
at ONDCP continue to support Federal legislation for mandatory 
prescriber education. As I have said before, in the midst of an 
epidemic, I do not think it is too much to ask a medical 
provider to take some limited medical education to do that.
    Clearly, State boards play a huge role in terms of looking 
at both prescribing guidelines as well as scrutiny of 
physicians who might be overprescribing. Prescription 
monitoring programs play a key role, because we know that many 
people who start developing an addiction go from one doctor to 
another. So these programs need to be strong, they need to be 
real time, but they also need to be easily accessed by 
physicians. So it is not enough that we have these databases, 
we also have to make sure that prescribers are using them.
    So, again, this is a multi-prong issue, but dealing with 
both prescribing and providing good information to prescribers 
is particularly important.
    Senator Ayotte. Commissioner Kerlikowske and Administrator 
Riley, you talked about heroin coming over the Southern Border 
and the drug cartels that are really at the forefront of this.
    What more can we do? Senator Shaheen and I both also serve 
on the Armed Services Committee, and we have heard from the 
Southern Commander, General Kelly, as well, about his concern 
from a military perspective of what potentially can be brought 
over the border.
    How is the cooperation with the Mexican government? What 
more can we do to--obviously, for those who are really driving 
and leading the cartels--to better stop them, and do we need to 
engage the Mexican government further on this?
    Mr. Kerlikowske. I have worked with two administrations, 
President Calderon and the cooperation is very good. We have 
invested a lot of money in training with Mexico. They have just 
put together a force of over 5,000 highly trained individuals. 
We have invested in 10 sites on the border so that we have 
joint communication, so that our border control on one side of 
the border can talk directly through an encrypted system to 
Mexican officials, rather than making multiple ways of 
communication.
    So the cooperation can be very good. I think there is one 
area where we should look, and that is eradication. When 
President Calderon took on the cartels--courageously, in my 
opinion--he used the military, and the military had also been 
involved in eradicating poppy and marijuana. As he moved them 
into more of a law enforcement role, I believe their 
eradication numbers have decreased. I think in a classified 
briefing you probably get information on the amount of poppy 
that is being grown and produced in Mexico. Eradication is not 
the sole answer, but it needs to be part of the method.
    Mr. Riley. I used to be charge of a DEA office along the 
border about 10 years ago, and I can tell you that we did not 
share a lot of information 10 years ago because it never went 
where we wanted it to go.
    We have vastly improved our ability to operate. Our agents 
now work side-by-side with Mexican law enforcement and military 
daily, so that relationship has improved. Our ability to 
extradite key traffickers has improved. Those, I think, are the 
cornerstones of how we are going to turn the tide. But it is 
really crucial for us to share information. There are 
investigations going on now where they share information with 
us that actually affects the streets of U.S. cities. So it is 
both ways.
    Now, is there room for improvement? Absolutely. But we are 
going to strive to continue that dialogue, because I think, in 
the long run, that is going to be the most effective strategy.
    Senator Ayotte. Thank you. Senator Shaheen.
    Senator Shaheen. Thank you, Senator.
    Commissioner Kerlikowske, I had the opportunity to visit 
the Southern Border back in March with Senator Hoeven, who was 
the chair of the Homeland Security Appropriations subcommittee. 
We saw some very impressive work down there by CBP. We were in 
Laredo and saw a pickup truck that was stopped and there was a 
drug-sniffing dog who went around that pickup and clearly found 
something in the gas tank. It was fascinating to watch those 
efforts. We visited some of the stations where technology was 
being used to X-ray trucks and other vehicles, so we could see 
what people were looking for in terms of those interdiction 
efforts. We also heard, as you have said, Mr. Riley, from 
briefings, the cooperative work that is going on now, not just 
between us and Mexico, but also among the various local law 
enforcement agencies all along the border.
    People are working together.
    They are following that integrated model you talked about, 
Commissioner.
    But one of the things that we also heard, and as Senator 
Ayotte talked about, General Kelly, who heads the Southern 
Command, talked to us when he was talking about border issues 
about the challenges that they have faced because of cutbacks 
from sequestration, those automatic cuts that went into effect. 
Southern Command was probably hit harder than any of our 
commands within the military and the impact that that it had on 
their ability to interdict drugs.
    Do you see an impact from that cutback by South Command 
(SOUTHCOM), in terms of what they can do with interdiction?
    And can you also speak to what you see as the challenges if 
sequestration goes back into effect at the end of this fiscal 
year, October 1? What is that going to mean for our ability to 
interdict those drugs and what impact is that going to have 
here in New Hampshire?
    Mr. Kerlikowske. You certainly have the right witness in 
General Kelly, and my time with General Fraser before him and 
my time with Admiral Stavridis when I came in.
    So you have an absolute model in Key West, Florida called 
the Joint Interagency Task Force South. It is from the Coast 
Guard to the military to every Federal law enforcement agency, 
and when you go into that facility, you cannot tell what badge 
or what uniform anybody is wearing. There is one mission and it 
is the most unified concept. It has been well written about. 
They are tremendous at targeting, because random patrol in a 
police department produces random results. That is why this 
reduction in crime over the last 10 years, I think is the 
result of putting police in the right locations at the right 
times.
    That is the same with the drug trafficking issues. And as 
we see things like semi-submersibles and others, our ability to 
random patrol, whether with RP-3s or the Navy, et cetera, 
random patrol is not going to produce anything. It is 
intelligence and it is targeting.
    Here is the difficulty--and I think you know this very well 
and that is, it is like when I was a police chief in Seattle. 
If you called and said, ``They are robbing the 7-Eleven,'' and 
I said, ``Gee, I am really sorry. I do not have anybody to 
send.'' And that is exactly the situation that Giana South and 
others are in. They target information and they have no 
resources to send to interdict that. That happens far too 
often. And I would say that those resources are necessary, and 
I think as Secretary Johnson and others, including myself, have 
expressed, sequestration would be very difficult for us to 
overcome.
    Senator Shaheen. And at a time when we are seeing this 
dramatic epidemic and an increase in the number of people being 
addicted, I understand that.
    Director Botticelli, you talked about the prescription drug 
issue and how much of a challenge that is. One of the programs 
we used to have at the Federal level was National All Schedule 
Prescription Electronic Reporting (NASPER), and I wrote down 
what that acronym stands for. It unfortunately, expired several 
years ago and we have not been able to reauthorize it. But one 
of the things that I understand it would do is to allow us to 
better work across State lines on how class B prescription 
drugs are getting transferred to people.
    So can you talk about what advantages it would give us if 
we could reauthorize a program like NASPER to address 
prescription drug overuse?
    Mr. Botticelli. Sure.
    While we have had great support for our prescription drug 
monitoring programs, we, in essence, have the same funding 
level for our now 49 prescription drug monitoring programs as 
we did when we had 20. Clearly, we heard here, as we have heard 
across the country, that you cannot only have one robust State 
program, given the ability for people just to go across State 
lines, to go to another State if we do not have that. So 
information sharing and what we call interstate operability, 
the ability of state prescription drug monitoring programs to 
share data across State lines, become critically important. I 
am very familiar with the New England region. It is very easy 
when you have one State that has a robust program for people to 
go across to other States.
    So having a robust prescription drug monitoring program, 
the ability for States to share that information across State 
lines, the ability to share that information in a de-identified 
way, with public health and public safety folks, become really 
important. As the commissioner said, we are always going to 
have finite resources and our ability to target, whether it is 
at a local level or at a county level, become really important. 
Those programs have really valuable information in terms of 
looking at what are hot spots in terms of overprescribing in 
various parts of our State and our Nation.
    Senator Shaheen. Thank you.
    Mr. Riley, I had the opportunity to visit the DEA office in 
Bedford not long ago, and one of the things that I heard from 
the folks who were there was about the challenges--and, 
actually, Chief Willard talked about this as well this morning 
when we went on the walk-along with him--of fentanyl now being 
mixed in with the heroin.
    Can you talk about what added challenges that presents for 
people out on the street trying to stop heroin?
    Mr. Riley. Well, I think it is one of many things that 
causes me to lose sleep, because it is really extremely 
dangerous--clearly to the trapped person, to the addicts, but 
to first responders, as well like the hard-working policeman 
that pulls somebody over. It is 50 times stronger than heroin. 
It can be absorbed through the skin or airborne and breathed 
in, and it is extremely toxic. We are beginning to see it more 
and more across the country. Unfortunately, what we have seen 
here in the Northeast is really at a much higher level.
    Fentanyl, for the most part, is being produced 
clandestinely in Mexico, primarily by the Sinaloa Cartel. You 
can see from the map where the stronghold of the cartels are 
located, specifically in the eastern part of the United States. 
So, again, the key for us in Mexico is to make sure that we 
share the information when we develop information here, so that 
we can work it back.
    And to give the police chief another shout-out, he 
recognizes that. He recognizes that we really have to work the 
street level to prevent violence. But for us to be successful, 
we have to jointly work these things back as far as we can go.
    So, right now, I would say fentanyl, if it has not gotten 
every law enforcement officer's attention, it certainly will. 
We are doing everything we can to train and to get the word 
out, because it is a toxic substance.
    Senator Shaheen. Just to add to that, I was aware of the 
potential dangers to addicts because I have heard testimony 
from people about the impact of fentanyl mixed with heroin on 
addicts. What I was not aware of until I had that briefing was 
the potential dangers to law enforcement. And I am not sure 
that that is widely known to the public, so I think that is a 
piece of this challenge that we need to make sure people 
understand.
    Mr. Riley. Yes, ma'am.
    Senator Ayotte. Thank you, Senator Shaheen. I think we will 
do one more round of questioning and I wanted to follow up with 
Mr. Riley on Senator Shaheen's question about fentanyl.
    One of the things that was brought to my attention is that 
fentanyl is 50 times more powerful----
    Mr. Riley. Yes, ma'am.
    Senator Ayotte [continuing]. Than heroin.
    And yet, under our laws, essentially the scheduling of 
fentanyl is not treated properly, in terms of quantities, as it 
is with regard to heroin.
    So I recently introduced the Stop Trafficking in Fentanyl 
Act to bring parity to the penalty regime, and I just wanted to 
get your thought on this issue--especially as we look at how 
deadly fentanyl is--of whether we are really making sure that 
we are treating it with the seriousness under our Federal 
statutes that it deserves. I wanted to get your thought on 
that.
    Mr. Riley. Yes. We have the DEA that is reviewing the bill. 
We worked closely on the technical side with your staffers. I 
think it is extremely important for us to have a balanced 
approach to the emerging threat.
    Fentanyl is clearly the reason many people are overdosing. 
So anything we can do to balance that--I am speaking as a cop, 
from my experience--is another tool, I think, that would 
benefit us across the board.
    Senator Ayotte. I appreciate it. I look forward to 
continuing to work with you on that, and we certainly 
appreciate any feedback you can give us.
    Mr. Riley. Yes, ma'am.
    Senator Ayotte. I wanted to also ask Director Botticelli 
about a couple of different issues.
    The first one, just while we have Ms. Moran here--you heard 
her testimony--and this is an issue we have heard from other 
treatment providers, that perhaps the regulations that have 
come from HHS have not looked specifically at the challenges of 
residential substance abuse treatment.
    And so I would ask you to work to look at this issue at the 
Federal level--I have written Health and Human Services about 
it--but I want to get your thoughts on it and how we can make 
sure that people who are in treatment get the support, make 
sure that the safety is all there. But we also want to make 
sure that we can maximize the resources that are directed 
toward treatment in order to get more individuals into 
treatment, and then, of course, hopefully after that, support 
their recovery.
    Mr. Botticelli. Sure. as she was testifying, and as someone 
who was in charge of State licensing practices at one point, 
there is probably, I think, Federal issues, but there are also 
State-level licensing issues involved.
    So I think we can have a follow up conversation to learn a 
little bit more about what regulations are under the purview of 
the Federal Government and then determine what are under the 
State licensing authority, because I think it is really 
important. And as I was listening to her, I was thinking that 
many of the things that she, I think, is talking about fall 
under State licensing areas. But we would be happy to work with 
her in terms of those areas.
    Senator Ayotte. We really appreciate that very much. Thank 
you. Just to open up a dialogue so hopefully we can sort 
through this and really help make sure that we are able to use 
the resources that we do have and hopefully get more support.
    I wanted to ask also, I know, Director Botticelli, you have 
been at many forums that we have been having in Washington on 
this issue, as well, and as a result of that, one of the pieces 
of legislation that we have reintroduced is called the 
Comprehensive Addiction and Recovery Act (CARA).
    I wanted to get your thoughts on that legislation and what 
you think about it, as Senator Shaheen and I look to work 
together on what we are hearing today, and also hopefully push 
our colleagues in Washington--I keep saying to my other 
colleagues ``Do you have a heroin problem? ''
    And they say, ``Well, I don't know.''
    I say, ``Well, go ask your public health officials, and go 
ask your first responders, and I guarantee that you have a 
heroin problem.''
    So I just wanted to get your thoughts on some of the areas 
we can work together on at the Federal level.
    Mr. Botticelli. I want to thank both you and Senator 
Shaheen in terms of your leadership at the Federal level. There 
are significant pieces of Federal legislation that I think 
speak to many of the issues that we talked about today. 
Certainly, CARA, I think, highlights many of the issues and 
fills really critical gaps, not only in terms of funding, but 
in terms of policy around this issue.
    So we know it is not enough just to reduce--to reverse 
overdoses. Addiction is a chronic disease and we need to have 
really good continuum of care, including prevention, treatment, 
and recovery support. And so that is critical to be able to do 
that.
    I think there are lots of additional opportunities that we 
can continue to work on together, particularly around 
prescribing behavior and about continuing to look at enhancing 
our prescription drug monitoring programs, as well as thinking 
about critical treatment resources that I know the State and 
locals critically need in terms of dealing with addiction 
issues.
    Senator Ayotte. Thank you very much. Senator Shaheen.
    Senator Shaheen. Thank you, Senator Ayotte. And, again, 
thank you all very much for your testimony.
    We have heard a lot of specific responses today to what is 
obviously a very complex challenge that we are facing. But if I 
were to ask each of you to talk about what is the number-one 
priority that you would urge us, as members of the Senate, 
Members of Congress, to address when we go back to Washington, 
what would it be? Director Botticelli.
    Mr. Botticelli. I think that is, at least from my 
standpoint, a simple question. It is really about resources. I 
think that we know that New Hampshire--we heard from providers 
who were talking about wait lists. When people are ready to get 
care, we should be able to give them care. So, resources, but 
also, clearly insurance plays a huge role in this. We know that 
only about 11 percent of people who have an addiction get care 
at a specialty treatment center, and often addicts cite lack of 
insurance coverage as a reason for not seeking care.
    So we need to make sure we have good insurance coverage, 
both private and Medicaid, but we also know that there are 
people who will remain uninsured and who also need services 
that insurance will not pay for. So, clearly, having those 
resources at the State and local level become very important.
    Senator Shaheen. Thank you. Commissioner.
    Mr. Kerlikowske. As I think it has been agreed on, we are 
not going to interdict or arrest our way out of the problem. 
And as important as it is to take down the cartels and the 
organizations, the traffickers with significant penalties, both 
civil and incarceration for them, I think that the prevention 
programs, the community coalitions that do the prevention work 
that have been underfunded, and they are incredibly 
inexpensive. And yet when you go to any of those meetings, and 
you sit and listen to these people that spend so much of their 
time, especially like listening to Mr. Griffin taking calls at 
home--and I do not think that is probably part of his job that 
he is being paid for--those community coalitions could really 
use some help with resources.
    Senator Shaheen. Thank you. Mr. Riley.
    Mr. Riley. From a law enforcement point of view, the one 
thing that would help is if law enforcement across the country 
really recognized the critical link between Mexican organized 
crime and urban street gangs. I do not think we can go anywhere 
throughout the country where we do not see that connection. So 
education and resources, things like the OCDETF strike force, 
where we target those intersections that affect the quality of 
life in our community, but at the same time make sure that we 
go after the highest level traffickers we can, it is evolving 
across the country and we have to face it.
    Senator Shaheen. Thank you. Thank you all very much.
    Senator Ayotte. First of all, I want to thank all of our 
witnesses for being here today, our Federal panel and certainly 
the first panel for being here.
    This is a very important issue, and I look forward to 
working with Senator Shaheen on some of the testimony that we 
have heard today. There are some excellent ideas that came 
forward here, and I hope the Federal partners I heard from, 
certainly the ideas that came forth, whether it is the OCDETF 
strike force and other ways that we can work together, whether 
it is with the insurance issues and the regulatory issues, I 
appreciate your being here.
    And, again, this is about lives. We heard from Doug Griffin 
about Courtney, a beautiful young woman whose life was taken. 
And, unfortunately, there are too many other families in our 
State that are suffering like the Griffins. We need to do 
something about it, and I think the only way is for all of us 
to work together. And I look forward to working with Senator 
Shaheen on this, to take the feedback that we have gotten today 
and to really bring this to Washington, so that hopefully we 
can get some Federal legislation passed to make sure that we 
are all giving you the support at the State and local level 
that you need to combat this epidemic.
    And with that, I have a couple of closing formalities, but 
I would like to turn it over to Senator Shaheen for any final 
comments.
    Senator Shaheen. Thank you, Senator Ayotte, and, again, 
thank you for hosting this field hearing.
    As the title of this hearing suggests, this really is an 
all-hands-on-deck challenge that we have all got to respond to 
at the local, State, and Federal level, in our communities, in 
the private and public sectors, in families--the kind of 
support that you talked about, Mr. Griffin. If we are going to 
meet this challenge, we have all got to work together, and I 
think that came through loud and clear as part of everyone's 
testimonies today. We appreciate that, and I will certainly be 
doing everything I can to work with Senator Ayotte and my 
colleagues in Washington, as well as people on the ground here 
in New Hampshire, to address this challenge.
    And I hope you all will stay in touch with us. Call my 
office, let us know what challenges you see, and any ideas that 
you have to address this issue. Because that is the only way we 
are going to be able to solve this problem.
    Thank you.
    Senator Ayotte. Thank you.
    And I certainly echo Senator Shaheen's comments and 
appreciate her being here today and appreciate her leadership.
    I also, before we close out this hearing, I just want to 
thank the staff that has come here from Washington from the 
Senate Homeland Security and Governmental Affairs Committee: 
Brooke Ericson and Scott Wittmann, who are both here, and Brian 
Papp, who is here to help us with this committee.
    I would like to thank Sam Roberts and Chris Connelly from 
my staff. I know Senator Shaheen's staff was very helpful. And 
if there is anyone you want to----
    Senator Shaheen. Yes. Chris Scott and Scott Merrick, who 
are here. Thank you.
    Senator Ayotte. Terrific. Thank you very much.
    And before we close out this hearing, just for the record, 
I would like to request unanimous consent to enter my prepared 
opening statement for the record,\1\ and also unanimous consent 
to enter Chairman Johnson's prepared statement\2\ as well as 
Ranking Member Carper's prepared statement\3\ for this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Ayotte appears in the 
Appendix on page 1519.
    \2\ The prepared statement of Senator Johnson appears in the 
Appendix on page 1515.
    \3\ The prepared statement of Senator Carper appears in the 
Appendix on page 1517.
---------------------------------------------------------------------------
    Senator Shaheen. And mine.\4\
---------------------------------------------------------------------------
    \4\ The prepared statement of Senator Shaheen appears in the 
Appendix on page 1523.
---------------------------------------------------------------------------
    Senator Ayotte. As well as yours, Senator Shaheen. Sorry.
    So if all of those statements could be entered for the 
record, I would appreciate it.
    And the hearing record will remain open for 15 days until 
September 29 at 5 p.m. for the submission of statements and 
questions for the record.
    And with that, this hearing is adjourned.
    Thank you all.
    [Whereupon, at 3:46 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                     ONGOING MIGRATION FROM CENTRAL
       AMERICA: AN EXAMINATION OF FISCAL YEAR 2015 APPREHENSIONS

                              ----------                              


                      WEDNESDAY, OCTOBER 21, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:36 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Ayotte, Ernst, Carper, 
McCaskill, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will be called 
to order.
    I want to welcome all of our witnesses. Thank you for 
taking the time to appear here, for your thoughtful testimony, 
and for your willingness to answer our questions.
    This is our 12th hearing on the lack of security on our 
border. We have also had three roundtables. This hearing, like 
the previous hearings, is really just a very sincere attempt on 
this Committee's part to try and lay out the reality. I come 
from a manufacturing background. I have had to solve a lot of 
problems, and it starts with describing the reality and 
acknowledging it. Sometimes you do not like looking at the 
reality, and I would say that is certainly the case with the 
problem of our unsecure borders and the level of illegal 
immigration out of certainly Central America and Mexico. These 
are tough problems. It is what I call the true definition of a 
problem, something that does not have real easy solutions, 
which is why we have been grappling with this thing for 
decades.
    Later this month, in further fact finding, we are going to 
be taking a trip, the Members of the Committee, to Central 
America to see the conditions on the ground there, which, let 
us face it, we acknowledge the fact that people love to live in 
America. This is the land of opportunity. It is a land of 
immigrants. Through our history, generation after generation, 
waves of immigrants have come here and made our country strong. 
But it has to be a legal process. It has to be an orderly 
process.
    In a few weeks, maybe a couple days; I am going through the 
final editing process--we are going to be releasing a report on 
those 12 hearings and what we have learned. I think I can 
describe it a little bit in terms of, what the conclusions of 
that report are.
    First and foremost--and this is, I think, shared by my 
Ranking Member and everybody on this Committee--our borders are 
not secure. They are just not secure. If you want to have one 
piece of information, one metric that tells you how unsecure 
our border is, General McCaffrey testified that they were only 
interdicting 5 to 10 percent of illegal drugs coming through 
the Southern Borders. That is how unsecure it is.
    Now, we have to secure our borders for a number of reasons, 
not just the illegal immigration issue but for national 
security, for public health and safety. This is a serious 
matter. It deserves serious attention. And, again, that is the 
purpose of these hearings.
    I think one conclusion of our report of these hearings is 
also that there are multiple causes, multiple root causes. But 
from my standpoint looking at this, probably the root cause of 
our unsecure borders is literally our insatiable demand for 
drug in this country that for decades basically gave rise to 
the drug cartels that are businesses. They developed those 
drug-trafficking routes, and they started expanding their 
product line to human trafficking, to sex trafficking, and all 
manners of deprivations as a result of those things. So, we 
bear responsibility in this country for our insatiable demand 
for drugs. We need to understand that.
    We also have to understand, too, that within our 
immigration system we have created, unintentionally--with the 
best of intentions, quite honestly--a number of incentives for 
illegal immigration. We need to honestly look at those 
incentives, and we need to ask ourselves, Is there anything we 
should do to change those laws, change those regulations that 
actually incentivized people to come here illegally as opposed 
to coming here in a legal and orderly process?
    I would argue--and, of course, the purpose of this hearing 
today is really talking about the continuing crisis. And it is 
a continuing crisis of unaccompanied children coming across our 
borders illegally.
    I would turn everybody's attention to our first chart\1\ 
here, which shows the history of unaccompanied children coming 
to this country illegally since 2009. And you can see the line 
of demarcation there, being Deferred Action on Childhood 
Arrivals in 2012, which I would say goes a long way toward 
explaining why we have had this explosion.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 1831.
---------------------------------------------------------------------------
    Now, it is true that the biggest problem we have is in 
2014, but now that the figures from 2015 are in, yes, we are 
down from 51,705 unaccompanied children from Central America 
coming to this Nation from 2014, but in 2015, it is still 
28,387. I would say by any measure still at crisis levels.
    Now, we have gotten better at processing them. We have 
gotten better at dispersing them in a humane fashion, and that 
is not a bad thing that we are treating these people with 
humanity. We are America. We are going to show that kind of 
compassion. But, unfortunately, I think it continues to 
incentivize more individuals coming here, and I think the next 
graph\1\ is something we also have to take a look at. Because 
we often just talk about unaccompanied children. We have also 
created some additional incentives now for family units, and so 
we have seen a real spike in the number of family units coming 
in here because, you know, our policy now is to no longer 
really hold them in detention centers, but also send them 
throughout the country, again, in a human fashion--I understand 
that--but it is incentivizing more individuals to come into 
this country illegally, and we have to really face that 
reality.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 1832.
---------------------------------------------------------------------------
    I would ask unanimous consent to enter my written statement 
into the record.\2\ We have five witnesses here, so I do not 
want to belabor the point any further. But the bottom line is 
we have to face these realities. We have to ask ourselves some 
hard questions, and we have to start solving this problem for 
the reasons I have stated.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Johnson appears in the 
Appendix on page 1625.
---------------------------------------------------------------------------
    With that, I am happy to turn it over to our Ranking 
Member, Senator Carper.

           OPENING STATEMENT OF RANKING MEMBER CARPER

    Senator Carper. Thanks. Thanks, Mr. Chairman. Thanks for 
pulling this together again.
    I want to thank you for calling this hearing on the ongoing 
surge of Central American migration that we are experiencing at 
our southwest border. This is an important challenge for the 
region and for our country as well. I think it is a moral 
challenge. I look forward to working together, continuing to 
working together with the Chairman and the rest of the 
delegation toward lasting solutions. I look forward to joining 
him and several of our colleagues--I think Senator Peters, 
maybe Senator Heitkamp, and maybe a House Member--to go down to 
several of these countries, including, I believe, Guatemala and 
Honduras, later this month.
    Last summer, as the Chairman has said, we were shocked by 
the flood of migrants arriving across our borders from 
Guatemala, Honduras, and El Salvador, particularly the 
thousands of unaccompanied children and families with young 
kids. When they arrived, most did not try to evade our Border 
Patrol agents. Instead, they sought them out for protection. 
Some of their stories--and those of migrants who did not 
survive the journey--were, frankly, heartbreaking.
    Our government took emergency steps to shelter and process 
these individuals, but also put into place strategies to stem 
the flow. These included public information campaigns on the 
dangers of the journey, expedited court hearings, an increased 
focus on human smuggling and trafficking rings, and support for 
Mexico's efforts to better police its own Southern Border.
    I was pleased that these efforts had an impact--I think we 
all were--for a time in slowing migration. But many observers 
warned that as long as the Northern Triangle countries remained 
mired in violence and poverty, migration would continue. And 
that is exactly what appears to have happened. This time, we 
should not be surprised.
    Although for a number of months significantly fewer Central 
Americans were apprehended at our Southern Border, the flow 
never really stopped. In fact, much of the decrease was due not 
to fewer people fleeing the Northern Triangle countries, but 
from the unprecedented new enforcement efforts by Mexico, which 
we encouraged, on its Southern Border with Guatemala.
    Between July 2014 and June 2015, for example, Mexico 
reportedly apprehended nearly 157,000 Central American 
migrants. That is a 70-percent increase compared to the same 
period for the previous year.
    But since this summer, even this enhanced effort on the 
part of our Mexican partners has not been enough. Border Patrol 
apprehensions of Central American children and families began 
slowly climbing toward last year's levels early in 2015. In 
August, they surpassed the number of new arrivals in August 
2014.
    In September, arrivals have remained relatively high as 
well. I think this is particularly striking given that 
apprehensions usually peak in the spring and they decline over 
the summer and early fall. There are different theories as to 
why we are seeing more Central American migrants again, 
particularly children and families. Some people point to 
increased violence in El Salvador, others to drought conditions 
that have worsened poverty for many in the region. Still 
another theory is that the smugglers have found new routes that 
have allowed them to get around Mexico's enhanced apprehension 
efforts and our own.
    Of course, there are also pull factors--and they have been 
alluded to already--particularly a desire on the part of 
migrants to reunite with family members who are already here. 
Smugglers may also be marketing real or perceived changes in 
our immigration policy--such as current litigation calling into 
question family detention--to persuade migrants that now is the 
right time to make this trip. We are going to discuss today 
some of those factors and also what we can do to try to change 
the dynamic.
    I think the increased apprehensions we are seeing this 
summer and fall are an important reminder that we must--in 
addition to ongoing efforts to better secure our borders--work 
with our partners to address the root causes of Central 
American migration.
    The Governments of Guatemala, Honduras, and El Salvador 
have joined in an unprecedented regional agreement, as we know, 
called the ``Alliance for Prosperity.'' It seeks to change the 
underlying conditions on the ground that compel so many people 
to flee.
    Our own government has proposed a $1 billion investment in 
foreign aid in the current fiscal year for initiatives to 
complement the Alliance for Prosperity. These funds are 
intended not only to improve security, but also to provide more 
economic opportunity for the citizens of the Northern Triangle 
and improve the rule of law in the region. I like to say that 
the focus of these investments largely is to create a more 
nurturing environment for job creation and job preservation, 
mostly job creation, in El Salvador, Honduras, and Guatemala, 
which is a key part of what needs to be done.
    This is clearly a daunting undertaking that will not yield 
immediate results, yet we cannot continue to neglect the 
underlying conditions that have led to the current migration 
crisis.
    It is also worth remembering that it is our appetite for 
drugs--the Chairman has already mentioned this, but it is worth 
mentioning again. It is our appetite for drugs that fuels much 
of the violence and corruption in this region. As a result, I 
believe we have a moral obligation to try and help to undo that 
damage. The United States of America is complicit in creating a 
situation in El Salvador, Honduras, and Guatemala that people 
want to flee. They want to get out of there. And for us to say 
we are helping to create a situation which is unbearable for 
you, intolerable, we would not want to live there, we would not 
want to raise our kids there, we are going to be complicit in 
creating that situation; and then when you try to get out and 
escape, we are going to make sure you do not come to our 
country. That is a moral dilemma and one that I am not 
comfortable with, and I suspect none of us are.
    But several of us on the Committee, as I said, are going to 
be traveling to the Northern Triangle in a couple of weeks to 
explore more fully what is fueling this ongoing migration and 
how U.S. engagement in the region might help turn the tide.
    I think our efforts and those of others working on this 
issue are very much in keeping with the valuable message that 
Pope Francis delivered here just a couple of weeks ago during 
his visit. We need to see these migrants as people, not simply 
as numbers, and work in partnership to try to alleviate the 
desperate conditions that cause so many to risk life and limb 
to flee to the United States, and to remember we have a moral 
obligation to--and I am not preaching--but maybe I am. I am 
preaching to the choir. We have a moral obligation, I think, to 
put ourselves in their shoes, how would we want to be treated, 
and to act accordingly.
    Chairman Johnson. Thank you, Senator Carper.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all rise and raise your right hand? 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Ms. Gianopoulos. I do.
    Mr. Cabrera. I do.
    Mr. Casas-Zamora. I do.
    Mr. Wood. I do.
    Rev. Seitz. I do.
    Chairman Johnson. Our first witness is Kimberly 
Gianopoulos. Ms. Gianopoulos is the Director of International 
Affairs and Trade, Government Accountability Office (GAO), one 
of our favorite agencies.
    Ms. Gianopoulos recently authored a report that reviewed 
U.S. assistance in El Salvador, Guatemala, and Honduras. To 
research this report, Ms. Gianopoulos traveled to Central 
America to observe U.S. programs and interview migrants on 
their perceptions of U.S. policies and laws. She will testify 
today on the findings and recommendations of her report. Ms. 
Gianopoulos.

      TESTIMONY OF KIMBERLY M. GIANOPOULOS,\1\ DIRECTOR, 
INTERNATIONAL AFFAIRS AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. Gianopoulos. Thank you, Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Gianopoulos appears in the 
Appendix on page 1628.
---------------------------------------------------------------------------
    Chairman Johnson, Ranking Member Carper, and Members of the 
Committee, thank you for the opportunity to be here today to 
discuss our recent work on child migration from Central 
America.
    Unaccompanied alien children (UACs), crossed the U.S.-
Mexican border in record numbers in fiscal year (FY) 2014. Most 
of these UACs were from Honduras, Guatemala, and El Salvador. A 
recent surge in August 2015 has renewed concerns about the 
efforts being taken by U.S. agencies to address the causes of 
migration. We issued a report in July 2015 that focused on U.S. 
agency efforts to address these causes. Today my statement will 
focus on our conclusions and recommendations from that report, 
as well as some updated information on the recent surge.
    According to U.S. officials, the increase in migration 
since 2012 was likely triggered by several factors, such as the 
increased presence and sophistication of child smugglers, or 
coyotes, and confusion over U.S. immigration policy. For 
example, agency officials told us that in some cases coyotes 
led many people to believe children could migrate to the United 
States and receive permission to stay indefinitely if they 
arrived by a certain date.
    Additionally, Honduran youth and coordinators of community 
centers who were interviewed as part of a U.S Agency for 
International Development (USAID) focus group indicated that 
they believed the United States would allow migrant minors, 
mothers traveling with minors, and pregnant women to stay for a 
period of time upon arrival in the United States.
    Social media also plays a factor in migration. Officials in 
Guatemala told us that social media outlets enable migrants who 
arrive in the United States to share messages and pictures with 
families in their home countries. This can serve as a powerful 
and influential endorsement of the decision to migrate. 
Additionally, officials noted that persistent conditions such 
as violence, poverty, and the lack of economic opportunity have 
worsened.
    We met with children in all three countries, and they 
echoed many of the same reasons for migrating to the United 
States.
    For example, children at a USAID outreach center in San 
Pedro Sula, Honduras, noted the lack of educational and job 
opportunities in their communities as a reason for migrating. 
Children from a particularly violent neighborhood told us it 
was even more difficult for them to find employment since 
potential employers would sometimes choose not to hire them 
simply because of where they lived.
    A number of U.S. agencies have programs providing 
assistance in areas such as economic development, community 
development, law, citizen security, rule of law enforcement, 
and education.
    Some program address longstanding concerns while others 
were developed to address the recent surge in migration. For 
example, Department of Homeland Security (DHS)-led units 
supported an increased focus on investigating and dismantling 
smuggling operations in all three countries. We found that U.S. 
agencies chose to locate programs in the three countries based 
on various factors, including high poverty and crime, but 
adjusted their efforts to locate more programs in high 
migration communities.
    With regard to evaluation, we found that most agencies had 
developed processes to assess the effectiveness of UAC 
migration-related programs, but there were weaknesses. For 
example, DHS had established performance measures such as 
arrests for units combating UAC smuggling, but had not 
established numeric or other types of targets for these 
measures which would enable the DHS to measure the unit's 
progress toward a stated goal.
    In addition, DHS and State had not always evaluated the 
information campaigns intended to combat coyote misinformation. 
For example, DHS launched its 2013 campaign in April of that 
year, but launched its 2014 campaign in late June, which was 
after the migration levels had peaked. Neither agency evaluated 
the effect of its 2014 campaign.
    Public affairs officers from all three countries expressed 
uncertainty or doubt concerning the effectiveness of campaigns 
centered on the dangers of migration. Specifically, they were 
uncertain whether such campaigns resonated with citizens of the 
three countries since the dangers were already well known.
    Accordingly, we recommended that the agencies integrate 
evaluations into their information campaigns intended to deter 
migration and that DHS establish performance targets for its 
investigative units.
    This concludes my opening remarks. Thank you for the 
opportunity to testify on this very important topic, and I am 
prepared to answer any questions you might have.
    Chairman Johnson. Well, thank you, Ms. Gianopoulos.
    Our next witness is Agent Chris Cabrera. He is a Border 
Patrol agent in the Rio Grande Valley Texas Sector. Mr. Cabrera 
can draw on his experience as a Border Patrol agent in the Rio 
Grande Valley to discuss migration trends in the Rio Grande 
Valley Sector and the recent increase in unaccompanied minors 
and family units from Central America arriving at the border. 
He can explain how apprehensions in fiscal year 2015 compare to 
last year as well as share anecdotes he has gathered through 
interviews with migrants. Mr. Cabrera.

TESTIMONY OF CHRIS CABRERA,\1\ BORDER PATROL AGENT, RIO GRANDE 
VALLEY SECTOR, U.S. CUSTOMS AND BORDER PROTECTION, ON BEHALF OF 
               THE NATIONAL BORDER PATROL COUNCIL

    Mr. Cabrera. Chairman Johnson, Ranking Member Carper, thank 
you for providing me the opportunity to testify on behalf of 
the National Border Patrol Council (NBPC).
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cabrera appears in the Appendix 
on page 1641.
---------------------------------------------------------------------------
    The Council represents the interests of 16,500 line agents 
of the Border Patrol. My name is Chris Cabrera. I joined the 
Border Patrol in 2001, after serving 4 years in the Army. I 
have spent my entire career in the Border Patrol in the Rio 
Grande Valley of Texas.
    Last year, the American people were shocked by the massive 
surge in unaccompanied children. In fiscal year 2014, the 
Border Patrol apprehended 66,000 unaccompanied children 
primarily in the Rio Grande Valley. Although the apprehensions 
of unaccompanied children are down 50 percent fiscal year 2015, 
this is no cause for celebration. We will still apprehend 
35,000 unaccompanied children this year and an additional 
34,000 in family groups.
    There are a number of factors that are driving the UACs to 
come. Many point to the endemic violence in Central America. 
Without a doubt, violence and instability in Central America, 
where the vast majority of the UACs and family groups are 
coming from, is a factor. It is not, however, the primary 
factor driving this mass migration at this point in time. 
Unfortunately, many of these countries have been suffering 
violence, corruption, and poverty for decades, yet they did not 
leave in large numbers with the exception of the Salvadorans 
during their civil war 30 years ago.
    When Border Patrol Agents detain a UAC or family group, we 
interview them, and they are typically very forthcoming about 
their motivation for coming into the United States. Most 
believe they will either not be caught or, even if they are 
caught, they will not be deported back to their home country. 
The UACs and family groups we detain are acutely aware of the 
fact we will not hold them until they are adjudicated. They 
know that they will be released and issued a Notice to Appear 
(NTA). What we have right now is essentially a catch-and-
release policy. This coupled with violence and instability in 
their home country is what is driving the continued flow into 
the United States. Unless we hold them until we adjudicate 
their cases, they will continue to come.
    The second driver is the idea that they need to get here 
before some ambiguous deadline. Some of them do not even know 
when that deadline is; they only know that they need to beat it 
if they want to stay in the United States permanently. We call 
this the ``myth of the permiso,'' and it is most likely being 
advanced by the drug cartels that are controlling the illegal 
alien and drug smuggling across the border.
    For cartels, human smuggling is big business worth hundreds 
of millions of dollars each year. Most are paying $10,000 per 
person. Higher-value aliens, such as Middle Eastern and Asians, 
pay double or triple this figure. The UACs and family units 
serve another purpose. They are human screens that tie up the 
Border Patrol Agents while the cartels smuggle narcotics and 
higher-value aliens behind them, who, if caught, will be 
deported back to their home country.
    When the crisis hit last summer, we soon realized why they 
are doing this. The cartels are driving these kids and families 
into the middle of nowhere to cross the Rio Grande River. Most 
of these people cannot swim, and crossing the Rio Grande on a 
flimsy rubber raft is incredibly dangerous. Why didn't they 
simply march up to the port of entry (POE) and turn themselves 
in to Customs? Customs could just as easily have detained them. 
The cartels know that a group of 30 UACs will tie up an entire 
shift of Border Patrol agents. All they are doing is sending 
these children to tie up our agents and leaving the border 
completely unguarded.
    If there is one thing that could be done to correct this 
problem, it would be to end the catch-and-release policy. If 
they knew that if they were caught they would be detained, 
adjudicated, and repatriated to their home country, the 
calculus changes dramatically. I guarantee that if this was the 
case, the numbers would fall dramatically.
    The second action deals with resources. I know the budget 
is tight, but I would estimate that in Rio Grande Valley we are 
apprehending 40 percent of illegal immigrants caught crossing 
into this country. This low capture rate again leaves the 
perception that crossing the border illegally is a viable 
option. I am happy to discuss this in greater detail during the 
question-and-answer period, but I believe we are at least 5,000 
agents below where we need to be to effectively secure the 
borders.
    Chairman Johnson. Thank you, Agent Cabrera, for your 
service and your testimony. And I would point out this is your 
second time before this Committee, and we appreciate that.
    Our next witness is Kevin Casas-Zamora. Mr. Casas-Zamora is 
the senior fellow and program director, Peter D. Bell Rule of 
Law Program, Inter-American Dialogue. Mr. Casas-Zamora can 
speak to the need of prioritized U.S. funding to ensure 
programs are effective in improving the security and economic 
stability in Central America. Mr. Casas-Zamora can also discuss 
the conditions in El Salvador, Guatemala, and Honduras that are 
contributing to increased migration from the region, the 
current status of the rule of law in these countries, and how 
these conditions affect U.S. aid. Mr. Casas-Zamora.

TESTIMONY OF KEVIN CASAS-ZAMORA,\1\ D.PHIL., SENIOR FELLOW AND 
  PROGRAM DIRECTOR, PETER D. BELL RULE OF LAW PROGRAM, INTER-
                       AMERICAN DIALOGUE

    Mr. Casas-Zamora. Thank you, Senator. I am grateful for the 
opportunity to address the honorable Members of this Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Casas-Zamora appears in the 
Appendix on page 1643.
---------------------------------------------------------------------------
    Over the past 5 years, 100,000 migrant children from 
Guatemala, Honduras, and El Salvador have been apprehended at 
the U.S. border. They are a particularly tragic subset of the 
approximately 3 million migrants from Central America's 
Northern Triangle that have reached U.S. shores over the past 
two decades.
    Four factors are at the root of those migration flows:
    First, the weakness of the State. States in the Northern 
Triangle are very feeble. At just below 16 percent of gross 
domestic product (GDP), the region's average tax burden is 
among the lowest in the world. Such fiscal starvation impinges 
on the ability of the State to mitigate the impact of the very 
high levels of poverty and inequality that afflict these 
countries. Also, fiscally weak States have great problems 
exerting effective control over their territory.
    Second, corruption. The effects of fiscal weakness are 
compounded by endemic corruption, notably in Guatemala and 
Honduras. Relative to the size of the economy, the fraud 
recently uncovered at Honduras' social security system dwarfs 
the massive bribery scandal of Brazil's Petrobras by a factor 
of 20.
    The state of judicial institutions is a critical factor in 
explaining these levels of corruption. In all three countries, 
political interference in judicial and overseeing institutions 
is rife. The struggle for democracy and development in the 
Northern Triangle is, above all, a fight for the rule of law, 
for accountability and against all forms of impunity.
    Third, economic vulnerability. For the majority of migrants 
from Northern Central America, economic reasons underlie the 
decision to leave their countries. Despite the efforts made by 
these countries to open up their economies, they appear unable 
to generate the kind of growth that could make a real dent in 
their poverty levels. Over the past decade, per capita income 
growth in all three countries has been mediocre at best. Given 
their distributional problems, it is unsurprising that the 
majority of the population remains mired in poverty or economic 
vulnerability. Today remittances contribute 10 percent of GDP 
in Guatemala, nearly 17 percent in El Salvador, and over 18 
percent in Honduras. The truth is that it is remittances from 
migrants that keep these economies afloat.
    Fourth, crime and violence. The most pressing challenge 
faced by the Northern Triangle concerns high levels of crime. 
Last year, Honduras alone had more homicides than the 28 member 
States of the European Union combined.
    Senator Carper. I am sorry. Would you say that again?
    Mr. Casas-Zamora. Sure. Last year, Honduras alone had more 
homicides than the 28 member States of the European Union 
combined. Violence levels in Northern Central America cannot be 
understood but in terms of the pervasive presence of organized 
crime, particularly drug trafficking.
    All these mythologies are not just complex, but are deeply 
intertwined. None of this can be corrected by foreign 
assistance alone, yet none of this will be corrected without 
foreign assistance. Let me suggest a few ways in which the 
United States could play a constructive role.
    One, fund generously the Alliance for Prosperity in the 
Northern Triangle. The alliance is a timely and well-conceived 
program. It embodies the long-term and integral approach that 
is essential to bring about structural change and hopefully 
contain migratory flows. It would be a loss if the program were 
to shed its holistic conception and wind up as yet another 
narrow counternarcotics effort.
    Two, support Guatemala's International Commission Against 
Impunity (CICIG) and expand it. The United States played no 
small part in the creation of CICIG. You should be commended 
for that. Even before its crucial role in the investigation 
that led to the resignation of President Otto Perez Molina, the 
Commission had proved a very valuable resource for Guatemala. 
The United States continued support for CICIG is vital for the 
whole region. Its experience provides a blueprint for similar 
bodies that could and should be adopted in other countries, 
certainly Honduras.
    Three, insist on structural reforms. There are clear limits 
to what even a generous and soundly conceived program of 
foreign assistance can achieve in Northern Central America. It 
is a legitimate question whether the United States will find in 
the region's political elites suitable partners to make this 
effort worthwhile. The case of Perez Molina and the popular 
mobilization against corruption in Honduras suggest that some 
of the best partners are to be found in the region's civil 
societies. One can also point to brave, isolated reformers that 
defy impossible odds to bring about institutional change in all 
three countries. Identifying those champions of reform is 
difficult but possible.
    I will submit that the United States can gauge the 
seriousness of political partners in the region according to 
two criteria: first, their readiness to push for robust and 
progressive tax systems; and, second, their sincerity about 
introducing checks and balances and promoting judicial 
independence. Hence, attempts to pack the supreme court or to 
introduce indefinite reelection, for instance, ought to be 
taken for what they are: preludes to the corruption, power 
abuse, and impunity that have sadly been the historical norm in 
much of Central America.
    Introducing progressive tax reform and real checks and 
balances on are the crux of the matter. If the United States is 
serious about helping the Northern Triangle, it should not be 
shy about demanding those structural changes.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Mr. Casas-Zamora.
    Our next witness is Duncan Wood. Mr. Wood is the Director 
of the Mexico Institute, Woodrow Wilson International Center 
for Scholars. Dr. Wood recently visited the Mexico-Guatemala 
border to assess Mexico's border enforcement efforts. He can 
describe the State of Mexico's border enforcement efforts and 
how these efforts impact Central America migration to the 
United States. Dr. Wood.

TESTIMONY OF DUNCAN WOOD, PH.D.,\1\ DIRECTOR, MEXICO INSTITUTE, 
        WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS

    Mr. Wood. Thank you, Chairman Johnson and Ranking Member 
Carper, for the invitation. Good morning, everybody.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wood appears in the Appendix on 
page 1656.
---------------------------------------------------------------------------
    As you just said, I am here to talk about Mexico's Programa 
Frontera Sur, the Southern Border Program, based on two recent 
study tours that the Wilson Center has taken to the border with 
Guatemala and Belize, and there are two main messages I would 
like to leave with you today:
    One, the Southern Border Program is very much a work in 
progress, but it is having an impact in multiple ways that are 
of enormous interest to the United States' homeland security.
    And, second, based upon what Mexico is attempting to do on 
its Southern Border, migrant roots are changing as migrants and 
smugglers learn how to get around Mexican Government controls.
    Let me begin by just talking about the border a little bit 
between Mexico and Guatemala. The map here--which, of course, 
is too small for you to see, but I think you have a copy of it 
somewhere--between Mexico and Guatemala there are eight formal 
crossing points, so eight border crossings where you can cross 
legally between the two countries. And there are identified by 
the Mexican Government 57 informal crossing points where people 
regularly cross back and forth, often for entirely innocent 
reasons of doing some shopping for the Sunday lunch, for 
example, or buying basics for their house.
    The border region is, of course, a divers region, difficult 
terrain, rivers, forest, hills, and also urban areas. There is 
an active border life. As I said, people cross regularly, 
formally and informally, to engage in commerce, visits, et 
cetera. And local communities are very wary of a thickening of 
the Guatemala-Mexico-Belize border. And, in fact, there have 
been examples, cases of protests from local communities when 
efforts have been made to try to restrict traffic. And Mexican 
Government officials have told us that that is actually one of 
the issues they are struggling with.
    Mexico's interest in its Southern Border is, of course, not 
new. It really began in recent times, in the mid-2000s, a 
growing awareness of the importance of the Southern Border for 
organized crime and for the question of transmigration. And, of 
course, there have been many criticisms from Mexican civil 
society of Mexico's record of protecting Central American 
migrants.
    The Mexico Comision Internacional de Limites Y Aguas--the 
Mexican international commission for boundaries and waters--has 
done impressive work in actually mapping the border and 
understanding the reality, the day-to-day reality there. They 
were of enormous help to us when we actually conducted our 
tour.
    And, in fact, just to give you an idea of where we began 
with all of this, it is only in the last decade that the border 
itself between Mexico and Guatemala has been adequately 
demarcated so that you actually can now visit the actual 
borderline and know when you are crossing over the territory 
from one country to another. That is the starting point. So 
there is a lot of work to be done there.
    The Southern Border Program in Mexico has existed for a 
number of years, but it was reinvigorated under the current 
presidency of Enrique Pena Nieto. The program has two official 
objectives: one, to protect migrants who enter Mexico; two, to 
manage the ports of entry in a way that promotes the security 
and prosperity of the region. It aims to do this in five ways: 
one, through bringing about regular and orderly migration; two, 
improvements to infrastructure for border security and 
migration; three, protecting migrants; four, regional shared 
responsibility; and, five, interagency coordination. We saw 
elements of all of those things on our tours.
    The most important thing that I would say we saw there was 
the impressive investment in facilities, procedures, and 
controls that the Mexican Government has put in place. They 
have put in place a regional visitor visa program and a 
visiting border worker program, which is allowing people to 
actually cross over legally in a formal fashion to visit 
southern Mexico from Guatemala and Belize. And I have the 
numbers of those visa permits if you need them.
    This attempt to provide a formal way for Guatemalans and 
Belizeans to enter Mexico is very important. The facilities at 
the border are multimodal. You see the migration agency, the 
military, customs, health, agriculture, everybody is actually 
there. This means that there is a growing presence of the 
Mexican State in the Southern Border region which has not been 
there before.
    What are the challenges that remain? Well, it is an 
impressive attempt to establish some sense of order and to 
raise the visibility of the Mexican State in the south. And in 
many ways, it is positive for local communities in terms of 
security. However, it is clear that the flows are not going to 
diminish as long as conditions in Central America continue to 
be as harsh as they are. Migrants learn and migrants adapt, and 
we saw multiple examples of migrant routes going around Mexican 
attempts to control. So it is a problem of abuses, many 
criticisms of Mexico's treatment of migrants. We saw evidence 
on both sides of that that, in fact, there are actually some 
respectable conditions in detention centers in southern Mexico. 
But we also heard stories that told an opposite story.
    And, last, on the question of regional cooperation, Mexico 
is going to face a very big challenge in evolving its regional 
cooperation with countries like Guatemala simply because of the 
lack of capacity in their counterpart. Interestingly enough, 
military cooperation between Mexico and Guatemala has advanced 
very rapidly and there is good understanding. Working with the 
rest of the government agencies has been much more challenging.
    Thank you very much.
    Chairman Johnson. Thank you, Dr. Wood.
    Our final witness is Bishop Mark Seitz. Bishop Seitz is a 
member of the diocese of El Paso, Texas, U.S. Conference of 
Catholic Bishops (USCCB). Bishop Seitz can describe the 
programs his organization is employing to assist youth and 
other vulnerable populations in Central America in order to 
deter migration and assist in repatriation proceedings. Bishop 
Seitz is also an original native from Wisconsin, so, again, we 
welcome you here. Thank you for your testimony.

   TESTIMONY OF THE MOST REVEREND MARK J. SEITZ,\1\ BISHOP, 
DIOCESE OF EL PASO, TEXAS, ON BEHALF OF THE U.S. CONFERENCE OF 
                        CATHOLIC BISHOPS

    Rev. Seitz. Thank you very much, Chairman Johnson, Senator 
Carper, Ranking Member, for holding this hearing today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Bishop Seitz appears in the Appendix 
on page 1666.
---------------------------------------------------------------------------
    Mr. Chairman, we are witnessing a humanitarian situation in 
our hemisphere in which vulnerable children and families are 
fleeing for their lives in search of protection. If we cannot 
respond justly and humanely to this challenge in our own 
backyard, then we relinquish our moral leadership and influence 
globally, where much greater crises are being experienced.
    Mr. Chairman, the U.S. Bishops sent a delegation led by 
myself to Central America to assess the situation there and 
were among the first groups to warn of a possible outflow of 
children and families fleeing from that region.
    Since then, the violence in the Northern Triangle region of 
Central America has only worsened. El Salvador, victim of a new 
gang war, now rivals Honduras as the Nation with the highest 
murder rate in the world. A recent study by the United Nations 
(U.N.) determined that more than 6 in 10 of those who arrived 
at our borders or were leaving had legitimate asylum claims.
    I would like to recall with you a very distinguished 
visitor who graced these hallowed halls just last month. In his 
speech to Congress, Pope Francis urged us to show compassion to 
those fleeing to our land, and I quote: ``We must not be taken 
by their numbers but, rather, as persons, seeing their faces 
and listening to their stories, trying to respond as best we 
can to their situation.''
    We should listen to the story of Maria, a 14-year-old from 
El Salvador who was kidnapped by a gang member and held 
captive, raped, and drugged. She managed to escape and fled to 
the United States.
    We should listen to the story of Manuel, a 17-year-old boy 
who was severely beaten by gang members and threatened with 
death if he did not join the gang. He escaped to the United 
States and was granted a Trafficking Victims eligibility letter 
by the U.S. Department of Health and Human Services (HHS).
    Mr. Chairman, I would like to submit their stories and 
those of other children for the record.\1\
---------------------------------------------------------------------------
    \1\ The stories referenced by Bishop Seitz appears in the Appendix 
on page 1833.
---------------------------------------------------------------------------
    While the number of children and families arriving at our 
border has dropped in this past fiscal year by 40 percent, that 
does not mean that the number of persons fleeing Central 
America has dropped, as we have noted. Instead, it means that 
they are fleeing to neighboring countries or, worse, are being 
intercepted by Mexican authorities at our behest and sent back 
to danger, without proper screening and protection mechanisms.
    Mr. Chairman, according to the Migration Policy Institute, 
the Mexican Government has returned 70 percent more migrants, 
mostly women and children, back to the Northern Triangle over 
the past fiscal year ending September 30. They have returned 
six times more children than at this time last year. We have 
transferred the authority--or the responsibility for this 
crisis to others, and in so doing perhaps we have abdicated our 
own.
    But as we have heard, children and families continue to 
arrive at our Southern Border, and more recently we have seen a 
spike in their numbers. By increasing interdiction efforts, we 
have driven them into the hand of more sophisticated smugglers 
who are charging them $7,000 and more per trip and are finding 
ways to circumvent enforcement efforts using private cars and 
bribes along the way.
    However, Mr. Chairman, there are more serious humanitarian 
consequences to this interdiction policy. According to the 
Mexican Human Rights Commission, abuse of migrants by 
enforcement personnel has increased by 40 percent over the past 
year, including physical and sexual assault.
    There have also been reports that migrants sent back to 
their countries have been killed with at least 90 such deaths 
documented over the past year and a half.
    Mr. Chairman, if we export enforcement, we must also export 
protection.
    As my testimony details, we recommend that Congress and the 
administration, No. 1, approve and increase the $1 billion 
administration request for aid to Central America, directing 
assistance to youth development and reintegration programs.
    No. 2, that we halt our punitive deterrence strategy and 
instill a regional protection system based on the best interest 
determinations for children.
    Third, that we improve the Central American Minors (CAM), 
program.
    And, fourth, that we end family detention and replace it 
with community-based alternative to detention programs.
    Fifth, that we ultimately get comprehensive immigration 
reform.
    Mr. Chairman, I would like to sum up the current situation 
with an analogy. Our current enforcement posture toward 
children and families fleeing the violence in Central America 
is akin to firemen arriving at a house fire and locking the 
doors. Instead of locking the doors, Mr. Chairman, we must put 
out the fire and rescue those inside.
    As I conclude, perhaps we could recall our Holy Father's 
words during his visit. He also invoked a basic rule of life 
that should guide all of our actions: the Golden Rule. He 
reminded us that it is not only right but in our long-term best 
interest to practice that wise dictum. As he explained, ``In a 
word, if we want security, let us give security. If we want 
life, let us give life. If we want opportunity, let us give 
opportunity. The yardstick we use for others will be the 
yardstick which will be used for us.''
    Mr. Chairman, I pray that time and history will conclude 
that we honored this rule in meeting this humanitarian 
challenge. Thank you.
    Chairman Johnson. Thank you, Bishop.
    I will start with the questioning. Again, there is no doubt 
about the fact that this is an enormous problem, and as we 
talked about, one of the root causes is our insatiable demand 
for drugs, the lack of opportunity in Central America, the 
violence being driven a lot because of the drug cartels, that 
type of thing.
    The question always is, well, OK, what is an achievable 
goal here? I do not think it is good for Central America that 
those individuals that actually want to seek opportunity flow 
out of the country. I think the goal of our policy should be to 
stop the flow--again, understanding how complex that is, if you 
could wave a magic wand and, make Central America corruption-
free so they actually had a rule of law, so that their 
economies could actually grow, that is what we are trying to 
achieve. And the hard questions are, in terms of aid programs, 
are we just pouring money down a rat hole? Is there any chance 
that money spent in Central America will be utilized 
effectively? So if we put the money in there, what kind of 
controls do we have?
    Ms. Gianopoulos, I would like to talk to you in terms of 
the GAO study because I think one thing I really want you to 
comment on, the reality of the situation, regardless of what 
Deferred Action on Childhood Arrivals (DACA), what those 
memorandums say, regardless of what our marketing programs are 
in terms of the danger of the journey, and the Bishop spoke 
very eloquently about the harm, I mean, the migrants are being 
abused. It is a dangerous journey. But the reality is if those 
children, if those families can get into America, they are 
staying. Since 2009, less than 7 percent have actually been 
sent back. So by the use of social media, those that are here 
are communicating back into Central America, so it is a gamble 
that pays off.
    Now, some people are abused along the journey. That is a 
tragedy. But the bottom line is they were willing to take that 
dangerous journey because they are able to stay here. Can you 
just expand on exactly how they are using social media?
    Ms. Gianopoulos. Sure. When we traveled to the region, we 
heard from a number of different children, from U.S. officials 
in Guatemala and El Salvador that the use of social media has 
absolutely exploded, not just for the families of the children 
who are making the journey, but also for the coyotes, that they 
are actually advertising their immigration services on various 
social media and getting the word out that way as to what the 
options are for the various families who want their children, 
or the families themselves, to make that trek.
    So the social media cannot be ignored as a major push 
factor in getting families to actually consider taking all of 
these risks and sending their children or themselves to the 
United States.
    Chairman Johnson. Mr. Casas-Zamora, you talked about the 
rule of law. Can you expand on that a little bit in terms of 
how crucial that is? Let us face it. You are not going to get 
investment to grow an economy unless you have some stability in 
terms of the rule of law, lack of corruption. How far are we 
away from having low enough levels of corruption and a strong 
enough rule of law to actually provide the type of economic 
activity, to provide the opportunities that is admittedly 
lacking in Central America?
    Mr. Casas-Zamora. Thank you, Senator. The short answer is 
very far from that. And the question here is, What is to be 
done? And my short answer to that would be that there are basic 
things that need to be put in place before we go on to more 
sophisticated policies or proposals.
    The most basic thing that needs to be in place if these 
countries are going to be serious about corruption--but also 
about the impunity that comes with the problems concerning 
citizen security. I mean, the most basic thing is to protect 
judicial independence, and to protect the autonomy of 
overseeing institutions such as the General Accounting Office, 
the ombudsman, all the institutions that are meant to control 
the exercise of power. Those institutions are in terrible shape 
in Central America, and my contention would be that one of the 
ways in which one can gauge the seriousness of your partners in 
Central America is by the willingness that they are willing to 
display in doing those basic things. Then we can go on to other 
things.
    Chairman Johnson. Basically I would interpret your remarks, 
any kind of aid would have to have enormous strings, very 
strong strings attached to it so that we do not just waste the 
money.
    Mr. Casas-Zamora. Very much so.
    Chairman Johnson. Dr. Wood, you talked about the increased 
effort on the part of Mexico to secure their Southern Border. 
Can you just tell me why they are doing it?
    Mr. Wood. Yes, first, let me just make one quick comment on 
the last question.
    Chairman Johnson. Sure.
    Mr. Wood. I think that we are witnessing right now 
throughout Latin America a civil society awakening over the 
question of corruption, and that is something that we should 
celebrate and we should reinforce. I think working only with 
governments is the wrong way to go. We need to be reinforcing 
what civil societies throughout the region are doing. We have 
seen it in Guatemala. We have seen it in Brazil. I think that 
is one thing that we could do.
    Why is the Mexican Government engaging in their Programa 
Frontera Sur? Well, first of all, this was a preexisting 
program that had never really had the investment that it 
required to make it effective. So the question is: Why are they 
actually investing in it now? Partly it is in reaction to 
pressure from the United States to try to bring about some 
order for the migration flows northwards. But there is also 
very much a Mexican Government interest in this. I think there 
is a crossover, a very clear crossover, between what we are 
seeing on trying to control migration flows and trying to 
control organized crime on Mexico's Southern Border.
    When you visit these facilities, both border facilities and 
facilities that are remote from the border inland, the presence 
of not only migracion but also the military, the police, 
health, et cetera, those multimodal interagency facilities are 
designed to establish the presence of the Mexican State in a 
territory where it was not really visible before.
    This means that the costs of moving through southern Mexico 
have been increased, not just for migrants but for organized 
crime as well. It does not mean they do not adapt. Of course 
they do. But it raises the cost, and it makes it much more 
complex for them to do that.
    Chairman Johnson. So the good news is really there is 
mutual benefit to the United States as well as Mexico for a 
continued effort to secure the Mexican border there.
    Mr. Wood. There are definitely mutual benefits in terms of 
homeland security.
    Chairman Johnson. Agent Cabrera, I do want you to talk a 
little bit more about--we toured the Southern Border with you--
the use of the economic immigrants for diversion for drugs. Can 
you just expand on that a little bit more? Because I thought 
that was pretty telling, that when you really thought about it, 
these children, these families could just walk across the 
bridge and turn themselves in, and, they would be processed the 
exact same way, but that is not what happens. They actually do 
make the more dangerous trip across the river. Just describe 
some of those stories that you described at the border with us.
    Mr. Cabrera. Yes, Senator. In actuality, if these 
individuals that were crossing would cross through the bridge, 
it would not be a criminal crossing. It would not be an illegal 
crossing. They could walk up to the bridge and ask for asylum, 
much like they do when they come to us. However, when they 
cross the river, then there is that added charge of illegal 
entry. So it is more beneficial for them to cross through the 
bridge as opposed to the river, not to mention the safety 
factor.
    What happens is these kids or these family units or even 
regular migrants, they are walking up to the bridge to claim 
asylum, and they get intercepted by the cartel members, the 
smugglers. And at that point they take them to a certain area, 
they charge them and tell them when and where they are going to 
cross. The reason they do that is once they occupy us, we will 
have to send multiple agents out there to ensure their 
security, their safety. And it opens up various holes along the 
border because our agents are having to come from other areas 
to secure them, to transport them, to make sure they are OK, 
make sure they are healthy, make sure they do not have any 
weapons, and get them into the station.
    Chairman Johnson. How often does that happen?
    Mr. Cabrera. Every time they cross.
    Chairman Johnson. You have multiple groups every night, 
every day?
    Mr. Cabrera. Every night. It slows down during the week. 
Maybe Tuesday, Wednesday, it is at its lowest. Thursday it 
starts to pick up. Friday, Saturday, Sunday, it is just bodies 
everywhere. At our station we are looking on the weekend 600 to 
700 a day. And that is just one station.
    Chairman Johnson. So it is extremely effective diversion 
for their drug trafficking.
    Mr. Cabrera. Exactly.
    Chairman Johnson. And potentially the higher value--you 
mentioned the Middle Eastern----
    Mr. Cabrera. Yes, we have the Middle Eastern, you have 
people that are criminals, whether they come from Mexico or, 
anywhere in the country, they have criminal charges in the 
United States, and they know that if they get caught, they are 
going to face some real jail time. So those guys will pay more 
so that they can get around different ways. If you have cartel 
people that are coming back and forth, obviously they cannot 
cross through the bridge, so they are going to be another one 
of those high-value illegal aliens that they are going to cross 
in an area where we are not.
    Chairman Johnson. Right.
    Mr. Cabrera. The drug smuggling, we are seeing an uptick in 
not just marijuana but of cocaine, of heroin, of 
methamphetamines coming in. And it is taking its toll. It is 
spilled into our streets. The violence is spilling into the 
United States.
    Chairman Johnson. Thank you. And we have held hearings--and 
we are going to have more hearings--just on the tragedy of 
heroin addiction and deaths here in America coming through the 
Southern Border. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman. I really want to 
thank each of you for what you do with your lives and for 
spending part of your lives with us today and testifying and 
responding to our questions.
    Bishop Seitz, you are a dead ringer for my first cousin, 
Dan Patton, who is a lay minister in a church in Columbus, 
Ohio. And I have never seen him wear a collar like this. But I 
walked in and I looked at you, and I said, ``What is my cousin 
doing here?'' But he would probably say, to what you have said, 
``Amen.'' And I do, too.
    Listening to all you testify this morning, I was reminded 
of something that Winston Churchill once said. I do not know if 
Senator McCaskill and others will recall this. But he once 
said, ``If you are young and not liberal, you do not have a 
heart. If you are old and not conservative, you do not have a 
brain.'' And what we need to do in addressing this dilemma, 
moral dilemma and human dilemma, is we need to act with our 
hearts and with our brains. And there are a number of things 
that we need to do, and some of them we need to do I think all 
at once.
    There is the idea of us--a great analogy you used, Bishop, 
I think you were the one who said, the firemen show up at the 
house, lock everybody inside, and leave. That is pretty close 
to what we have done. We have contributed enormously to the 
misery of the folks who live in these three countries, and then 
to walk away and say, ``Well, do not try to get into our 
country,'' that is just morally wrong.
    I believe you have outlined for us very nicely ways that we 
can act with our hearts and with our brains, one, to deter the 
likelihood, reduce the likelihood that people are going to 
come, one, by making it clear that it is going to be hard to 
get into our country, and if you do, you may not get a chance 
to stay; but, two, to say to the folks who live there, you are 
going to have a better future, and you are going to have some 
economic hope and not have to live in the kind of misery that 
you face today. We need to do both. And we can.
    Harry Truman used to say that the only thing that is new in 
the world is the history we forgot or never learned, and 
actually I think we learned something from Colombia where, 
about 20 years ago, a bunch of gunmen rounded up the entire 
supreme court of the country of Colombia, took them into a 
room, and shot them to death. And today that country is 
regarded as a reasonably strong, sound, vibrant democracy. We 
helped them do it with something called ``Plan Colombia.'' And 
it is not something that we did by ourselves. It is not 
something they did entirely by themselves. But there were a 
number of other folks--it was a shared responsibility. We did 
our parts; others did their part. Colombians did their part.
    What lessons are there for us today from Plan Colombia? I 
like to say find out what works and do more of that. What did 
we learn from Plan Colombia that may be transferable and usable 
here in this situation? Anyone? And just be brief, please. Yes?
    Mr. Casas-Zamora. Thank you----
    Senator Carper. Mr. Casas-Zamora.
    Mr. Casas-Zamora. That is me, hailing from Central America.
    Senator Carper. Where? Donde?
    Mr. Casas-Zamora. Costa Rica.
    Senator Carper. OK. Great place.
    Mr. Casas-Zamora. Thanks. Glad to hear that.
    I think the single most important lesson that one can draw 
from Plan Colombia and similar experiences is that unless there 
is real serious buy-in from the political elite in the country, 
very little of this will have any success. The lion's share of 
transforming these countries, of reforming and, establishing 
real structures, the rule of law, and accountability, really 
falls on the shoulders of those countries. Unless they get 
serious about that, no amount of foreign assistance will do the 
trick.
    Senator Carper. Yes. Bishop Seitz.
    Rev. Seitz. I might also suggest we could learn a lot from 
Nicaragua. It is very interesting that when you look to the 
region, you realize that so many of those who are fleeing the 
Northern Triangle are going to the border countries, also. They 
are not just----
    Senator Carper. That is right. They are not just coming 
here.
    Rev. Seitz. They have seen increases of something like 
1,200 percent in the last, I do not know, 6, 8 years.
    Senator Carper. And it is a lot easier to get into those 
countries than into this one.
    Rev. Seitz. Yes. They are going wherever they can go, 
fleeing the burning house, if you will.
    Some of the things that happened there, when a new 
government entered in, they turned over the police force, and 
they established a means of community policing. They increased 
the pay of the police and so on to avoid situations where they 
could be easily corrupted. Nicaragua is a poorer country than 
even these countries that we are speaking about, but it is much 
safer--not without its problems, but most of the country is 
much safer. We could learn a lot from them.
    Senator Carper. All right. Let us talk a little bit about 
the Alliance for Prosperity that the Central American countries 
have launched that our administration has proposed that we fund 
to the tune of about $1 billion. I think there is some money in 
the appropriations bill in the Senate that would, I think, 
fund--maybe not $1 billion, but maybe $600 million. What are 
some things that that money should be spent on to help address 
some of the root causes that we are talking about here today? 
Where might it be well spent? Because I am not interested in 
wasting money, and I know none of you are either. Mr. Wood.
    Mr. Wood. Yes, and it is kind of in response to your 
previous question. If you look at what the aid is going to 
Mexico right now through the Merida Initiative, there is all 
the traditional stuff, sort of, aiding the military, law 
enforcement agencies, et cetera. But one of the most 
interesting aspects is actually the concept of building 
resilient communities, and this is working with government at 
the three levels--Federal, State, and local--working with the 
private sector, working with civil society to really try to 
help communities to bounce back after violence has broken out. 
And I would say that some of these community-based approaches 
at the local level really do provide an opportunity, not to 
stop the violence but really once a community or a nation has 
taken the decision to act upon it, to help them recover.
    So I would say the community-based approaches are going to 
be crucial in improving conditions.
    Senator Carper. Thank you.
    Others, please? Kevin.
    Mr. Casas-Zamora. Thank you, Senator. I have no doubt that 
helping rebuild law enforcement institutions in these countries 
should be one of the priorities of the alliance. It should not 
be only that, but that has to be at the center. And my 
impression is that foreign assistance in this field can only 
hope to bring about visible changes if it picks a few urgent 
institutional programs that can have a catalytic effect in the 
transformation of the image and the efficacy of law enforcement 
bodies--things like improving internal control and 
anticorruption units within law enforcement bodies; adopting 
modern information technologies (IT), and that means from 
regular victimization surveys to the kind of--the CompStat kind 
of system for data gathering; and to have those information 
technologies and adopt them as part of the policymaking 
process; creating vetted units to handle complex multinational 
investigations; improving investigation and prosecutorial 
capacities with regards to complex financial crimes; and 
support CICIG.
    Senator Carper. Tell the folks what CICIG is.
    Mr. Casas-Zamora. It is the UN-sponsored International 
Commission Against Impunity in Guatemala that, on balance, has 
been extraordinarily successful.
    Senator Carper. Good. Thanks.
    Mr. Chairman, this is a timely hearing given the codel that 
we are going to lead to several of these countries in a couple 
of weeks. I have been down there any number of times, as you 
know, and my sense is there is sort of a public uprising that 
is occurring in some of these countries that led in part to the 
incarceration of the President of Guatemala. I will close with 
just a real quick story.
    I remember visiting down there a couple of years ago. We 
were down in Guatemala, and we were meeting with the President 
of the country. And I said to him, ``Mr. President, do you 
realize that you have in your prisons--like the guards are 
actually providing cell phones to the inmates so they can 
continue their illicit criminal business?'' And he said, 
``Really?''
    And I said, ``Did you know that there is technology that 
would enable those cell phones not be usable in prisons?'' And 
he said, ``Really?''
    And I said, ``And did you know that you have that 
technology installed in a number of your prisons?'' He said, 
``Really?''
    And I said, ``And did you know you do not use it?'' And he 
said, ``Really?''
    And I said, ``And do you know''--the Interior Minister of 
the country was sitting next to me. And I said, ``Do you know 
the guy who is in charge of this is your Interior Minister?'' 
And he said, ``Really?''
    Well, that President is in jail today. He is in prison 
today. I am going to see if I can reach him on the phone later. 
But the people down there are fed up, and some of them are 
voting with their feet to try to get out. Others are voting 
with their feet to try to create a situation where people like 
the President are arrested and put where they belong--in jail.
    Thank you.
    Chairman Johnson. Thank you, Senator Carper. And let us 
hope they succeed. Senator McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Mr. Chairman. Senator 
Johnson, I would like to thank you for holding this important 
hearing today, and I would like to thank the witnesses for 
sharing their insights. I will ask questions about this subject 
matter for the record, but I would like to use my time today to 
raise concerns regarding your investigation of Secretary 
Clinton's private email server.
    As you know, I am a former prosecutor and a former auditor, 
so I have decades of experience in conducting investigations. I 
have also conducted oversight investigations since I first got 
to the Senate, and I have led Subcommittees focusing on 
oversight and investigations on this Committee since 2009, 
including my current position as the Ranking Member on the 
Permanent Subcommittee on Investigations (PSI).
    I think I have shown I am not afraid to go after this 
administration and my own party when it comes to investigating 
complicated issues of national public interest. In the last 
Congress, as you may recall, we worked together to issue 
document requests, interview witnesses, and release a report 
related to a former DHS Deputy Inspector General (IG).
    It is because of my experience as an investigator that I am 
troubled by the recent letters you sent regarding Secretary 
Clinton's email server. I would never quarrel with your right 
as Chairman to conduct any investigation that is within this 
Committee's jurisdiction. But the letters, which were sent to 
companies named Datto and SECNAP, contain substantial quotes 
and excerpts from documents received during the Committee's 
investigation. These letters were posted on the Committee's 
website and received significant press attention.
    My concern is that the selective release of information has 
created a public narrative that prejudices the outcome of the 
investigation and creates an incomplete and potentially 
misleading picture for the public of the record before the 
Committee. I understand that you have sent more than 10 letters 
asking for information about Secretary Clinton's email server, 
but so far the documents from Platte River are the only ones 
that have been received and reviewed by the Committee. Nor has 
the Committee conducted any interviews or depositions.
    Now, generally on this Committee and on PSI and all of the 
Subcommittees I have chaired, it is our practice and custom of 
the Senate to conduct interviews, to get information and 
documents from multiple parties, before making any information 
public. That is dictated by basic fairness. Context and balance 
matter.
    Nevertheless, you have chosen to release substantial 
portions of internal emails from Platte River as part of your 
additional requests to two different companies in a manner 
which created the impression in the media and the public that 
the Committee's investigation had found there were shortcomings 
related to the server backups and its security.
    You have also made a substantial number of public 
statements regarding Secretary Clinton's ``reckless disregard'' 
and ``wanton disregard'' for security. I am concerned that the 
totality of the record before the Committee, which is currently 
limited to one set of documents from one company and includes 
no interviews at all, is not a sufficient basis to draw those 
dramatic conclusions.
    It also appears that Platte River Network documents now 
before the Committee provide additional relevant information 
which leads me to further question the accuracy of your 
statements. I asked my staff to review all of the Platte River 
Network documents controlled by the Committee, and they were 
given access to some of those materials late yesterday, 
although they have not been able to see all the documents, 
including many of the documents cited in your letters.
    Based on that limited review, I believe there is additional 
information that the public has a right to know. Right now, the 
only available information on these topics can be found in your 
letters and the excerpts from the documents that you have 
decided to cite. Because those documents and the other 
materials are not yet public, I am limited in what I can say 
about them and what they tell us about Secretary Clinton's 
email server. But I can say that I believe that having already 
put out selected information that paints one particular picture 
of what happened, the Committee has an obligation to ensure 
that the public record is accurate and complete with context 
and balance.
    While an argument can be made that all of the Platte River 
documents should be released, at a minimum I would now ask 
unanimous consent to include in the hearing record the 
documents and emails cited in your letters to Datto, Inc., and 
SECNAP, including the complete email chains and all 
attachments.\1\ Those are part of the documents that you have 
already determined should be released in part, so I am asking 
that the entire documents be made available.
---------------------------------------------------------------------------
    \1\ The information submitted by Senator McCaskill appears in the 
Appendix on page 1681.
---------------------------------------------------------------------------
    Thank you, Mr. Chairman.
    Chairman Johnson. Without objection, so ordered.
    Did you have questions for--this is a hearing on 
unaccompanied children, so----
    Senator McCaskill. I will have questions for the record.
    Chairman Johnson. I will say, by the way, I appreciated us 
working together on our investigation of Charles Edwards. 
Obviously, that investigation was, quite honestly, pushed when 
we were in the minority. And the reason those things came to 
light, those revelations, was because of the transparency of 
the investigation. We are here with GAO, we are here with this 
Committee deals with Inspector Generals. We have seen the 
problem of not being transparent, which is exactly how Charles 
Edwards got in trouble. We saw 140 inspections, reports on 
inspections, investigations of the Inspector General Office 
within the Veterans Administration (VA), creating real problems 
in the VA. So this Committee is all about transparency. We have 
certainly been working with the minority staff on these things, 
and they have been aware of the letters we are sending. We have 
been making many letters public so that we have that type of 
transparency to put pressure on the political process and on 
the agencies to comply with, for example, our subpoenas and 
those types of things.
    So if you are truly serious about working with me, I think 
you probably would have first talked to me privately as opposed 
to politicizing this in a hearing on unaccompanied children, a 
really serious problem. But I think you had a couple minutes, 
if you would like to ask questions here as opposed to----
    Senator McCaskill. Well, Mr. Chairman, let me just say that 
I think that the investigations that I have been a part of, 
there has not been one member who has released selective 
information from those investigations without any bipartisan 
buy-in. That has just not occurred. And that is why this is an 
extraordinary situation, and that is why I did it in this 
manner and this way today, because I think it is important that 
if we are going to unilaterally cherrypick information out of a 
closed investigation and make it public, it is important that 
the public have context.
    Chairman Johnson. Do you have questions for the witnesses?
    Senator McCaskill. I do not.
    Chairman Johnson. OK.
    Senator Carper. Mr. Chairman, could I just make a very 
brief comment? You and I discussed this over--I guess last 
week, and I share the concerns raised by the Senator from 
Missouri. As Chairman of the Committee--well, frankly, as 
Ranking Member, we have staff to do investigative work, and we 
are free to do that investigative work, and it is appropriate 
for us when the investigations are complete hopefully for us to 
share information staff to staff. But it is appropriate, as we 
discussed, to release that information to the public.
    What is troubling here is the concern about whether only 
part of the information was being released, and I think the 
term used by Senator McCaskill was whether or not it is being 
cherrypicked.
    As I have said to you before, in terms of Secretary 
Clinton, who I have served with, have great respect for, the 
person that I will support for President, if he announces, is 
the Vice President. So I am not in this for, trying to support 
or promote her candidacy. We talked here several times about 
the Golden Rule, and it really applies in almost everything 
that we do. How would we want to be treated if we were in the 
other person's shoes? And I think we just want to be fair, and 
what we are really asking for here is just fairness and to 
treat in this case her or anybody else the way we would want to 
be treated. That is a good rule to follow.
    Chairman Johnson. The issues at stake here--and, again, 
this is very unfortunate that you have politicized this 
important hearing here. The issues at stake involve national 
security issues. We need to assume, because in other hearings 
we have had in this Committee on cybersecurity, we have to 
assume that everything that was on Secretary Clinton's email is 
in the hands of our enemies. The purpose of my involvement in 
this, this is my responsibility. This Committee is charged with 
national security processes and Federal records. It is the 
responsibility of this Committee.
    I think it is also the responsibility of this Committee to 
put pressure on the agencies to make sure that they conduct a 
thorough investigation so that we can, if possible, recover 
every email--even those deleted that were supposedly personal, 
because we need to find out what classified information might 
be on those emails that now may be in the hands of our enemy or 
enemies so that we can mitigate any kind of harm. This is a 
very serious effort on the part of this Committee. It is 
unfortunate that Senator McCaskill had to politicize this 
particular hearing on a very serious problem in and of its own 
self.
    But, again, I am happy to discuss this. Again, we have had 
a good working relationship, as you are aware of the fact. Our 
staffs have been working together. We have not sent out a 
letter that you have not reviewed first or your staff has not 
reviewed. But, again, I want to move on to Senator Peters.
    Senator Carper. Let me just say in conclusion, thank you 
for agreeing to the unanimous consent request. Sunshine is the 
best disinfectant.
    Chairman Johnson. I am all about transparency. Senator 
Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and thank you to 
the panelists for your testimony here today.
    As was mentioned, we will be heading to Central America in 
a couple weeks and have an opportunity to see some of these 
conditions firsthand and ask questions. Certainly the testimony 
we are getting here today helps us prepare for that and to make 
sure that we are asking the right questions, which is usually 
more important than the answers, to make sure first you ask the 
right questions to make sure you get the right answers to them.
    Ms. Gianopoulos, I want to pick up a little bit on your 
testimony in relation to what you have seen through your report 
and, in particular, with the social media as well as the 
information campaign being done by the coyotes and others who 
are trying to manipulate information. We know the power of 
misinformation and how folks could use that to get their way 
and to make money and to profit. This Committee has had a 
number of hearings related to the Islamic State of Iraq and 
Syria (ISIS) and the amount of information that they put out to 
recruit individuals and the power of that.
    If you could speak a little bit from your knowledge and 
from your report, what is the U.S. Government doing in terms of 
public information campaigns to get the true information out? 
And, more importantly, how effective are we in actually doing 
that? In past hearings, we have been disappointed by our 
effectiveness versus adversaries. Is it a similar situation 
here? Are we waging effective campaigns? If you could elaborate 
on that, please.
    Ms. Gianopoulos. Thank you, Senator. When we visited the 
countries, as well as when we spoke with U.S. agency officials 
here, we learned about a variety of different information 
campaigns that both DHS and the State Department have engaged 
in over the past few years to try to counter some of the 
misinformation that the coyotes have put out there with regard 
to the dangers of the journey and what is involved and what the 
immigration policy actually is here in the United States and 
what the children and the families would be eligible for once 
they arrived, if they chose to make that journey.
    Our recommendations in our report specifically focus on the 
evaluations that are necessary to ensure that the resources 
being put into these campaigns are meaningful and useful and 
are done at the right times.
    For example, as I mentioned in my oral statement, in 2013 
the public information campaign that was put out there was done 
in April, which was an appropriate time since it was aligned 
with the major surge for the year. Or that was what was 
anticipated. However, in 2014 that effort, that information 
campaign, actually took place starting in June, which was after 
the major surge for that year. So the usefulness or the 
efficacy of that program was brought into question. And then 
DHS and State did not even do an evaluation of their 
information campaigns that year, so they did not even know if 
those campaigns were having any effect or were useful or were 
using the right format or any of that. So our recommendations 
were specific to those agencies, and they did agree with those 
recommendations that in the future they spend some of their 
resources evaluating the efforts that they have taken and the 
resources that they have invested to try to counter that 
misinformation.
    Senator Peters. It sounds as if not a lot is going on as 
well. Not only are we not evaluating what is happening--I am 
looking at this report. It says that DHS--and correct me if I 
am wrong--does not currently have an active campaign, so the 
Department of Homeland Security is not involved. Then I also 
see here that the U.S. Embassy in El Salvador is distributing 
information in the consular waiting area, which--is that the 
extent of what we are doing? Or is there more? Please tell me 
we are doing more than just that?
    Ms. Gianopoulos. When we heard back from the agencies after 
we had given them a draft report to review, we understood that 
DHS was going to engage in an additional campaign, and they do 
expect to do an evaluation of that campaign as they go forward 
to see how useful it is. So we can follow up with that 
afterwards and see how useful that was and if they did do an 
evaluation. But in July, when we issued our report, they had 
just started the campaign.
    Senator Peters. In your prepared remarks, you also 
mentioned that State and DHS are collaborating to implement a 
new in-country refugee and parole processing program that was 
going to start accepting applications in December 2014, which 
is an attempt to focus on legal immigration and to address this 
issue. To the best of your knowledge, how is that program 
performing?
    Ms. Gianopoulos. We would have to get back to you with 
additional information on that.
    Senator Peters. OK. I think that would be important to know 
how that is progressing, so I would appreciate any information 
you have in the future.
    Ms. Gianopoulos. Of course.
    Senator Peters. Mr. Zamora, you mentioned the importance of 
having the political elite buy into these programs, and I 
certainly took great interest in your testimony, and the need 
particularly to increase security, rule of law, and a judiciary 
free from corruption. Walk us through exactly how we can 
accomplish that, in your estimation, given the fact that, in 
your testimony, you also mentioned that I believe up to 20 
percent in some countries is from remittances, so the 
government certainly benefits from folks leaving the country 
and sending remittances back. Given the corruption there, I 
would imagine many of those elites also probably profit from 
the illegal trafficking of individuals as well. What concrete 
steps should the United States take? What resources should be 
put into that? And how do you see that working?
    Mr. Casas-Zamora. Thank you, Senator. There is a limit to 
what any foreign actor can do with regards to this. I mean, 
cleaning up rotten law enforcement institutions is something 
that the country itself has to do. But the one thing that you 
can do in a constructive way is to lay out some conditions, and 
I suppose also, be willing to say something when certain 
behavior is done by the political elites in this country.
    I have the impression that if you are serious about 
establishing the rule of law in any of these countries, the 
idea of introducing indefinite reelection is probably not a 
good idea. The idea of packing the supreme court with your 
acolytes is probably not a good idea.
    So my humble suggestion is that you measure the seriousness 
of your partners, of your political partners in Central America 
by the extent to which they are willing to be serious with 
regard to judicial independence and the autonomy of overseeing 
institutions. The rest is really up to them.
    And the other thing that I would humbly suggest is that 
some of the programs that I mentioned before that can be done 
in the area of law enforcement, they should be done on the 
basis of matching funds from these countries. I am going to be 
very blunt about this, but I do not think that it is fair, 
regardless of the level of responsibility that the United 
States may have on what is happening in Central America--there 
is some responsibility, but the elites in these countries 
should not be left off the hook.
    Senator Peters. And if I may just follow up, and, Mr. Wood, 
too, if you would add, both of you have mentioned that the way 
to have that countervailing force--because, you are right, it 
has to come from within the country--is the strength of civil 
society and of those organizations in there. How would you 
assess the strength of civil society? And is that a primary 
focus for you? How can we best engage that in order to allow 
that sunshine and accountability to come from within the 
country? If both of you could briefly mention how we would 
assess civil society strength and what we need to do to 
strengthen it.
    Mr. Casas-Zamora. It is very difficult to do it in the 
abstract, but I think you can identify champions of reform. 
People on the ground will tell you who is serious about these 
things, and I can give you a few examples of people that defy 
impossible odds; not just from civil society but also from 
within institutions, defying impossible odds has managed to 
promote change: former Attorney General Claudia Paz y Paz in 
Guatemala, an exceptionally brave woman; police reformer Helen 
Mack, in Guatemala, another exceptionally brave individual; 
some of the judges and prosecutors that just recently stood up 
to President Perez Molina in Guatemala; the judges of the 
constitutional court in El Salvador that have been willing over 
the past few years to assert their independence from political 
power.
    All those people are champions of reform, and I think they 
at least deserve the backing of the international community in 
what they are trying to do, which is change their countries.
    Senator Peters. Thank you.
    Mr. Wood. First of all, I would just like to say that in 
all of these cases--and I know everybody understands this, but 
there is no silver bullet. I mean, these are complex--there 
have to be complex solutions, and we have to address it at 
multiple levels.
    On your question on civil society, one of the most 
interesting things I think we have seen in Mexico over the past 
year or so has been the rise of civil society organizations 
that are focused on rule of law but in particular on 
anticorruption issues. And we have seen a number of very well 
respected think tanks actually doing active work trying to 
understand what international best practices are in terms of 
anticorruption and transparency, and they have worked very 
closely with the government to design the new national 
anticorruption system.
    That was brought about because the Mexican Government came 
under intense pressure from civil society to do so, and they 
engaged with academic institutions and think tanks and civil 
society to try to create at least a good legal framework. But 
that is not enough. What you now need is you need the oversight 
and the vigilance of civil society and from foreign governments 
to make sure that that happens.
    As Kevin just said, it is relatively easy to identify who 
the reliable local partners are. You just need to spend some 
time in-country, and the missions, you know, U.S. Government 
missions in-country, should be able to pick up that information 
very quickly by talking to universities and to think tanks 
themselves.
    Mr. Casas-Zamora. Can I just say something really quickly? 
Maybe the takeaway point here is there are people you can work 
with in Central America, and that is very important. It is not 
fair just to, throw up our hands in despair and say, well, we 
are going to waste our money. I think there are good people to 
work with there. There are not many, but identifying those 
champions of reform is certainly possible.
    Senator Peters. Thank you.
    Chairman Johnson. I think the question is can you work with 
the governments, and it is identifying them. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you. Thank you all for your 
testimony today and for what you have done already in this 
process. I, like many others on this panel, have visited the 
Northern Triangle area, have had the opportunity to be able to 
ask questions and be able to walk through both with government 
leaders and see what our government is doing on the ground and 
be able to visit with people there, watch the repatriation 
process as it happens in multiple countries, be able to 
interact, and there is a great deal that can be learned there, 
and it is incredibly complex in the issues that we face.
    I also am one that believes that all people are created in 
the image of God and have value and worth. I think every 
individual is to be respected. So the way that we talk about 
and treat people shows our value for individuals, but also 
reinforces our value, what we believe, that God has put His 
unique stamp on every individual. So we speak about people and 
we treat issues differently when you have that type of 
perspective.
    I do have a couple broad questions. Then I want to take 
things into some specifics.
    We speak often of the Northern Triangle and the complexity 
of the issues there. We do not see the same flood of migrants 
coming in from Belize, from Nicaragua, from Costa Rica, no 
other places in Central America, other places like Belize where 
it is not any farther to go. Why? What can we learn by saying 
we are not seeing this flood from Belize but we are seeing it 
from Guatemala, Honduras, and El Salvador?
    Mr. Wood. If I can just jump on this, we visited Belize 
when we were on our recent tour. We had a visit to border 
management agency facilities on the Mexico-Belize border. What 
we learned there was that there is a political will on the part 
of the Belize Government to actually establish not just order 
but really to gather data. And these are professionals. They 
actually do not have huge financial resources behind them, but 
they are willing to cooperate with their Mexican counterparts.
    Just to give you one example, there is one point on the 
border where there are in fact, two Mexican border posts but 
only one Belize border post. The Belize Government did not want 
to actually spend to build another border post, which is only a 
few miles away. So what they did was they worked with the 
Mexican Government to build a new road that brought both of 
these Mexican border crossings to the one Belize border 
management station right there.
    The highway is walled in on either side, so you cannot sort 
of jump off it and enter the country illegally in that way. And 
when you get to the border crossing on the Belize side, they 
are making an effort to actually gather biometric data on all 
people coming in and leaving the country.
    This is a political will question, and what you do not see 
is you do not see that on the side of the Guatemalan 
authorities. When you cross over from Mexico into Guatemala, 
you see very minimal presence of the State and an absence of a 
will to do anything.
    I will give you one example there. The Mexican Government 
paid for an electricity line to go from southern Mexico across 
the border into Guatemala so the Guatemalan border authorities 
would have access to electricity rather than burning a dirty 
diesel generator, as they were doing before. Three years ago, 
the electricity line was put in place. The Guatemalan 
Government to date has not paid for the enchufe, the socket to 
be put in there so the government agencies can actually use 
that electricity. The Mexican Government is providing that for 
free. They have done it all. That lack of will and perhaps lack 
of capacity is one of the crucial elements of it.
    Senator Lankford. Have you also seen some things in the 
lack of shared data between the countries in the Northern 
Triangle and the United States? How are we doing with records 
and data and individuals that are traveling back and forth? 
Officer Cabrera, do you want to comment on that?
    Mr. Cabrera. Yes, sir. Thank you. We do not really share--
we do not get the information from these countries, from any 
other countries, unless there is an Interpol issue, some type 
of major international criminal----
    Senator Lankford. So when individuals are returned back to 
the country, we are not getting that information from them that 
is in-country data as far as criminal records or any of that 
kind of----
    Mr. Cabrera. For instance, if we get somebody from, say, 
Honduras that comes in, we have no idea what crimes he may have 
committed in his home country.
    Senator Lankford. Even in the return?
    Mr. Cabrera. When we return them back there?
    Senator Lankford. When we return them back. The key is if 
we have apprehended someone and we are returning them back to 
their country, is there no way to be able to complete the 
records to say that those records, now we know more about this 
individual, we have apprehended them, we have our records, we 
obviously are turning that information over to them who we 
think we have, but they are not sharing their information with 
us.
    Mr. Cabrera. No, they are not. As far as we know, as far as 
Border Patrol knows, we do not get that information.
    Senator Lankford. OK. Mr. Zamora.
    Mr. Casas-Zamora. Thank you, Senator. I would just go back 
for a second, if you will allow me to go back for a second to 
the previous question. I think your question hints at something 
that is crucial to understand here, which is that the reason 
why these countries are, say, vulnerable to organized crime is 
not merely an accident of geography. It is not simply due to 
the fact that they happen to be between the main producer of 
drugs and the main consumer of drugs. I mean, there is more to 
that.
    These countries of the Northern Triangle are vulnerable to 
organized crime primarily because their States are just so 
anemic that they are not able in some cases to exert effective 
control over their territory, which is obviously a boon for 
crime syndicates.
    They are vulnerable because their public institutions, 
which are debilitated by corruption, are incapable of making 
the investments that would prevent them from having--I mean, 
one of the tragedies of this story is that these countries have 
25 percent, 30 percent of their young people that are neither 
studying nor working.
    Senator Lankford. Right.
    Mr. Casas-Zamora. And that is a tragedy. I mean, they are 
vulnerable to organized crime because their law enforcement 
institutions have all but collapsed. So, I mean, there is more 
than geography.
    Senator Lankford. There is a lot more to it, and that is 
part of the challenge that we have. We have this belief that 
immigration is only an issue with us. When I was in the region 
not long ago, I was visiting with some of the officials from 
Costa Rica, who I will leave unnamed, who in the course of 
conversation were discussing Nicaraguans will do the jobs that 
Costa Ricans will not do, and that they have immigrants coming 
over from Nicaragua into Costa Rica, and they have to manage 
their border and figure out how to be able to do that and how 
they are actually trying to increase their enforcement in Costa 
Rica to be able to protect jobs for Costa Ricans from 
Nicaraguans coming over.
    So this is not unique to the United States. The challenge 
that we have is to try to find the uniqueness of it. I think 
that is part of the emphasis right now with dealing with the 
Northern Triangle, and what we are trying to do as the United 
States and what we have done for a long time to try to help 
their legal system through the process that, until we get to 
that spot, it does not get better.
    One thing I do want to be able to highlight, though, is the 
social media question on it, because it was my understanding 
when I visited with many families there and individuals over 
there that it was not just they were posting on social media, 
``Hey, I made it''; it is that they were holding up their 
Notice to Appear, taking a picture with their Notice to Appear 
and saying, ``I have legal paperwork here in the United States, 
here I am, come join me.'' Officer Cabrera.
    Mr. Cabrera. Yes, sir. In Border Patrol circles, that 
paperwork is now known as the ``Notice to Disappear.'' Eighty 
percent, 90 percent of those folks will not show up for that 
hearing. And when we have our Commissioner come down or go to 
these countries and say there will be no permisos, yet that 
same day we release people with the NTAs, technically they are 
not called a ``permiso,'' but, in effect, that is what they 
are. We are allowing them to travel further into the country. 
They hit these sanctuary cities where they will never be seen 
again.
    Senator Lankford. Right.
    Mr. Cabrera. And that seems to be the issue. We can talk 
about all these, Ms. Gianopoulos over here, she said there are 
social media issues, and there are. And when you have this 
compounded with the NTAs, we will never see these folks again. 
And unless we are talking about the rule of law in other 
countries, but we are not enforcing the rule of law in this 
country, but we are concerned about helping others enforce 
their rule of law. We need to enforce our rule of law.
    Senator Lankford. Correct. So we are on the one hand 
telling people it is very dangerous to come, do not make the 
trip. On the other hand, individuals that just made the trip 
are sending the message down, ``I made it. And not only did I 
make it, this government gave me a Notice to Disappear,'' as 
you just mentioned, ``I am allowed to stay. I am not going to 
have 2 or 3 years where I carry this paperwork around, where I 
cannot be stopped, basically, I do have legal status basically 
for 2 or 3 years until there is a Notice to Appear.'' Then you 
do not actually appear, and you blend into society, and no one 
actually tries to pick you up at that point.
    So we are sending this double message. We can put a 
commercial out that says it is dangerous, but it is not going 
to compete with someone who says, ``Hey, I am with family in 
the United States and have legal status. What the government 
said you will not get I just did get, and no one is actually 
following up with me on us.'' And the records show from 2012 at 
this point we have actually removed to date 11.7 percent of the 
individuals that came in during that time period from 2012. And 
so we are actually not doing removals, we are not actually 
following up with people, and it has become a big issue.
    So any other final comments on that, Ms. Gianopoulos?
    Ms. Gianopoulos. Yes, Senator. I wanted to make two quick 
comments on the line of questioning that you had over the last 
few moments.
    First of all, when we were in-country, a USAID grantee told 
us they were trying to gather some data on the returnees to the 
countries at the repatriation centers. This is the 
International Organization for Migration (IOM). It is one of 
the grantees who is helping the repatriated folks get back into 
society and find a person, especially if it is children, to 
find someone in the country to come and get them and take care 
of them once they have been returned to one of the Northern 
Triangle countries.
    I also wanted to point out--we talked a little bit about 
the willingness of the individual countries to be partners in 
some of these efforts. One of the things that we found in 
Honduras is that there is a State and the Department of Justice 
(DOJ) effort to try to train prosecutors in order to 
effectively put some of these folks behind bars or at least get 
them into a courtroom and prosecute them.
    There is a program where the Honduran Government is 
supposed to provide prosecutors that would be available for at 
least 18 months to not only be trained but also to effectively 
carry out these duties.
    When we were in-country, we found that though there has 
been prosecutors participating in the program prior to our 
visit, there were no active prosecutors in this program from 
the Honduran side at the time of our visit. Even though State 
and DOJ were working together and trying to get this well-
intentioned program off the ground, there was nobody to train. 
So even though we are putting money into these efforts----
    Senator Lankford. Do we know how much money is being put 
into that effort?
    Ms. Gianopoulos. I can get that information for you, 
Senator. I do not have it off the top of my head.
    But some of the information that we got that was very 
disturbing to us, that even though U.S. agencies are doing 
their best to make some effort and make some inroads into this 
big problem, sometimes the lack of sustainability in the 
country, either by the government or by other factors, is 
inhibiting our ability to do what we need to do.
    Senator Lankford. All right.
    Senator Carper. Senator Lankford, I have asked the Chairman 
if I could just intercede here just for a moment. I am not sure 
which country it is, but in at least one of the three countries 
we are talking about, the criminal elements have targeted 
police and members of police families in an effort to deter 
them from doing their job. And when you hear about prosecutors 
that do not prosecute or folks who will not even show up to be 
trained to be a prosecutor, judges that do not judge, somebody 
is going to kill you or your family, that is pretty good 
intimidation.
    Senator Lankford. OK. Thank you.
    Chairman Johnson. Thank you, Senator Lankford.
    Ms. Gianopoulos, you talked about the marketing efforts on 
the part of America, talking about, you are not going to be 
able to stay, it is a dangerous journey, and all those types of 
things, and the effect of that versus the social media.
    I recall at least hearing from the government officials 
down in Central America that they had their own marketing 
campaign, or at least slogan: ``Hey, these are our kids. These 
are our children. Let us protect them.''
    Was that just a message they were telling us here, or did 
they actually try and convey that? And, again, the fact that 
there was nobody showing up for that training, are they serious 
about that, actually trying to keep their citizens in their 
country?
    Ms. Gianopoulos. Well, we saw some of the posters when we 
visited the repatriation centers. We saw some of the posters, 
not just those from the U.S. agencies but also from the 
individual governments themselves trying to deter folks from 
making that dangerous journey.
    But we also saw some issues, as I mentioned, with the 
Honduran Government without the prosecutors available to 
fulfill their roles in this program. Also, in El Salvador, we 
heard a lot about the lack of economic opportunity for kids 
that either they cannot cross gang territory to go to school 
once they have reached a certain level or else they will, be 
either conscripted into the gangs or raped or whatever. But we 
also heard about some good programs that we saw that the U.S. 
Government is supporting.
    For example, there was a computer training program in El 
Salvador that we went to visit, a beautiful room full of 
computers but there was no computer teacher because the El 
Salvadoran Government had not provided the computer teacher at 
the time of our visit back in March. And we did not know, was 
there someone eventually coming? I mean, certainly we heard 
that there was an intention of someone there to fulfill their 
role and be the partner to the U.S. agencies who had provided 
the infrastructure.
    Chairman Johnson. OK. Again, I am just looking for the 
willingness of these societies to reform to the point where 
their citizens actually want to stay in their country.
    Mr. Casas-Zamora, I think it was in your testimony, you 
talked about how much of their GDP is actually derived from 
remittances from America back to Central America. That is a 
pretty powerful incentive to have more people leave, take 
advantage of the wage differential, take advantage of this line 
of opportunity to fund their economy. Can you speak a little 
bit more to that?
    Mr. Casas-Zamora. Thank you, Senator. That is one of the 
crucial questions here. It is a powerful incentive. I mean, the 
only way to counter that is to generate alternative sources of 
opportunity in the country. And to tell you the truth, that is 
not easy.
    Chairman Johnson. Well, that requires the rule of law. Let 
me just ask you a macro question here. How many people in the 
world do you think want to come to the United States? Just off 
the top of your head, just go right down, how many people 
throughout the world? What is the population now? More than 7 
billion people?
    Ms. Gianopoulos. Despite the fact that I was a math major 
in college, I am not sure I could give you a number.
    Chairman Johnson. It is a lot, isn't it? I mean, that is my 
point.
    Mr. Casas-Zamora. I mean, I cannot possibly for the life of 
me answer that question, but I will give you----
    Chairman Johnson. I was not expecting an accurate answer. 
It was a rhetorical point.
    Mr. Casas-Zamora. But I will give you a number that really 
made my jaw fall to the floor a couple of days ago. A recent 
opinion poll in Honduras said or found that 63 percent of 
Hondurans are willing to leave their country if given the 
chance to. So that in itself is a very powerful number.
    Chairman Johnson. Again, that is not a good State of 
affairs. It is simply not. Dr. Wood.
    Mr. Wood. Yes, the question is an interesting one, but I 
would say that if you gave those same people who want to come 
to the United States the chance to stay in their own country, 
many of them would choose that instead--under the right 
conditions.
    Chairman Johnson. So that is the gold policy. Stop the 
flow, but the way you have to stop the flow is you do need to 
stop incentivizing people to come here.
    Mr. Wood. But look at what has happened in the case of----
    Chairman Johnson. We need to figure out some way to provide 
opportunities, and, unfortunately, without a rule of law, with 
the corruption that is pretty endemic in these nations right 
now, it is going to be difficult, which kind of gets me to my 
next question in terms of nongovernmental organizations. I will 
go to you, Bishop. I have a great deal of respect for the 
Catholic Church. I am a Missouri Synod Lutheran, worked hard, 
helping the Catholic school system in Oshkosh to survive to the 
point were I was actually on the Finance Council of the Diocese 
of Green Bay. I love what the Catholic Church does in terms of 
your charities and globally.
    Talk to me about the ability of the Non-governmental 
organizations (NGOs), Catholic Charities, in order to 
effectively operate without influence, without corruption from 
those governments. How effective can they be? And can we 
strengthen their hand in those countries?
    Rev. Seitz. I think that is part of the answer to these 
difficult problems, is public-private partnerships down there, 
because some of the agencies that are least subject to 
influence by the forces of corruption are church agencies, for 
instance, and other NGO's. We are working very hard in these 
countries through Catholic Relief Services, for instance. We 
have a program called ``Youth Builders'' that tries to provide 
skills to these young people and, more important than that, 
hope that gives them a way to see some future and helps to 
reintegrate those who are returned.
    I think one of the most effective programs that we have 
going is not real visible, but it is the youth programs that 
every single Catholic parish does in these countries. They have 
some incredible youth ministry going on. I think there might be 
some way to connect with these organizations and other NGO's in 
order to provide a safer----
    Chairman Johnson. Part of my point is I am trying to point 
out that Catch-22. I mean, the very people that are leaving the 
country are the very people those countries need to stay in the 
country to make it an acceptable society.
    Rev. Seitz. They are losing their best and brightest.
    Chairman Johnson. Yes, and that is tragic.
    Dr. Wood, do you want to speak to those NGO's and what the 
prospects are of them working effectively within those corrupt 
systems?
    Mr. Wood. Yes. I think that what we are seeing is--we are 
in the middle of a learning process right now about how society 
can hold government accountable. And there is an interesting 
process that we are seeing where governments are being forced, 
partly because of civil society, partly because of 
international media attention, partly because of foreign 
investors--and I would make that point strongly. What we have 
in the United States with the Foreign Corrupt Practices Act, 
U.K. Bribery Act in great Britain, those are very important 
international norms that can have a big impact.
    I have just been witness to the Mexican energy reforms, oil 
auctions. What they have done there in terms of transparency is 
extraordinary. Every single step of the way in the contract, in 
the bidding process, is exposed to sunlight, as it were. You 
can literally--when they announce the bids, the bid is there on 
camera, written and signed by the company concerned. It is 
possible to do these things. The technology exists. What you 
need to have is you need to force governments to actually have 
the will to do that.
    Chairman Johnson. By the way, I do appreciate your use of 
the word ``transparency.'' We were using it in a different 
context earlier. Mr. Casas-Zamora.
    Mr. Casas-Zamora. Thank you, Senator. This is really the 
crux of the matter. The paradox that you alluded to is really 
central. I mean, I think we have to be aware of the risk, the 
real risk that the economic future of the Northern Triangle 
ends up hinging on the ability to continue exporting its young 
people. And that would be enormously sad because truly, as I 
see it today, in the absence of a dramatic change of heart by 
the political and economic elites, these countries will have to 
give up their best hope for the future in order to have any 
kind of future. And there are no easy ways to prevent this, but 
I think the question of economic opportunity is really at the 
heart of this.
    Chairman Johnson. First of all, my manufacturing background 
forces me to go to root cause and acknowledge those realities. 
And it may be counterintuitive, but probably the most 
compassionate thing we can do--and, again, the goal we should 
be achieving is to stop the flow because it is--in the long 
term, it is the most compassionate, it is the best thing to do. 
To have those countries empty 60-some percent of the 
populations, on a compassionate basis, flowing to the United 
States, that would not be good for those countries long term.
    So, again, I am just trying to look at that overall macro 
point that somehow--and it is extremely difficult--somehow we 
have to try and get those societies to succeed and recognize 
all the problems.
    Bishop, I will let you have the last word before I turn it 
over to Senator Carper.
    Rev. Seitz. I am glad you are looking at the macro issues. 
I think we need to. But we also need to look at the root causes 
if we are going to deal with the macro. We cannot simply say, 
well, for this overarching goal we have to send children back 
without due process, without representation, back into 
situations that they are fleeing from, fleeing for their lives. 
And that seem very clear to us that is exactly what is 
happening.
    Chairman Johnson. I think that is when we start talking 
about where should aid flow. Maybe it should be flowing into 
those countries to provide and support those types of--again, 
this is, obviously, from this hearing an incredibly complex, 
incredibly difficult problem. Senator Carper.
    Senator Carper. Thank you. I am going to telegraph--in 
baseball, they say a pitcher telegraphs his pitch or her pitch. 
That tells you what kind of pitch he is going to throw. I am 
going to telegraph my pitch and say that the next question, not 
this first one but the next question I ask, is: Where do you 
think there is agreement among members of this panel as to the 
priorities for us going forward, us, our government, to an 
extent this Committee? But where do you think there is 
agreement, consensus? And one of the things I love--this is a 
great Committee hearing and a great panel, but I want you to 
think about where is the consensus for us to go forward. So 
that is going to be my second question.
    The first question I would ask, for Mr. Casas-Zamora and 
for Bishop Seitz, and it has been alluded to, but we know that 
there has been violence in these countries for years. I was 
sent down when I was a House Member many moons ago by our 
Speaker, Jim Wright from Texas, and he sent about half a dozen 
U.S. Representatives to Costa Rica to attend a summit of Latin 
American Presidents. And we heard from any number of the 
Presidents there about the violence in their own countries. So 
we know that violence in that part of the world is not 
something that is new.
    But if you could, just to help us understand the migration 
surge over at least the last couple of years, just explain for 
us the ways in which the violence may have changed in the 
Northern Triangle. In particular, how is it affecting kids?
    Mr. Casas-Zamora. Thank you, Senator. Well, I will start 
with the obvious. None of these countries has ever been 
Denmark, right? But I think it is very clear from the figures 
that at least criminal violence--they used to have a lot of 
political violence, and that subsided after the peace accords 
and all that. But the level of criminal violence that we are 
witnessing today is unparalleled. It is unparalleled. It is 
unprecedented and unparalleled. It is unprecedented because the 
homicide rates that we are seeing in countries like Honduras 
and this particular year in El Salvador really, are of a level 
that has not been seen even in Colombia in its darkest days. So 
there is a big difference there, and that you do not see 
anywhere else in the world. The current intensity of the 
problem is really beyond doubt.
    As to how this affects children, well, in all sorts of 
ways. I mean, I would guess that a fearful society as these 
societies are is not a good place to raise children, is not a 
good place to educate children. And, by the way, States that 
are anemic in terms of their revenue are not able to do the 
most basic things. They are not able to provide an education to 
all these kids. And as long as they do not have an opportunity 
to get an education, as long as they do not have an opportunity 
to get proper job training, they are going to fall for the lure 
of organized criminal syndicates.
    So, it is a very difficult situation.
    Senator Carper. Thank you. All right. Where is there 
consensus for us, for our country, for a path forward? Please, 
Bishop Seitz.
    Rev. Seitz. If I might at first just add----
    Senator Carper. Just very briefly.
    Rev. Seitz. It was mentioned earlier why is there such a 
difference between these three countries and the others 
surrounding them? Nicaragua may be poorer. Again, the violence 
is the difference, and so we have to be alert to that. It is 
something we cannot even as Americans really identify with. 
Even the schools are taken over very often in Honduras and El 
Salvador by the drug gangs. They are in charge. They can get 
payments from the teachers and so on. It is just hard to 
imagine, and not hard to understand why they would flee. And 
how can we even begin to calculate the economic impact?
    Senator Carper. All right. Thank you.
    Rev. Seitz. So we are certainly in agreement that it is 
better to create a better situation in these countries so that 
they do not need to flee. I hope we are also in agreement that 
we need to make sure that the basic human rights of those who 
are fleeing and have legitimate asylum claims should be 
respected.
    Senator Carper. Thank you.
    Is it Dr. Wood or Mr. Wood?
    Mr. Wood. I have a Ph.D. Whatever you want to call me.
    Senator Carper. All right, Doc.
    Mr. Wood. Thanks. I think we have come to more or less a 
consensus here on this panel that this is a very complex 
problem and it requires a very complex solution, a 
multidimensional approach. Enforcement alone is not going to do 
it. Aid alone is not going to do it. Governments alone are not 
going to do it. And that is the only way that I see is we are 
actually going to make real progress on this, is by looking at 
all of the factors and trying to work on a comprehensive 
solution to this.
    Senator Carper. All right. Thank you. I will just ask this 
rhetorical question, but I wonder if--you call it the Alliance 
for Prosperity. I wonder if that is sort of a comprehensive 
approach. It sounds to me like it is intended to be. Mr. Casas-
Zamora.
    Mr. Casas-Zamora. Yes, I mean, I would echo what has just 
been said. I would only hope that we are also in agreement that 
there has to be buy-in from political elites in these 
countries----
    Senator Carper. In Colombia. I have been told repeatedly 
that was one of the keys in Colombia.
    Mr. Casas-Zamora. For any external effort to have an impact 
in the way you want it to have an impact.
    Senator Carper. Thank you.
    Mr. Cabrera, one of the things you said, Chris, that really 
resonated with me--and it was in your testimony; I read it, and 
then you said it again--is when you have a large group of 
particularly young people, young families trying to get across 
the border, they can take--literally, like capture a whole 
bunch of your people and sort of freeze up--at least on the 
rest of the border, they are just unprotected, unguarded. That 
is a really good takeaway from you. Go ahead.
    Mr. Cabrera. Yes, Senator. Thank you. I think for me, I 
think we should all be in agreement on the health and safety of 
these children that are coming across as well as the 
preservation of their innocence. I think where we are differing 
here is how to attack that point right there. It is a very 
dangerous trip. And I think that is at the core of the problem, 
at least in my eyes. I am a father. I see these children every 
day, and, quite frankly, it strikes a nerve with me to see what 
these children have to go through.
    And as the Bishop mentioned a few minutes ago, legitimate 
asylum claims, I think that is the key, is the legitimate 
asylum claims. All too often we are seeing people come across 
with rehearsed stories of asylum claims, and there are a lot of 
people that have legitimate asylum claims. But when you have so 
many, you get desensitized, and so many people are claiming it 
that it is watering down the word ``asylum.''
    Chairman Johnson. Let me quickly jump in here, because we 
went down to the border, and what the Border Patrol has done is 
really extraordinary in reaction to this. The humanity that you 
have, having to grapple with an incredibly difficult problem, 
the agents down there really are doing an extraordinary job, 
and I am sure Senator Carper would agree with me on that. I 
just wanted--as long as you were making that point, I wanted to 
point that out. We truly appreciate that in terms of what you 
have done.
    Mr. Cabrera. Thank you.
    Senator Carper. Ms. Gianopoulos.
    Ms. Gianopoulos. I would say we have quite a number of 
different opinions on the mechanisms and factors that would go 
into a successful campaign. But what I think is consistent is 
that we all want the campaign to meet its policy goals. And in 
order to do that, we need to go back and check after we have 
taken these steps and after we have invested these resources to 
make sure that the goals that we have established are the right 
ones, the ones that Congress wants to achieve, and that 
whatever actions are being taken by the U.S. agencies are 
actually moving us in the direction of those goals. And if they 
are not, then we need to change course in order to meet those 
goals in the future.
    Senator Carper. Sort of a way of saying what you do not 
measure you cannot manage, and there was a guy named Vince 
Lombardi--what was that team that he coached? Some team up in 
Green Bay. He used to say that if you are not keeping score, 
you are just practicing.
    Ms. Gianopoulos. And if you do not have a map, you do not 
know where you are going.
    Senator Carper. We could do this all day. [Laughter.]
    Thank you all you have been a terrific panel. Thank you so 
much.
    Chairman Johnson. Thank you, Senator Carper. And we may 
have just done this. We normally give the witnesses a last 
opportunity to say something to kind of summarize things. But 
we will do it again because Senator Carper had a little more 
specific question. So we will start with you, Bishop, and just 
kind of go right down the line before we close out the hearing.
    Rev. Seitz. Once again, I thank you very much for this 
opportunity. I am really delighted we have looked at the in-
country situation with the focus that it deserves. We have not 
spoken a whole lot about the situation in Mexico. I am 
concerned that while this is, in many ways a huge initiative on 
their part, we really need to look at the potential for abuses 
in the way that they are responding, because these children 
deserve an opportunity to tell their story and for due process 
as offered by international law.
    We need to see ourselves, as we have been in the past, a 
moral beacon in the way that we respond to these refugee 
situations. There are other countries that have received so 
many more than what we are looking at here, up to half of their 
population in refugees in the Middle East. And if we balk at 
our responsibility in this small case, it is difficult for us 
to make a claim.
    I would also encourage us to look at ways that we can 
protect the rights of children who arrive here also. I know it 
is complicated, but they are going to be hesitant to tell the 
whole story of the violence they have experienced. That has 
been my experience. You have to get to know them. And a person 
in a uniform is not necessarily going to be trusted, even 
though in our country they should ordinarily be. That has not 
been their experience in their home country. We need to give 
them a good opportunity to truly assess their situation and 
give them representation. That is the best way, by the way, 
that we can assure that they will appear in court.
    Chairman Johnson. Thank you, Bishop. Dr. Wood.
    Mr. Wood. Thank you. Let me just focus my closing comments 
on the case of Mexico, because I think the Bishop makes a very 
good point here. It is an impressive advance that has happened 
in Mexico. It is a work in progress. Abuses have gone up, 
obviously. That is in large part, I would argue, because of 
increased interaction between authorities and migrants, opening 
the door for those kind of abuses.
    I think there is a great deal that can be done in terms of 
U.S.-Mexico cooperation and sharing the experiences, some of 
the very positive experiences on the U.S.-Mexico border, 
showing how migrants are treated in the United States, and 
basically I would say focus on due process.
    One of the incidents that we saw in Mexico at a detention 
center was that we asked how migrants were registered when they 
were brought in, and we were told there is no computer system 
at this holding facility, it occurs at the bigger facility. And 
I said, ``Well, they are in your hands for a couple of hours. 
How do you actually maintain those records?'' They said, ``Oh, 
we have forms that we fill out.''
    So the guy shows me the form, and the form actually had all 
the usual questions, name, place of origin, et cetera, et 
cetera, thumbprints. But there were some questions that were 
already filled out, that were already answered on that form, on 
a supposedly blank form. One of them was, ``Are you claiming 
refugee status?'' And it said, ``No.''
    Now, those are the kind of things of due process that I 
think we have to be very vigilant about, and we have to push 
the Mexican Government to make sure that they are doing what 
they should be doing to give people fair treatment.
    Chairman Johnson. Thank you, Dr. Wood. Mr. Casas-Zamora.
    Mr. Casas-Zamora. Thank you so much, Senator. It has been a 
pleasure and an honor to be part of this hearing.
    I think the United States can and perhaps should play a 
very important role in helping these countries help themselves. 
I think the Alliance for Prosperity is a good way to start. I 
hope that it leads to a more permanent engagement of the United 
States, reengagement of the United States with the region. But 
I would also say that you should not lose sight that it is 
ultimately the responsibility of the countries themselves to be 
serious about reform, and that has a very practical 
implication. Do not let the political elites of these 
countries, the political and economic elites of these countries 
off the hook--the political and economic elites that have made 
a hash job in running these countries. And that means that the 
task of nudging them toward enacting robust, progressive tax 
systems, which they do not have, and the task of making sure 
that they protect judicial independence and protect the 
autonomy of overseeing institutions are really essential.
    And my humble suggestion is that the United States should 
not be shy about demanding those structural changes. Thank you.
    Chairman Johnson. Thank you. And, of course, you are 
describing the strings I would be talking about for any kind of 
financial aid. Agent Cabrera.
    Mr. Cabrera. Thank you, Senator. As you know, I am a law 
enforcement officer and I am paid to enforce the law. The 
taxpayers expect me to enforce the law. However, the powers 
that be are prohibiting us Border Patrol agents from enforcing 
those laws.
    We keep talking about waging a campaign. If we are waging 
this campaign, we are not doing a very good job. The only thing 
we are succeeding in doing is giving credence to the smugglers, 
the coyotes. We are giving credence to their campaigns by 
letting people go. And until we can enforce what we have on the 
books and send a clear message, not a double-sided message, 
then we are going to continue in the process that we are going.
    Chairman Johnson. Thank you, Agent, for your service as 
well.
    Mr. Cabrera. Thank you, sir.
    Chairman Johnson. Ms. Gianopoulos.
    Ms. Gianopoulos. Thank you for the opportunity to testify 
today. As I was just mentioning a few moments ago, it is 
important for us--we talked a lot about social media here today 
at the hearing. It is important for us as the U.S. Government 
and our agencies and our practices that we keep in mind that 
things are changing. They are changing continuously, whether it 
is the use of social media, the misperceptions about 
immigration policy, or what have you. So we need to as the U.S. 
Government continually provide oversight and evaluation for 
what it is that we are doing to try to combat some of these 
concerns and the flow of migrants, especially migrant children, 
into the United States. So continuously looking back to see: 
Are we doing what we said we wanted to do? Are we reaching the 
goals, the policy goals, the procedural and program goals that 
we have established for ourselves? And if not, then we need to 
change course or make adjustments. And hearings like this and 
other hearings that the Committee has had are perfect tools and 
operations to be able to allow the U.S. Government to do that.
    Chairman Johnson. Thank you. And, again, thank you for the 
time you have taken, your thoughtful testimony. I think we are 
looking at the reality. I think we are very seriously exploring 
these issues and laying out how difficult the problem is. But 
that is no reason to shy away from making sure we understand 
what the full extent of the problem is.
    Again, thank you all. The hearing record will remain open 
for 15 days until November 5 at 5 p.m. for the submission of 
statements and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:39 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                    AMERICA'S HEROIN EPIDEMIC AT THE
                   BORDER: LOCAL, STATE, AND FEDERAL
     LAW ENFORCEMENT EFFORTS TO COMBAT ILLICIT NARCOTIC TRAFFICKING

                              ----------                              


                       MONDAY, NOVEMBER 23, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                       Phoenix, AZ.
    The Committee met, pursuant to notice, at 8:59 a.m., in the 
Historic Senate Chamber, Arizona State Capitol Museum, Third 
floor, Hon. Ron Johnson, Chairman of the Committee, presiding.
    Present: Senators Johnson, McCain, and Flake.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing of the Senate 
Committee on Homeland Security and Government Affairs is now 
called to order.
    I want to thank the State of Arizona, Governor Ducey, and 
my colleagues, Senator Flake and Senator McCain, for inviting 
us here and discussing an incredibly important topic: The 
security of our border, an enormous problem facing this Nation.
    The title of this hearing is ``America's Heroin Epidemic at 
the Border: Local, State, and Federal Law Enforcement Efforts 
to Combat Illicit Narcotic Trafficking.''
    When I became chairman of this Committee in January of this 
year, one of the top priorities of the Subcommittee was really 
border security, and this is our 13th hearing, trying to lay 
out the reality of the situation.
    I was talking to the Governor earlier. And coming from the 
business world, particularly in my case, manufacturing, I have 
solved a lot of problems. And there is actually a process to go 
through solving a problem. It starts with laying out the 
reality of the situation. And based on that reality, you set 
yourself up with achievable goals. Then you start to design the 
strategies.
    We have an enormous problem in this Nation. What is my true 
definition of a problem? One that does not have any solutions. 
It is multi-faceted, multi-cause. One thing I will say, having 
spent now the better part of the entire year fully exploring 
this with hearings, with trips to the border, with trips to 
Central America, there are multiple causes. I think a number of 
Members on the Committee would agree with me on this--the root 
cause of the fact that we do not have a secure border is 
America's insatiable demand for drugs, because that demand has 
given rise to the rise of the drug cartels.
    And I always point out, the drug cartels, it is a business. 
And they have learned to expand the product line. They have a 
smuggling route, and then they begin, to think well, let us 
just use that for human trafficking, sex trafficking. They 
start using economic migrants as diversion for their illicit 
drug trafficking. So it is an enormous problem.
    I know I am making no big statement. I will ask that my 
brief opening statement be entered into the record\1\ without 
objection. And also that Senator Kelly Ayotte's statement also 
be entered into the record.\2\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 1961.
    \2\ The prepared statement of Senator Ayotte appears in the 
Appendix on page 1964.
---------------------------------------------------------------------------
    We held a hearing up in New Hampshire where she was in 
charge of that hearing as the chairperson, describing the 
problem of heroin overdoses in New Hampshire. It starts: In 
2008, in New Hampshire there were 16 overdoses from heroin. Now 
there's nearly 250 overdoses reported in 2014.
    And in Wisconsin, very similarly, between 2000 and 2007, 
Wisconsin averaged about 29 heroin overdoses; already 200 in 
2014. I think we are on pace, unfortunately, to break that 
record in 2015. So this is an enormously difficult problem. And 
it is one that we have to face.
    We have a very distinguished panel, two panels of witnesses 
here, including the Governor of the State of Arizona. I really 
do appreciate everybody's attention to this matter.
    I am really looking forward to hearing our witnesses, lay 
out that reality. And, again, it is a harsh reality. It is not 
fun to look at, and we are going to have a number of things we 
have to do to start solving them.
    So with that, I will turn it over to my distinguished 
colleague, Senator McCain, for his opening statement.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. I want to thank you, Senator Johnson, 
Chairman, Homeland Security Committee, which in my duty you 
have done an outstanding job. And this is one, as you 
mentioned, series of hearings that the Committee has had in the 
Senate trying to address this very serious issue. And I thank 
you for leaving sunny Wisconsin to come here to join us in 
Arizona.
    Chairman Johnson. It was sunny, a little chilly.
    Senator McCain. Yes, what, 10?
    Again, I want to thank you for agreeing to hold this field 
hearing in Arizona. As we will soon see here from the witnesses 
today, our State has the dubious distinction of being the 
primary entry point of trafficking corridor and distribution 
hub for drugs transported from Mexico to the United States by 
the Sinaloa Cartel.
    We have made progress in securing our border. There is no 
doubt about that. Reduction in apprehensions over the past few 
years demonstrate the effectiveness of the men and women in the 
Border Patrol that they have had in preventing illegal entry of 
people crossing our border. Increased surveillance towers and 
other technologies will only increase that effectiveness.
    But clearly, we are losing the war with the transnational 
criminal organizations (TCO) that traffic illicit narcotics 
into our country. But the demand for these drugs--heroin, meth, 
cocaine--is too high, and the profits the cartels make are too 
great to simply arrest our way out of this problem.
    We must improve our drug interdiction strategy, but we must 
also do what is possible to reduce the demands for these drugs. 
A front to Arizona is not just as a drug corridor. These drugs 
stay in our State, poisoning our children, and doing great harm 
to our communities. Deaths in overdose from heroin are 
skyrocketing.
    According to the Arizona Department of Health Services, 
heroin-related deaths increased from less than 50 in 2004 to 
almost 200 in 2014. The reality is, Customs and Border 
Protection (CBP) cannot interdict 100 percent of these drugs at 
the border or at our ports of entry (POE). That is why it is 
critical we use our intelligence capabilities and strengthen 
partnerships between Federal, State, and local law enforcement 
to combat these drug traffickers as a cohesive unit.
    Border Patrol has long used the term, quote, ``defense in 
depth'' to describe its strategy to locate and track illegal 
entries, using the terrain to the agent's advantage. But 
defense in depth should also apply to the coordinating efforts 
when partnering the State and local law enforcement 
interdicting narcotics away from the border.
    That is why I am intrigued by the Governor's plan to create 
a new drug interdiction strike force, setting up a dedicated 
effort, working as a true partner with Federal and local law 
enforcement to intercept narcotics on the highways and byways 
before it hits the streets.
    Finally, while the focus of this hearing is heroin 
trafficking, the transnational criminal organizations that are 
bringing these drugs into the United States do not limit 
themselves to the trafficking of narcotics. They control the 
smuggling routes and routinely trafficking humans, currency, 
and other illicit activities.
    There have been several recent cases of special interest 
aliens from Afghanistan, Pakistan, and other countries being 
smuggled into the United States by Mexican nationals. No one 
crosses the border without these cartels' permission. It is a 
certainty that they have knowledge of and are complicit in 
smuggling these special interest aliens into the country which 
is worrisome.
    I thank the Governor for his leadership. I thank the 
witnesses today.
    The Honorable Gil Kerlikowske, thank you for being here. I 
know you have a very busy schedule. But to have the top guy 
here is very important.
    We welcome Frank Milstead and the great job he and his 
people do.
    And our distinguished Maricopa County Attorney, Bill 
Montgomery.
    I thank all of you for being here today.
    And, Governor, I specially want to take note of your 
leadership on this issue. And it is very important. And I think 
that it can lay the groundwork for a greater cooperation and 
work together between the State, local, and Federal 
authorities. That can only happen under your leadership. Thank 
you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator McCain. Senator Flake.

               OPENING STATEMENT OF SENATOR FLAKE

    Senator Flake. Well, thank you. I just wanted to thank you, 
Chairman Johnson, for coming out.
    This heroin epidemic is a big and growing problem as we 
have seen in the statistics. And, obviously, Arizona, given its 
position along the border, it becomes extremely important here. 
We have to have increased and better cooperation, better 
government, State, local, and county authorities. And so that 
is what this is all about. And I appreciate the focus that is 
been put on this. Appreciate being here.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Flake I did fail to mention based 
on those 13 hearings, we are releasing today the State of 
America's Border Security Report, over a hundred pages, pretty 
well laying out that reality, which I think, is the first step 
of solving that problem.
    So the tradition of this Committee is to swear in 
witnesses, so if you will all rise and raise your right hand.
    Do you solemnly swear the testimony you will give before 
this Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Governor Ducey. I do.
    Commissioner Kerlikowske. I do.
    Mr. Montgomery. I do.
    Colonel Milstead. I do.
    Chairman Johnson. Our first witness will be the Honorable 
Governor Douglas Ducey. Governor Ducey is the Governor of the 
State of Arizona. He began his career in the private sector 
where he helped launch Cold Stone Creamery, which under his 
watch grew from a local ice cream scoop shop to over 1,400 
locations.
    In 2008 and 2009 Governor Ducey, alarmed by the State 
economy and the massive spending debt the government was 
incurring, sought public office and was elected on November 2, 
2010, as Arizona's 32nd State Treasurer. After serving out this 
term, he was elected Governor. Governor Ducey.

TESTIMONY OF THE HONORABLE DOUGLAS A. DUCEY,\1\ GOVERNOR, STATE 
 OF ARIZONA; ACCOMPANIED BY COLONEL FRANK MILSTEAD, DIRECTOR, 
              ARIZONA DEPARTMENT OF PUBLIC SAFETY

    Governor Ducey. Chairman Johnson, good morning. Welcome to 
Arizona.
---------------------------------------------------------------------------
    \1\ The prepared statement of Governor Ducey appears in the 
Appendix on page 1966.
---------------------------------------------------------------------------
    Senator McCain, Senator Flake, thank you for the kind 
words, and I look forward to talking with you this morning.
    Commissioner Kerlikowske, Bill Montgomery, Sheriff Dannels, 
and everyone joining me today to give testimony, thank you for 
your commitment to addressing and reversing a very severe and a 
very real problem in Arizona and in our country.
    We are here today because our Nation is plagued by a 
destructive, dangerous, and deadly epidemic. Heroin trafficking 
use, abuse, and overdose is a growing problem in American 
society. It is influencing and infiltrating our children's 
schools. It is tearing apart families. It is spurring crime and 
creating criminals.
    It is driving up costs related to drug enforcement, courts, 
incarceration, treatment programs, medical care, and other 
unseen expenses to our taxpayers. And that is nothing compared 
to the human toll.
    There is no dollar sign on the life of a father, a mother, 
a sibling, a child, or a spouse cut short by drug abuse. There 
is only anguish and anger.
    We have come face to face with a very sad, very scary 
reality. Heroin is no longer someone else's problem. It is our 
problem. It is Arizona's problem. It is America's problem. And 
Arizona is the front door.
    It is not news to any of us that Arizona has been and 
continues to be a major smuggling corridor and distribution hub 
for illicit drugs being supplied to the United States. We share 
roughly 370 miles of continuous international border with 
Mexico. The area consists of rugged terrain that makes it 
extremely difficult to patrol and secure, a prime environment 
for trafficking activity.
    Right across our border is home to the Sinaloa Cartel, a 
transnational drug trafficking organization (DTO) with a 
stronghold in the region. Unless we act and act soon, these 
cartels and the poison they are bringing to our communities are 
not going anywhere.
    Let us look at the facts. From 2010 to 2014, heroin 
seizures increased 223 percent in Arizona. Why? Sadly, because 
prescription opiate drug abuse often leads to heroin addiction, 
and that is because heroin's a cheaper, quicker, and more 
intense high. The effects have been staggering. In 2015, drug 
apprehension efforts in Arizona resulted in 5,282 drug-related 
arrests. An arrest for heroin alone increased 76 percent over 
the past 2 years, which constitutes the largest rate of heroin 
arrests in a decade. Studies have also shown heroin treatment 
admissions increased approximately 77 percent from 2008 to 
2012.
    And here is why it should matter to all of us. The impact 
of heroin reaches far beyond user and supplier.
    It is having a cumulative effect on the standard of living 
in Arizona and throughout our country.
    More than 75 percent of inmates in Arizona's prison system 
have a substance abuse problem. There are more than 17,000 
children who are wards of the State because their parents are 
unfit to raise them. If we found them all homes tomorrow in 
foster care, there would be thousands more waiting right behind 
them unless we address the corrosive nature of drug addiction.
    Babies, newborns exposed to substances rose from 597 cases 
in 2008 to 1,248 in 2014. That is a 109 percent, more than 
double, increase in just 6 years. Each one of these is a 
tragedy, a terrible, preventable tragedy.
    There is no shortage of the harmful effects of heroin and 
illicit drug trafficking in our communities. Some of these 
damages can not be undone, but they can be prevented in the 
future. It is up to us right now to act. And we are taking 
action by aggressively targeting the supply.
    As we know, Arizona is ground zero in the fight against 
drug trafficking, a direct nexus through which these cartels 
are infiltrating our States and ravaging communities in every 
corner of our country.
    That does not sit well with me, which is why we are taking 
action and why I have created the Arizona Border Strike Force 
Bureau.
    Here are the highlights: The mission of the Border Strike 
Force Bureau is to partner with local and Federal agencies to 
deter, disrupt, and dismantle criminal organizations 
responsible for smuggling drugs and humans into Arizona. The 
success of the bureau is founded upon strategic partnerships we 
have created at all levels.
    The most significant so far have been with U.S. Customs and 
Border Protection and the Cochise County Sheriff's Office.
    I want to take a moment to acknowledge Commissioner Gil 
Kerlikowske and Sheriff Mark Dannels for their willingness to 
partner with the State of Arizona to the Border Strike Force 
Bureau. In a State like Arizona, the cost of combating drug 
cartels alone would be too large to bear. A successful long-
term strategy to take the fight to the cartels requires 
multilayered collaboration and cooperation, intelligence 
sharing, better communication. All of these serve as a force 
multiplier that is magnifying our individual efforts.
    This strike force has been in operation for a little over 2 
months utilizing these partnerships, and our successes speak 
for themselves.
    Since September we have seized over $2.2 million in cash, 
multiple firearms, nearly 4,000 pounds of marijuana, 73 pounds 
of meth, nearly 19 pounds of heroin. It is important to note 
that in 2014, Arizona and DPS seized 14 pounds of heroin total. 
And we have seized nearly 19 pounds in just the last 2 months.
    To paint a picture of how much that really is, there are 
45,000 individual hits to one pound of heroin. We have made 
over 150 felony arrests and 30 misdemeanor arrests. We have 
taken down 14 documented gang members and over 70 undocumented 
aliens. And we have done it in just a short time with a short 
list of personnel, scarce resources, and through minimal 
targeted operations. It was important to build a partnership, 
prove the concept, and to get some wins.
    Now imagine what we could do with more. This is a 
significant concrete example of what we can accomplish when we 
take a multilevel, collaborative, and cooperative approach to 
dealing with public safety. It is also a loud wake-up call that 
our current strategies have fallen short. We need a plan that 
is robust, that leverages resources, manpower, and money from 
local, State, and Federal levels.
    I have spent a lot of time meeting with ranchers, families, 
law enforcement, and residents near the border. I know you all 
have as well. The greatest concerns among them are the cartels 
and the traffickers in a place where they live and work and 
raise their family. Border-related crime is a frequent 
occurrence. If there were ever a time to get serious about 
protecting our homeland, it is now.
    In addition to the drug epidemic, I would be remiss if I 
did not mention another potential threat to our country as a 
result of Arizona's border. In light of the horrific terrorist 
attacks in Paris, new threats on the United States from ISIS in 
a video released last week and recent apprehensions of Middle 
Eastern nationals near the Southern Border, one thing's for 
sure: It is time to step up our game.
    On behalf of the citizens of the State of Arizona, I want 
to thank Commissioner Kerlikowske and his hard-working, 
talented, and dedicated team who made these apprehensions last 
week.
    After what we have seen in the past couple of months with 
the Border Strike Force, I am encouraged about our partnership. 
I believe this is the most meaningful step toward securing 
Arizona that we have seen in decades. But more vigilance, 
collaboration and resources are needed if we are going to be 
successful in keeping our State and our citizens safe.
    As Governor of Arizona, I took an oath of office to protect 
Arizona and our country. Arizona must hold the line for the 
sake of every State, every community, and every family in this 
country, and we intend to do so. But we can not do it alone.
    Arizona can do a lot, and we will, to combat this epidemic, 
to slam the door on these cartels and to protect the safety, 
security, health, and quality of life for our citizens. But we 
need your help. This is not just Arizona's problem. It is 
America's problem. And it is going to need to be met with 
State, local, and Federal resources: More funding, more assets, 
more planes, helicopters, radios, and equipment added to our 
arsenal. More personnel, troopers, analysts, pilots, people to 
gather intelligence on these criminals, and people to take them 
down.
    Ask yourself: What is our primary duty, our highest 
priority as elected officials?
    The answer should be defending our homeland and protecting 
our citizens.
    For the first time in recent memory, we have a plan that 
can yield real, meaningful results in this effort. We are ready 
to do something about this problem, and we are ready to do it 
now.
    This could mean the difference between saving one life or 
countless lives, bringing down one criminal or an entire 
cartel. It could mean preventing a tragedy in Arizona or 
somewhere else.
    Data shows that from 2012 to 2014, there were at least 458 
drug seizures in 30 other American States with a nexus back to 
Arizona. I ask you, as Federal representatives of the people, 
to deliver Arizona's message to Congress. If you are serious 
about taking the fight to drug cartels and turning the tide on 
the drug epidemic ravaging our Nation, join us. Arizona is on 
the front line, and we need your support.
    Thank you.
    Chairman Johnson. Thank you, Governor Ducey.
    Our next witness is Commissioner Gil Kerlikowske.
    Commissioner Kerlikowske is Commissioner of U.S. Customs 
and Border Protection, at the U.S. Department of Homeland 
Security (DHS). Commissioner Kerlikowske is also the former 
director of the Office of National Drug Control Policy (ONDCP). 
Commissioner Kerlikowske has four decades of law enforcement 
and drug policy expertise. And it's also his birthday today.
    So welcome. Happy birthday. And we look forward to your 
testimony.

TESTIMONY OF THE HONORABLE R. GIL KERLIKOWSKE,\1\ COMMISSIONER, 
U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Commissioner Kerlikowske. Thank you, Chairman Johnson, 
Senator McCain, Senator Flake. I appreciate the opportunity to 
be here and discuss this important hearing. I testified at 
Senator Ayotte's hearing in New Hampshire. I think it speaks 
volumes when you are having a hearing on this issue from New 
Hampshire all the way to Arizona on the southwest border.
---------------------------------------------------------------------------
    \1\ The prepared statement of Commissioner Kerlikowske appears in 
the Appendix on page 1971.
---------------------------------------------------------------------------
    Chairman Johnson. Commissioner Kerlikowske, if you could 
move your microphone up.
    Commissioner Kerlikowske. And I think this really speaks 
volumes about the difficulties of the problem and the fact that 
the heroin issue is so wide ranging.
    On a typical day, Customs and Border Protection seizes 
about 6 tons of illegal drugs. For the past several years, our 
heroin seizures have been increasing. Last fiscal year (FY), 
they increased 23 percent. So far to date, they have increased 
about 17 percent.
    Now, while the vast majority of heroin entering the United 
States comes in through the southwest border, it does so 
through the ports of entry. We have a variety of sophisticated 
technology and people, the use of canines and others. I would 
tell you that the most important thing and the most impressive 
thing I have seen is the resulting of these seizures.
    It is between two areas. One is the quality of our people. 
They are very good at spotting everything from drugs coming in 
through cut flowers at Miami airport, to internal carriers at 
JFK, to taking apart cars at the border, use of the canines. 
But it is also, as the Governor mentioned, and Senator McCain 
mentioned, it is also the collaboration and the importance of 
that collaboration with State and local partners.
    These continued efforts are important to intercept 
narcotics at the border, and they are a key aspect of 
addressing the crisis. But we clearly, all of us, recognize 
that merely doing interdictions and arrests is not going to be 
enough to solve this heroin epidemic.
    When I got out of the Army in 1972 and joined the police 
department, several years later became a narcotics detective, 
several years later, commanded a narcotics unit. And then was 
police chief in two of the nation's largest cities, along with 
being the President's drug policy advisor, and now with Customs 
and Border Protection, I have had some real experience with 
this issue.
    We have skipped a generation of young people that are naive 
about the dangers of heroin; and as we all know, as we have all 
been talking about, it is making a strong resurgence.
    Secretary Johnson's Southern Border and Approaches Campaign 
is important in the creation just recently of the three joint 
task forces (JTF) using all of the DHS components as a 
particular step forward, and it moves to increase our 
collaboration across the border with State and local law 
enforcement.
    I want to commend the Governor and certainly Colonel 
Milstead for the work that Arizona is doing. We have been 
involved, and they have kept us involved in all of the 
different discussions on this new strike force. We could not be 
more proud to be a partner and to be collaborative on that.
    I am also pleased that the Office of National Drug Control 
Policy and the Department of Justice (DOJ) have a National 
Heroin Task Force that they jointly chair. We also do a lot of 
training for the private sector, because they are an important 
partner in all of this. So when you have people that are 
driving the trucks and operating the rails and operating in the 
maritime environment, the more that we can educate them about 
what smugglers may use to try and get these drugs in, the 
better partner they become.
    And our Office of Air and Marine (AMO) has a program called 
SKY PRO, which I will be happy to talk about later.
    Last, I will tell you that in the over 6 years that I have 
been with the Administration, the opportunity to meet with many 
officials in the government of Mexico has presented itself to 
me. I think that to a person, whether it is the Drug 
Enforcement Administration (DEA), Customs and Border 
Protection, and others, would tell you that the cooperation and 
the information being shared with the government of Mexico 
officials to combat this issue on both sides of the border is 
at a very high level.
    So I look forward to your questions and thank you for the 
opportunity to be here.
    Chairman Johnson. Thank you, Commissioner.
    We are going to kind of open this up a little bit in terms 
of being too structured where we each get our 7 minutes. We are 
going to start going down different lines of questioning. And I 
encourage Senator McCain and Senator Flake to just chime in 
when it makes sense.
    Let me start, though. This is obviously a complex problem. 
There are all kinds of things we have to do.
    But what I would like to ask both the Governor and 
Commissioner, understanding we need resources, we need the 
resource to do any of these things--set that aside; that is 
just a given--what is the top one, two, or three things that we 
must do to address this problem?
    Governor Ducey. So there are a number of things. First and 
foremost, I would say it is the cooperation between the State 
level, the Federal level, the county level, and the local 
level. Rather than being a confrontation, the fact that we are 
bringing these agencies and this enforcement together can make 
a real measurable difference in this.
    And I think you touched on this as well, Chairman. It is 
the insatiable desire and demand for drugs that we have in this 
country is the other part of the equation that we have to deal 
with here.
    And then, last, I will reiterate it because it is critical, 
that the funding and partnership with the Federal Government 
with set objectives is what success looks like, is critical to 
the success of this.
    Chairman Johnson. OK. So out of that, not to complain, 
but--so you had cooperation. That is obviously natural. But to 
do what? So address the demand side and, of course, the need 
for funding.
    Commissioner, I will ask you: The actions, I mean, what 
must we do in a cooperative fashion with proper funding?
    So one thing is to address the demand side. I mean, I 
completely agree. When I was down in Guatemala with General 
Kelly, we were obviously just talking about the drug cartels 
and how basically they are off limits and destroy those public 
institutions.
    General Kelly asked me the question: When was the last time 
as a nation we actually had concerted public relations 
education campaigns to try and dissuade Americans, but 
particularly our young, from doing drugs? And according to 
General Kelly, it was under Nancy Reagan: Just Say No.
    And he talked about that famous commercial with a couple of 
eggs, ``Here's your brain.'' Scrambled up, ``Here's your brain 
on drugs.'' So, again, so that is the address on the demand 
side. What are other things? Actions that cooperatively with 
proper funding must do.
    Commissioner Kerlikowske. For us it would be congressional 
support for technology. We have a lot of boots on the ground, 
but the technology is truly the game changer in all of this. 
Whether it is our unmanned aircraft that you got to see when 
you visited the border, whether it is replacing our 
nonintrusive inspection devices, just big x-rays that have 
reached the most useful life cycle, we need that type of new 
equipment. And the research and development (R&D) that goes 
into that technology is huge.
    We could not be more appreciative of the Department of 
Defense giving us the remote video surveillance systems, the 
tethered aerostats. All three of you have seen a lot of this 
technology, but it needs to be supported, and it needs to be 
improved upon.
    Chairman Johnson. OK. So technology to detect people coming 
to this country illegally. Do we have the manpower once we 
detect to actually apprehend?
    Commissioner Kerlikowske. Well, one is that the Border 
Patrol is more than doubled in size since 2007, 2008. We are 
having difficulty hiring right now in the United States Border 
Patrol (USBP). We are having difficulty hiring our Customs and 
Border Protection officers. A lot of law enforcement agencies 
that I know at the State and local level are having that 
difficulty.
    Your support for the veterans hiring. I can not think of 
another Federal organization that has done as well as we have 
when it comes to the number of veterans in CBP. But the fact 
that we are aggressively working with the Department of Defense 
(DOD) to get the people that will be leaving the Army as it 
restructures, to get them to come and be a part of Customs and 
Border Protection is a great opportunity. And that 
congressional support, your ability to use the stature and the 
positions you hold to support veterans coming into CBP, is a 
big help to us.
    Chairman Johnson. So let us say we have the manpower to 
detect, we apprehend, what are we doing in terms of our own 
laws in terms of processing and in many cases releasing? Can 
you kind of speak to that and the incentive that creates? 
Because, bottom line is: If the people come into this country 
illegally, and they are caught, and they are released, and they 
are in the State illegally without consequence. Or, for 
example, the drug traffickers, juveniles that we do not 
prosecute that we also face, criminally speaking, can you speak 
to that problem?
    Commissioner Kerlikowske. If they are caught with drugs, I 
do not think we have seen any problem with prosecutions either 
at the State level or at the Federal level. I think the State 
prosecutors will probably tell you that they would like to be 
reimbursed by the Federal Government for some of those costs 
involved in that, and I think that is important.
    So the prosecution of, particularly for a drug smuggler, is 
critical because that is the way that we also get the 
information about who is behind it, who is part of the 
pipeline. If there is no sanction and they are just released, 
even if it is a smaller amount of drugs, I do not think that is 
helpful.
    Chairman Johnson. Governor, you spoke about, obviously your 
initial success now in terms of breaking up some of these drug 
cartels on the Arizona side of the border. What do you know in 
terms of the drug cartels' control of the Mexico side of the 
border?
    Governor Ducey. That is definitely part of this equation. I 
mean, I am in my first 11 months in office here, but I do have 
the commitment of the Governor of Sonora, Claudia Pavlovich, in 
terms of cooperation and communication to combat this issue.
    In addition to that, I want to amplify what the 
commissioner said. It is not only about law enforcement assets, 
but it is about proper prosecution. And having the prosecutors 
available and competitively paid so that when there are 
arrests, we can complete that to return people to their country 
of origin, but also to lock up the bad guys.
    Chairman Johnson. When I toured the border through the Rio 
Grande Valley, touring with some local officials that 
complained to me that unless, for example, that the quantity of 
marijuana was 5 pounds or above, locals did not even bother 
with the prosecution of it.
    Is that something similar here in Arizona?
    Governor Ducey. I hear those stories as well through the 
county prosecutors and county sheriffs. And to your point, 
Chairman Johnson, on the wrong incentives, I think if we are 
telegraphing what you can get away with, we are going to have 
more distribution and more trafficking. And that is why I think 
we need to tighten the screws on this.
    Chairman Johnson. Senator McCain.
    Senator McCain. Let's talk for a minute, Mr. Kerlikowske, 
about the Sinaloa Cartel.
    Is it true that they have significant control over the 
areas in Sonora and further south and are able to bring these 
drugs with relative impunity to the Arizona border?
    Commissioner Kerlikowske. Yes.
    Senator McCain. That is true?
    Commissioner Kerlikowske. Yes.
    Senator McCain. Sinaloa Cartel is the most vicious of all, 
particularly now that Chapo Guzman is back.
    Commissioner Kerlikowske. I know they are vicious, and I 
know no one crosses a plaza of a cartel without paying a price.
    Senator McCain. So the old days where some individual or 
groups of individuals decided they wanted to bring some drugs, 
that is not the case anymore. It is all orchestrated by the 
Sinaloa Cartel?
    Commissioner Kerlikowske. Or it passes through them for a 
fee.
    Senator McCain. And then, Mr. Montgomery, the drugs come 
across the border, and then they come to Tucson, and then they 
come to Phoenix, Arizona, which is, according to testimony, a 
major distribution point throughout the country.
    By the way, I was just in New Hampshire over the weekend. 
In New Hampshire, they view this as an epidemic.
    I want to tell you. They view it as an epidemic because of 
the dramatic rise in these deaths.
    What happens then, Mr. Montgomery?

TESTIMONY OF THE HONORABLE BILL MONTGOMERY,\1\ COUNTY ATTORNEY, 
                        MARICOPA COUNTY

    Mr. Montgomery. Senator McCain, the drugs get up here into 
the Phoenix metropolitan area, and they go to what we term 
stash houses where from there they may be sold to additional 
distributors or repackaged for further trafficking, either west 
or east. We have the benefit of having a pretty intricate 
interstate highway system here where several different highways 
come together, and they exploit that.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Montgomery appears in the 
Appendix on page 1981.
---------------------------------------------------------------------------
    Senator McCain. Do we have enough assets to do the job you 
want to do?
    Mr. Montgomery. Absolutely not.
    Senator McCain. Absolutely not?
    Mr. Montgomery. No. In order for us to be able to deal with 
all the drugs that are getting through--and I would underscore, 
too, that seizures at Arizona ports of entry are substantially 
on the increase. But the cartels are still getting enough drugs 
through to make it financially lucrative to continue to try and 
exploit Arizona's border.
    Again, going to some of the prepared remarks, but just with 
a few local investigations, local law enforcement has seized 
131 pounds of heroin just within the last several months. So 
while we have seen the percentage and the size of seizures 
increase at Arizona ports of entry due to great fortified 
Customs and Border Protection, there is still so much getting 
through.
    And right now I have 15 prosecutors assigned to my Drug 
Enforcement Bureau, all of whom are more than gainfully 
employed right now. And we do not have the luxury, I would say, 
as a local law enforcement prosecutor to turn away cases. I 
have no arbitrary thresholds below which I will not take cases. 
Because if I do not do it, it will not get done.
    Senator McCain. Commissioner Kerlikowske, I appreciate your 
comments about hiring vets. I was recently down at Mariposa 
Port of Entry, and I found that they are 200 short, which then, 
even though we have expanded the port of entry and there is 
many more lanes, they are not all open because we are so short 
of personnel.
    Now, what is the--hiring veterans, I think, is a step 
forward, the program for that. I am glad that it has been 
inaugurated.
    But what are we going to do to get more people?
    Commissioner Kerlikowske. Well, I think the difficulty has 
been, Senator, is that when Congress authorized a lot of money, 
particularly for the Border Patrol in 2007 and 2008, we rushed 
very quickly to get a number of people on board.
    Not all of those people would be hired today. We stopped 
doing a polygraph examination during that period. As you know, 
Congress has made that mandatory with the work of leadership of 
Senator Cornyn on that. So the process to get very good people 
who have been clearly vetted is time-consuming.
    The job market is better right now. And, frankly, if you 
are a talented Customs and Border Protection or Border Patrol 
officer, you have a college degree, you are fluent in Spanish, 
there are a lot of other opportunities out there for you. So 
particularly with the Border Patrol, we are losing more people 
than we are actually able to hire. And we just have to support 
it.
    And as I think all of you know, right now this is a 
difficult time for any level of law enforcement in the public's 
eye. And we really need to kind of turn that and work to turn 
that image around.
    Senator McCain. One of the benefits, obviously, of hiring 
veterans, you can short-circuit this extensive background 
process that you have to go through.
    Finally, Governor, I am sure you have seen this chart.\1\ 
It shows the cost of illegal drugs. For example, heroin in 1991 
was almost $1,500 per gram. And now today it is down around 
$465. And there is substantial reductions. That can only mean 
to me that there is a supply. The old rules--laws of economics: 
If there is a greater supply, the cost goes down.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator McCain appears in the Appendix 
on page 2053.
---------------------------------------------------------------------------
    So I would finally ask if you think that we are winning or 
losing in this effort to try to control this flow of drugs, 
which clearly is becoming cheaper and cheaper? And I would 
point out when it gets really cheap, as the heroin has, it is 
so much less expensive than OxyContin that people turn to 
heroin as well. Governor.
    Governor Ducey. Senator, we are losing on this front.
    You can look at the cost here, and that is a reflection of 
the supply. But I think what is more important than the 
statistics and the numbers is the effect that it has on our 
State and has on our country.
    I can tell you that everything that I am dealing with as 
Governor beyond K-12 education: Chronic homelessness 
oftentimes; unemployment; poverty; joblessness; the 17,000 
children that are wards of the State; the parents that are 
unfit to care for them; domestic violence; the people, the men 
and women, that populate our prisons. There is a central 
unifying theme of drug abuse and addiction.
    So there is a tremendous human toll not only on the 
families of our State and our country, but the cost to our 
government in terms of public policy.
    Senator McCain. I thank you.
    And, Mr. Chairman, I want to thank you again for coming to 
Arizona. You have made this issue a top priority of the 
Homeland Security Committee. I appreciate all the work that you 
have done and many hearings and visits, and thank you for being 
here today. I think it means a lot to the people of our State. 
Thank you.
    Chairman Johnson. Appreciate the invitation. Senator Flake.
    Senator Flake. Thank you. Commissioner Kerlikowske 
mentioned that the Border Jobs for Veterans Act was signed into 
law just a few months ago.
    I want to thank the chairman also. Senator McCain and I 
held hearings and talked to you and others. We were told for a 
long time the reason these jobs have not been filled partly is 
because we have too small an applicant pool that can get 
through all the hoops. And it certainly made sense to turn to 
our veteran community.
    And so when we brought that legislation to Senator Johnson, 
he worked quickly to move it through, and we are happy to have 
that signed, and we hope it makes a difference. It is not a 
solution for everything, but it should help a lot.
    And thank you, Mr. Chairman, for that.
    Chairman Johnson. Senator Flake, let me just quick jump in 
here because I always say when a train does not derail, that is 
good news. It is just not news.
    I mean, here is a bill that was very good news, and it was 
done because we concentrated not just amongst ourselves, but 
with, our colleagues on the other side of the aisle. I mean, 
that was an area of agreement that unified us. So we were able 
to get this passed and signed into law. I mean, everybody 
involved in this, and it was really the leadership of these two 
gentlemen here that really gets credit in that.
    But, again, there is good news. If you concentrate on the 
areas of agreement, you actually can accomplish things to get 
resolved, and Senator McCain and Senator Flake made that 
happen.
    Senator Flake. Thank you. Let us turn to this chart\1\ that 
Senator McCain referenced talking about this drop in price just 
across the board--less so for marijuana--but look at the top, 
heroin, $1,500 a gram back in 1991 down to $465 now, a huge 
percentage in drop.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Flake appears in the Appendix 
on page 2053.
---------------------------------------------------------------------------
    I am just wondering, how price sensitive is the demand for 
heroin? Looking at the problem we have today, you know that 
when it is more available, when it becomes cheaper than some of 
the prescription drugs that people either can get or can not 
get anymore, if we were to, through focusing on the supply 
side, bring this price back up here, at what point do we make 
progress? Or is it simply squeezing the balloon, and it goes to 
somewhere else? It goes to cocaine. It goes to other drugs.
    What are your thoughts on that, Mr. Kerlikowske?
    Commissioner Kerlikowske. Well, Senator, so sadly I will 
tell you that the long history of attempting to influence the 
price by interdiction or interception is analogous to 
attempting to reduce the number of diamonds in this country by 
seizing the lumps of coal. That is a fact. Reducing the demand, 
as all of you have mentioned, is going to be critical if there 
is less demand.
    But there is two other important points in here. One is 
that under President Calderon's administration, we all know 
that the Mexican Military is used to do an awful lot of local 
law enforcement. I believe they did less of eradication where 
the poppies are being grown in Mexico.
    Very hopeful with this relationship with the government of 
Mexico, that they will be back involved in greater efforts and 
eradication because the heroin problem is not just one for us. 
It is also one for Mexico. So rather than pay a smuggler to 
bring drugs into the United States, that smuggler may be paid 
in product. That product will be sold locally on the plazas and 
the cities and the towns in Mexico.
    So eradication is important. Greater interdiction is 
important. But in the long term, reducing our demand, as all of 
you have mentioned, is going to be one of the better aspects of 
how to deal with this.
    Senator Flake. Governor Ducey.
    Governor Ducey. In addition to that, Senator, I think it is 
important to point out the prescription opiate drug abuse that 
exists in this country. So there are things we can do beyond 
law enforcement and prosecution in terms of reforms around 
prescriptions and how many of these pills are prescribed and 
for what, how many, and how many refills.
    And I will defer to Colonel Milstead on how the supply and 
demand has affected the consumption in terms of the pricing 
structure. But it is in addition to the cartels. There is 
always also things we can do right here at home.
    Colonel Milstead. Chairman Johnson, Senator Flake, the 
price does change. And back 10 years ago, if you were a heroin 
addict, it would cost you somewhere between $350, $400 a day to 
continue with your habit. Today that same amount of heroin or 
the potency of the heroin would be somewhere closer to $30 or 
$35 for that same addiction, that same high.
    A tab of OxyContin in a school, in a high school in 
Phoenix, Arizona, is going to be somewhere around $50 or $60. A 
point of heroin is $10. But what the kids do not understand, 
remembering it is youth, they are risk takers, they believe it 
will not happen to them and that the reports are wrong. But the 
addiction rate for heroin, for opiates, is astronomical. And 
one of three things happen to those children: They become a 
slave to the drug, they overdose and die, or they are in a 
lifetime of rehabilitation and treatment.
    Senator Flake. Before you get to that, you may have 
addressed some of these in the opening statement, so I do not 
want to take away from that, but I would be interested, in 
terms of prosecutions, of those doctors or others' prescription 
mills that we see out there. And, in fact, the most effective 
prosecution is at the State level or the county prosecution or 
if it needs to be Federal or there needs to be cooperation 
there?
    But before we get to that, since you may address that in 
your opening, Governor Ducey, can you talk a little more about 
the human cost? And you mentioned in your opening statement 
this is impacting the standard of living of folks in Arizona.
    We hear numbers. You talk about number of kids that are 
affected. But somebody could say, well, this is a population of 
6.57 million in this State. That is still on the margins.
    Is it beyond the margins? Is it affecting more families? 
What do you see out there? Is it really affecting the quality 
of life of the State?
    Governor Ducey. Well, I would just ask every parent that is 
in the room: Has this affected their family or their neighbor's 
family or your extended family in terms of drug abuse and 
addiction and the human toll that this brings to a family in 
terms of pain and anguish and anger and drug abuse?
    My experience traveling the State over the last year is 
that this affects all of our communities and, in fact, affects 
all of our families, either directly or indirectly. And that 
does not even go to the fact that we have so many people living 
in a lower standard of life today than they did before the 
downturn. And I can not tell you how many small business 
entrepreneurs tell me when they go to hire for a position, that 
they can not find people that can pass the drug test. So I 
think it is affecting us in our homes and our families, but it 
is also affecting our economy and our productivity as a State 
and a nation.
    Senator Flake. Thank you.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Flake. Just to pick up 
on the drug test. I know as I traveled around the State of 
Wisconsin, there is not one manufacturer that can hire enough 
people and for multiple reasons. One of them is they do drug 
testing. 50 percent of the people, when they find out they have 
to take a drug test, do not show up. Of those that do take the 
drug test, 50 percent fail. So you are already a ways down the 
list there.
    Commissioner, I do want to pick up a little bit on the 
poppy issue. When I was down in Central America, we were 
certainly briefed that for the farmers, it is 50 times more 
profitable for them to grow poppies than really any other crop. 
The abundance of crops they can grow down in Central America--
it is a great place to grow crops--50 times more profitable. 
Plus, they do not even have to transport it. So that is huge. 
Heroin poppies are an extremely profitable crop, and that is 
also part of the issue.
    But I do want to talk--in our report, in testimony, former 
Drug Czar General Barry McCaffrey testified that we are only 
interdicting about 10 percent of the illegal drugs coming to 
the Southern Border. I know we had testimony from the Coast 
Guard separately, only interdicting 11 to 18 percent over our 
maritime border.
    I will just ask the panel: Anybody want to either confirm 
or dispute those types of numbers?
    Commissioner Kerlikowske. When I was in Seattle as the 
police chief, I was his police chief, so I would get a lot of 
advice from General McCaffrey. I would tell you that I think 
there is one big issue of trying to determine what percentage 
we interdict or do not interdict, and that is that we do not 
know what we do not know.
    So we are doing a much better job, as I said. Our increases 
last fiscal year, our continuing increases this fiscal year. 
When Senator McCain talked about our appetite for drugs in this 
country, we have got to work to reduce that. So I have seen 
lots of economists and, reminds me of when President Truman 
said: If you lined up all the economists end to end, would not 
that be a beautiful sight?
    You mentioned that I have seen lots of econometric pieces 
on this, and, frankly, I still think that there are a lot of 
questions about how much are we missing versus how much do we 
interdict?
    Chairman Johnson. Well, again, those are difficult numbers 
to come up with. But we can estimate our basic total usage in 
America. Again, it is not just General McCaffrey. It is also 
the Coast Guard. Bottom line is: We have an enormous flow 
coming into this country illegally that we are not catching. Is 
that kind of without dispute? Mr. Montgomery.
    Mr. Montgomery. Chairman Johnson, I think that is true. The 
cartels have a high level of tolerance for the amount of drugs 
that are being seized for them to continue the same sorts of 
routes that they try to exploit. And it is not until they 
suffer severe economic pain in trying to exploit a particular 
route that they are going to change and shift their behaviors.
    And I think that is also somewhat reflected too in the 
chart, the pricing chart. A couple of other points that I would 
offer to consider in this context is, when you look at the 
early 1990s, the high price for heroin and methamphetamine, 
over time the drug cartels have been able to improve their own 
economies of scale where they can produce these drugs at a much 
lower price than what it used to cost them.
    They do not have to import heroin from South America or 
import it in a way where it originates out of Afghanistan. They 
are growing it locally. It costs them less to produce. They 
have improved their ability to produce high-quality heroin by 
mimicking what Colombian drug cartels were able to do.
    So you have product closer to its source in greater 
amounts, and they have been able to cut out the middleman in 
order to transport their product into the country. Each one of 
those different improvements obviously allows you, then, to 
sell for less and still maintain a high profit potential.
    And when it comes to methamphetamine, back in the 1990s it 
used to be a product of lower yield, small labs domestically. 
And so there was a lot of danger. The product was not very 
good. You could charge more if you were a good dealer. But now 
you have super labs producing methamphetamine just across the 
border, and that is now a part of that cartel's product mix. 
And they have gotten very good at producing high quality 
methamphetamine for less.
    Chairman Johnson. Talk a little bit about routes and flow. 
I just kind of want to talk a little bit about the history now 
and how it really is like damming water, and it just kind of 
flows around, because 25, 30 years ago the flow was really out 
of Colombia, through the Caribbean, and then up through Miami; 
correct? And we did not stop it. Maybe we reduced the flow 
through there. But then we redirected the flow through Central 
America.
    And same thing's true, in our next panel we will be talking 
about the 1990 plan which really has not been updated. You shut 
down certain areas, and it just flows into other areas.
    Can somebody address where we are on that? And is that all 
we can really do is just redirect it to some other area and 
then destroy public institutions in some other area?
    Governor Ducey. Well, I think when you talk specifically 
about this State, you look at our neighbors. California does 
have a wall. New Mexico has a mountain range. Texas has a 
river. Arizona's border situation is different. So in terms of 
the history and how that's affected the State over the course 
of decades, I will ask Colonel Milstead to comment.
    Colonel Milstead. Mr. Chairman, over the--I am sorry. If 
you look at over the years of what has happened with the 
movement of drugs into the United States, I was a Phoenix 
police officer back during 9/11. When everything quit moving 
during 9/11, the supply in Phoenix, the supply for drugs, for 
hand-to-hand drug deals, was almost nonexistent after about 10 
days.
    So the supply train, the chain of available drugs in 
Phoenix, was about a 10-day supply. So that was pretty much 
cutoff. When everything quit moving, the borders were locked 
down. Everything stopped.
    As we have looked at the changes over the years, Arizona 
continues to be a central focal point. And really the hard 
narcotics, they come through the ports, and we call them ports. 
And the other side, they call them plazas, and as Mr. 
Kerlikowske spoke of, those plazas are all run by a cartel. And 
those ports of entry are where your hard narcotics are coming 
through. Easier to secrete in produce. Easier to secrete in 
vehicles.
    And the number of vehicles coming through Nogales and come 
through DeConcini and through Mariposa, it is the busiest port 
in the Nation, so it is very hard to control. And those cars 
that come through routinely day after day, they begin to be 
thought of as vehicles that are coming in for work. They have 
work visas. They come in and out every day.
    Some of those are unwitting people who are moving drugs 
that they don't even know they're moving because they're 
secreted into cars without their knowledge.
    The other thing that happens is through these mountainous 
regions, if you talk to Sheriff Dannels in Cochise County, you 
talk to the ranchers, they will tell you that the backpackers 
are bringing in 25 kilo loads on their backs. They are armed.
    And when you ask the ranchers, ``Well, what do you do when 
you see these cartel members coming through your ranch and 
cutting your fence and disrupting your operation?'' They say, 
``We step aside because the response time is too long, and you 
can not get law enforcement there quick enough.''
    So the marijuana is still coming through those mountainous 
areas through the Tohono O'odham Nation and they daisy chain 
the Indian reservations up into metro Phoenix.
    So what can we do? We have to have that presence. We have 
to have the troopers, the Federal agents, the sheriffs. 
Everybody's got to be in alignment to make it much more 
difficult. And it will move it to some other area, but we will 
respond to that as well.
    But really at the end of the day what has to happen, there 
has to be a change in America's appetite for narcotics. We have 
taken law enforcement out of every school for the most part. 
The only thing that is left is the school resource officers. 
There is no drug resistance training. There is no national 
campaigns on drugs.
    What we are doing in Arizona with Youth, Faith & Family and 
Debbie Moak, we are trying to close the back end of that 
circle, the treatment and prevention side. But until we do 
something about that, when there is not that insatiable demand 
as you spoke of, sir, this will continue.
    Chairman Johnson. By the way, that is an extremely 
important point you made earlier, though, that after 9/11 we 
shut down our ports of entry. It really went a long way for 
drying up the supply, which tells you the reality of the 
situation: Most of these hard drugs are coming through our 
ports of entry, not being backpacked.
    Anybody else want to comment on that? I mean, that is an 
insight to me. That is extremely good testimony there.
    Commissioner Kerlikowske. Mr. Chairman, the majority of our 
seizures of heroin are at the ports of entry, not between the 
ports of entry. But, most police chiefs are not really known 
for their optimism. But if you look at cocaine, our consumption 
of cocaine in this country since 2007 and 2008 is down by half. 
We have made significant improvements. The crack cocaine 
epidemic that we talked about in the late 1990s is really 
pretty much a thing of the past.
    Chairman Johnson. Moved on to other drugs, methamphetamine 
and----
    Commissioner Kerlikowske. Well, methamphetamine has always 
been the lowest drug in drug use in the United States. The 
difficulty with methamphetamine is that it is very specific to 
geography. So a place like Arizona or Iowa or the West Coast 
can get hit very hard, devastatingly hard, with 
methamphetamine. If you go to New England, it is not that much 
of an issue.
    But when you approach this issue from this whole of 
government approach, which I think everybody here is talking 
about, I think cocaine would be a place where optimism, we 
could look toward heroin, working and doing the same kind of 
thing, reducing the demand, doing better interdiction, having 
better technology, but educating people about, as Colonel 
Milstead said, the dangers of drug use.
    Senator McCain. Could I just----
    Chairman Johnson. Yes.
    Senator McCain. I know we have another panel, so I will be 
brief.
    Governor Ducey, as a major part of your Arizona Border 
Strike Force Plan is the acquisition of systems, aircraft, 
hardware that you need very badly. It is called a 1033 program, 
as you know, where the Defense Department will transfer 
equipment that we can determine is, quote, ``excess.''
    I just want to tell you we will begin work in January on 
the 2017 defense authorization bill. We will work closely with 
you and your people to make sure that we make use of this 1033 
program to transfer some of the much needed equipment that you 
need in order to make this Strike Force Plan effective. So we 
will go to work on that.
    Governor Ducey. Thank you, Senator.
    Chairman Johnson. Senator Flake.
    Senator Flake. Thank you.
    Governor Ducey, I want to say congratulations on, again, 
the Strike Force. That is a great idea to leverage the State's 
resources and to work more cooperatively at all levels.
    Can you give us any idea of where we still need help at the 
Federal level to make that work more efficiently? Do you work 
well with the U.S. Attorney's Office, for example? And are 
there other areas that we can work on and help you out with?
    Governor Ducey. Well, I want to say thank you, Senator 
Flake. And I want to say the beginning of this partnership with 
Commissioner Kerlikowske here has been the best first step.
    Step two is going to be around proper prosecution. But what 
we have found, I would say that the difference here is we are 
reaching out to these agencies, and we are talking about the 
needs of Arizona and the shared goals, not only about our 
State, but of the Nation.
    And I want to say how grateful I am to Commissioner 
Kerlikowske for his urgency on this matter. And I think we also 
have some excitement around the success we have in just 8 
weeks, and what is possible afterwards.
    Senator Flake. Thank you.
    Chairman Johnson. I just have two basic lines of 
questioning here.
    First of all, you go down to Central America. You see this 
drug problem having destroyed the public institutions in 
Central America. In testimony in the second panel, we are 
talking about the concern with all this money about potential 
corruption within our own institution.
    So I just want to ask your evaluation, how much corruption? 
How concerned are you? And just take it from there.
    We will start with you, Governor Ducey.
    Governor Ducey. Well, the last thing I want to do is paint 
our State as perfect, because no place is perfect. But this 
culture of corruption does not exist in the State of Arizona. 
In terms of what we are seeing across the border, again, I will 
defer to folks that have been around longer than I have been.
    But regardless of that situation, this idea that there is a 
fight that needs to be fought and that we need to bring 
resources to it and the best possible people at the highest 
level of ability and intelligence and sense of mission is going 
to be in the face of what is happening with these drug cartels 
and the amount of money that is sloshing through this system 
and destroying lives on this side of the border.
    Chairman Johnson. First of all, that is good news.
    Colonel, do you want to offer any insights?
    Colonel Milstead. With corruption I think I would leave 
that to Commissioner Kerlikowske having so much experience with 
the border itself, Mr. Chairman.
    But I will tell you, if you speak to the county sheriffs 
along the border, to Senator Flake's point earlier, there is a 
huge problem in getting the U.S. Attorney's Office to prosecute 
these drug offenses on the border by a pound of load, by age of 
the criminal alien.
    But there is a huge concern about the ability to prosecute 
these cases through the U.S. Attorney's Office. And it puts 
that burden back on these counties, and I think really the 
expert on that would be Sheriff Dannels to speak to that 
specifically and really more Commissioner Kerlikowske on the 
corruption.
    But thank you, sir.
    Chairman Johnson. Thank you. Commissioner.
    Commissioner Kerlikowske. Mr. Chairman, 60,000 employees, I 
think, the corruption issue is a significant concern to me. And 
until August of last year, we did not have Internal Affairs, 
and what we had was anemic.
    Secretary Johnson gave me authority to build an Internal 
Affairs Unit with aggressive criminal investigators, and we are 
in the process of doing that. Given the amount of money and the 
drug issues, corruption is always a concern. It has me 
concerned every night.
    Chairman Johnson. So let me close out again. Just trying to 
talk to you about, why do we have to secure our border? I mean, 
obviously we are talking about one of the problems. The root 
cause is the insatiable demand for drugs. We have to secure our 
borders for public health and safety. We also have to secure 
our border from a standpoint of an immigration system that 
works.
    We also have to secure our border--it is imperative to 
national security. When I was down in Honduras and touring with 
General Kelly, apparently this term has been around--I had 
never heard of it--I have always heard of Other Than Mexico 
(OTM). In hearings, we would say, well, those are the folks 
coming in from Central America.
    But when we were in Central America, they talked about 
special interest aliens (SIAs). Right now a lot of the special 
interest aliens are Cubans because of our, dry foot policies, 
driving people here that can get here. Cubans, they can stay. 
There is an incentive.
    But also included in that SIA category were Somalis, 
Pakistanis, and Syrians, and others.
    Can you speak to that? Again, to me that is a very large 
concern based on what we are seeing over in Syria and Iraq 
right now.
    Commissioner Kerlikowske. So the term is for special 
interest aliens, those that have come from a country that could 
have problems with the United States. We apprehend every year 
people from well over 100 countries, whether it is on the 
Northern Border or whether it is on the southwest border. We 
turn those people in a very short period of time over to 
Immigration and Customs Enforcement (ICE) for further work. But 
it is always a concern, and I work hard with ICE to make sure 
that they are fully vetted, and ICE works hard to make sure 
that they are detained.
    Chairman Johnson. Anybody else providing insights, some 
data?
    Senator McCain, do you want to make comment on that?
    OK. Sure.
    Mr. Montgomery. Chairman Johnson, I know that within just a 
couple of years ago, I think 2012, Department of Homeland 
Security's own Statistics Bureau identified that along the 
southwest border, Customs and Border Protection, Border Patrol 
has detained people from every single country of interest and 
every single State-sponsored terror country that is listed by 
the U.S. State Department. And this is ongoing. And that 
national security threat is critical.
    There has been testimony before Congress by the Acting 
Inspector General (IG) at DHS noting corruption issues with DHS 
border personnel and the link between drug trafficking 
organizations and terrorist organizations. It is in the public 
record.
    Chairman Johnson. Thank you, Mr. Montgomery.
    Ready for the second panel. Again, I just want to thank all 
three of you gentlemen. First of all, your service to the 
community, your State, to our Nation. I really do appreciate 
you, Governor, in terms of making this a very high priority. It 
is a priority we share. We want to work very cooperatively with 
you. We have to solve this problem as a national issue. So, 
again, thank you for your thoughtful testimony and for your 
time.
    We will seat the next panel.
    Governor Ducey. Thank you, Chairman. Thank you, Senators.
    (Applause.)
    Chairman Johnson. Will the next panel please be seated.
    Well, some of the witnesses are participating in a press 
conference, so let us get going so we can move things along.
    Stay standing. Raise your right hand.
    Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Sheriff Dannels. I do.
    Ms. Mertz. I do.
    Agent Judd. I do.
    Mr. Taylor. I do.
    Chairman Johnson. Our next witness is Sheriff Mark Dannels. 
Sheriff Dannels is the Sheriff of Cochise County, Arizona. Mr. 
Dannels began his law enforcement career in 1984 after serving 
a successful tour in the Army. With 30 years of law enforcement 
experience, Mr. Dannels has been recognized, among other 
things, to receive the Medal of Valor, Sheriff's Medal, and 
Deputy of the Year. Sheriff Dannels.

TESTIMONY OF THE HONORABLE MARK J. DANNELS,\1\ SHERIFF, COCHISE 
                             COUNTY

    Sheriff Dannels. Chairman Johnson, Senator McCain----
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dannels appears in the Appendix 
on page 1987.
---------------------------------------------------------------------------
    Chairman Johnson. I think we all have to get our 
microphones pretty close.
    Senator Flake. You might want to just grab that mic there 
if you can reach it. Seems to be a little bit better.
    Sheriff Dannels. That's better?
    Chairman Johnson, Senator McCain, Senator Flake, thanks for 
being here and listening to us today.
    With 83 miles of international border within its 
jurisdiction, Cochise County plays a significant role in 
combating drug and human trafficking organizations and the 
associated violent crimes which adversely affects Arizona 
residents and other areas throughout the United States.
    One of Mexico's largest and most notorious drug cartels, 
Sinaloa Cartel, long employed the use of local Mexican drug 
trafficking organizations, to carry out cartels' drug 
distribution and transportation into and throughout the United 
States.
    Violence against innocent citizens, public officials, law 
enforcement, and rival drug/human trafficking groups in Mexico 
continues to escalate.
    The adverse effects of the drug and human trafficking 
organizations operating in Cochise County not only have 
significantly diminished the quality of life of county 
residents, but also placed unbearable strains on the budgets 
and resources of private and governmental agencies in our 
county.
    Having the true-life experience to live and work as a 
officer and deputy and now Sheriff of Cochise County since 
1984, it has been an educational lesson for me reference border 
security. I have witnessed the escalation of violence by these 
careless assailants on our citizens raising the question: Who 
actually controls our borders? Cochise County has become known 
as the gateway to illegal activity for those that unlawfully 
enter into the United States.
    I want to talk just a minute on the history of our border 
and why we are in the current situation that we are in. In the 
1990s, the Federal Government prepared a plan to address the 
unsecure, unsafe border. At a press conference, Former Sheriff 
Larry Dever, in Tucson, Arizona, a Border Patrol spokesman 
announced their intent to secure the populated areas of the 
border, specifically San Diego, Yuma, and El Paso, and the 
international port of entries. These target areas, which I call 
the Ps, ports and populations, will be a Federal Government 
focus point.
    The second half of their plan was to reroute the illegal 
activity disturbances into the rural parts of the southwest 
border with the thought that the cartel organizations and 
smuggling groups would be deterred by the rugged and 
mountainous terrain along the border.
    Since the release of the plan 20-some years ago, many 
changes have taken place in Cochise County: Increased illegal 
activity outside the protected areas, ports; fear and 
frustration increased in rural Cochise County and along the 
southwest border, my fellow sheriffs; ranch and farmlands 
damaged due to an increase in illegal activity; transnational 
cartels and smuggling organizations controlling and set up 
smuggling routes in rural Cochise County and the southwest 
border; no lack of redefinition of the plan since the 1990s; 
economic down-cline to include a population decrease in Cochise 
County; lack of federally elected leaders to address unsecured 
border and fears creating a lack of trust and anger by citizens 
of my county; undue pressure on local law enforcement and 
sheriffs to address issues, fear, and consequences for those 
committing those crimes; lack of funding for local law 
enforcement and criminal justice system and corrections in 
order to address border crimes at the local level due to lack 
of Federal Government intervention.
    Local law enforcement is best suited to best understand the 
community needs and solutions based on the expectations of 
their citizens. Community policing begins and succeeds at the 
local level first.
    As the Sheriff of Cochise County, I felt it was my elected 
and statutory duty, my oath of office to support the United 
States Constitution and the Arizona Constitution, to protect 
and secure the freedoms and liberties of my citizens. No longer 
a debate by those who live in the rural parts of the southwest 
border, the rural parts of the southwest border are not secure 
and are vulnerable to any type of transnational criminal 
activity.
    Working with a limited budget and staffing, sheriffs along 
the southwest border struggle each and every day to find ways 
to enhance the quality of life and safety for those they serve. 
Sheriffs along the southwest border work diligently to do it by 
educational, prevention, and enforcement programs by building 
true, trusted partnerships with our local law enforcement 
partners.
    Local law enforcement, typically sheriffs throughout the 
southwest border and within the State of Arizona, have taken a 
lead on arresting and prosecuting those involved in local 
smuggling which create an enormous challenge to our local 
budgets. One of the most controversial is the juveniles that 
are smuggling.
    And right now we have taken the role of doing that at the 
State level with our county attorney. And our juvenile rate has 
gone down from three or four. We are managing juveniles up to 
19, 18 or 19 in our jail. So it is a big burden on us.
    Additionally, the State Criminal Alien Assistance Program 
(SCAAP), have steadily decreased over the years. The financial 
decrease has, once again, placed a huge financial burden on our 
local sheriffs. Between 2009 and 2014, Arizona sheriffs have a 
SCAAP deficit of over $226 million. We have been rewarded 19 
million throughout the State of Arizona. We get about 4.8 cents 
on the dollar for detaining illegal aliens at the local level.
    The smuggling of Mexican heroin and methamphetamine 
crossing our national border has become very popular based on 
the effectiveness and efficiency of transferring certain drugs 
by the drug cartels. Detection is more difficult by law 
enforcement creating a financial opportunity for those 
organizations on both sides of the border.
    Sadly, those that become victims of these drugs often 
become a deadly statistic. In Arizona, heroin deaths in 2004 
was 50 and 2014 was 200. Education and prevention programs are 
necessary for those tempted and are in need of these programs.
    Many law enforcement agencies are equipping their law 
enforcement deputies with Narcan to assist with these 
overdoses. This is becoming a common epidemic in our 
communities. This epidemic is relentless. It holds no age, race 
or gender harmless.
    Governor Doug Ducey has been instrumental in supporting our 
efforts here in Cochise County, constructing a regional public 
safety communication, intelligence center, providing additional 
complimentary, I would say, resources to our efforts to combat 
drug smuggling, that adds nexus to secure the border.
    This true partnership unifies local and State efforts in 
hopes of enhancing our quality of life for our citizens and 
beyond. As we all know, this problem not only challenges our 
quality of life here, but negatively exploits communities 
throughout this Nation.
    I want to get to a few recommendations that are a common 
theme in our county when it comes to talking to our citizens 
and based on my experience working with law enforcement. We 
really need to look at redefining that plan of the 1990s. It 
has been over 20 years, and take the successes and buildupon 
what is not working and identifying them.
    We need to have a political will by our Federal leaders to 
make border security a mandated program. Border security should 
be first and not mixed or blended with immigration reform.
    In the Tucson Sector, only 43 percent of the Border Patrol 
agents are actually on the border in the Tucson Sector. Support 
immigration first-line Border Patrol agents that work the 
border regions. They have a dangerous job, and it is no secret 
that their frustration is high based on the abnormal 
complexities in reference their assignments.
    Secondary checkpoints are good as long as the primary is 
working first. Quality in life, citizens living on our borders 
by sheriffs and the State Governors regarding approved security 
and safety. Funding supplement for local law enforcement 
prosecutions, detention, and criminal justice in support of 
border crimes.
    Continued funding and support for the Stonegarden program 
which is discretioned by the local sheriffs, to tell what is 
best needed for their respective counties. Empowerment with 
action to the Border Patrol leaderships. We have three great 
leaders in our county, and they have great ideas. Enhanced 
funding for the regional communication and accountability for 
the local law enforcement needs to continue.
    In summary, our local efforts have proven to be beneficial 
in bringing overdue solutions to an insecure border that 
becomes a discretionary program by those federally elected 
leaders and policymakers that have been entrusted to protect 
our freedom and liberties.
    As a sheriff elected by the good people of my county, my 
biggest fear is losing another life, another citizen in my 
county and/or law enforcement officer, deputy, or agent.
    One would hope the priority of security on our border does 
not become just another price tag and/or political posturing, 
but, rather, legal and moral requirement to safeguard all of 
America, which so many heroic Americans have paid the ultimate 
sacrifice.
    Today's opportunity instills fresh hope that our voice and 
Senator Johnson comes back, but before DC, comes back for the 
invite, I truly appreciate that. On behalf of my citizens in my 
county and law enforcement in my county and the folks in this 
great State and all the sheriffs here in Arizona, thank you.
    Chairman Johnson. Thank you, Sheriff.
    Our next witness is Dawn Mertz. She is the Executive 
Director of Arizona High Intensity Drug Trafficking Area 
(HIDTA). Prior to her appointment, Ms. Mertz served 27 years as 
a criminal investigator for the Internal Revenue Service (IRS) 
Criminal Investigations Unit. Ms. Mertz.

TESTIMONY OF DAWN MERTZ,\1\ EXECUTIVE DIRECTOR, ARIZONA HIDTA, 
             OFFICE OF NATIONAL DRUG CONTROL POLICY

    Ms. Mertz. Good morning. And thank you for this opportunity 
to appear before you, Chairman Johnson, Senator McCain, and 
Senator Flake.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Mertz appears in the Appendix on 
page 2017.
---------------------------------------------------------------------------
    It is my privilege to address you today on behalf of the 
Arizona High Intensity Drug Trafficking Area Executive Board 
concerning law enforcement efforts to combat illicit narcotic 
drug trafficking.
    The Arizona HIDTA region is just over 64,000 square miles. 
It includes 372 miles of contiguous international border with 
Sonora, Mexico. The international border area consists of 
inhospitable desert valleys and rugged mountainous terrain, 
which are ideal for drug smuggling.
    Due to Arizona's geographical location and shared border 
with Mexico, all of its highways and roadways are exploited by 
Mexican drug trafficking organizations to transport large 
quantities of illicit drugs.
    Each year the Arizona HIDTA conducts a comprehensive 
intelligence study to identify new and continuing trends in the 
Arizona region.
    The most recent threat assessment found that the Sinaloa 
Cartel continues to present the primary operational threat to 
Arizona, with vast resources to source, distribute, transport, 
and smuggle large amounts of cocaine, marijuana, heroin, and 
methamphetamine, in and through Arizona, to drug networks 
throughout the United States.
    A significant number of drugs seized in other States have 
been linked to Arizona, which demonstrates how vital Arizona is 
to Mexican drug organizations. After methamphetamine, heroin is 
the greatest threat in the Arizona HIDTA region. The abundance 
of heroin in Arizona is directly correlated to the high levels 
of opium poppy cultivation and heroin production in Mexico.
    The number of Arizona HIDTA investigations with heroin 
seizures increased 161 percent from 2011 to 2015. Many of the 
investigations are international, multi-state, and multi-
jurisdictional in scope.
    Law enforcement operations that successfully disrupt and/or 
dismantle Arizona-based organizations directly impact the 
availability, price, and purity of heroin and other U.S. drug 
markets. Seizing the opportunity to profit from the growing 
appetite for heroin, stemming from the prescription drug 
epidemic, the Sinaloa Cartel and other Mexican drug 
organizations have adapted to meet the growing demand by 
producing, smuggling, transporting, and distributing wholesale 
quantities of Mexican white, brown powder, and black tar heroin 
to expanding northeast, midwest, southeast, and northwest 
markets through Arizona-based trafficking networks at 
unprecedented levels.
    The Sinaloa Cartel and other Mexican drug organizations 
have diversified heroin production to produce white heroin to 
increase their market share in emerging and existing heroin 
markets. Historically, heroin users in the East Coast cities 
have preferred white heroin over Mexican tar heroin.
    Chronic abuse of prescription opioid drugs, such as 
OxyContin, Percocet, and Vicodin, creates a gateway for heroin 
addiction. Research indicates prescription opioid abusers 
between the ages of 12 and 49 are 19 times more likely to 
engage in heroin use than their counterparts with no history of 
prescription opioid abuse.
    The transition from prescription opioid abuse to heroin 
occurs most often among youths age 12 to 17, with a transition 
to heroin occurring within an average of 17 months.
    Preventing prescription drug misuse and abuse is essential 
to reduce the number of lives lost and those addicted to 
prescription drugs and heroin.
    The Arizona HIDTA, in collaboration with State and local 
agencies, is expanding its prescription misuse and abuse 
initiative to all counties in the Arizona HIDTA region. In the 
pilot counties, the number of deaths from opiate drug overdoses 
decreased 28 percent while the non-pilot counties' deaths 
increased.
    The Arizona HIDTA has also launched a Stronger Together 
prevention initiative bringing together law enforcement and 
community substance abuse prevention coalitions with a central 
goal of reducing substance abuse and is in the process of 
developing a Native American and Spanish language prevention 
tool to fill those gaps.
    Coordination through shared intelligence is critical to 
combating the tremendous threat posed by the Sinaloa Cartel and 
Mexican drug organizations. Under the coordination umbrella of 
the Arizona HIDTA, participating law enforcement agencies 
eliminate duplicative operational and investigative programs 
and facilitate tactical, operational, and strategic 
intelligence sharing.
    The Arizona HIDTA approach to intelligence training, 
information sharing, and demand reduction demonstrates that as 
traditional organizational barriers are overcome, law 
enforcement entities can better focus investigative and 
intelligence resources on dismantling and disrupting the most 
dangerous and prolific drug trafficking organizations.
    The Arizona HIDTA remains committed to facilitating 
cooperation among law enforcement entities and to supporting 
coordinated law enforcement efforts to combat Arizona-based 
drug organizations.
    Thank you for the opportunity to appear before you today 
and for the Subcommittee's continued support of the HIDTA 
program.
    Chairman Johnson. Thank you, Ms. Mertz.
    Our next witness is Brandon Judd. Brandon Judd is a Border 
Patrol agent and serves as the President of the National Border 
Patrol Council, representing more than 17,000 Border Patrol 
agents and staff. Mr. Judd started his career as a field agent 
in 1997 and brings with him more than 17 years of experience as 
a Border Patrol agent. Agent Judd.

   TESTIMONY OF BRANDON JUDD,\1\ PRESIDENT, NATIONAL BORDER 
                        CONTROL COUNCIL

    Agent Judd. Senator Johnson, thank you very much, Senator 
McCain, Senator Flake, I appreciate the opportunity.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Judd appears in the Appendix on 
page 2026.
---------------------------------------------------------------------------
    On August 26, 2015, the DHS Deputy Secretary Alejandro 
Mayorkas was in the State of Montana to take a hard look at the 
organized illegal smuggling problems with narcotics in the 
Havre Border Patrol Area of Responsibility to the back-end oil 
fields located in Montana and North Dakota. Mr. Mayorkas was 
made aware of the smuggling due to the diligence of various 
local law enforcement entities.
    During his visit, Mr. Mayorkas met with several law 
enforcement agencies as well as with me and a few other 
officers of both the National Border Patrol Council and the 
National Treasurer Employees Union (NTEU). Although I represent 
the men and women of the Border Patrol in the capacity of a 
labor leader, I am also a Border Patrol agent extremely 
concerned about the security of our nation's border. My 
members, who are your agents, are also genuinely concerned 
about the security of our borders. Therefore, at the meeting 
and on their behalf, I raised three issues:
    First, the lack of actionable intelligence provided to 
agents to allow them to be successful.
    Second, the releasing of criminal aliens from Mexico who 
are in our custody.
    And third, the practice of providing overtime to managers 
to sit behind a desk as opposed to field agents performing 
enforcement duties.
    For the purpose of this hearing, I will confine my comments 
to the lack of intelligence and its impacts on Border Patrol 
and Border Patrol's operations. Simply put, Border Patrol 
agents are not being given the intelligence necessary to be 
successful.
    How can a Border Patrol agent know smuggling is taking 
place, let alone do their job, if they are not given the 
necessary intelligence? To date and even though this issue was 
brought directly to Deputy Secretary Mayorkas's attention 2 
months ago, Border Patrol agents in Montana still have not been 
given the intelligence necessary for them to interdict the 
narcotics being smuggled through their Area of Responsibility.
    Please allow me to give the committee two examples of how 
this is impacting our operations. When Customs and Border 
Protection Commissioner Gil Kerlikowske became aware of this 
hearing, he hastily put together an operation aimed at 
interdicting heroin coming from Mexico into the United States.
    This operation is now in the fourth week of four, and it 
has been a complete failure. I personally spoke to the agents 
participating in this operation and asked the following 
questions:
    Were you given any idea of how this operation could be a 
success?
    Were you given any intelligence that would help you be 
successful?
    Were you given any training on how to conduct the 
operation?
    Were you given any intelligence specific to heroin 
smuggling?
    As a Border Patrol agent, are you familiar with or have 
ever worked at a port of entry?
    Were you trained on how to work at a port of entry?
    Are you aware that this operation is not only to seize 
heroin, but also to gather intelligence?
    Do you know of any heroin that was seized during this 
operation?
    Do you feel this operation was properly planned and 
communicated to the agents assigned?
    And last, and most important, as per the stated purpose, do 
you feel this operation was a success?
    To every single one of those questions, those agents 
answered no. Not one of those did they answer in the 
affirmative except for one K-9 handler who was formerly an 
Office of Field Operations (OFO) officer that worked for the 
port of entry that knew what the port of entry's 
responsibilities were.
    I would also like to give you another example. On February 
23, 2015, a Bisbee, Arizona, police officer made a routine 
traffic stop on a U-Haul moving truck. During the stop and 
while speaking with the driver, the officer developed enough 
suspicion to call for a Border Patrol K-9 Handler nine to 
conduct a free-air sniff around the truck. While walking around 
the truck the canine alerted to the presence of a controlled 
substance or persons inside the locked storage unit of the 
truck.
    Several thousands of pounds of marijuana were discovered 
inside the truck, and it was later determined that the truck 
came from a home in Naco, Arizona. A subsequent search warrant 
was obtained and in the early morning of February 24, 2015, a 
tunnel was found on the property of the home. It is estimated 
the tunnel was used for several years prior to discovery.
    I would like to point out, because Sheriff Dannels is here, 
the only reason we knew that that truck came from a home in 
Naco, Arizona, was because one of his deputy sheriffs reported 
to the scene and said, ``Hey, I saw that truck at this home,'' 
which allowed us to get the warrant to search that home.
    This was great police work, and all officers and agents 
involved should be commended. It is, however, a complete 
breakdown of the intelligence cycle. Prior to writing this 
testimony, I spoke with three of my former colleagues at the 
Brian Terry Memorial Station. This station is assigned to the 
area where the tunnel was found, and all three were absolutely 
amazed that a cartel was able to run contraband directly under 
the nose of several agents for so long.
    How serious is the lack of intelligence? It is very 
serious. But candidly, heroin is the least of our worries. Last 
week five Pakistani nationals and two Afghan nationals were 
arrested by Border Patrol agents in Sonoita, Arizona, in the 
Sonoita, Arizona, Area of Responsibility.
    What can we do better? We are dealing with highly 
sophisticated, well-organized criminal cartels. As the HIDTA 
report notes, these cartels employ encrypted communications and 
hire transportation networks and hundreds of cartel members on 
this side of the border.
    Do we need to support local law enforcement agencies like 
the Cochise County Sheriff's Department? The answer is 
absolutely. When Federal agencies work and support local law 
enforcement, our effectiveness increases exponentially.
    Will Joint Agency Task Forces make a difference? Without a 
doubt. They will have a positive impact. Joint Agency Task 
Forces not only increase our effectiveness in arresting 
criminals and seizing contraband, they increase the probability 
of gathering the necessary intelligence to support the men and 
women in the field.
    Can the Border Patrol be successful without actionable 
intelligence that is disseminated to the field agents? The 
answer is an emphatic no. We must take a proactive instead of a 
reactive approach to combating crime. Intelligence is the only 
way we will be able to predict when, where, and how persons or 
contraband will illegally enter our country.
    I appreciate this time to testify before you and look 
forward to answering any questions you have.
    Chairman KJohnson. Thank you, Agent Judd.
    Our final witness is Mr. Jeff Taylor. Mr. Taylor represents 
The Salvation Army public policy as an advisory board member. 
Mr. Taylor also serves as national speaker for The Salvation 
Army, most recently sharing the stage with President George W. 
Bush regarding child safety drug treatment. Mr. Taylor has 
struggled with drug addiction and will share his story with us 
today. Mr. Taylor.

  TESTIMONY OF JEFF TAYLOR,\1\ MEMBER, PUBLIC ADVISORY BOARD/
               PUBLIC POLICY, THE SALVATION ARMY

    Mr. Taylor. Thank you, Mr. Chairman, and Members of the 
Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Taylor appears in the Appendix on 
page 2029.
---------------------------------------------------------------------------
    As you just heard, my name is Jeff Taylor, and I will be 
presenting the many effects drug addiction has on our State. My 
personal experiences on what works and where to go from here.
    Briefly, I grew up in Phoenix and attended Central High 
School with Senator McCain's wife and also with Colonel 
Milstead who was on the panel earlier.
    My junior and senior year, I achieved a 4.0 grade point 
average (GPA) in advance placement (AP) classes. My senior 
year, I was selected as a first team all-State football player 
and all-city baseball player, and then attended the University 
of Arizona to play football and study finance.
    After college I was employed as a stock options trader for 
a prestigious Wall Street firm. And at the age of 29, I left 
the business at the absolutely peak of my career as one of the 
firm's top traders.
    I came from a good family, had a successful and meaningful 
work history, participated in varied philanthropic works, and 
had acquired much as symbols of financial and success. I mean, 
everything that we gauge in this country for success, I had.
    Four years after leaving the trading position, I was living 
on the streets of Phoenix. I had lost everything to addiction. 
It can happen to anyone. My story is not unusual.
    Early on in college I received a career-ending football 
injury and was prescribed a narcotic pain medication. My first 
experience with narcotics came from a doctor. Actually, I had 
one other really bad experience in high school with Boone's 
Farm Strawberry Hill. That was enough for me. But I was not a 
drinker. I did not smoke weed in high school. I was a normal, 
good kid.
    As a result of my addiction, I have been incarcerated many 
times in numerous county jails and State prison. This does not 
make me a bad person. It makes me an addict in need of help. We 
have a sheriff here that runs one of the toughest county jails 
in the country, Sheriff Joe Arpaio. As I have told him many 
times, he tries to make our facilities very tough that you do 
not want to go back. And we agree. We do not want people going 
back. But I have told him, that his jail is so tough, I have 
only been back six times. That is the power of addiction.
    Facing a 4 to 6 year prison term, a very wise judge 
diverted me to The Salvation Army drug treatment facility. It 
is 20 years later, and I am still very grateful for that. My 
drug treatment cost $6,000. My prison term would have cost 
$100,000, and statistics show I would likely be back.
    You have asked me to share what I have learned from my 
unique perspective. First of all, I agree wholeheartedly with 
Senator McCain. We cannot incarcerate our way out of addiction 
alone. Our State population has doubled. During the same 
timeframe our prison population in the State of Arizona has 
gone up 1196 percent. People are released with the same drug 
problem they were arrested with.
    And we prove this by our high rate of re-arrest. And what 
is worse when addicts are all placed together in a prison 
environment, they network and pick up new skills. While 
incarcerated, I learned how to manufacture crystal 
methamphetamine, a lot about identity theft, how to import and 
transport drugs and avoid canine detection, and was introduced 
to several high-ranking drug cartel members, all while on a 
prison yard.
    Arizona Department of Corrections just reported of the 
nearly 20,000 inmates we will release next year, 77 percent are 
in need of substance abuse treatment. I cannot emphasize the 
following statement enough: We do not have a prison expansion 
problem. We have a drug problem.
    You will never hear me complain about the time I served in 
jails and prisons. I was a danger to myself and others. Addicts 
understand consequences. But for me, there was a back door to 
that prison cell. I received what I needed, a transitional drug 
treatment program.
    That experience has led me to work with several legislators 
over the years to develop one of the most successful prison 
transition programs nationally. And if there is one sentence 
that I would like the panel to hear today, it is this: This 
program has reduced crime committed by those released from 
prison by 50 percent. This is not measuring in a month. This is 
measuring at 3 years and tracking over a thousand inmates.
    This program saves taxpayer money, a lot of money, and 
increases public safety. So let us work on the not-going-back 
part.
    As a result of the increased flow of drugs into Arizona and 
addiction rate soaring, our State Department of Child Safety 
(DCS) is under pressure from the wreckage caused by addictive 
parents. Our system is overburdened in the sheer numbers of 
child abuse and neglect cases, yet nearly 90 percent of DCS 
caseloads are addicted to drugs and/or alcohol, one or both 
parents.
    We do not have a child abuse and neglect problem. Again, we 
have a drug problem.
    I know this, because after graduating the drug treatment 
program, The Salvation Army sent me back to college to study 
early childhood development to design and administer the first 
nursery of its type: A State licensed childcare facility 
serving children of drug addicted parents.
    The program was very successful. Of the 27 women that were 
released pregnant, drug addicted from Sheriff Joe's jail, 96 
percent of these pregnant women delivered a drug-free baby. 
These mothers could receive residential drug treatment while 
their children were monitored and kept safe. Often child 
removal is absolutely necessary, but we must not throw away the 
parent who is addicted as they will have more kids that we can 
take away. We need to stop the cycle of addiction.
    As high schoolers we all remember going to parties, and 
there was always someone outside getting sick in the bushes 
after drinking too much. Teens overdo it. They always have. But 
if you overdo it with heroin, it kills.
    Currently opiate overdoses account for more teen deaths 
than auto accidents. The bigger question is: Why are our teens 
altering reality in such an extreme way? And then I was 
introduced to a very effective education and prevention program 
called ``Not My Kid.''
    The title really says it all. Most parents today are caught 
off guard by their children's drug use and are in desperate 
need to help navigate these difficult parenting challenges. Not 
My Kid understands that teens listen to teens, and that they 
have been extremely successful in areas of drug abuse, 
education, and prevention in our schools in a simple-to-
understand, right-and-wrong model. This program needs to be 
expanded and replicated in other States.
    My son thanks The Salvation Army and the criminal justice 
system for saving his dad's life. It took both working 
together. My son does not know his dad to be under the 
influence of drugs. He has never visited his father in prison. 
And he has never been in foster care. And now at 16, he is 
definitely not enjoying how involved his dad is in his life 
right now.
    I am very much enjoying my role as an involved parent just 
as God designed me to be. Thank you.
    Chairman Johnson. Thank you, Mr. Taylor, for sharing your 
story and for what you are doing.
    Can you just describe a little bit in greater detail the 
program that works so phenomenally well?
    Mr. Taylor. Mr. Chairman, Members of the Committee, we give 
a Band-Aid mainly to people that are suffering from addiction. 
In other words, if you are losing your children as a result of 
addiction, that means that you are far along in your addiction. 
Addiction progresses over time.
    So by the time that it is either go to prison or you have 
been to prison, is that we then send them to a 1-or 2-day 
class. What really works--and Salvation Army has been doing 
this for over 150 years. The Salvation Army started in the 
streets of London in 1865 to handle alcoholics on the streets 
of London.
    So we have learned a lot in those years. We feel that long-
term residential drug treatment is the most effective. You add 
the faith-based component to that. And we do not require that 
anyone believe, the Christian model. If you are a Jewish client 
of ours, then we will take you to a Jewish temple. If you are--
we even had a devil worshiper come through, and The Salvation 
Army officer stood up and said, ``We love devil worshipers.'' 
We can not dictate how people believe, but we can treat it as 
the health issue that it is. We get people healthy, their days 
into days, their nights into nights. We have good nutrition. 
They go to work every day.
    All of the trucks that you see driving around town that are 
Salvation Army trucks, they are in our drug treatment program. 
So they are earning that treatment bed. And incidentally, the 
model does not accept nor seek any government funding. It is 
self-supporting. It is a long-term residential treatment, 6 
months with transition.
    Chairman Johnson. Now, Jeff----
    Mr. Taylor. Only as good as your transition. Excuse me.
    Chairman Johnson. Jeff, is the program working in prisons?
    Mr. Taylor. The program that we have in the prison is 
actually not in the prison. Drug treatment in a prison 
environment is not nearly as effective as drug treatment out of 
the prison environment.
    So briefly, this program releases inmates 90 days early. It 
is only a 90-day early release, so there's no sentencing reform 
involved. And during those 90 days, that individual is in a 
highly monitored drug treatment program, but it is also case 
managed, meaning that that person is enrolled in parenting 
classes, safe housing, everything that you need when you get 
out.
    I have been released from our prison system with $42 in my 
pocket, homeless, and with a felony conviction. And now it is 
like: Now, do not go back. Of course, people are going to go 
back.
    So that program is called intensive outpatient and, quite 
frankly, it has been much more successful than I thought it 
would be.
    Chairman Johnson. I met with former prisoners in Wisconsin, 
too, and we make it almost impossible for them to succeed once 
they leave.
    While we are still talking about this subject, Senator 
McCain, Senator Flake, any questions for Mr. Taylor?
    Senator Flake. Thank you so much for your testimony. That 
was just riveting. Really was. You mentioned that you graduated 
college and then went off to work, but it was an old football 
injury that had you hooked.
    Were you prescribed oxycodone or something during that 
time, and it took years to develop an addiction, or you could 
not get that prescription anymore so you turned to illicit 
drugs? How did that transition?
    Mr. Taylor. I did not get addicted--Senator Flake, excuse 
me.
    I did not get addicted right away. At that time, I was a 
pre-med student. I was worried about getting behind in school, 
and then I took a narcotic pain medication that was prescribed, 
and all of a sudden, I did not worry. It is called having a 
false sense of well-being.
    And I did not get addicted in college. It is when I got out 
of college. But that part in my brain, that was the fix to high 
anxiety or things that I worry about. And then I became a stock 
options trader which, as we all know, is a highly stressful 
business.
    Most addicts are people that do not have an off switch. I 
just do not have an off switch. So what I had to learn in 
treatment is how to take that excessiveness and turn it in the 
right direction. For example, the other day I woke up, and I 
got on my bike and I rode to Prescott. That is a little 
healthier, though. It is downhill coming back, though.
    Chairman Johnson. Sure. Go ahead.
    Senator McCain. I would like to thank all of the witnesses.
    And thank you, Mr. Taylor, for that very compelling 
testimony. It gives us all a great deal of food for thought.
    I would like to recognize Agent Judd who I have had the 
honor of working with as we attempted to become more successful 
in stabilizing the compensation and retirement and other 
aspects of personnel for our Border Patrol agents, which, I 
think, Brandon Judd would agree was a real problem with both 
retention and recruitment.
    And without your leadership, Mr. Judd, we would not have 
done it. Without the active involvement of the Border Patrol 
agents that you are the president of, we would not have been 
able to achieve it.
    I would like to go back for a second to this issue of 
corruption that you and I were just talking about, because it 
is very concerning.
    If we have corruption within those who we place our trust 
and confidence, then I think it is pretty obvious the results 
of that. And you pointed out there have been several occasions 
where this corruption has been discovered. In fact, I seem to 
remember one case on our border that was really very serious a 
couple years ago.
    What is the extent of this corruption problem, and what do 
we need to do to fix it?
    Agent Judd. The corruption problem----
    Senator McCain. And, again, thank you for your leadership.
    Agent Judd. Senator, if it was not for this committee 
taking up that issue, we would have been in trouble. Period. 
You allowed us to have the manpower on the border to help us 
secure the border, so that was huge, and I greatly appreciate 
that.
    But talking about the corruption issue, we just had an 
agent assigned in Laredo, Texas, a couple weeks ago that was 
just arrested and indicted for murder inside the United States. 
And it is my understanding that we just had an agent here in 
Tucson Sector that was arrested for having 80 pounds of--I am 
sorry--80 kilograms of cocaine on his home by the Federal 
Bureau of Investigations (FBI).
    Corruption is a huge problem. And when you allow corruption 
within an agency that is tasked with stopping drugs and 
narcotics and smuggling of illegal aliens and especially 
persons from countries that we know would like to do harm to 
our country, it is a huge problem.
    I really believe, Senator McCain, that what we have to do 
is we have to listen to those agents. It is the agents that are 
going to report this corruption. That is what is going to 
happen. We have case after case after case where our agents 
have gone to their managers and said, ``Look, I know that this 
person is corrupt. I know it.''
    In fact, a couple years ago we had agents that went to 
managers and said, ``I know that this agent is corrupt.'' 
Management did nothing about it. Two years later that agent was 
arrested by the FBI for bringing in money for drug cartels.
    Who knows what that agent did in those 2 years and how much 
harm that agent caused the agency? We need to listen to our 
agents. We need to take what our agents----
    Senator McCain. Excuse me.
    As Commissioner Kerlikowske pointed out that they started 
finally an Internal Affairs branch. Is that something you think 
would be important?
    Agent Judd. It is. But, again, we are a long way from where 
we need to be. What we see in the government is we see the 
government just acts way too slow. So we might have started an 
Internal Affairs branch to combat corruption, but we probably 
will not see the results of it for several years.
    I mean, Secretary Jeh Johnson said this is a new 
organization. We have been around for over 10 years, and he 
says that it is going to take awhile until we get the morale 
up. And I have to say, again, that is what we see and that is 
the reality of the Federal Government. It is just way too slow 
in its reaction.
    Senator McCain. Why is there such a shortage on our border, 
Mariposa Port of Entry of 200 agents? What can we do about 
that?
    Agent Judd. You are going to have a very hard time 
recruiting people to areas that are less desirable areas. And 
let us be frank. You know about Ajo, Arizona.
    You know where Ajo is. Who's going to want to live in Ajo, 
Arizona? And so you have a hard time looking at retentions in 
Ajo, Arizona.
    Senator McCain. Is there such a thing as extra incentive?
    Agent Judd. There should be. And we have been pushing for 
that. We have been pushing for that to give that extra 
incentive to allow that.
    Senator McCain. We have military when somebody goes to a 
hardship region.
    Agent Judd. And we should have it in the Border Patrol. Why 
management is not taking it seriously, I do not know.
    Senator McCain. How about sending to the committee a 
recommendation?
    Agent Judd. I will be happy to do that again.
    Senator McCain. So we can try to address it legislatively.
    Agent Judd. I will be absolutely happy to do that.
    Senator McCain. I thank you for your leadership.
    Agent Judd. Thank you, sir.
    Senator McCain. Sheriff Dannels, just briefly, how is your 
coordination with the Border Patrol?
    Sheriff Dannels. We work very closely with them.
    Senator McCain. But you have a good relationship?
    Sheriff Dannels. Yes. We have a good relationship with the 
three PACs in our county to include one in Lordsburg and also 
the agents. We rely heavily on their support, especially in the 
rural parts to get to the situation where we can get there and 
neutralize it so we can investigate it from that point on. We 
do have a good relationship with the Border Patrol.
    Senator McCain. Thank you. Mr. Chairman, again, I hate to 
keep harping. I sound like hometown. But I have forgotten how 
many tens of millions of dollars to improve our Mariposa Port 
of Entry and, yet, we are not using it because we do not have 
the people. So maybe, Mr. Chairman, we could take up this in 
January this issue. Maybe an incentive kind of a pay or 
benefits or something to try to attract men and women. And as 
Brandon Judd just said, it does get pretty hot. Hotter than 
Milwaukee.
    Chairman Johnson. It gets hot. But ours is a humid hot, 
too.
    No. Listen, when you hear about the high levels of 
unemployment once the finest among us that, veterans coming 
back from Afghanistan and Iraq, and then to hear jobs are not 
being filled, it seems like it is a pretty common sense 
solution.
    Agent Judd, it is disturbing that you have talked about 
these documented cases that are not acted upon. We have had a 
number of hearings on retribution. Not only just within 
Department of Homeland Security, but across the Federal 
Government. Coming from the private sector, I just find it 
shocking how much retribution there really is against 
whistleblowers.
    Is that part of the problem why the agents do not continue 
to followup on their accusations? Have they experienced 
retribution? Do they fear it?
    Agent Judd. Yes. If you look at the most recent reports, 
especially about the Afghanistan and Pakistanis that were just 
arrested here in Arizona, and you talk about the Syrians that 
are giving up at the port of entry, all of these news outlets 
are saying from sources that do not want to be named.
    Well, there is a reason why they do not want to be named.
    If they are named, they know darn good and well that they 
are going to face repercussions from the agency. And it is 
known that this agency will take action against agents. We just 
had an agent, Chris Cabrera, who testified before your 
committee.
    Chairman Johnson. I was going to point out that agent.
    Agent Judd. And right after his testimony, Internal Affairs 
wanted to investigate him because he is telling you what is 
happening on the border. And I am sorry, Senator. I just had 
one of my local presidents was just proposed termination for 
absolutely--it's ridiculous what this proposed termination is 
for. So, yes, we have a lot of problems within our agency as 
far as them taking action when we come up and we give them 
commonsense approaches to effectuating law enforcement 
activities.
    Senator, you have heard me many times, although I am 
elected to be in the National Border Patrol Council, you know 
darn good and well that the National Border Patrol Council's--
our concern is border security. Always has been. Always will 
be.
    Chairman Johnson. It was interesting that that exact same 
instance of Chris Cabrera, we heard prior to our hearing that 
he was going to have an interview with Internal Affairs. And, 
of course, I will put the best structure on it. I was assuming 
that Internal Affairs was going to ask him about the disparity 
in his testimony that we were only apprehending 30 to 40 
percent. He probably wanted to get to the bottom of that. I 
raised that issue in the hearing, and the interview was 
canceled.
    Agent Judd. Yes, it was, and I appreciate that.
    Chairman Johnson. Which kind of tells me they were not 
going to talk about their concern about a lower apprehension 
rate and cooking the books basically in terms of information 
they were provided.
    Agent Judd. Yes.
    Chairman Johnson. Senator Flake.
    Senator Flake. Sure. Sheriff Dannels, you talked about the 
plan developed in 1990s that just do not apply today. Can you 
give us some examples of what changes there have been to 
smuggling routes and methods and strategies employed by the 
cartels?
    Back in the 1990s, the cartels really did not control what 
they do today in terms of the traffic across the border. I am 
assuming so. Can you give us some examples of what needs to be 
updated?
    Sheriff Dannels. Well, the plan in the 1990s, the latter 
part of that plan was to reroute that illegal activity, the 
disturbances into the rural parts of the southwest border with 
the thought that they would never do that because of the 
mountainous and the desert terrain, and they would not conquer 
that.
    Well, move forward, they did. They have conquered it. They 
like it. They like being in the mountainous area as the Border 
Patrol can tell you also. They like being out in the desert. So 
they have taken advantage of that, and the fact that now that 
the voice speaking on that are rural folks, ranchers, legacy 
ranchers, folks that have lived out there in these rural parts 
for a long time that have become numb to this byproduct of this 
plan. And their voice is so little, a minority voice out there, 
that it does not have a voice like El Paso or Yuma or, like, 
Maricopa where they can actually bring a noise to it, and 
solution is right away.
    So for 20 years they have been living this. And over these 
20 years the cartels have solidified their efforts, their 
smuggling efforts, and their criminal act in these rural parts 
of the southwest border, and this falls directly onto the 
sheriffs.
    We have ranchers that have had break-ins four and five 
times. We have a small community that's got 75 homes in it. And 
they have an average of 20, 25 burglaries a year in that 
community. This is break-ins to their own homes, their 
neighbors' homes. It's the illegals.
    It is not a fair way or no quality of life for anybody to 
live like that. But over time, we have forgotten the history of 
this plan and taking it at face value, this is where our border 
is. And we really need to take a deep look at where we have 
gone with this plan.
    And as Brandon Judd's talk, the agents on the ground know 
what is going on. You solve problems at the lowest level, 
working with your local sheriffs, working with your local 
police chiefs and agents that work in the rural parts. They can 
give you a lot of good answers, but you have got to get them to 
the table before you do that.
    Senator Flake. Ms. Mertz, what strategies do we have in 
terms of combating these cartels and the movement of drugs, 
human intelligence trying to infiltrate and getting 
intelligence there, signals of intelligence? Communications? 
Are we making full use of what we have, and as a privacy debate 
that is been going on in Washington, have an impact on our 
ability to infiltrate, know what is going on with cartels?
    Ms. Mertz. In answer to that question, yes, it does. As 
technology increases, we encounter encrypted phone-to-phone 
transmissions. We are having difficulty un-encrypting them. We 
can not do it. And as technology increases, our ability to 
conduct these long-term investigations and figure out what they 
are doing becomes more and more difficult.
    Senator Flake. Thank you.
    Chairman Johnson. Thank you, Senator Flake. We are rapidly 
running out of time. I did want to follow up just quickly on 
the 1990s plan.
    Senator McCain. Can I just ask the sheriff one question? 
What kind of intel sharing do you get in your work with the 
Federal Government?
    Sheriff Dannels. It is recently improved working with 
HIDTA, working with Dawn here, addressing our concerns. So we 
have more intel coming through.
    It all depends on the leadership. It truly does. Good 
leaders bring good intel.
    Senator McCain. Thanks.
    Sheriff Dannels. I truly see a big picture mission that 
partnerships are beyond paper. We all talk about, ``Hey, we 
have a partnership. We have this written on paper.'' A 
partnership come from people sitting down, having a face-to-
face discussion. So it has improved. Can it get better? Of 
course, it can.
    Senator McCain. Thank you.
    Chairman Johnson. I started my questioning with the 
Governor and the Commissioner really talking about what are the 
top three things, actions. OK. Cooperation, funding, got that. 
But to cooperate and fund what?
    I want to go to the 1990s plan. We did succeed in 
dramatically reducing flow of drugs and illegal trafficking in 
different sectors; correct?
    Can you just tell me, what did we do that worked? And, 
obviously, we have redirected now. They have cracked the code 
and figured out how to smuggle elsewhere. But talk about what 
worked to guide our activity in terms of what we need to do 
now.
    Sheriff Dannels. Chairman Johnson, I will start by saying 
it is got to have the will. Washington, D.C., has to have the 
will to change it. We can not settle on the fact that, hey, we 
have had successes in the three metro cities on the southwest 
border: El Paso, Yuma, and San Diego.
    And I use this analogy when I talk to groups and the fact 
that 20 years ago when you turned on one of the three major 
networks, and you would see a pursuit heading north from the 
border, whether it be a Border Patrol chasing a motor vehicle, 
a sheriff's office, and then you would see folks bailing out of 
the pickup. Ask yourself: When is the last time you saw that? 
Probably has not been much because the agency has been 
addressed with staffing, technology, attention all the way 
through intel sharing at a Federal level.
    You need to take successes and say, hey, this has worked in 
these metro areas, and we have done it. Take that because what 
you have done is taken that illegal, those violent cartels, and 
you have pretty much given up the rural parts of the southwest 
border to let them operate in that area to bring across 
special--like Brandon Judd was talking about this tunnel that I 
was involved with also with them. And that is a VIP tunnel. I 
testified before on that, where special products, special 
people came through that. That should scare the heck out of all 
of us in this room.
    And so we need to put a huge effort on redefining this plan 
of the 1990s and go back and see what history has taught us and 
take that forward.
    Chairman Johnson. Again, I want to talk about what we can 
do. So we need the will, commitment, no doubt about it. We need 
cooperation. We need funding to do what?
    What is it? Talk about technology. Now, is it fencing?
    Is it more manpower? I mean, what is it that we have to do?
    Sheriff Dannels. If I can answer that, Chairman Johnson, is 
one thing we do in our county that I think, all sheriffs and 
all police chiefs on the local level do different things to max 
their community needs, is to actually speak to a variety of 
chiefs and sheriffs and say what is working in your county on 
the southwest border?
    There is 24 of us sheriffs, for example, and each one is 
doing their own thing to make things work. We need to unify on 
that, first of all, and make sure that that voice is heard from 
the sheriffs and to our State partners and our Federal 
partners.
    The other aspect of this is, I use a balanced approach of 
education, prevention and enforcement. And each one has a 
certain element to address a certain population of your 
citizenry.
    No. 1 is if you look at 66 percent of what we do is 
education prevention, and you have that 33 percent for those 
that just will not comply that we have to have that enforcement 
consequence rule built into our laws.
    So how can I say this? You really need to listen to your 
locals. Because as you solve problems as in anything you are 
doing in life, you always go to the lowest levels. And that 
needs to start in our communities with our agents.
    Chairman Johnson. There are always different solutions to 
different parts. Again, very quickly, Ms. Mertz, Mr. Judd, Mr. 
Taylor, I know you want one final comment. Ms. Mertz.
    Ms. Mertz. I do think increasing our ability to use 
technology as far as the encrypted phone transmissions would 
assist us.
    I agree with what Sheriff Dannels said: Use the information 
from the sheriffs' departments, the police departments, and 
roll that up into a bigger investigation, and use the 
intelligence to ensure that you are targeting the correct 
people.
    And then the task forces can go after those people, and we 
can enforce our laws, also reducing the demand in our country 
for the illicit drugs.
    Chairman Johnson. Has there ever been a meeting of all the 
county sheriffs, by DHS to really find out what action plan we 
have to do? And you have to do it quick.
    Sheriff Dannels. Yes. And I can answer that question. I 
know the four border sheriffs in Arizona, we recently met and 
discussed issues. I know Southwest Border Sheriffs, the Western 
Sheriffs Association, National Sheriffs Association, we just 
had a conference in Sierra Vista, Arizona, where we brought us 
all together and talked about what we are talking about today.
    So we are trying to unify our thoughts and put that balance 
of what we are doing and how to make it best for the people we 
serve.
    Chairman Johnson. Maybe this committee can convene 
something like that. Keep that in mind. Mr. Judd.
    Agent Judd. I will keep it very short.
    We need to develop, increase, and expand our intel.
    We need to be able to predict when, where, and how illegal 
narcotics, persons are going to cross our border.
    And we need to put our uniform law enforcement officers and 
agents in a position where they can be successful. That is what 
we need.
    Chairman Johnson. Is that Homeland Security Investigations 
(HSI) within DHS? Is that separate----
    Agent Judd. It is actually----
    Chairman Johnson. FBI?
    Agent Judd. Well, FBI, HSI, Internal Affairs included.
    But these task forces are huge. When we shut down a task 
force because a task force is too successful we have to stop 
politicizing the issue. When we shut down a task force because 
the task force was extremely effective, which then shows that 
our ports of entry were not effective, that is just wrong.
    Chairman Johnson. Mr. Taylor, why don't you close it out.
    Mr. Taylor. And to Senator McCain's point on corruption, 
what I did not say in my statement today is I lived in Nogales. 
I lived right above the Mariposa exit and entry into this 
country and have been all up and down the border there.
    The major cartel members do not try to corrupt. They are 
amateurs that are trying to corrupt our government officials. 
They always get caught. Maybe they get caught now; maybe they 
get caught a year from now. But when they get caught, then that 
is going to bring all sorts of heat that the cartel members do 
not want brought into their area there. So it is much easier to 
throw a lot of product at the border, because they are very 
sophisticated in that. They know how much they throw at the 
border and how much is getting caught.
    So widespread corruption is highly publicized when one of 
our people are corrupt. But the corruption that is widespread 
is not on our side of the border.
    And then what we need to do is that drug addicts do not 
make great criminals. They get caught. We have got 20,000 that 
are getting out this year. That means 10,000 are going to be 
back in within 5 years. So when they get treatment, they do not 
go back.
    I do not buy drugs. It is pretty hard to do a drug-
motivated crime when you do not do drugs. It is pretty hard to 
get a driving while intoxicated (DWI) if I am not intoxicated.
    So we have put a lot of money in interdiction, and yet 
drugs have never been more available, more plentiful, more 
powerful, and cheaper than they are at this very moment. We 
have to work on the demand side, and it works. We are getting 
very good at it.
    Chairman Johnson. Again, Mr. Taylor, thank you.
    Thank all of our witnesses again for your service to your 
community, State, and nation, for your thoughtful testimony, 
your questions, and your answers to our questions.
    I want to thank Senator McCain, Senator Flake, and the 
State of Arizona, the Governor, for welcoming us here.
    This has really been a very good hearing. We have learned a 
lot, laid out more reality.
    With that, the hearing record will remain open for 15 days 
until December 8, 5 p.m., for the submissions of statements and 
questions for the record. This hearing is adjourned.
    [Whereupon, at 11:08 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
